<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-860]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-860
 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5822/S. 3615

  MAKING APPROPRIATIONS FOR MILITARY CONSTRUCTION, THE DEPARTMENT OF 
   VETERANS AFFAIRS, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2011, AND FOR OTHER PURPOSES

                               __________

                         Department of Defense
                     Department of Veterans Affairs

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
54-983                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

Subcommittee on Military Construction and Veterans Affairs, and Related 
                                Agencies

                  TIM JOHNSON, South Dakota, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
ROBERT C. BYRD, West Virginia        MITCH McCONNELL, Kentucky
PATTY MURRAY, Washington             SUSAN COLLINS, Maine
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
BEN NELSON, Nebraska                 THAD COCHRAN, Mississippi
MARK PRYOR, Arkansas                   (ex officio)

                           Professional Staff

                            Christina Evans
                             Chad Schulken
                          Andrew Vanlandingham
                       Dennis Balkham (Minority)
                         Ben Hammond (Minority)

                         Administrative Support

                              Rachel Meyer
                         Katie Batte (Minority)


                            C O N T E N T S

                              ----------                              

                        Tuesday, March 23, 2010

                                                                   Page

Department of Defense:
    Office of the Secretary......................................     1
    Department of the Navy.......................................    35

                        Thursday, April 15, 2010

Department of Veterans Affairs...................................    59

                        Tuesday, April 22, 2010

Department of Defense:
    Department of the Army.......................................   109
    Department of the Air Force..................................   135


   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Pryor, Hutchison, Collins, and 
Murkowski.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT F. HALE, UNDER SECRETARY OF 
            DEFENSE (COMPTROLLER)
ACCOMPANIED BY:
        DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF DEFENSE (INSTALLATIONS 
            AND ENVIRONMENT)
        DEREK MITCHELL, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR ASIAN 
            AND PACIFIC SECURITY AFFAIRS


                OPENING STATEMENT OF SENATOR TIM JOHNSON


    Senator Johnson. Good morning. This hearing will come to 
order. I welcome everyone to today's hearing to discuss the 
President's fiscal year 2011 budget request for military 
construction and family housing, as well as overseas 
contingency operations.
    We have two panels today. The first panel includes the DOD 
Comptroller, Mr. Bob Hale; Dr. Dorothy Robyn, Deputy Under 
Secretary for Installations and Environment; and Mr. Derek 
Mitchell, Principal Deputy Assistant Secretary for Asian and 
Pacific Security Affairs. Thank you all for coming.
    Our procedure is to have opening statements by the chairman 
and ranking member, followed by opening statements from our 
witnesses. I request that our members limit their questions to 
6-minute rounds.
    I apologize in advance to our witnesses, but I will have to 
leave in a few minutes for the White House for the bill signing 
of the healthcare legislation. I have asked my able ranking 
member, Senator Hutchison, to chair the hearing in my absence.
    The fiscal year 2011 Milcon request totals $18.75 billion, 
excluding overseas contingency funding. It addresses a number 
of major DOD policy initiatives, including the execution of the 
QDR recommendations, the completion of the 2005 BRAC round, the 
Marine Corps realignment to Guam, and the increased focus 
within the Department on renewable energy and energy security.
    On top of this, the budget also provides $1.8 billion in 
overseas contingency Milcon to support the war in Afghanistan. 
By any measure, this is a major undertaking. There are many 
moving pieces and many challenges to executing this request.
    I have a number of questions which I will submit for the 
record.
    Senator Hutchison, would you care to make an opening 
statement?


               STATEMENT OF SENATOR KAY BAILEY HUTCHISON


    Senator Hutchison. Yes, Mr. Chairman. I apologize. We had 
the TSA nominee in my other committee where I am also ranking 
member. So that is why I am late. But I do have an opening 
statement because I have some great concerns.
    First of all, I want to say that I am pleased that we are 
close to finishing the BRAC commitments that we have made, and 
one thing that our committee has been very firm about is that 
BRAC be fully funded so that we can meet the deadline of 2011. 
And in the main, it looks like we will meet that deadline. 
There will be some slippage I know, but I am pleased about 
that.
    The concerns that I have are in the global defense posture. 
It seems to me that Congress has passed the Overseas Basing 
Commission, and the beginning of that was being implemented 
where we had the commitment to bring home as many troops as 
possible back to the United States, particularly from Germany 
and Korea where the training capabilities and the facilities 
were better addressed in the United States.
    Overall, the Milcon budget had significant reductions in 
each of the last 2 years, but the request before us cuts 
funding but adds more in Europe. And that is my big concern. 
The Quadrennial Defense Review recommends retaining four 
brigade combat teams in Europe, rather than the current 
stationing plan to reduce the number to two. I have raised this 
issue with the Secretary of Defense and the Army Chief of Staff 
because I am concerned that it will disrupt the commitment to 
return our forces to the United States that was announced 
several years ago. Approximately 70,000 was the number. We can 
provide better training, better quality of life for them and 
stability for their families.
    I am also concerned that it will disrupt the extensive 
military construction already in progress to take those two 
brigade combat teams that were planned in the Overseas Basing 
Commission. The sooner that we can get our service men and 
women and into the new state-of-the-art facilities, the sooner 
we will live up to our commitments to provide for them in a way 
that we should as a Nation. Our troops can deploy to any region 
of the world from the United States just as easily as they can 
from Europe and in some cases more so.
    The concern that I have too is with the increase of the 
building in Germany in particular. I will have a question about 
how much of that burden is going to be shared with the host 
country. Germany has not been forthcoming in the past in 
sharing expenses and they have higher quality requirements 
which make military construction more costly. Not counting the 
construction requirements that are specifically related to 
Afghanistan, our specified overseas Milcon request is $2 
billion. That is huge. Now you see $513 million of that are for 
Germany. This includes $186 million for Wiesbaden Army Base, 
four new barracks at Grafenwoehr for $75 million, a training 
facility. Those are just examples. As our services consolidated 
our forces in fewer facilities to save O&M costs, we have to 
build some facilities, but I am concerned about the amount that 
I am seeing and I want to know what is the sharing that is 
going to be anticipated.
    In addition, you have got in the budget $439 million for 
school construction, much of it overseas. I understand the 
overall plan calls for replacing or renovating 109 schools over 
5 years at a cost of over $4 billion. While I recognize that we 
have an obligation to provide quality schools for the children 
of our military personnel serving overseas, I am concerned that 
these requirements are not consistent with our future force 
requirements and posture. So I would like to have a little more 
specificity about those schools.
    And then there is the Guam relocation. We know that there 
is now a plan to relocate 8,000 marines from Okinawa to Guam to 
establish a joint base in Guam, and yet we are now seeing from 
the Environmental Protection Agency, as well as the Government 
of Guam, that they do not believe that their infrastructure 
will in any way be able to accommodate this kind of influx of 
the requirements for the building of this marine base in Guam. 
And there is even an EPA statement that says it is not ready 
and should not be done.
    And then you have got the relocation of the Guantanamo Bay 
detainees. The Department of Defense is requesting $350 million 
in the 2011 defense bill for an overseas contingency operations 
transfer fund to renovate the prison in Thompson, Illinois for 
the relocation of Guantanamo Bay detainees. All of this funding 
is included within the administration's defense bill request, 
but as I understand it, $150 million will go toward military 
construction to renovate the portion of the prison that would 
house the detainees. I am going to ask you to speak to this 
issue, Mr. Hale, because I will be interested to know why the 
military construction funds are not in the military 
construction request.
    I am concerned about this plan in general. We have an 
excellent facility in Guantanamo to house these detainees that 
was constructed at great expense. So I question the basis of 
this.
    So there are a lot of questions I have today, and these are 
just to highlight some of the issues. It may be that I am going 
to request more meetings on this, particularly in regards to 
building more facilities in Korea and Germany, which is exactly 
the opposite of what Congress passed a law to reduce rather 
than add, and at a time when NATO is not fulfilling its full 
responsibilities in the wars in Afghanistan and Iraq, which are 
wars against terrorist activities that affect all of the NATO 
countries--so I think there are some major issues here that are 
going to take more than maybe even one hearing. And I am very, 
very concerned, as I have stated.
    So thank you, Mr. Chairman, for holding the hearing, and I 
look forward to questioning the witnesses.
    Senator Johnson. Thank you, Senator Hutchison.
    Secretary Hale, Dr. Robyn, Mr. Mitchell, thank you again 
for appearing before our panel today and thank you all for all 
that you do on behalf of our Nation's military troops and their 
families.
    Your prepared statements will be placed in the record. So I 
ask you to summarize your remarks to allow adequate time for 
questions.
    Senator Hutchison, I will now turn the gavel over to you, 
and I thank you for chairing this hearing in my absence.
    Senator Hutchison [presiding]. Thank you, Mr. Chairman.
    Did you ask other members to make opening statements or did 
we----
    Senator Johnson. It is your option to ask other members.
    Senator Hutchison. Does anyone want to? Okay. Then I think 
we should go directly to questions.
    Since I have made an opening statement, I will ask my 
colleagues to go first on questions, after which I will have 
several questions.
    Senator Johnson. Their testimony should be first.
    Senator Hutchison. Oh, I am so sorry.
    Mr. Hale. I will keep it short.
    Senator Hutchison. Mr. Hale, why do you not go first? Thank 
you very much.


                SUMMARY STATEMENT OF HON. ROBERT F. HALE


    Mr. Hale. Thank you. Members of the subcommittee, thank you 
for the opportunity to discuss the military construction 
portion of the fiscal year 2011 budget.
    First off, let me say on behalf of all of us in DOD, I want 
to thank you for your support for the men and women in the 
armed forces. We could not accomplish our mission without your 
assistance, and it is appreciated.
    I submitted a statement for the record. Let me summarize it 
briefly.
    For 2011, the President's base budget asks for $549 billion 
in discretionary budget authority, about a 1.8 percent increase 
after adjustment for inflation. Over the next 5 years, the 
growth average is 1 percent a year.
    The budget contains some vital reforms that I will mention 
in a minute, and it builds on the conclusions of the 
Quadrennial Defense Review.
    The budget furthers the Secretary's three overarching 
goals. First, it reaffirms our commitment to take care of the 
all-volunteer force, which is our highest priority.
    Second, it continues to rebalance this force to focus on 
today's wars, while continuing to provide basic capability for 
the future.
    And third, our request reforms how and what we buy by 
overhauling procurement, acquisition, and contracting, and 
includes termination of seven programs that are performing 
poorly or are no longer needed, including the C-17 and the 
alternate engine for the Joint Strike Fighter.
    For military construction and family housing, our request 
is $18.7 billion. That is about 20 percent less than 2010, but 
the reduction is due to a $5.2 billion decrease in funding for 
base realignment and closure, BRAC. As you know, 2011 is the 
final year of implementation, and most of the major capital 
investments have occurred. If you exclude BRAC and family 
housing, our Milcon request is actually $1.1 billion, or 8.4 
percent higher than in 2010, which is one of the fastest 
growing accounts in our budget. The request supports facilities 
for the new Army Modular Force units, the relocation of marines 
from Okinawa to Guam, and the recapitalization of DOD schools.
    Our family housing request is $1.8 billion, which is 19 
percent, or $436 million less than last year, but we believe we 
have met all of our high priority requirements. Congress added 
$300 million to the DOD budget for the expanded homeowners 
assistance program in 2010. The omission of those funds in the 
2011 request accounts for most of the decline in that area of 
the budget.
    In addition to the base budget, our 2011 budget request 
includes $159.3 billion for overseas contingency operations, 
and that includes $1.3 billion for military construction for 
Afghanistan. Additionally, we are requesting for $33 billion 
for a supplemental in 2010 to cover the cost of deploying an 
additional 30,000 troops the President has ordered to 
Afghanistan. That includes half a billion for military 
construction in Afghanistan.
    Last, I will briefly mention the $7.4 billion the 
Department received last year under the American Recovery and 
Reinvestment Act, better known as the stimulus bill, which is 
allowing us to execute 4,400 projects, including a number of 
major military construction projects. As of February 17, 2010, 
the first anniversary of the stimulus bill, we had obligated 
about 60 percent of the funds received.
    Mr. Chairman, we believe that the 2011 budget request is 
the right one for our time. It asks for the minimum resources 
we need to meet our critical national security objectives, and 
it includes what I believe is a strong military construction 
program. I urge your support.
    Again, I want to thank you for your support for the men and 
women in the military.


                           PREPARED STATEMENT


    Dr. Robyn has a statement. Mr. Mitchell is here to help us 
answer questions on Guam, so he does not have a statement. So 
after Dr. Robyn finishes, we will be glad to turn to questions.
    [The statement follows:]

               Prepared Statement of Hon. Robert F. Hale

    Mr. Chairman, members of the committee, thank you for the 
opportunity to discuss the Military Construction portion of the fiscal 
year 2011 budget request for the Department of Defense.
    On behalf of all of us at DOD, I want to express our gratitude to 
the Congress for continued support of America's Armed Forces. Thanks to 
you, they have the resources to carry out their missions and to ensure 
the security of the United States.
    To set the stage this morning, I would like to provide a brief 
overview of our proposed budget and the amount we are asking for 
Military Construction. Dr. Robyn, Deputy Under Secretary for 
Installations and Environment, will follow with details on our Military 
Construction proposals.

                              BASE BUDGET

    Mr. Chairman, the President's base budget for fiscal year 2011 
requests $549 billion in discretionary authority. That is an increase 
of more than $18 billion or 3.4 percent over the enacted level in 
fiscal year 2010. Taking inflation into account, the real growth in 
this request is 1.8 percent. Over the 5 years from fiscal year 2010 
through fiscal year 2015, real growth averages 1.0 percent per year.
    This growth reflects the Administration's commitment to the modest 
real growth necessary to equip and sustain a military at war. Before 
making this proposal, the President carefully considered and balanced 
our national security needs with our economic security, taking into 
account the deficit.
    The base budget continues the vital reforms that were introduced in 
the present fiscal year, including our commitment to allocate defense 
dollars more wisely and to reform DOD's processes. It also builds on 
the conclusions of the 2010 Quadrennial Defense Review, which 
established strategic priorities and identified key areas for needed 
investment.
    In the process, the fiscal year 2011 budget reinforces and supports 
the three major institutional priorities laid down by Secretary Gates 
for the Department:
  --First, it reaffirms our commitment to take care of the all-
        volunteer force, which the Secretary considers our greatest 
        strategic asset.
  --Second, the proposed budget continues to rebalance the Department's 
        programs to prevail in current conflicts by continuing 
        increases in Special Operations forces, providing more rotary-
        wing capability, and increasing intelligence, surveillance and 
        reconnaissance.
    Rebalancing also means maintaining and enhancing capabilities for 
        future conflicts by--among other things--providing funds for 
        continued development of the Joint Strike Fighter and 
        procurement of 42 aircraft, development of a new aerial 
        refueling tanker, buying 10 new ships, improvements in Army 
        ground forces, missile defense enhancements, and a new U.S. 
        Cyber Command.
  --And third, the fiscal year 2011 budget request reforms how and what 
        we buy, by promoting a fundamental overhaul of our approach to 
        procurement, acquisition, and contracting.
    Specifically, this budget proposes to end seven programs that are 
either performing poorly or are no longer needed, including the C-17 
aircraft and the JSF alternate engine. The budget also continues our 
commitments to reform acquisition processes, increase efficiency 
through selective in-sourcing of work now performed by contractors, and 
slow the growth in healthcare costs while continuing to provide high-
quality healthcare services.

                MILITARY CONSTRUCTION AND FAMILY HOUSING

    The Military Construction and Family Housing portion of this 
request supports these three budget objectives. We are asking for $18.7 
billion for Military Construction and Family Housing, a reduction of 
almost 20 percent compared with the enacted level in fiscal year 2010.
    This change is largely due to a $5.2 billion decrease in funding 
for Base Realignment and Closure (BRAC). By law, fiscal year 2011 is 
the final year to implement BRAC, and as a result, most major capital 
investments have already been made.
    Excluding BRAC and Family Housing, the fiscal year 2011 Milcon 
request is actually $1.1 billion higher than the fiscal year 2010 
enacted amount, an increase of about 8.4 percent. This increase is 
associated with facilities in support of new Army Modular Force units, 
the relocation of 8,000 marines from Okinawa to Guam, and 
recapitalization of schools under the DOD Education Activity (DODEA).
    The total fiscal year 2011 budget request for Family Housing is 
$1.8 billion, which is about 19 percent or $436 million less than the 
fiscal year 2010 enacted amount. Included are funds for new housing, 
improvements to existing housing units, operation and maintenance of 
government-owned housing, leasing, the Military Housing Privatization 
Initiative (MHPI) program, and the Homeowners Assistance Program (HAP).
    HAP assists military and civilian personnel who were adversely 
affected by the downturn in the housing market and who are also facing 
a necessary move. In fiscal year 2010 Congress added $300 million to 
the DOD budget to fund HAP expansion, and its omission in fiscal year 
2011 accounts for most of the decrease in the Family Housing budget for 
next year.

                    OVERSEAS CONTINGENCY OPERATIONS

    In addition to the base budget, our fiscal year 2011 request seeks 
funds to support overseas contingency operations (OCO), largely in 
Afghanistan and Iraq. We have also requested supplemental 
appropriations of $33 billion in fiscal year 2010 to cover the costs of 
the additional 30,000 troops that President Obama ordered deployed to 
Afghanistan. We are hopeful that Congress will approve that request by 
spring.
    Our fiscal year 2011 OCO request is $159.3 billion. This request 
provides our troops with what they need to carry out their mission. It 
also supports a responsible drawdown of U.S. forces in Iraq and a 
stronger force in Afghanistan.
    The proposed OCO budget for fiscal year 2011 includes $1.2 billion 
for Military Construction. The requested amount will be spent in 
Afghanistan. Given the limited pre-existing infrastructure for our 
troops in that country, it is necessary to construct facilities to 
sustain, protect, and house them. Accordingly, this request includes 
operational facilities, such as runways and parking aprons, as well as 
associated support facilities, such as utilities, roads, housing, 
environmental projects, and dining facilities.

                 AMERICAN RECOVERY AND REINVESTMENT ACT

    Little more than a year ago, the Department received $7.4 billion 
in Defense-related funding under the American Recovery and Reinvestment 
Act (ARRA). That amount included nearly $4.3 billion for the 
sustainment and restoration and modernization of facilities, $2.2 
billion for military construction, $0.1 billion for the Energy 
Conservation Investment Program (ECIP), $0.3 billion for Research, 
Development, Test, and Evaluation (RDT&E), and nearly $0.6 billion for 
the Homeowners Assistance Program.
    Through this funding we will be able to execute over 4,400 projects 
in the 50 States, the District of Columbia, Guam, and Puerto Rico. 
These projects will improve the facilities where our military and 
civilian personnel work and live, enhance energy efficiency in the 
recapitalization and construction of facilities, and generate needed 
jobs to help stimulate the Nation's economy.
    As of February 17, 2010--the first anniversary of the Recovery 
Act--the Department had obligated approximately $4.2 billion (more than 
57 percent) of the funds received for more than 3,700 projects. These 
projects will not only stimulate the economy; they will also improve 
the quality of life of our Service Members and their families. 
Additionally, through the funds made available for the Housing 
Assistance Program, the Department has already been able to pay more 
than 600 claims to assist military and civilian personnel and expects 
to pay many more.
    In military construction, 97 of 117 projects have been awarded. The 
remaining 20 projects involve $1.7 billion of unobligated funds, 
including $1.2 billion for two hospitals that are scheduled for award 
near the end of the fiscal year--one at Camp Pendleton, California, and 
the other at Fort Hood, Texas.

                               CONCLUSION

    I believe that the fiscal year 2011 budget request represents a 
prudent request that asks for the minimum resources we need to meet our 
critical national security objectives. Our budget supports a strong 
Military Construction program. I urge your support for DOD's fiscal 
year 2011 budget request.
    Lastly, Mr. Chairman, I want to thank you and the members of the 
committee once again for your strong support of the men and women of 
the Department of Defense. We are very grateful.

                 SUMMARY STATEMENT OF DR. DOROTHY ROBYN

    Dr. Robyn. Thank you. Thank you, Ranking Member Hutchison, 
Senator Collins.
    Let me use my brief time to address two of the issues that 
you raised, Senator Hutchison, in your opening statement: Guam 
and BRAC.
    First, Guam. And Derek Mitchell can provide even more 
refined answers than I can. But let me say that I have been 
deeply involved in the Department's efforts to move 8,000 
marines and their families from Okinawa to Guam. Like any 
international effort this large and complex, the buildup on 
Guam faces an array of challenges, but no single realignment 
has a higher profile within the Department. The Deputy 
Secretary, Bill Lynn, is personally overseeing the effort.
    Our fiscal year 2011 budget request includes $452 million 
for military construction on Guam. These projects will yield 
long-term benefits for all the military forces on Guam. They 
will also demonstrate the Department's commitment to working 
with the Governor of Guam whose strong support for the buildup 
has been absolutely critical to our effort.
    I appreciate the support that the subcommittee has given us 
in the past, and look forward to working with you.
    Let me just say with respect to the EPA evaluation of the 
draft environmental impact statement, it is true that Guam's 
infrastructure now cannot support a buildup that we anticipate, 
but we knew that all along and the Federal Government is 
committed to working with Guam--the Federal Government as a 
whole, the civilian agencies, as well as DOD, to working with 
Guam to improve and expand its infrastructure to support the 
buildup. And we believe and I think the Governor believes that 
this will be a win-win, good for Guam and good for the U.S. 
military.
    Second, let me say a little bit about the implementation of 
BRAC. My office oversaw the process that resulted in the 
recommendations that went to the BRAC commission, and we 
oversee the implementation of BRAC as it is carried out by the 
services. Senator, you said that there would be some slippage. 
I hope there will not be slippage. We have 220 actions; 28 of 
them are completed. We are on a very tight timeline. Thirty of 
the 222 actions have at least one construction project that 
completes within 90 days of the deadline, September 5, 2011. 
And of those, six are of particular concern, but we hope that 
they all come in on schedule.
    Last week, my staff and I briefed your staff on the status 
of those six most challenging actions. We are working closely 
with the services on those, and we pledge to keep your staff 
regularly informed on the status of those. So we are committed 
to bringing those in on time. The Department has never missed a 
BRAC deadline in four rounds, and I do not want to break that 
perfect record.

                           PREPARED STATEMENT

    Let me also, with respect to BRAC, just highlight the 
success of joint basing, which was one component of BRAC 2005. 
When this BRAC round started, there were those who were deeply 
opposed to joint basing. However, it received senior attention 
and support from you all, and we have moved forward 
successfully. I am pleased to say we are no longer 
``implementing'' joint basing. We are now ``operating'' joint 
bases.
    With that, let me conclude, and I look forward to taking 
your questions.
    [The statement follows:]

                Prepared Statement of Dr. Dorothy Robyn

    Chairman Johnson, Senator Hutchison, and distinguished members of 
the subcommittee: Thank you for the opportunity to present the 
President's fiscal year 2011 budget request for the Department of 
Defense programs that support our installations.
    Installations are the military's infrastructure backbone--the 
platform from which our soldiers, sailors, airmen, and marines 
accomplish their missions. Installations have long supported the 
maintenance and deployment of weapons systems and the training and 
mobilization of combat forces. Increasingly, they have an even more 
direct link to combat operations, by providing ``reachback'' support. 
For example, we operate Predator drones in Afghanistan from a facility 
in Nevada and analyze battlefield intelligence at data centers in the 
United States. Our installations are also becoming more important as a 
staging platform for homeland defense missions.
    Installations affect not just our mission effectiveness but the 
very quality of life that our service members and their families enjoy. 
Families' satisfaction with the most critical services they receive--
housing, healthcare, childcare, on-base education--is linked to the 
quality and condition of our buildings and facilities.
    The Department must manage its installations--the natural as well 
as the built environment--efficiently and effectively. This is a major 
challenge. The Department's 507 permanent installations comprise more 
than 300,000 buildings and 200,000 other structures--everything from 
bridges to flagpoles--and have an estimated replacement value of more 
than $800 billion. These installations are located on some 5,000 sites 
and occupy 28 million acres of land here in the United States and 
overseas. These lands are home to archaeological and sacred sites, old-
growth forests and more than 300 threatened and endangered species.
    Today, I will focus on the key elements of the budget that support 
our installations: Military Construction, including Overseas 
Contingency Operations and International Basing; Base Realignment and 
Closure; and Family Housing. I will also discuss our Facilities 
Sustainment, Restoration and Modernization programs. Finally, I will 
describe our strategy for improved management of energy at our 
installations.

             MILITARY CONSTRUCTION, BRAC AND FAMILY HOUSING

    The fiscal year 2011 Military Construction (Milcon) and Family 
Housing appropriations request totals more than $18.7 billion, a 
decrease of approximately $4.6 billion from the fiscal year 2010 
enacted level. This decrease primarily reflects the decline in the 
level of investment needed for BRAC 2005 as we approach the statutory 
deadline for completion (September 2011). This budget request will 
allow the Department to respond rapidly to warfighter requirements, 
enhance mission readiness and provide essential services for its 
personnel and their families.

         COMPARISON OF MILITARY CONSTRUCTION AND FAMILY HOUSING
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Military Construction...................        12,545.8        13,705.7
Base Realignment and Closure IV.........           496.7           360.5
Base Realignment and Closure 2005.......         7,455.5         2,354.3
Family Housing Construction/Improvements           488.8           356.8
Family Housing Operations & Maintenance.         1,444.1         1,448.7
Chemical Demilitarization...............           151.5           125.0
Family Housing Improvement Fund.........             2.6             1.1
Energy Conservation Investment Program..           174.2           120.0
NATO Security Investment Program........           197.4           258.9
Homeowners Assistance Program...........           323.2            16.5
                                         -------------------------------
      TOTAL.............................        23,279.8        18,747.5
------------------------------------------------------------------------

                         MILITARY CONSTRUCTION

    Our request for ``pure'' military construction (i.e., exclusive of 
BRAC and Family Housing) is $13.7 billion. This is a $1.2 billion 
increase over last year's enacted level ($12.5 billion). Let me 
highlight three areas where we focus our fiscal year 2011 Milcon budget 
request.
    First and most important, the budget request supports operational 
mission requirements. Milcon is key to initiatives such as Grow the 
Force and Global Defense Posture realignment, which require the 
synchronized movement of troops and equipment, as well as to the 
fielding of modernized and transformational weapon systems. Our budget 
request includes training and support facilities to accommodate the 
increases in the Army and Marine Corps endstrength; initial funding for 
the new and improved infrastructure needed to relocate 8,000 marines 
and their dependents from Okinawa to Guam; support for the bed down of 
the Joint Strike Fighter; improved and expanded communications and 
intelligence capabilities for Special Operations Forces; and fuel 
distribution facilities for the Defense Logistics Agency.
    Second, the President's budget request initiates a major 
recapitalization of our DOD-dependent schools here in the United States 
and overseas. Fully 134 of the 192 DOD-dependent schools are in poor or 
failing physical condition--the result of longstanding underinvestment 
by the Department. Many of these schools have simply lasted beyond 
their expected service life. Others are improperly configured, lacking 
in essential capabilities, or reliant on temporary structures. The 
fiscal year 2011 budget request includes $439 million to repair or 
replace 10 of these schools. This represents the first phase of a 5-
year plan to recapitalize all 134 inadequate schools.
    Third, the fiscal year 2011 budget request includes more than $1 
billion to upgrade our medical infrastructure. By modernizing our 
hospitals and related facilities, we can improve healthcare delivery 
for our service members and their families, and enhance our efforts to 
recruit and retain personnel. The fiscal year 2011 request provides 
funds for our top two priorities: the replacement of the Naval Hospital 
in Guam and the Ambulatory Care Center at Lackland Air Force Base, 
Texas. It also allows us to continue improving the chemical/biological 
defense facilities that are conducting such vital work.

                    OVERSEAS CONTINGENCY OPERATIONS

    Military construction serves as a key enabler in Overseas 
Contingency Operations (OCO), by providing the facilities that directly 
support military activity. Our fiscal year 2011 budget request includes 
$1.3 billion for Milcon necessary to support the new strategy for 
counterinsurgency and increased force levels for ongoing OCO in the 
U.S. Central Command's area of responsibility. Specifically, our fiscal 
year 2011 budget request expands the logistical and facilities backbone 
needed to increase our operational capability, replaces expeditionary 
facilities at the end of their lifecycle, consolidates functions and 
facilities, and supports Special Operations Forces. These additional 
operational facilities will provide support for tactical airlift; 
airborne intelligence, surveillance and reconnaissance; and additional 
fuel, storage, and cargo handling and distribution capability at 
critical locations. The request also provides for replacement of 
temporary housing, dining facilities and other basic infrastructure.

                          INTERNATIONAL BASING

    To project power globally, the Department must have the right mix 
of military forces and facility infrastructure at strategic locations. 
We are undergoing a global re-stationing, both to strengthen our 
forward military presence and to transform overseas legacy forces, cold 
war basing structures and host-nation relationships into a flexible 
network of capabilities to which we and our allies and partners have 
shared access.
    My office works closely with the Joint Staff and other Defense 
organizations to ensure that our overseas base structure supports the 
needed range of strategic missions across all theaters. While our work 
on overseas basing has traditionally focused primarily on the cost and 
engineering aspects of military construction and sustainment/
recapitalization, we have recently taken on a broader role in support 
of emerging global posture initiatives: Increasingly, we provide 
analytic input to strategic discussions, by evaluating existing 
infrastructure capacity relative to emerging mission requirements.
    Our goal is to ensure that decisions reflect joint planning and 
rigorous analysis that integrates requirements across all of the 
Services. Current focus areas include: providing guidance and 
monitoring in support of the Army's consolidation of command and 
control activities in Weisbaden, Germany; analysis and evaluation of 
options for full recapitalization of the Landstuhl Regional Medical 
Center in Germany; and analysis and support for efforts to relocate 
more than 8,000 marines and their dependents from Okinawa to Guam.
Rebasing Marines From Okinawa to Guam
    The realignment of marines from Okinawa to Guam, which is perhaps 
the most significant change in our force posture in Asia in decades, 
will further several strategic goals. First, it will strengthen our 
alliance with Japan by resolving long-standing problems with our 
presence in Okinawa. Second, it will ensure the continued long-term 
presence of U.S. forces in Japan and in the Western Pacific. Third, by 
making better use of Guam's strategic advantages, this realignment will 
more effectively array U.S. forces for the complex and evolving 
security environment in Asia.
    The political situation in Japan remains extremely delicate and the 
stakes are high. The U.S. Government is unlikely to get another 
opportunity to craft a strategic realignment that not only enhances our 
regional force posture but also incorporates more than $6 billion of 
Japanese financing. The Government of Japan has undergone a transition 
with the creation of the Democratic Party of Japan (DPJ)-led government 
in September 2009. The DPJ leadership, working with coalition partners, 
has initiated a process to review the Realignment Roadmap before 
endorsing the agreement in full, which is expected to happen in May 
2010. The U.S. Government remains committed to successful 
implementation of the Realignment Roadmap because it provides a needed 
solution to critical strategic challenges to the long-term presence of 
U.S. military capabilities in Japan and the Asia-Pacific region.
    The fiscal year 2011 President's Budget request includes $452 
million to support the relocation of marines from Okinawa to Guam. This 
includes projects to upgrade the wharf, provide utilities, ramp and 
roadway improvements, and carry out site preparation and utilities 
construction for the Marines' main cantonment area. These projects will 
yield long-term benefits for all the military forces on Guam. They will 
also demonstrate the Department's commitment to working with the 
Governor of Guam, whose strong support for the relocation can have a 
significant impact on Guam's population.
    In support of the relocation, the Department released the Draft 
Environmental Impact Statement (DEIS) on November 20, 2009, for public 
review. In addition to the analysis for rebasing of the Marines, the 
DEIS also includes analysis for construction of a new deep-draft wharf 
with shore-side infrastructure to support a transient nuclear-powered 
aircraft carrier, and facilities and infrastructure to support 
establishment and operation of an Army Missile Defense Task Force. The 
public comment period for the DEIS ended February 17, 2010. The 
Department is working with the Council on Environmental Quality, the 
Environmental Protection Agency and other resource agencies to address 
the concerns that were raised by the Federal agencies and the public.
    To address challenges regarding the realignment and to provide the 
appropriate oversight, the Department last year established the Guam 
Oversight Council (GOC), chaired by the Deputy Secretary of Defense. 
The GOC meets regularly to validate requirements, identify and resolve 
issues, provide resource guidance and clarify governance structures. 
Initial challenges taken up by the GOC include the aggressive timeline 
for completion of the realignment of marines from Okinawa to Guam; 
safety of the Futenma Replacement Facility in Okinawa; adequacy of 
training in the Pacific; strategic, operational, and logistic 
implications of posture changes in the Pacific; and successful 
partnership with the Government of Guam.

                      BASE REALIGNMENT AND CLOSURE

    Domestic basing is no less important than international basing, and 
we rely heavily on the Base Realignment and Closure (BRAC) process to 
adapt and improve that basing structure. We are entering our sixth and 
final year of implementation of BRAC 2005, the largest BRAC round 
undertaken by the Department. BRAC 2005 has been a significant engine 
for the recapitalization of our enduring military facilities. By the 
end date (September 15, 2011), the Department will have invested $24.7 
billion in military construction to enhance capabilities and another 
$10.4 billion to move personnel and equipment, outfit facilities, and 
carry out environmental clean-up. These investments will generate 
nearly $4 billion in annual savings beginning in fiscal year 2012. The 
DOD components have implemented BRAC 2005 conscientiously and 
transparently, according to a well-defined process. The Department 
continues to monitor the process closely to ensure that we are meeting 
our legal obligations. To date, 28 BRAC 2005 recommendations have been 
certified as completed.
    The fiscal year 2011 President's Budget includes $2.4 billion for 
BRAC 2005, which fully funds the investments needed to complete 
implementation. This represents a $5.1 billion decrease from the fiscal 
year 2010 enacted level for BRAC 2005. The reduction in funding is due 
primarily to a decrease in construction projects as we near the 
September 2011 completion date. To support continued property disposal 
actions at Prior-BRAC round sites, the fiscal year 2011 budget request 
includes $360.5 million, a decrease of $136 million from the fiscal 
year 2010 enacted level.
    Environmental cleanup at BRAC locations is essential in putting 
unneeded property back in the hands of local communities. The total 
BRAC environmental budget request for fiscal year 2011 is $445 million 
($108 million for BRAC 2005 sites and $337 million for Prior-BRAC round 
sites). These funds will help us continue to meet stakeholder 
expectations and complete cleanup at an additional 154 sites impacted 
by BRAC decisions. Although this request represents a decrease of $109 
million over the fiscal year 2010 request, the reasons for the drop are 
positive. Specifically, the decrease is due to (a) contract 
efficiencies, such as those achieved through performance-based 
acquisition and competitive bidding, and (b) bid cost savings--a silver 
lining in the economic downturn. In addition, as the Military 
Departments have refined their characterization of munitions sites, 
they have found that fewer acres will require cleanup, which has 
lowered projected costs.

           COMPARISON OF BASE REALIGNMENT AND CLOSURE FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Base Realignment and Closure IV.........           496.7           360.5
Base Realignment and Closure 2005.......         7,455.5         2,354.3
                                         -------------------------------
      TOTAL.............................         7,952.2         2,714.8
------------------------------------------------------------------------

    Despite our progress and the significant investment we have made, 
the Department has been perceived as ignoring the impacts of its 
actions, particularly in some communities that are experiencing 
significant growth as a result of BRAC 2005 consolidation. One area 
where growth can have an adverse impact is local transportation. 
Transportation impacts have been and will continue to be mitigated 
through the application of our authority and funding under the Defense 
Access Road (DAR) program. The criteria used to determine whether a 
project qualifies under DAR are limited, however. In particular, they 
may not adequately address the scenario in which a defense action 
causes a significant increase in traffic congestion, as may occur in 
one or more cases as a result of BRAC 2005 consolidation.
    To address this and related issues, the National Academy of 
Sciences is undertaking a BRAC Transportation Improvements Study as 
required by the fiscal year 2010 Military Construction and Veterans 
Affairs and Related Agencies Consolidated Appropriations. A blue-ribbon 
panel named by the National Academy's Transportation Research Board 
will evaluate the DAR criteria and assess the funding of transportation 
improvements associated with the BRAC 2005 program. We hope to receive 
an interim report in May of this year.
    One of the most important initiatives with a basis in BRAC 2005 is 
the consolidation and realignment of medical care delivery in the 
National Capitol Region (NCR), with its focus on transforming medical 
care through a joint delivery system. As I recently testified, this 
extraordinarily complex undertaking will deliver major benefits that 
would not have been possible without BRAC. Moreover, its successful 
completion is dependent on the strict discipline that the BRAC process 
provides. The construction now underway represents a balanced and 
reasonable approach to combining the functions of the old Walter Reed 
Army Medical Center into the new National Military Medical Center at 
Bethesda, Maryland. The result will be a medical delivery platform far 
superior to what we have now--and one on which we can continue to 
build.
    Another BRAC 2005 action that my office has championed is the 
consolidation of 26 installations into 12 joint bases. At each joint 
base, a supporting Service Component provides installation leadership 
for one or more supported Service Components. By consolidating 
installation management and delivery of installation support, joint 
bases will be able to provide more efficient and effective support for 
the overall military mission.
    Our joint bases represent realigned, reconfigured national military 
assets for the joint teams they serve. The first five joint bases 
reached full operational capability on October 1, 2009. The remaining 
seven joint bases reached initial operational capability on January 31, 
2010, and are on their way to full operational capability this coming 
October. We are no longer ``implementing joint basing.'' We are now 
``operating joint bases.''
    I had the opportunity to meet personally with most of the joint 
base commanders in January, and I am encouraged by their can-do spirit 
and dedication to providing excellent installation support to the joint 
teams at each base. Additionally, I have had the opportunity to tour 
two of our joint bases recently: Joint Region Marianas on Guam and 
Joint Expeditionary Base Little Creek-Fort Story in Virginia. Having 
seen firsthand the extraordinary work they are doing, I have confidence 
that our joint base commanders will achieve efficiencies and other 
benefits as their installation support organizations mature.

                      FAMILY HOUSING AND BARRACKS

    Housing is key to quality of life--in the military no less than in 
the civilian world. The fiscal year 2011 President's Budget request 
includes $1.8 billion for Family Housing. This is a decrease of $436 
million from the fiscal year 2010 enacted level, which largely reflects 
the maturation of our Military Housing Privatization Initiative. Our 
request provides for the continued reduction of inadequate units; for 
operations and maintenance of government-owned housing; and for the 
privatization of more than 500 family housing units, most of them to 
support the Department's Grow the Force initiative.
    The Services have increasingly relied on privatization to address 
the oftentimes poor condition of military-owned housing and the 
shortage of affordable private rental housing available to military 
families. In my view, housing privatization is the single most 
effective reform my office has carried out.
    Privatization allows the Military Services to partner with the 
private sector to generate housing built to market standards. It is 
extremely cost effective. To date, the Military Services have leveraged 
DOD housing dollars by a factor of 10 to 1: $2.7 billion in Federal 
investments have generated $27 billion in privatized housing 
development at Defense installations. The privatized housing is also of 
high quality and often more appealing to young families than what the 
military construction process would produce. Moreover, the private 
owners have an incentive to maintain quality because they are 
responsible for maintenance and operation, including necessary 
recapitalization, during the full 50 years of the contract.

                      COMPARISON OF FAMILY HOUSING
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Family Housing Construction/Improvements           488.7           356.8
Family Housing Operations & Maintenance.         1,444.0         1,449.0
Family Housing Improvement Fund.........             2.6             1.1
Homeowners Assistance Program...........           323.0            16.0
                                         -------------------------------
      TOTAL.............................         2,258.3         1,822.9
------------------------------------------------------------------------

    The fiscal year 2011 President's Budget request also includes 
funding to reduce inadequate (non-privatized) family housing in the 
United States and at enduring locations overseas. The budget includes 
$34 million for the Army to construct 64 family housing units in 
Baumholder, Germany, and $37 million for the Navy to replace 71 units 
at Naval Station Guantanamo Bay, Cuba.
    The Department is committed to improving housing for its 
unaccompanied Service members, not just its families. The fiscal year 
2011 President's Budget includes $2.3 billion for 57 construction and 
renovation projects that will improve living conditions for 
approximately 17,000 unaccompanied personnel. The Army has also used 
its privatization authorities to improve unaccompanied housing. 
Bachelor officer quarters and senior enlisted bachelor quarters have 
been added to existing family housing privatization projects at Fort 
Bragg, North Carolina; Fort Stewart, Georgia; Fort Drum, New York; and 
Fort Irwin, California. A fifth project is planned soon at Fort Bliss, 
Texas.
    The Navy, too, has used privatization as a tool to improve 
unaccompanied housing--specifically by bringing shipboard junior 
enlisted sailors ashore using a special pilot authority in the fiscal 
year 2003 National Defense Authorization Act (10 U.S.C. 2881a). The 
first pilot project was awarded in December 2006 at San Diego, 
California, and the second was awarded in December 2007 at Hampton 
Roads, Virginia. Both projects have demonstrated that, with authority 
to provide partial Basic Allowance for Housing to single service 
members, privatizing single, junior enlisted personnel housing is more 
cost effective than the traditional Government-owned barracks model.

                     HOMEOWNERS ASSISTANCE PROGRAM

    The Homeowners Assistance Program (HAP) represents a very different 
type of program but one no less important to the quality of life of 
those who qualify. Since 1966, HAP has provided financial assistance to 
military personnel and DOD civilians at locations where home values 
decreased as a result of Defense action. The fiscal year 2011 
President's Budget request includes $17 million for HAP.
    In February 2009, Congress provided $555 million in the American 
Recovery and Reinvestment Act (Recovery Act) to expand HAP to address 
unique economic pressures faced by military personnel who are required 
to relocate during adverse housing market conditions. Congress added 
another $300 million for HAP in the Consolidated Appropriations Act for 
2010.
    HAP seeks to minimize the amount of financial harm--including risk 
of foreclosure, credit damage or bankruptcy--that service member and 
civilian beneficiaries experience when they are compelled to move. As 
of March 3, 2010, HAP has assisted 771 homeowners at a program cost of 
$84 million. Another 4,652 homeowners are currently eligible.

              FACILITIES SUSTAINMENT AND RECAPITALIZATION

    In addition to investing in new construction, we must maintain, 
repair, and recapitalize our existing facilities. The Department's 
Sustainment and Recapitalization programs strive to keep our inventory 
of facilities in good working order and mission-capable. By providing a 
consistent level of quality in our facilities, we can raise the 
productivity of our personnel and improve their quality of life. The 
fiscal year 2011 budget request includes $9.0 billion for sustainment 
and $4.6 billion for recapitalization (restoration and modernization) 
of our facilities.

             COMPARISON OF SUSTAINMENT AND RECAPITALIZATION
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Sustainment (O&M & MilPers).............         8,251.0         9,042.0
Recapitalization (O&M, Milcon, Milpers,          6,448.0         4,583.0
 RDTE)..................................
                                         -------------------------------
      TOTAL S & RM......................        14,699.0        13,625.0
------------------------------------------------------------------------

    Sustainment represents the Department's single most important 
investment in the overall health of its inventory of facilities. 
Sustainment includes the regularly scheduled maintenance and repair or 
replacement of facility components--the periodic but predictable 
investments that should be made throughout the service life of a 
facility to slow its deterioration and optimize the owner's investment. 
We use a Facilities Sustainment Model (FSM) based on industry 
benchmarks to estimate the annual cost of regularly scheduled 
maintenance and repair for different types of buildings. We then 
require the Military Departments and Components to fund sustainment of 
their facilities at a level equal to at least 90 percent of the FSM-
generated estimate. Our fiscal year 2011 budget request is consistent 
with that requirement.
    The second key investment we make in the health of our facilities 
is recapitalization (restoration and modernization). Recapitalization 
serves to keep the inventory of facilities modern and relevant in an 
environment of changing missions and standards, to extend the service 
life of facilities, and to restore capability lost due to man-made or 
natural causes including inadequate sustainment. Compared with 
sustainment, recapitalization needs are much harder to forecast because 
they are often a function of change, such as a new functional standard 
for enlisted housing, the availability of new technology (e.g., 
improved technology for heating and cooling), or even a change in the 
very mission that the facility supports. The fiscal year 2011 budget 
request ($4.6 billion) is $1.9 billion lower than the fiscal year 2010 
enacted level primarily because we are nearing the end of the BRAC 2005 
process, which drove a significant amount of recapitalization.
    In the past, the Department used a target recapitalization rate to 
establish an annual investment level for the entire building inventory. 
In recent years our goal was to recapitalize buildings every 67 years. 
However, this approach did not provide information on the condition of 
individual buildings--precisely the kind of information that one should 
use to guide decisions on specific investments.
    Since 2006, the Federal Real Property Council (FRPC) has required 
Federal agencies to rate the quality of individual facilities using a 
Facility Condition Index (FCI). This quality rating, expressed in terms 
of the relationship between what it would cost to replace a facility 
and what it would cost to repair it, allows us to identify those 
facilities in greatest need of investment. By this measure, 18 percent 
of the 539,000 facilities in the Department's inventory are in poor 
condition and another 7 percent are in failing condition.
    Using the facility condition data that DOD is already collecting, 
my staff is developing a new methodology for determining the level of 
investment needed overall and the optimal method of targeting that 
investment. We will consider factors other than just the condition of 
the building--e.g., mission priority. The result will be a capital 
investment plan to eliminate facilities that are in poor and failing 
condition.
    In addition to sustaining and recapitalizing our facilities, we are 
committed to eliminating facilities that we either no longer need or 
cannot repair economically. Demolition is an important tool in any 
recapitalization and will also play a role in our capital investment 
plans. The fiscal year 2011 budget request includes more than $200 
million for this purpose.

                        MANAGING OUR ENERGY USE

    The recently released Quadrennial Defense Review (QDR) makes clear 
that crafting a strategic approach to energy and climate change is a 
high priority for the Department. Although much of the focus has been 
on the energy we use in a combat setting (``operational energy''), the 
management of energy on our permanent installations (``facility 
energy'') is also extremely important. The Energy Conservation 
Investment Project (ECIP) is a key element of the Department's facility 
energy strategy: ECIP supports energy efficiency and renewable energy 
projects based on payback and has achieved an estimated $2.16 in 
savings for every dollar spent. The fiscal year 2011 President's budget 
requests $120 million for ECIP. This is $30 million above our fiscal 
year 2010 request but less than the fiscal year 2010 enacted amount 
($174 million).
    To put ECIP in context, let me briefly discuss why facility energy 
management is so important and what we are doing to improve it.
    The way we manage energy at our permanent installations is 
important for two key reasons. First, facilities energy represents a 
significant cost. In 2009, DOD spent $3.8 billion to power its 
facilities--down from $3.96 billion in 2008. That represents about 28 
percent of the Department's total energy costs (that fraction is higher 
in peacetime, when we are not consuming large amounts of operational 
energy). Moreover, energy needs for fixed installations in the United 
States will likely increase over the next several years as we ``grow'' 
the Army and the Marine Corps, reduce our presence in Iraq and 
Afghanistan, and continue to improve the quality of life for soldiers 
and their families--for example, by installing flat-panel TVs in 
individual rooms in a barracks that now has just one TV per common 
room.
    Facilities energy is costly in other ways as well. Although fixed 
installations and non-tactical vehicles account for less than a third 
of DOD's energy costs, they contribute nearly 40 percent of our 
greenhouse gas emissions. This reflects the fact that our installations 
rely on commercial electricity, which comes from fossil fuels--
principally coal. Given that facilities energy as a share of total DOD 
energy will increase when we reduce our presence in Iraq and 
Afghanistan, fixed installations will likely become DOD's major source 
of greenhouse gas emissions.
    Second, installation energy management is key to mission assurance. 
According to the Defense Science Board, DOD's reliance on a fragile 
commercial grid to deliver electricity to its installations places the 
continuity of critical missions at serious and growing risk.\1\ Most 
installations lack the ability to manage their demand for and supply of 
electrical power and are thus vulnerable to intermittent and/or 
prolonged power disruption due to natural disasters, cyber attacks and 
sheer overload of the grid.
---------------------------------------------------------------------------
    \1\ ``More Fight-Less Fuel,'' Report of the Defense Science Board 
Task Force on DOD Energy Strategy, February 2008.
---------------------------------------------------------------------------
    Over the last 5 years, the Department has steadily reduced energy 
consumption per square foot at our permanent installations, largely in 
response to statutory and regulatory goals. While continuing that very 
positive trend, it is time for us to adapt our approach to installation 
energy management from one that is primarily focused on compliance to 
one that is focused on long-term cost avoidance and mission assurance.
    In the last year, the Department has made energy policy a 
significantly higher priority. First, Secretary Gates has expressed his 
strong support for the goal of reducing energy consumption, and the QDR 
reflects his desire for a more strategic approach to energy security. 
As one indication of this commitment, the Department recently announced 
that, under Executive Order 13514, it will reduce greenhouse gas 
emissions from non-combat activities--largely installations and non-
tactical vehicles--by 34 percent by 2020. Since greenhouse gas 
pollution is due overwhelmingly to direct energy use, this aggressive 
target, along with DOD's High Priority Performance Goals, will require 
major gains in energy efficiency at our installations.
    Second, the Department is investing more to improve the energy 
profile of our fixed installations. Financing for these investments has 
come from annually appropriated funds, including military construction, 
operations and maintenance, and ECIP. We have utilized third-party 
financing through Energy Savings Performance Contracts and Utilities 
Energy Service Contracts. We are also pursuing other innovative 
financing mechanisms, such as Enhanced Use Leases and Power Purchase 
Agreements (PPAs).
    Our basic investment strategy is twofold: (1) Reduce the demand for 
traditional energy through conservation and energy efficiency; and (2) 
increase the supply of renewable and other alternative energy sources. 
Investments that curb demand are the most cost-effective way to improve 
an installation's energy profile. As Department of Energy (DOE) 
Secretary Steven Chu has observed, ``Energy efficiency is not just the 
low hanging fruit; it's the fruit lying on the ground.''
    A large percentage of our demand-side (energy efficiency) 
investments are expended on projects to retrofit existing buildings. 
The Department spends almost $10 billion a year to sustain, restore and 
modernize our facilities. About one-sixth ($1.7 billion) of this is 
spent on projects designed directly to improve energy efficiency. 
Typical projects install improved lighting, high-efficiency HVAC 
systems, double-pane windows, energy management control systems and new 
roofs. As we replace major components and subsystems in our buildings, 
the newer, more energy-efficient systems contribute to DOD's overall 
energy reduction goals.
    In addition to retrofitting existing buildings, we are taking 
advantage of new construction to incorporate more energy-efficient 
designs, material and equipment into our inventory of facilities. The 
Department spent about $25 billion on military construction in fiscal 
year 2009 and we will devote another $23 billion to construction in 
fiscal year 2010. (As discussed earlier, we are asking for $18.7 
billion for Milcon in fiscal year 2011.) New construction must meet 
Leadership in Energy and Environmental Design (LEED) Silver standards 
and/or the five principles of High Performance Sustainable Buildings, 
which includes exceeding the energy efficiency standard set by the 
American Society of Heating, Refrigerating and Air-Conditioning 
Engineers by at least 30 percent.
    On the supply side, our military installations are well situated to 
support solar, wind, geothermal and other forms of renewable energy. As 
you know, we have the second largest solar array in North America at 
Nellis Air Force Base in Nevada. Additionally, the geothermal plant at 
Naval Weapons Center at China Lake, California, is providing 
electricity to the State's electrical grid; hydrogen fuel cells provide 
back-up power for facilities at Fort Jackson, South Carolina; and the 
Marines will test a wave power program at Kaneohe Bay, Hawaii, in the 
near future.
    The Department took advantage of the $7.4 billion it received 
through the Recovery Act to invest in both energy efficiency and 
renewable energy projects. We devoted $2 billion of that amount to 
projects designed to improve existing buildings, largely through 
upgraded systems and equipment. Of that, $120 million went to ECIP. 
Another $1.6 billion of Recovery Act funds is going to construct new 
facilities, all of which will meet LEED Silver standards and/or the 
five guiding principles of High Performance Sustainable Buildings.
    Finally, our military installations can play a valuable role as a 
test bed for next generation technologies coming out of laboratories in 
industry, universities and the Department of Energy. DOD's built 
infrastructure is unique for its size and variety, which captures the 
diversity of building types and climates in the United States. For a 
wide range of energy technologies, DOD can play a crucial role by 
filling the gap (the ``valley of death'') between research and 
deployment. As both a real and a virtual test bed, our facilities can 
serve as a sophisticated first user, evaluating the technical validity, 
cost and environmental impact of advanced, pre-commercial technologies. 
For technologies that prove effective, DOD can go on to serve as an 
early customer, thereby helping create a market, as it did with 
aircraft, electronics and the Internet. This will allow the military to 
leverage both the cost savings and technology advances that private 
sector involvement will yield.
    We are pursuing the energy test bed approach on a small scale 
through the Environmental Security Technology Certification Program 
(ESTCP). Using $20 million in Recovery Act funding, ESTCP awarded 
contracts through a competitive solicitation to nine projects to 
demonstrate technologies that will provide for increased energy 
efficiency or that will generate cost effective renewable power on 
site. For example, one ESTCP project team is conducting a multi-site 
demonstration of building-integrated photovoltaic roof concepts. By 
verifying that an energy efficient roof can perform its expected 
function, DOD can increase its capacity to generate renewable energy. 
The Naval Facilities Engineering Command leads this project in 
collaboration with Lawrence Berkeley National Laboratory. 
Demonstrations are taking place at Luke Air Force Base and Marine Corps 
Air Station Yuma, both in Arizona, and Naval Air Station Patuxent River 
in Maryland.
    The test bed approach is key to meeting the Department's needs, but 
it is also an essential element of a national strategy to develop and 
deploy the next generation of energy technologies needed to support our 
built infrastructure. We hope to expand it, working closely with the 
Department of Energy and other agencies and organizations.
    The Department is pursuing several other initiatives to address 
specific challenges or impediments to improved installation energy 
management. Let me briefly describe two of them.
    First, we have begun what will likely be a major effort to address 
the risk to our installations from potential disruptions to the 
commercial electric grid. The Department is participating in 
interagency discussions on the magnitude of the threat to the grid and 
how best to mitigate it. We are also looking at how to ensure that we 
have the energy needed to maintain critical operations in the face of a 
disruption to the grid. As required by the National Defense 
Authorization Act, the Secretary of Defense this year will give 
Congress a plan for identifying and addressing areas in which 
electricity needed for carrying out critical military missions on DOD 
installations is vulnerable to disruption. The development of renewable 
and alternative energy sources on base will be one element of this 
effort, because--in combination with other investments--these energy 
sources can help installations to carry out mission-critical activities 
and support restoration of the grid in the event of disruption.
    Second, we are devoting considerable time and effort to a complex 
and growing challenge--ensuring that proposals for domestic energy 
projects, including renewable energy projects, are compatible with 
military requirements for land and airspace. As noted above, military 
installations lend themselves to renewable energy development, and a 
renewable project can benefit the host installation by providing a 
secure source of energy and reduced energy costs. In some cases, 
however, a proposed project can interfere with the military mission. 
For example, wind turbines can degrade air- and ground-based radar, and 
solar towers can cause interference by creating thermal images 
detrimental to sensitive testing of weapons systems. The current 
process for reviewing proposals and handling disputes is opaque, time 
consuming and ad hoc.
    The Department is working to balance the Nation's need for 
renewable sources of energy with military mission needs. The DOD 
``product team'' devoted to sustaining our test and training ranges, 
which I co-chair, is working to come up with a better process for 
evaluating proposals from energy developers who want to site a 
renewable project on or near an installation. We have begun to reach 
out to potential partners, including other Federal agencies, energy 
developers, State and local governments, and environmental 
organizations. In addition to working to improve the current approval 
process, the Department is looking at the role of research and 
development. New technology can allow us to better measure the 
potential impact of a proposed project. It can also help to mitigate 
the impact. For example, recent press accounts suggest that 
developments in stealth technology as applied to turbine blades can 
reduce the harm to ground-based (but not air-based) radar.

                               CONCLUSION

    My office, Installations and Environment, takes very seriously our 
mission to strengthen DOD's infrastructure backbone--the installations 
that serve to train, deploy and support our warfighters. Thank you for 
your strong support for the Department's installation and environment 
programs, and for its military mission more broadly. I look forward to 
working with you on the challenges and opportunities ahead.

    Senator Hutchison. Thank you. I think that we are making 
remarkable progress on BRAC, by the way, and that we are so 
close. It is very good and we fully funded. This subcommittee 
made that a priority.
    Dr. Robyn. Yes.
    Senator Hutchison. So thank you.
    Mr. Mitchell?
    Mr. Hale. Mr. Mitchell does not have a statement. He is 
just here to help us answer questions on Guam policy.
    Senator Hutchison. Okay, good.
    I am going to let my colleagues go first on the questions, 
and then I will follow up. I do not know who was here first.
    Senator Collins. Thank you. Thank you, Madam Chairwoman. 
Does that not sound good again?
    Senator Hutchison. It is very fleeting.
    Senator Collins. Let me first commend you and the 
subcommittee's chairman for working so well as a team. I could 
not help but think, as the chairman departed, that he was 
totally comfortable turning over the gavel to you. And while I 
hope that is a sign of things to come, I was impressed with how 
closely you worked together for the good of the military.

                        CLOSURE OF NAS BRUNSWICK

    Dr. Robyn, I want to direct my questions this morning to 
you. The State of Maine is coping with the imminent loss of a 
major defense installation, the Brunswick Naval Air Station in 
Cumberland County. The squadrons and most of the military 
personnel have already departed, and the base is scheduled to 
close its doors next year. The number of jobs lost is estimated 
by the Pentagon, direct and indirect jobs, to be more than 
6,500. On the list that was prepared for the Base Closure 
Commission, Maine was ranked fifth in the Nation in the number 
of jobs that would be lost as a result of the BRAC decisions.
    So this is a very difficult economic blow for the State of 
Maine, for the Brunswick region in particular. And as you can 
appreciate, the recession makes the redevelopment of this base 
even more challenging than it otherwise would be.
    To help compensate for these negative impacts, last year as 
a member of the Armed Services Committee, I worked very hard to 
include a critical provision in the defense authorization bill 
that would help to accelerate the transfer of excess military 
property at a reduced cost or even no cost when it is for 
economic development. It is my understanding that you and your 
office are now working on the regulations to implement those 
provisions.
    Could you first give us an update on the status of those 
regulations? There is concern in Maine about when they are 
going to be issued. The prime time for economic development 
activity in my State is coming up right now. So could you first 
give us an update on that?

                    ECONOMIC DEVELOPMENT CONVEYANCE

    Dr. Robyn. Sure. I took a real interest in the economic 
development conveyance mechanism. I worked in the Clinton White 
House during the BRAC rounds in the 1990s. We worked with the 
Congress then to create the EDC mechanism, and it has gone 
through various iterations.
    Prior to the action of the Congress in the last defense 
bill, the EDC mechanism had become very slow and cumbersome. 
The services were required to seek to obtain fair market value. 
The valuation process was a very cumbersome one. So Congress 
gave us clarification and some new authority that freed the 
services from having to seek to obtain fair market value. You 
also gave us additional flexibility to use some innovative 
mechanisms such as back-end participation so that if a 
development does well, the Defense Department can take much or 
most of its compensation on the back end.
    First of all, let me say that as soon as that law took 
effect, those provisions were in effect. Even before I put out 
regulations, the new law is in effect. It replaced the old law 
saying the services had to seek to obtain fair market value. So 
the law took effect immediately. I put out a memo to the 
services giving some policy direction. I am working closely 
with them to get the regs out and also too so that even before 
the regs are out, that they are adopting the new approach, 
which I think they are.
    So I think we have already seen some response. Treasure 
Island. The city and the Navy negotiated an agreement on 
Treasure Island. They had been unsuccessful in doing that over 
many years, and with the clarity that you all provided, they 
were able to reach an agreement that provided for back-end 
participation.
    I do not know enough about the details of Brunswick to know 
what sort of an EDC that will be, but I think we have changed 
course in response to the direction from Congress and I am 
watching it closely.
    Senator Collins. Thank you. I know my time is almost 
expired. So let me just say that I will ask you to work very 
closely with the local redevelopment authority in Maine. This 
is going to be a tremendous challenge, and it is going to be 
important that the Department factor in local economic 
conditions and a lot of flexibility as we have given you.
    Dr. Robyn. Yes.
    Senator Collins. And I look forward to working closely with 
you.
    Dr. Robyn. Thank you.
    Senator Collins. Thank you.
    Thank you, Madam Chairman.
    Senator Hutchison. Senator Pryor.
    Senator Pryor. Thank you, Madam Chair.

                     OFFICE OF ECONOMIC ADJUSTMENT

    Dr. Robyn, let me ask you a few questions. In the first 
question or two, I want to ask about the OEA, the Office of 
Economic Adjustment. We have the Pine Bluff arsenal in Pine 
Bluff, Arkansas, which is doing a destruction of all of its 
chemical stockpile. Later this year, they are going to lose 
about 1,100 jobs. There are 350 Government employees, about 750 
contractors.
    My question is, knowing that and knowing that is coming 
this year, what should the OEA be doing for Pine Bluff right 
now?
    Dr. Robyn. Well, I believe the OEA is working with Pine 
Bluff. My understanding is they awarded a small grant last 
month, a little over $600,000, and they waived most of the 
local match requirement. I think the OEA staff was down there 
recently. I am told that the State of Arkansas is not going to 
apply to the Department of Labor for a national emergency grant 
to provide support workforce assistance. I am not sure what the 
rationale for that is.
    But OEA is a wonderful organization. I am very proud to 
have it part of what I oversee now. OEA was created by Robert 
McNamara in the 1960s. They have done a terrific job over the 
years and can provide a lot of planning and technical 
assistance to communities like Pine Bluff that are going 
through this sort of transition.
    Senator Pryor. Do you know if the OEA is working on trying 
to get more mission there to the Pine Bluff arsenal?
    Dr. Robyn. To get other DOD activity? Not that I am aware 
of. That is typically not part of what OEA does.
    Senator Pryor. Okay. When you add it all up, there is going 
to be an economic impact of about $100 million annually to Pine 
Bluff and that area. My sense is, in talking to people in Pine 
Bluff and that area--they have kind of a regional chamber of 
commerce--is that they are not real happy with the efforts that 
OEA has made. So why do you and I not follow up at some point 
and see if we can get a little more attention down there and 
see if we can find some good things for them to do?
    Dr. Robyn. Okay.
    Senator Pryor. Another question I have for you, Dr. Robyn, 
is my understanding is that the National Guard Bureau had 
provided a list of over 100 unfunded priorities and shovel-
ready projects that total up to about $1.2 billion total. My 
understanding is that in the stimulus money, et cetera, the 
Recovery Act, most of these requests, maybe not all, but almost 
all were ignored. Were you aware of that? And do you know the 
situation on that?
    Dr. Robyn. Are you speaking of National Guard projects 
generally?
    Senator Pryor. Yes, National Guard projects that were 
shovel-ready.
    Dr. Robyn. I do not have the figures with me. We did some 
Guard projects. I do not know the number. I will take that for 
the record.
    [The information follows:]

    The American Recovery and Reinvestment Act of 2009 (Recovery Act), 
Public Law 111-5 includes approximately $7.4 billion in Defense-related 
appropriations. Within division A of the Recovery Act, titles III and X 
provided $292 million ($266 million Army National Guard and $26 million 
Air National Guard) and $100 million ($50 million each to Army National 
Guard and Air National Guard) in specific operations and maintenance 
(O&M) and military construction (Milcon) authorization and 
appropriations to the Army and Air National Guard, respectively. To 
provide the required reports to Congress identifying the specific 
projects funded under the Recovery Act, the Department asked each 
component receiving funds to provide a list of projects within the 
amounts they received that would create and save jobs, jumpstart our 
economy, address unfunded facility requirements, build the foundation 
for long-term economic growth, improve the condition of facilities 
needed to house members returning from Iraq and Afghanistan, and 
enhance energy efficiency throughout the Department. The Army and Air 
National Guards complied with this guidance, providing 930 O&M and 
Milcon projects within the amounts they were authorized and 
appropriated.

    Senator Pryor. Yes. Just for you to think about, at the 
Senate Armed Services Committee hearing in February, just a 
month ago or less, Secretary McHugh stated: ``As to the 
distribution of Milcon, certainly if I were in a Guard or 
Reserve unit, I'd feel as though I wasn't getting what I 
needed, and we have to admit that.'' So I think that there is a 
recognition, at least in some quarters, that there are a lot of 
shovel-ready projects that need to be prioritized when it comes 
time to look at funding these type projects.
    And the third thing I had--and this may be the last because 
I am almost out of time here--is Little Rock Air Force Base is 
the Center of Excellence for the C-130 operations and basically 
every C-130 pilot almost in the world, it seems like, comes to 
Little Rock to do their training. And we have three wings 
there. One is a Guard wing and two are active duty. Anyway, 
they do great work there.
    But right now, they have 92 aircraft on the ramp. The 
fiscal year 2011 budget transferred an additional 12 C-130s to 
Little Rock, which totals 104. And my understanding is a few of 
those will be taken out because they are C-130 E models and it 
is time for them to move on. But still, they are going to end 
up with about 100 aircraft there.

                       LITTLE ROCK AIR FORCE BASE

    I remember when we were talking about BRAC a few years ago 
and also last year or the year before, we were working on a C-
27J project. One of the things about Little Rock Air Force Base 
is it only has one runway. And I am wondering if you might be 
willing to initiate a site survey for Little Rock Air Force 
Base to look at the feasibility of doing a second runway there. 
I know they have plenty of real estate, and I have seen the 
maps before and I think they would have plenty of room to do 
it. But I was wondering if you would initiate or work with us 
to try to initiate a site survey to look into the possibility 
of a second runway there at Little Rock Air Force Base.
    Dr. Robyn. Sir, I think I am going to defer that question 
to my Air Force colleague, who will be on the panel behind me. 
It is easy for me to say yes, but I do not want to preempt my 
Air Force colleague.
    Senator Pryor. Sure.
    Secretary Hale.
    Mr. Hale. Could I just add to that? I think we would want 
to consider that and the broader issue of basing the C-27s. As 
you are well aware, we are limited to procuring the 38, and 
there are some important basing issues that still remain to be 
resolved. It probably needs to be considered in that context.
    Senator Pryor. Right, yes. And the C-27s may be a secondary 
issue at this point in how you do that. Certainly Little Rock, 
I think, makes sense, but with regard to more C-130s in the 
future maybe coming there and you have 100 on the ramp. After 
fiscal year 2011, I think it may be time to look at that. So if 
we could maybe work together on that site survey, at least for 
you all to look at it and do the analysis, I would appreciate 
it.
    Thank you, Madam Chair.
    Senator Hutchison. Senator Murkowski.

                       HOUSING AT FORT WAINWRIGHT

    Senator Murkowski. Thank you, Madam Chairman.
    Dr. Robyn, a couple relatively parochial questions here 
this morning, and then I would like to ask a question about the 
port in Guam.
    First is with regard to a partnership that the Army entered 
into with Actus Lend Lease at Fort Wainwright for privatization 
of housing. We have had some issues up north there with local 
contractors that have expressed some very serious concern that 
Actus Lend Lease was bringing in out-of-State contractors, thus 
displacing the local contractors. There were field hearings 
that were conducted by the legislature. There was a community 
advisory board that was later established. But it really was 
very contentious for a period of time, and our offices were 
very involved in trying to smooth things out.
    My question to you is--we were essentially told that the 
laws governing private housing contracts allow the Army's 
partner to contract with whomever they want.
    I guess the question that I have is whether or not you 
think that it is good policy to encourage housing privatization 
partners to use local contractors and local construction 
workers for the projects, or would it be fair to say that you 
are really indifferent on this? I cannot imagine that this is 
just an issue that is specific to Fairbanks, Alaska. Help me 
out a little bit on this.
    Dr. Robyn. Well, I have spent a lot of time telling people 
how wonderful housing privatization is. I think it is the most 
effective reform my office has taken on. I honestly have never 
come across this issue. So I cannot give you a good----
    Senator Murkowski. So you think our situation up north is 
unique?
    Dr. Robyn. I just do not know. I have been on the job 9 
months, and it may be that I just do not know about it. So I 
cannot give you a good answer. I think my Army colleague may be 
able to shed more light, but I would like to take the question 
for the record.
    Senator Murkowski. Well, I would appreciate if you would do 
it because as we look to the impact, of course, the economic 
impact that these projects bring to an area, I think it is fair 
to say that people look at them with great interest because 
they believe that not only will the military see a good benefit 
there, but the local economy will engage as well. And I think 
we have seen some real concerns where you bring the out-of-
State guys in. They are there for the length of the project. 
They are gone and there is no real commitment to the community. 
So if you could look into that, I would appreciate it.

            UNDOCUMENTED WORKERS AT ELMENDORF AIR FORCE BASE

    The second question. This was regarding a project at 
Elmendorf Air Force Base last year, and acting on a tip from 
the iron workers unions, there were some immigration and 
customs officers that came in to interview employees of an Air 
Force construction project. This was a contract for building 
hangars. Four of 30 individuals interviewed were determined to 
be not lawfully eligible to work here in the United States. One 
was determined to have a criminal history in the State of 
California. I think we all recognize that our Air Force bases 
are supposed to be secure areas, and yet this was a pretty 
specific example of not only people who were not eligible to 
work here in the country and getting into the gate to do the 
work, but also of an employee with a criminal record.
    I have a couple questions. First, whether or not the 
contractor was disciplined for placing undocumented workers on 
an Air Force job site, and more broadly, what the 
administration is doing to ensure that these construction jobs, 
which are scarce and coveted most certainly, that are available 
on our military bases are going to people that are legally 
entitled to work here in the country.
    Dr. Robyn. Again, my Air Force colleague on the next panel 
may have more detail. I know the four were arrested through a 
joint effort by immigration and Air Force agents. They used 
counterfeit documents. I think we are using this as a learning 
experience to improve our clearance--approach to security. I do 
not know if the contractor was disciplined or not. It is hard 
to believe they were not because my understanding is this was a 
contractor from California that went up to Alaska and took 
workers with them. So it would seem like they were liable. But 
I do not know the specifics.
    Senator Murkowski. Well, if you can get more clarification 
for me on that, again I would appreciate it.
    And then the last question relates to the buildup on Guam. 
As the ranking member on the Energy Committee, one of our areas 
of jurisdiction and oversight responsibility is for the 
Government's relationship with our territories. I understand 
that the Port of Guam was recently denied a $50 million grant 
from USDOT to kick start the port's $200 million modernization 
program.

                       IMPROVEMENTS TO GUAM PORT

    Are you concerned about the status of the port's 
modernization? What steps are being taken to ensure that we are 
securing the needed funding for the port modernization effort?
    Dr. Robyn. Yes. There were $1 billion in stimulus money for 
TIGER grants allocated by the Department of Transportation, and 
they were heavily oversubscribed. There was a huge demand for 
those, and Guam did not make the cut. It was a large 
application, $50 million. The nice thing was it would have been 
matched by a $50 million loan from the U.S. Department of 
Agriculture.
    We are scrambling throughout the Federal Government, those 
of us who work on Guam, to address that issue so that we can 
try to preserve the USDA commitment to match----
    Senator Murkowski. So what do you figure the path forward 
will be?
    Dr. Robyn. Well, it is a little premature for me to say, 
but I think we recognize that the port needs to be upgraded to 
accommodate the buildup. It is a shared responsibility within 
the Federal Government. So we are looking at--the Department of 
Defense has very limited mechanisms for doing unauthorized--we 
cannot do unauthorized military construction. So we do not have 
the authority to do this even if we wanted to. We are looking 
at mechanisms, though, that would allow for a cross-Government 
acceptance of this responsibility because this is step one in 
the buildup.
    Senator Murkowski. It sounds like you are equally concerned 
and recognize the level of priority there.
    Dr. Robyn. Yes, absolutely.
    Senator Murkowski. Thank you, Madam Chair.
    Senator Hutchison. Thank you.
    Let me start on the Milcon for Europe. The $513 million in 
Germany and in Korea, the Department is looking at tour 
normalization, which means extending the average tour length 
and allowing more dependents to accompany their sponsors.

                       OVERSEAS BASING COMMISSION

    I just want to ask why is the Department undoing the 
Congress' authorization bill that included the Overseas Basing 
Commission, the previous commitments to bring home 70,000 
troops, mostly from Germany and Korea. This was a bill--
Overseas Basing Commission was cosponsored by Senator Feinstein 
and myself when we ran this subcommittee.
    It just seems that you are changing a policy that was 
established by Congress, and I would like to know what is the 
reason for this kind of commitment and the cost of $2 billion 
to American taxpayers for this kind of building in Germany and 
Korea.
    Mr. Hale. Well, Madam Chairwoman, let me try to be helpful 
by saying, first, I do not think it is our intention to undo 
congressional guidance or not to follow it.
    We are committed to some level of overseas deployment of 
our troops, but we are looking at those specifics. The QDR, I 
think, arrived at a broad policy but did not arrive at some of 
the specifics that I know are of particular interest to you, 
especially whether or not we will bring home--or how many BCTs 
we will bring home from Europe. We decided that we needed some 
more negotiation with our allies before making that decision 
and, therefore, put it off. We expect to make a recommendation 
in the fiscal year 2012 budget as opposed to this budget.
    As far as Korea, we----
    Senator Hutchison. Excuse me. Then are you saying that the 
$513 million does not include the extension of two more BCTs?
    Mr. Hale. To my knowledge, it does not make that commitment 
because we have not made that decision.
    Actually I looked at it. Our total overseas military 
construction is down sharply between 2010 and 2011 from $3.1 
billion to $2.1 billion. But you are right. There are some 
increases in Germany, I think, associated with the Wiesbaden 
consolidation. But we have not made a decision as to whether or 
how many BCTs to bring home. Those will be, I believe, a 
commitment to reflect that decision in the fiscal year 2012 
budget.
    On Korea, we have approved the first phase of tour 
normalization, which is a fairly modest price tag, but are 
continuing to look at the second and third phases, which would 
be much more substantial in cost. I think part of the issue, as 
you raise, is that we have to assess what is our long-term 
commitment in Korea. I anticipate it will remain a commitment, 
but how large has to be a question.
    Senator Hutchison. What is your policy as comptroller on 
the contribution of host countries such as Germany and Korea? 
And what would you be asking them to contribute for these 
specific requests?
    Mr. Hale. I do not think we have a percentage policy. We 
always like contributions from our allies. I do not have for 
you the percentage contributions of the Germans in terms of the 
current overseas military construction. My sense is the Germans 
have been very helpful in paying operating costs. I am not sure 
on the military construction. I will have to supply that for 
the record.
    We would like a substantial contribution. I think that is 
inevitably negotiated on a case-by-case basis.
    Senator Hutchison. I would like, before we come forward 
with our recommended military construction appropriations 
report, to know what is the German and Korean contribution to 
the requests that are being made.
    Mr. Hale. We will supply that.
    [The information follows:]

    The Republic of Korea (ROK) is not making any contribution to 
projects included in the fiscal year 2011 Milcon request. Rather, the 
ROK contributes to U.S. construction requirements through a formal 
burden sharing agreement, where construction is one component of that 
agreement.
    In the year 2009, a 5-year burden (cost) sharing agreement was 
signed with the ROK. In force through the year 2013, the agreement is 
formally called the Special Measures Agreement (SMA). Under the 5-year 
SMA, ROK burden sharing contributions occur in three separate 
categories: labor, logistics, and construction. The ROK is providing 
790.4 billion won ($749.9 million) in burden sharing contributions 
during calendar year 2010--an increase of 30.4 billion won from the 760 
billion won provided in calendar year 2009. Within these two totals, 
315.8 billion won ($299.6 million) and 292.2 billion won ($228.9 
million) is for construction in calendar years 2010 and 2009, 
respectively. In calendar year 2011, the ROK's total burden sharing 
contribution will be 812.5 billion won ($829 million). It is expected 
that the portion of this total 2011 contribution devoted to 
construction will be around $326 million.
    In addition, the ROK funds most of the cost of relocating U.S. 
forces from Seoul under the Yongsan Relocation Plan (YRP). Further, ROK 
Funded Construction funding, provided under the Special Measures 
Agreement, is being used to the maximum extent to implement the Land 
Partnership Plan (LPP), which consolidates and relocates all other 
forces in Korea. The YRP and LPP realignment initiatives--currently 
underway--will result in better facilities and improved quality of life 
for USFK personnel, create enhanced warfighting capabilities, and 
demonstrate the commitment of the United States to an enduring military 
presence on the Korean Peninsula that will promote peace and stability 
on the peninsula and in the region.
    The Government of Germany is not making any direct contribution to 
projects included in the fiscal year 2011 Milcon request. The United 
States has no formal infrastructure-related burden sharing agreement 
with Germany. However, through their participation in NATO and the NATO 
Security Investment Program (NSIP), Germany may ultimately share a 
portion of Milcon costs for the Air Traffic Control Tower in NAS Rota 
and the Hydrant Fuel Project in RAF Mildenhall. If NATO determines 
these projects to be eligible for common funding, 17 percent of any 
NSIP recoupment the United States receives could be accurately 
characterized as a German contribution. These projects have been pre-
financed in accordance with DOD and NATO guidance in anticipation of 
potential future recoupment. (The requested SHAPE school and NATO HQ 
projects represent the U.S. portion of those projects and there will be 
German and other national contributions.)
    While Germany makes no direct contributions to the U.S. Milcon 
program, they make significant non-financial contributions in support 
of U.S. interests. In accordance with the terms of the SOFA, the United 
States executes the majority of our Milcon in Germany through the 
German Bauamt. Because Bauamt fees are significantly lower than those 
charged by the Corps of Engineers, use of these services reduces the 
direct cost of design, procurement, and construction management 
activities by roughly 65 percent. In fiscal year 2011, this indirect 
contribution equates to approximately $30 million.
    In addition, Germany bears approximately 25 percent of the direct 
costs for items such as rents on privately owned land, facilities, 
labor, utilities, and vicinity improvements in support of Germany-based 
United States forces. Further, Germany has assisted United States force 
presence in the facilities area through host nation funding of nearly 
$1 billion to date in facilities constructed as Payment in Kind 
compensation for U.S.-funded improvements at facilities returned to the 
host nation. Other indirect contributions include loan guarantees to 
public private venture housing, non-imposition of certain taxes/fees, 
and rent free use of land for basing and training.

    Senator Hutchison. Was there a business case analysis 
prepared that justified retaining four BCTs in Europe?
    Mr. Hale. I am not aware of a business case. I am aware of 
considering that in light of our overall desire for overseas 
deployment, some of which aid our ability, for example, to 
fight in Iraq and Afghanistan. We are drawing heavily on those 
troops. Especially in the beginning, we drew heavily on troops 
deployed in Germany. So I think it is a foreign policy 
decision, and one that is taken in the context of the QDR. But 
as I said, we decided not to make the specific decision this 
year. We wanted further negotiations with our allies.
    Senator Hutchison. Well, I would like to ask you also to 
submit for the record whether it is, in fact, more efficient to 
deploy from Germany into Iraq and Afghanistan as opposed to 
from the United States because there were severe restrictions 
placed on transferring troops into Iraq in the early stages of 
that buildup. And it caused delays and it even caused having to 
use, in some cases, paratroopers as opposed to trains and even 
air flights. So I think that has to be considered, and I want a 
report on that because I think it is a factor.
    [The information follows:]

    There is no single answer to whether it is more efficient to deploy 
from CONUS or Europe. There are many ways to define deployment 
efficiency including time, fuel usage, manpower, transport demand, and 
diplomatic challenges. For instance, Germany may be more efficient for 
airlift but may not be for sealift.
    To be clear, Germany placed no practical impediments or hindrances 
on United States deployment to Iraq and Afghanistan. In fact, Germany 
provided guards for United States bases to free up personnel for 
deployment.

                                  GUAM

    Senator Hutchison. Okay, let us talk about Guam. I 
appreciate your statements, Dr. Robyn, but I think there are 
significant questions and certainly significant cost increases 
on the horizon for this move on Guam. The report in the news is 
that the Governor of Guam has said he needs $3 billion in 
assistance before we spend $13 billion on military 
construction.
    I would just ask the question because this is going to 
significantly increase the cost to American taxpayers. Japan 
has agreed to fund a significant portion of this move, I think 
around $7 billion, which I think is very helpful. But the rest 
would then, of course, fall on the American taxpayer.
    Are you looking at alternatives at all that would be more 
efficient than this entire move to Guam? Is there any 
alternative even being considered. With the size of the island 
and the infrastructure not being adequate, are there other 
alternatives that we ought to be looking at?
    Dr. Robyn. I am going to defer to my colleague, Derek 
Mitchell, on this one.
    Mr. Mitchell. Okay. Thank you, Senator.
    In fact, this process has been going on for about 15 years 
since the mid-1990s looking at alternatives for moving the 
Marine base in Okinawa to another location. So basically a host 
of alternatives have been looked at by the U.S. Government in 
cooperation with the Government of Japan for that period.
    Right now, the Government of Japan, the new Government of 
Japan, is looking at this very question of are there viable 
alternatives from their perspective. That review is ongoing. We 
respect that review in the U.S. Government, and we are waiting 
for them to come up with their version and their view.
    We believe the current is the best. We really have looked 
at a number of different options.
    Senator Hutchison. ``Current'' meaning the move to Guam or 
staying in Okinawa?
    Mr. Mitchell. Well, moving the Marine base, the Futenma 
base, up to the north of Okinawa and then some of the marines 
back to Guam. That really is the best.
    Senator Hutchison. A fewer number than the 8,000?
    Mr. Mitchell. No the current plan, 8,000 to Guam and 10,000 
up to the north of Okinawa. We looked at a number of different 
permutations and options over truly 10-15 years and continue to 
respect the process that the Government of Japan is undergoing 
right now. So yes, the answer to your question is we have 
looked at alternatives, but we still believe this is the best.
    Dr. Robyn. Can I just say that, of course, we are not going 
to move any marines from Futenma until we have an agreement--or 
until there is clarity on where they are going. But having said 
that, Guam is--there has never been an issue that Guam is of 
vital, strategic importance and a good place to expand our 
military presence. It is U.S. territory. It is one of a number 
of islands. It provides real strategic benefits.
    Senator Hutchison. Well, I would just submit that in the 
time that you say we have been looking at this, certainly the 
infrastructure is worse than we had predicted and costs have 
certainly gone up. So I just think it is worth another look at 
whether this island can accommodate this kind of influx and if 
it is the very best move that we could make. But I realize that 
options are probably few in this part of the world.
    I mean, Korea would be--the move south in Korea I know is 
certainly part of our overall strategy, which is correct, 
because it will provide forward basing opportunities. I mean, 
speaking of Korea, I still question how many troops and now 
even an added element in Korea of longer tours and more 
families, which increase costs. I am going to probably want to 
look at that more carefully as well, just how much more we are 
going to do in Korea. We do need to get out of the base in 
Seoul and move south, and that is in our interest as well as 
Korea's. But we have certainly kept a presence there for longer 
than was necessary by far.
    And I just think we have got to start looking at the money 
that we are spending overseas and is it better to have 
permanent bases in America where you do not have training 
constraints and you do not have urban buildup and it is a more 
stable environment for our families. So I would like to pursue 
that with anyone who is willing to answer, or do I need to go 
to other policymakers for those thoughts?
    Mr. Mitchell. I appreciate those sentiments, Senator. Let 
me just say from the strategic standpoint--I am in the policy 
division of the Pentagon. And there really is a strategic 
value, as you suggest, on the forward deployment of U.S. 
forces. It has a tremendous impact on the commitments that we 
continue to have to our allies, to our strategic position in 
Asia. It gives us an advantage as well. So I understand the 
costs and the difficulties of working with foreign local 
communities, et cetera. There are challenges. There are 
complications involved. But the strategic advantage in our 
relationships and preferred diplomatic engagement that we get 
from the deployment, our ability to engage other forces, to 
interact with them, to mix with them, to train does have a 
great strategic impact for the United States overall even if 
there may be some constraints placed on them.

                         MOVING MARINES TO GUAM

    Senator Hutchison. Have you looked at whether it would be 
more efficient to move some of the Guam marine base personnel 
to Korea and consolidate there rather than the added 
infrastructure and the coral reef issue at the port? There are 
so many issues that are coming up now that had not been there 
before. Are you looking at whether perhaps that Marine base or 
part of it would be more efficiently put as a forward 
deployment opportunity in Guam?
    Mr. Mitchell. Well, we have looked at----
    Senator Hutchison. I mean in--I am sorry--Korea.
    Mr. Mitchell. In Korea. As I say, over a long period of 
time, we looked at various options, and this is, as you say, a 
very complicated, complex issue and there will be challenges to 
put forces in Korea as there would be other places. You know, 
this is a fluid situation. I mean, the American presence in 
Asia has been--well, we have been there since World War II and 
we have been quite flexible in how we postured ourselves. We 
continue to review our posture in Asia and East Asia. We think 
Guam, though, is quite a strategic location. It is, as you 
suggest, a U.S. territory. There are challenges on the ground 
in Guam, but they would be putting some funding into U.S. 
citizens to building up U.S. infrastructure in that regard. We 
have a great deal of flexibility operating from there as well.
    So there are benefits being completely into the Asian 
continent, as we are in Korea and just offshore in Japan, as 
well as being back in Guam. And it gives us a kind of flexible, 
modern and, I think, strengthened posture in Asia that we need 
to maintain our strategic position in the region.
    Senator Hutchison. Well, I would like to hear that you are 
looking at whether 8,000 troops is the right footprint in Guam, 
given the very recent questions that are being raised by the 
EPA. Maybe there needs to be a congressional requirement that 
you look at this, and I am going to think about that. And if 
you would like to give me further information so that there is 
not a directive, but maybe there should be a directive that we 
look at whether 8,000 is the right number in Guam or maybe a 
smaller footprint that would have less cost and opportunity to 
do more consolidation somewhere else, maybe Korea. I realize 
the Japanese Government has been cooperative and helpful in the 
Japanese footprint, but I just think the concerns being raised 
by the EPA are significant, and then the Governor of Guam 
asking for $3 billion. I think their interest in this is 
getting questioned by their own population. So I would like to 
hear more from you on this.

                                  GUAM

    Dr. Robyn. Senator Hutchison, could I just make one 
comment? In thinking about their infrastructure, it is useful 
to think about it in two pieces. One, Guam is a U.S. territory. 
Its infrastructure needs to be in compliance with EPA 
regulations, which it is not in major ways right now. That is a 
problem whether or not we go there. The U.S. taxpayers, 
including the people of Guam, are going to have to share that 
burden regardless. I think the question has to do with the 
additional expansion to the infrastructure that the military 
buildup would require. But under any circumstances, Guam's 
infrastructure needs to be brought into compliance with U.S. 
regulation.
    Senator Hutchison. Well, I would like to know what percent 
of $3 billion is in infrastructure that would be required 
versus the additional imprint that the marine base would put on 
Guam.
    Let me just move to the Guantanamo Bay. Secretary Hale, why 
was the full restoration of the prison in Illinois not all put 
into the military construction budget?
    Mr. Hale. Madam Chairwoman, we understand we need to work 
with the Congress to figure out a way ahead on this issue, and 
we wanted to preserve budgetary options. So what you see is a 
transfer fund in the fiscal year 2011 OCO budget for $350 
million for all aspects of detainee operations. It could be 
used for military construction to open the Thompson site. It 
could be used to close Guantanamo, or it could be used for 
operations at either site. For example, if we end up staying at 
Guantanamo, it will be only used for operations there. Since we 
did not know for sure what the final decision would be, we felt 
a transfer fund provided us the necessary flexibility.

                  MOVING PRISONERS FROM GUANTANAMO BAY

    Senator Hutchison. Well, I think there have been 
significant questions raised about the movement of prisoners 
out of Guantanamo Bay. We have made significant infrastructure 
improvements at Guantanamo Bay. We have kept the prisoners in a 
secure place, not a threat to anyone in the United States. And 
talking about $350 million to renovate this prison, you are 
going to deploy 1,000 military personnel there to guard them, 
all of which are already accommodated at Guantanamo Bay, I just 
think in an economic situation with the debt that this country 
is incurring, it is something that should certainly be 
reconsidered by this administration and I would hope that the 
administration would. I mean, they are reconsidering the 
decision to try these detainees in New York City. Thank 
goodness. And I think that we should also reconsider the 
transfer of all the prisoners into the United States from 
Guantanamo Bay, but I realize that is above your pay grade.
    Mr. Hale. I think that is right.
    But we do want the budgetary flexibility, and let me urge 
caution in one sense. If we stay at Guantanamo--the President 
has said he wants to close Guantanamo, and I certainly support 
that decision. But if we end up staying there, we will need a 
substantial part of that fund to operate Guantanamo. So we need 
to be careful to preserve our ability if the decision is made 
to remain at Guantanamo.
    Senator Hutchison. I agree, but we are not going to have a 
lot of building requirements there. We have done that. We have 
made that investment. I think that we need to be looking at 
efficient use of taxpayer dollars as well as security.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you. I do appreciate the panel. I know I have had 
tough questions, and I look forward to hearing more about some 
of these issues and particularly the overseas military 
construction. And I think we really need to have a lot more 
policy discussion on this issue before we move forward. Thank 
you very much.
    Mr. Hale. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted to Hon. Robert F. Hale
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. The Department of Defense seems to be undoing the intent 
of the Overseas Basing Commission and the intent of Congress by the 
recent QDR recommendations to retain two Brigade Combat Teams in 
Europe, to significantly increase Milcon funding for Germany and to 
change the tour length policy in Korea to increase the United States 
personnel presence on the peninsula.
    What is the reasoning behind each of these decisions?
    Answer. Significant changes in the geo-strategic environment over 
the last 5 years, such as NATO's central role in Afghanistan and 
tensions on NATO's periphery, and the growth and transformation of the 
U.S. Army's force structure warranted the QDR's re-evaluation of the 
Department's 2004 Integrated Global Posture and Basing Study decisions 
to return two Heavy Brigades from Europe and merge Army V Corps HQ with 
U.S. Army Europe.
    The Department of Defense (DOD) deferred the decision to return two 
Brigade Combat Teams from Europe after carefully considering the issue 
from numerous perspectives: strategic, operational, force management, 
quality of like, stress on the force, institutional, environmental, and 
financial. DOD's analysis concluded that any decision on the two Heavy 
Brigades or Army V Corps HQ would need to be made in a cooperative 
manner with NATO Allies and consistent with the revised NATO Strategic 
Concept. This approach explicitly took into account the conclusions of 
the congressionally mandated Overseas Basing Commission, which 
considered the retention of the BCTs in Europe ``a cost effective risk 
mitigation force.'' \1\
---------------------------------------------------------------------------
    \1\ Commission on Review of the Overseas Military Facility 
Structure of the United States, May 9, 2005, pg. F12.
---------------------------------------------------------------------------
    The decision on the tour length policy in Korea is consistent with 
the Department's 2004 basing study. The change in tour length policy in 
Korea does not affect the United States force posture and the number of 
United States personnel assigned to Korea. Rather, the change in tour 
length policy increases unit capabilities, demonstrates the long-term 
commitment of the United States to the Alliance and to the defense of 
Korea, helps enable force availability for potential deployment to 
other regions, decreases unit training costs, and reduces stress on 
service-members, bringing tour length policies in line with similar 
theaters such as Japan and Germany.
    Question. Was there a fiscal business case evaluation of the 
decision to retain two BCT's in Europe? If no, why not and if yes, will 
you share it with this subcommittee?
    Answer. The Department of Defense (DOD) decided to defer the 
decision to return two Brigade Combat Teams from Europe after carefully 
considering the issue from numerous perspectives: strategic, 
operational, force management, institutional, environmental, and 
financial. The financial aspects considered the costs of remaining in 
Europe, the costs of relocating to the United States, and the costs of 
rotating units to Europe to fulfill the operational requirements they 
currently meet. DOD's analysis concluded that there was no overwhelming 
fiscal case supporting either retaining the two Heavy Brigades in 
Europe or returning them to the United States. Rather, the analysis 
showed that strategic considerations, such as contribution to regional 
security, deterrence, and reassurance to allies are vital, particularly 
in the short-term. DOD will continue to work towards a final decision 
on this issue, in concert with our NATO Allies and consistent with the 
upcoming revised NATO Strategic Concept.
    Question. I am concerned about the amount of construction funds 
requested by the Department for projects overseas, particularly Germany 
and Korea.
    What is the amount of the fiscal contributions by the governments 
of Germany and Korea for military construction for the last 3 years?
    Answer. Under a Special Measures Agreement (SMA), the Republic of 
Korea (ROK) contributes burden sharing support to United States Forces 
Korea (USFK) in the following categories:
  --Labor Cost Sharing--cash provided to pay the salaries and benefits 
        of Korean National employees working for USFK.
  --ROK Funded Construction--cash and in-kind transfers used for USFK's 
        military construction and military construction-like 
        requirements.
  --Logistics Cost Sharing--in-kind provision of logistics equipment, 
        supplies, and services to USFK.
    Through the SMA, the ROK provided USFK with burden sharing 
contributions that totaled $741.5 billion won ($672 million) in 
calendar year 2008, $760 billion won ($595.5 million) in calendar year 
2009, and $790.4 billion won ($663.3 million) in calendar year 2010. 
Within these totals, the amount dedicated for construction in these 3 
years is $264.2 billion won ($239.4 million) in calendar year 2008, 
$292.2 billion won ($228.9 million) in calendar year 2009, and $315.8 
billion won ($299.6 million) in calendar year 2010.
    While the Department does not have a formal burden sharing 
agreement with the Federal Republic of Germany, one of the ways they 
assist United States force presence is through the provision of 
facilities using host nation funding as Payment in Kind compensation 
for the U.S.-funded improvements on facilities returned to them. From 
2008 to the present, the German government will have contributed 
approximately $33.5 million in Payment in Kind through construction of 
the following three projects:
  --Wiesbaden Army Air Field: Infrastructure/Site Improvements, $23.0 
        million;
  --Urlas Training Center, Ansbach: Infrastructure/Site Improvements, 
        $4.0 million; and
  --Urlas Training Center, Ansbach: Access Control Point, $6.50 million 
        (Approved but not yet started).
    Question. I am concerned about the ability of our troops to 
adequately train in and deploy from European locations versus locations 
in the United States.
    Answer. We have proven our mission readiness and training capacity 
during multiple brigade rotations over the past 7 years from numerous 
locations throughout Germany to include Grafenwoehr, Baumholder, 
Ansbuach and Schweinfurt to name just a few. The brigade at Baumholder 
and the brigade being consolidated at Grafenwoehr both have immediate 
access to two of the largest and best training areas in Europe. These 
two locations offer training, deployment and quality of life 
capabilities comparable to facilities anywhere in the United States. 
Grafenwoehr has firing ranges immediately available for the use of live 
fire, urban training, simulation, unexploded ordnance, IED detection 
lanes and more. Soldiers in Europe have the added benefit of continuous 
opportunities to train with soldiers from allied and partner nations. 
These opportunities have proven invaluable in building coalition 
partnerships with both NATO and non-NATO countries, and enhancing unit 
interoperability which remains critical in the field. Training and 
exercising in Europe also offers unique professional development for 
our future leaders. This same multi-national experience in coalition 
operations is unavailable to units based in the United States who may 
be called upon to deploy, or U.S.-based units who are scheduled to 
deploy conducting periodic rotations at forward locations.
    Deployment capability from European locations varies from 
installation to installation, but in general, it is comparable to 
deployment from U.S. locations. Rail lines and seaports in both United 
States and Europe can generally handle deployments well, but as they 
are commercially owned, the U.S. Army does not generally fund any 
improvements to commercially owned transportation nodes and links. 
Similar to U.S. installations, the European theater has deployment 
infrastructure to enhance deployment outload capability. Just as 
deployment from any U.S. installation, there can be minor gaps in 
various deployment infrastructure at European installations that affect 
the ability to meet deployment timelines. In general, these gaps are 
minor depending on the installation in question.
    Question. Please provide an analysis of the training and deployment 
capabilities from locations in Germany versus major installations in 
the United States.
    Answer. U.S. forces have, for years, received the highest caliber 
training at forward located training sites in EUCOM. These facilities 
have prepared numerous units for the rigors of combat in Iraq and 
Afghanistan, and carry with them the added benefit of direct on-the-
ground training and interaction with Allied/partner nations under 
controlled conditions, when clear lessons can be conveyed and genuine 
learning assimilated. These geographical benefits pay important 
dividends building partner capacity and developing coalition 
warfighting interoperability, essential to success in the contemporary 
international security arena.
    U.S. Army Europe (USAREUR) has adequate training facilities to meet 
home station and pre-deployment training requirements. USAREUR units 
have successfully deployed in support of Operation Iraq Freedom and 
Operation Enduring Freedom over the past 8 years and relied on 
USAREUR's training infrastructure to prepare. Grafenwoehr Training Area 
(GTA) is USAREUR's primary live fire range complex and provides state-
of-the-art ranges capable of accommodating live fire training from 
small arms through battalion live fire exercises. GTA has approximately 
57,000 acres of ranges and training areas which are capable of 
supporting the doctrinal training requirements for Mechanized Infantry, 
Armor, Stryker, Artillery, Aviation (rotary and fixed wing), and Light/
Airborne Infantry units.
    In addition to the GTA, USAREUR also has the Joint Multinational 
Readiness Center (JMRC). JMRC is the Europe based Combat Training 
Center (CTC) with a world-wide exportable training capability. JMRC 
trains leaders, staffs, units up to Brigade Combat Teams (+), and 
multinational partners to dominate in the conduct of Full Spectrum 
Operations (FSO). A typical JMRC year can support eight possible 
rotation windows, all of which can be used to train for operations in 
Iraq and Afghanistan. In comparison the U.S.-based National Training 
Center and Joint Readiness Training Center supports 10 possible 
rotations per year.
    USAREUR has range infrastructure comparable to most United States 
installations that support a similar amount of units. Fort Carson, 
Colorado, provides a fair comparison i.e. 4 Heavy Brigade Combat Teams 
(BCTs) and has approximately 45 live fire ranges to support live fire 
training requirements. USAREUR's current force (2 Heavy BCTs, 1 Stryker 
BCT, and 1 Airborne BCT) has 44 ranges to support its live fire 
training requirements. Units deploying from both locations are able to 
successfully conduct home station as well as pre-deployment training.
    Regarding United States deployment capabilities from Germany, the 
most expeditious route for deployment of EUCOM heavy forces remains the 
use of the rail and seaport infrastructure in Western Europe through 
seaports such as Rotterdam, Netherlands, Bremerhaven, Germany, and 
Antwerp, Belgium. Currently, we flow our Germany-based heavy brigade 
via ports on the North Sea. U.S. Transportation Command's and U.S. 
Central Command's joint planning factors estimate a 23- to 32-day 
transit timeline from Northern Europe to Southwest Asia's Ash Shuayba 
port in Kuwait. When USAEUR deployed the 1st Infantry Division from 
European ports to Southwest Asia, the transit time was only 18 days. 
Alternatively, U.S.-based heavy brigades take up to 43 days to flow 
from the West Coast of the United States to this same port. Obviously, 
European infrastructure also allows us to deploy rapidly within our own 
theater. Our routes utilize Western Europe's mature and robust rail and 
seaport infrastructure, and are facilitated by well established, 
dependable host nation support. In the event of major combat operations 
requiring multiple U.S. divisions, U.S. ports and rail lines could 
quickly become overwhelmed. Deploying from Europe saves valuable time. 
It is quite possible that four EUCOM Brigade Combat Teams (BCT) could 
be loaded on ships and underway from Europe while their U.S. BCT 
counterparts are still awaiting their turn to load on railheads at U.S. 
installations.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

    Question. Every year, I join the other members of the Maine and New 
Hampshire delegations to attempt to address these funding shortfalls. 
For example, in fiscal year 2009, we were successful in securing $20 
million to provide a state-of-the-art facility to enhance the 
productivity and efficiency of submarine depot availabilities. Since 
1971, all but four of the military construction projects at Portsmouth 
Naval Shipyard have been congressional priorities and not included in 
the Administration's budget requests. To their credit, the workforce 
continues to safely deliver boats to the Navy on time and on budget.
    Why is it that my colleagues and I need to fight every year to make 
capital improvements to Portsmouth, a shipyard that former BRAC 
commission chairman, Anthony Principi, referred to as the Nation's 
preeminent shipyard?
    Answer. Last year, the Navy completed a comprehensive condition 
assessment of Naval shipyard buildings to analyze restoration 
requirements. A configuration analysis was also recently completed for 
modernization requirements.
    The Department is currently in the process of developing the future 
investment plans to ensure we can continue to effectively invest in our 
public shipyards to meet future mission requirements given the 
constrained fiscal environment.
    Portsmouth Naval Shipyard's capital improvement requirements are 
included in this analysis. Milcon and Special Projects address facility 
deficiencies in the shipyard long-range infrastructure modernization 
plan. These projects are assessed against all other Navy mission 
critical requirements and prioritized for funding within our limited 
fiscal controls.
    We are investing $23.8 million in fiscal year 2010 and $17.0 
million in fiscal year 2011 for O&M Special Projects in our continuing 
effort to sustain and improve Portsmouth infrastructure. We appreciate 
the continued support from Congress to provide capital improvements at 
Portsmouth Naval Shipyard. The Navy's shipyards are fully mission 
capable and will continue to meet both current and future planned ship 
maintenance workload.
                                 ______
                                 
                Questions Submitted to Dr. Dorothy Robyn
             Questions Submitted by Senator Mitch McConnell

    Question. Ireland Army Community Hospital at Fort Knox is one of 
the oldest hospitals in the Army. With the new Brigade Combat Team 
stationed at the post, I am concerned over the state of the current 
hospital and its ability to meet the increased demands placed upon it. 
What is the status of the Army's decision on whether and when to build 
a replacement?
    Answer. The Department is currently in the process of developing 
the fiscal year 2012 Future Year Defense Plan of medical military 
construction projects. The Office of the Assistant Secretary of Defense 
for Health Affairs is working to ensure that the requirements for 
Ireland Army Community Hospital at Fort Knox, Kentucky, are properly 
considered as it develops future priorities for the medical military 
construction program.
    Question. With the recent addition of the Brigade Combat Team at 
Fort Knox, what is the Army doing to ensure that the installation is 
capable of deploying the unit with dispatch?
    Answer. Fort Knox is currently designated as a power support 
platform (PSP) with the mission of strategically deploying individuals 
and units from all services to include Department of Defense civilian 
employees and reserve components. Even with the addition of an Infantry 
Brigade Combat Team, Fort Knox has sufficient capacity to support all 
deploying units.
    The Army is working two key initiatives at Fort Knox to improve 
capabilities for deploying units. The first includes Army Forces 
Command (FORSCOM), providing additional resources (staff and funding) 
to support timely movement/deployment operations. Additionally, the 
Army has programmed military construction projects at Fort Knox to 
improve services, infrastructure and deployment readiness as part of 
the Army Power Projection Upgrade Program (AP3).
    Question. In light of heavy deployments, I am concerned that many 
installations, including Fort Campbell, are still housing soldiers in 
Korean War-era barracks. What is the Department of Defense doing to 
ensure housing is brought up to date to help increase morale for our 
already overly taxed troops?
    Answer. At Fort Campbell, the Army has a construction plan to 
eliminate the need for permanent party Soldiers to occupy Korean War-
era barracks at the installation by the end of fiscal year 2013.
    In 2008, the Army completed the permanent party Barracks Upgrade 
Program (BUP) using Army Sustainment, Restoration, & Modernization 
(SRM) funding. BUP eliminated many inadequate barracks through 
modernization of existing facilities, where feasible.
    Additionally, the permanent party Barracks Modernization Program 
(BMP) will eliminate the Army's barracks shortfall and renovate 
inadequate barracks where modernization with SRM funding is not 
feasible. The Army plans to complete the BMP by the end of fiscal year 
2013.
    The Army is continuously reviewing its capital investment strategy 
to validate its plans for the replacement and sustainment of barracks, 
which constitute a major feature in the Army Campaign Plan. These plans 
address all barracks built before 1980.
    Question. Why is the Blue Grass Army Depot chemical weapons 
stockpile in central Kentucky not being monitored around the clock?
    Answer. The Blue Grass Chemical Activity (BGCA), subordinate to the 
U.S. Army Chemical Materials Agency, is in charge of the safe storage 
of the chemical weapons at Blue Grass Army Depot. The stockpile is 
stored in earth covered steel reinforced concrete bunkers. The bunkers 
are in a secured area with intrusion detection along with armed guards 
on roving patrols providing surveillance 24 hours a day.
    The BGCA relies on multiple safeguards to monitor the chemical 
munitions stockpile to ensure public and workforce safety. These 
safeguards include monitoring in accordance with our approved Kentucky 
Department of Environmental Protection permit along with visual 
inspections and application of munitions lot leaker data from both BGCA 
and other chemical agent storage sites. This combination of safeguards 
along with an active Chemical Stockpile Emergency Response Program have 
been in place at BGCA and all Army chemical stockpile storage sites for 
decades, and history has proven their effectiveness at protecting the 
workforce and the public.
    Question. It is my understanding that Fort Campbell does not have a 
liaison to help our veterans' transition from the DOD healthcare system 
to the VA healthcare system like many military bases do, including Fort 
Knox. Is this true? If so, when can Fort Campbell expect to have a 
liaison fill this important role?
    Answer. The VA Liaison position in question is actually a 
Department of Veterans Affairs position. Through informal coordination 
with the VA, DOD has learned that this vacant position has been under 
recruitment and a selection has been made. The VA is working all the 
issues of bringing the selected person on board.
    Question. Where does the Department rank energy security among its 
energy policy priorities and why?
    Answer. The Quadrennial Defense Review defined ``energy security'' 
as ``having assured access to reliable supplies of energy and the 
ability to protect and deliver sufficient energy to meet operational 
needs.'' As such, the Department views energy security as the capstone 
of its energy policy, rather than as one of a list of competing 
priorities.
                                 ______
                                 
                 Questions Submitted to Derek Mitchell
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. During the hearing we discussed the many problems 
associated with the relocation of the U.S. Marines to Guam.
    Were the infrastructure shortcomings on Guam evaluated before the 
decision was made to relocate there?
    Answer. The Department understood the infrastructure limitations on 
Guam would represent a potential constraint of the realignment-related 
construction and on the long-term sustainability of the relocating 
Marine forces. The limitations were identified in the 2006 Realignment 
Roadmap agreement with the Government of Japan. That plan specifically 
notes that the military build-up on Guam will require improvements in 
the civil infrastructure of the island. The roadmap agreement states 
that identifying the specific upgrades or facility improvements 
required will be part of Joint Guam Military Master Plan.
    Question. Were any alternatives to Guam formally evaluated? If no, 
why not? If yes, what were they and why were they eliminated from 
consideration?
    Answer. As part of the process leading up to the Realignment 
Roadmap agreement in 2006, the Department conducted a thorough analysis 
of the full range of U.S. force realignment alternatives in the Asia-
Pacific region. In the end, the decision to move the Okinawa-based 
marines to Guam was made based on operational and political critical 
and our overall strategic requirements. The Guam relocation is part of 
a larger force restructuring plan under the Defense Policy Review 
initiative (DPRI) process. The full realignment package allows us to 
reposition more than 8,000 marines from Japan to Guam and return nearly 
70 percent of the land south of Kadena Air Base, benefiting the people 
of Okinawa, addressing noise, safety and environmental concerns, and 
creating a much more sustainable presence for U.S. forces on Okinawa--
all without adversely impacting the Alliance's operation needs and 
capabilities. As a U.S. territory strategically located in the Western 
pacific, forward deployment to Guam enables us to meet our treaty and 
alliance requirements with Japan, allows for a rapid response to 
potential contingencies, and grants our forces the freedom of action 
they need to fulfill our commitment to peace and stability in the Asia-
Pacific region.
                         Department of the Navy

STATEMENT OF ROGER M. NATSUHARA, ACTING ASSISTANT 
            SECRETARY OF THE NAVY (INSTALLATIONS AND 
            ENVIRONMENT)
ACCOMPANIED BY:
        MAJOR GENERAL EUGENE G. PAYNE, JR., ASSISTANT DEPUTY COMMANDANT 
            (INSTALLATIONS AND LOGISTICS)
        REAR ADMIRAL CHRISTOPHER J. MOSSEY, DIRECTOR OF SHORE READINESS

    Senator Hutchison. And now we have our second panel: Mr. 
Roger Natsuhara, the Acting Assistant Secretary of the Navy; 
Major General Eugene Payne, the Assistant Deputy Commandant for 
Installations and Logistics; Rear Admiral Christopher Mossey, 
the Director of Shore Readiness.
    I will start with you. Mr. Natsuhara, let us start with 
your opening statement.

                SUMMARY STATEMENT OF ROGER M. NATSUHARA

    Mr. Natsuhara. Thank you, ma'am. Ranking Member Hutchison, 
it is a privilege to come before you today to discuss the 
Department of the Navy's investments in its shore 
infrastructure. I am joined this morning by Major General 
Payne, the Marine Corps Assistant Deputy Commandant for 
Installations and Logistics, and Rear Admiral Mossey, Director 
of the Navy Shore Readiness Division.

                             INSTALLATIONS

    The Department's fiscal year 2011 budget request includes a 
$14.9 billion investment in our installations. The military 
construction request of $3.9 billion remains at an historical 
high.
    Our program continues the effort to ensure facilities are 
in place to support the Marine Corps end strength of 202,100 
active duty personnel. We are investing over $700 million in 
funding for the construction of unaccompanied housing to 
support single sailors and marines. These funds support 
requirements associated with the Marine Corps' Grow the Force 
initiative and the Chief of Naval Operation's commitment to 
achieve Homeport Ashore by 2016.

                                  GUAM

    The Milcon request also provides further investments to 
relocate marines from Okinawa to Guam. The projects funded by 
this level of investment provide enduring infrastructure 
necessary to enable the construction program for fiscal year 
2012 and beyond. The Government of Japan in its fiscal year 
2010 budget has requested a comparable amount of $498 million, 
and we expect to receive their contribution in June.
    Regarding the EIS for the Guam relocation, as it is 
designed to do, the National Environmental Policy Act process 
and associated studies are helping us identify and address 
environmental issues and constraints and develop effective 
mitigation strategies. To that end, we are currently analyzing 
all public comments, including those received from other 
resource agencies, in developing strategies for addressing 
concerns raised in the final EIS. We are committed to 
developing effective and appropriate mitigation.

                             FAMILY HOUSING

    The family housing request provides for the 
recapitalization of overseas housing, as well as additional 
privatization, to address the Marine Corps Grow the Force 
initiative.

                      BASE REALIGNMENT AND CLOSURE

    Regarding prior BRAC, we do not foresee much potential for 
large revenue from land sales. Thus, we again seek appropriate 
funds in fiscal year 2011 in the amount of $162 million. The 
BRAC 2005 budget request of $342 million supports outfitting, 
realignment, and closure functions as the necessary 
construction project for funding in prior years. We are on 
track for full compliance with statutory requirements by the 
September 15, 2011 deadline.

                                 ENERGY

    Finally, the Department is investing an additional $174 
million to support Secretary Mabus' aggressive energy goals to 
increase energy security, reduce dependency on fossil fuels, 
and promote good stewardship of the environment.

                           PREPARED STATEMENT

    In closing, your support of the Department's fiscal year 
2011 budget request will ensure the Department is able to build 
and maintain facilities that enable our Navy and Marine Corps 
to meet the diverse challenges of tomorrow. Thank you for the 
opportunity to testify before you today. I look forward to 
answering any questions you may have.
    Senator Hutchison. Thank you.
    [The statement follows:]

   Prepared Statement of Roger M. Natsuhara; Major General Eugene G. 
             Payne; and Rear Admiral Christopher J. Mossey

    Chairman Johnson, Senator Hutchison, and members of the 
subcommittee, I am pleased to appear before you today to provide an 
overview of the Department of Navy's investment in its shore 
infrastructure.

                  THE NAVY'S INVESTMENT IN FACILITIES

    Our Nation's Navy-Marine Corps team operates globally, having the 
ability to project power, effect deterrence, and provide humanitarian 
aid whenever and wherever needed to protect the interests of the United 
States. Our shore infrastructure provides the backbone of support for 
our maritime forces, enabling their forward presence. The Department's 
fiscal year 2011 budget request includes a $14.9 billion investment in 
our installations, an increase of over $450 million from last year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our fiscal year 2011 request for Base Operating Support is $6.9 
billion (which includes nearly $450 million for environmental 
programs), 6.7 percent greater than last year's request.
    The fiscal year 2011 military construction (active + reserve) 
request of $3.9 billion is only slightly larger than fiscal year 2010 
request and remains at a historical high. The program continues the 
effort to ensure facilities are in place to support the Marine Corps' 
end-strength of 202,100 active duty personnel. It also provides further 
investments in accordance with the Defense Policy Review Initiative to 
relocate marines from Okinawa to Guam.
    The fiscal year 2011 Family Housing request of $553 million 
represents a 7 percent increase from the fiscal year 2010 request. The 
Navy and Marine Corps have continued to invest in housing, including 
both the recapitalization of overseas housing as well as additional 
privatization to address housing requirements. Thus, having virtually 
privatized all family housing located in the United States, at overseas 
and foreign locations where we continue to own housing we are investing 
in a ``steady state'' recapitalization effort to replace or renovate 
housing where needed.
    Our BRAC program consists of environmental cleanup and caretaker 
costs at prior BRAC locations, and implementation of BRAC 2005 
recommendations.
    We do not foresee much potential for large revenue from land sales, 
which were used to fund the Legacy BRAC program from fiscal year 2005 
through fiscal year 2008. Thus, we again seek appropriated funds in 
fiscal year 2011 in the amount of $162 million. Should land sale 
revenue accrue from the disposal of the former Naval Station Roosevelt 
Roads in Puerto Rico and some other smaller property sales, we will 
reinvest them to accelerate cleanup at the remaining prior BRAC 
locations.
    The fiscal year 2011 BRAC 2005 budget request of $342 million 
supports only outfitting, realignment, and closure functions as the 
necessary construction projects were funded in prior years. The 
Department has made significant progress during the past year, and to 
date has completed 253 of 488 realignment and closure actions as 
specified in our established business plans and we are on track for 
full compliance with statutory requirements by the September 15, 2011 
deadline.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, the Department's PB 2011 budget request includes an 
additional $174 million to support Secretary Mabus' aggressive energy 
goals to increase energy security, reduce dependency on fossil fuels, 
and promote good stewardship of the environment. Toward this end, he 
directed an additional investment of $1.4 billion be made through the 
Future Years Defense Program. The PB 2011 program funds three military 
construction projects to build photovoltaic arrays, continues research 
and development in operational energy efficiencies for the tactical 
fleet, and will enable the Services to increase the energy efficiency 
of its infrastructure.
    Here are some of the highlights of these programs.

                         MILITARY CONSTRUCTION

    The DoN's fiscal year 2011 Military Construction program requests 
appropriations of $3.9 billion, including $122 million for planning and 
design and $21 million for Unspecified Minor Construction.
    The active Navy program totals $1.1 billion and includes:
  --$399 million to fund 11 Combatant Commander projects: a General 
        Warehouse, a Horn of Africa Joint Operations Center, a base 
        Headquarters Facility, and External Road Paving at Camp 
        Lemonier, Djibouti; an Operations Support Facility, the third 
        phase of the Waterfront Development, and an Ammunition 
        Magazines in Bahrain; a Joint POW/MIA Accounting Command 
        Facility and a Center for Disaster Management/Humanitarian 
        Assistance in Pearl Harbor, Hawaii; a Vehicle Paint Facility at 
        Macdill AFB, Florida; and an Air Traffic Control Tower in Naval 
        Air Station Rota, Spain.
  --$75 million to fund one Bachelor Quarters at Naval Base San Diego, 
        California in support of the elimination of Homeport Ashore 
        deficits by 2016 at the Interim Assignment Policy (2 personnel 
        per room).
  --$101 million to fund four Nuclear Weapons Security projects: a 
        Security Enclave and Waterfront Emergency Power at Submarine 
        Base Kings Bay, Georgia; and Waterfront Emergency Power and 
        Limited Area Emergency Power at Naval Base Kitsap, Washington.
  --$148 million to fund five projects to achieve Initial/Final 
        Operational Capability requirements for new systems: an 
        Aviation Simulator Training Facility at Naval Air Facility 
        Atsugi, Japan; a Broad Area Maritime Surveillance Testing and 
        Evaluation Facility at Naval Air Station Patuxent River, 
        Maryland; a T-6 Capable Runway Extensions at Outlying Landing 
        Fields (OLF) Barin and Summerdale, Alabama; a MH-60 R/S Rotary 
        Hangar at Naval Base Coronado, California; and Upgrades to 
        Piers 9/10 at Naval Station Norfolk, Virginia.
  --$196 million to fund additional critical Navy Priorities: an 
        Electromagnetic Sensor Facility at Naval Station Newport, Rhode 
        Island; the second phase of the Agile Chemical Facility at 
        Indian Head, Maryland; a Pier Replacement and Dredging at Naval 
        Base San Diego, CA; a Laboratory Expansion at Naval Base 
        Kitsap, Washington; and a Pier Upgrade at Naval Station 
        Norfolk, Virginia.
  --$119 million to fund follow-on increments of projects previously 
        incremented by Congress: the final increment of the Limited 
        Area Production and Storage Facility at Naval Base Kitsap, 
        Washington; and the second increment of the Pier 5 
        Recapitalization at Norfolk Naval Shipyard, Virginia.
  --$57 million for planning and design efforts.
    The active Marine Corps program totals $2.8 billion of which $1.25 
billion is for Grow the Force and $452 is for design and construction 
to support the relocation of marines to Guam.
  --$630 million for the construction of unaccompanied housing at Camp 
        Pendleton, Twentynine Palms, Hawaii, Cherry Point, Camp 
        Lejeune, and Quantico in a continuation of the Commandant of 
        the Marine Corps' initiative to improve the quality of life for 
        single marines;
  --$74 million to provide quality of life facilities such as dining 
        facilities and physical fitness centers at Beaufort, Hawaii, 
        and Camp Lejeune;
  --$56 million to construct student billeting for the Basic School in 
        Quantico, Virginia;
  --$357 million to build infrastructure to support new construction. 
        These projects include communications upgrades, electrical 
        upgrades, natural gas systems, drinking and wastewater systems. 
        These projects will have a direct effect on the quality of life 
        of our marines. Without these projects, basic services 
        generally taken for granted in our day-to-day lives, will fail 
        as our marines work and live on our bases;
  --$781 million to fund operational, maintenance, and storage support 
        projects such as those needed for the MV-22 aircraft at New 
        River and Miramar and Joint Strike Fighter at Yuma; and 
        operational units in Camp Lejeune, Cherry Point, Camp 
        Pendleton, and Hawaii;
  --$195 million to provide training facilities for aviation units at 
        Camp Pendleton, Beaufort, and Yuma;
  --$50 million to support professional military education by providing 
        facilities at Marine Corps University in Quantico;
  --$25 million to provide encroachment control at Beaufort and Bogue 
        Field;
  --$30 million to provide military construction-funded photovoltaic 
        power plants at Camp Pendleton, San Diego, and Camp Lejeune;
  --$75 million to support on- and off-load equipment operations at 
        Blount Island;
  --$427 million for facilities necessary to support the relocation of 
        marines to Guam; and
  --$64 million for planning and design efforts.
    With these new facilities, marines will be ready to deploy and 
their quality of life will be enhanced. Without them, quality of work, 
quality of life, and readiness for many marines will have the potential 
to be seriously degraded.
    The Navy and Marine Corps Reserve Military Construction 
appropriation request is $61 million, including $2 million for planning 
and design efforts, to construct a Reserve Training Facility at Yakima, 
Washington, a Vehicle Maintenance Facility at Twenty-Nine Palms, 
California, a Joint Air Traffic Control Tower at Joint Reserve Base New 
Orleans, Louisiana, and an Ordnance Cargo Logistics Training Complex at 
Naval Weapons Station Yorktown, Virginia.

         FULLY FUNDED AND INCREMENTALLY FUNDED MILCON PROJECTS

    Our fiscal year 2011 budget request complies with Office of 
Management and Budget Policy and the DOD Financial Management 
Regulation that establishes criteria for the use of incremental 
funding. The use of incremental funding in this budget has been 
restricted to the continuation of projects that have been incremented 
in prior years. Otherwise, all new projects are fully funded or are 
complete and usable phases. However, as the cost of complex piers and 
utilities systems rise above the $100 million and even $200 million 
threshold, compliance with the full-funding policy drives both Services 
to make hard choices regarding which other equally critical projects 
must be deferred into the next year.

                         FACILITIES MANAGEMENT

Facilities Sustainment, Restoration and Modernization (SRM)
    The Department of Defense uses a Sustainment model to calculate 
life cycle facility maintenance and repair costs. These models use 
industry-wide standard costs for various types of buildings and 
geographic areas and are updated annually. Sustainment funds in the 
Operation and Maintenance accounts are used to maintain facilities in 
their current condition. The funds also pay for preventative 
maintenance, emergency responses for minor repairs, and major repairs 
or replacement of facility components (e.g. roofs, heating and cooling 
systems). The fiscal year 2011 budget request funds sustainment at 92 
percent and 90 percent for the Navy and Marine Corps, respectively. For 
Navy, funding includes Joint Basing investments which requirements have 
yet to transfer. Once they do, the rate will revert to 90 percent.
    Restoration and modernization (R&M) provides major upgrades of our 
facilities using Military Construction, Operation and Maintenance, Navy 
Working Capital Fund, and BRAC, as applicable. Although OSD has 
determined a condition-based model (``Q-ratings'') is the best approach 
to prioritize funding, establishing metrics has been challenging. 
Nonetheless, in fiscal year 2011, the Department of Navy is investing 
nearly $1.3 billion in R&M funding.

Encroachment Partnering
    The Department of the Navy has an aggressive program to manage and 
control encroachment, with a particular focus on preventing 
incompatible land use and protecting important natural habitats around 
installations and ranges. A key element of the program is Encroachment 
Partnering (EP), which involves cost-sharing partnerships with States, 
local governments, and conservation organizations to acquire interests 
in real property adjacent and proximate to our installations and 
ranges. Encroachment Partnering Agreements help prevent development 
that would adversely impact existing or future missions. These 
agreements also preserve important habitat near our installations in 
order to relieve training or testing restrictions on our bases. The 
program has proven to be successful in leveraging Department of Defense 
and Department of Navy resources to prevent encroachment.
    For fiscal year 2009, the Navy acquired restrictive easements over 
3,091 acres. The acquisitions were funded by $7.1 million from the 
Department of Defense Readiness and Environmental Protection Initiative 
(REPI) program, $2 million of Navy funds, and $9.25 million from the 
encroachment partners. The Marine Corps during fiscal year 2009 
acquired easements over 1,777 acres. These acquisitions were funded by 
$7.7 million from REPI, $6.2 million from Navy funds, and $7.2 million 
from the encroachment partners. The encroachment program has 
successfully initiated restrictive easement acquisitions at 13 Navy 
installations and 7 Marine Corps installations.

Compatible Development
    Vital to the readiness of our Fleet is unencumbered access to 
critical water and air space adjacent to our facilities and ranges. An 
example is the outer continental shelf (OCS) where the vast majority of 
our training evolutions occur. The Department realizes that energy 
exploration and off-shore wind development play a crucial role in our 
Nation's security and are not necessarily mutually exclusive endeavors. 
Therefore, we are engaging with the other services, the Secretary of 
Defense's office, and the Department of Interior to advance the 
administration's energy strategy. We are poised to coordinate with 
commercial entities, where feasible, in their exploration and 
development adjacent to installations and our operating areas along the 
OCS that are compatible with military operations. However, we must 
ensure that obstructions to freedom of maneuver or restrictions to 
tactical action in critical range space do not measurably degrade the 
ability of naval forces to achieve the highest value from training and 
testing.
    The Department of the Navy has an aggressive program to manage and 
control encroachment, with a particular focus on preventing 
incompatible land use and protecting important natural habitats around 
installations and ranges. A key element of the program is Encroachment 
Partnering (EP), which involves cost-sharing partnerships with States, 
local governments, and conservation organizations to acquire interests 
in real property adjacent and proximate to our installations and 
ranges. The Department prevents development that is incompatible with 
the readiness mission, and our host communities preserve critical 
natural habitat and recreational space for the enjoyment of residents. 
Navy and Marine Corps have ongoing EP agreements at 14 installations 
and ranges nationwide, with additional agreements and projects planned 
in fiscal year 2010. EP has been a highly effective tool for addressing 
encroachment threats from urban development and is a win-win for the 
Department and our host communities.
    In fiscal year 2008, Navy and Marine Corps completed partnership 
acquisitions on 16,662 acres. Funding for those purchases of land and 
easements included a combined contribution from DOD and DoN of $11.72 
million, which was matched by similar investments from partner 
organizations. In fiscal year 2009, Navy and Marine Corps received an 
additional $19.78 million from the DOD Readiness and Environmental 
Protection Initiative program, which will be combined with funding from 
the Department and our partner organization.

                             ENERGY REFORM

    The Department of the Navy (DoN) is committed to implementing a 
balanced energy program that exceeds the goals established by the 
Energy Independence and Security Act of 2007, Energy Policy Act of 
2005, National Defense Authorization Act of 2007 and 2010, Executive 
Orders 13423 and 13514. We place a strong emphasis on environmental 
stewardship, reducing overall energy consumption, increasing energy 
reliability, and reducing our dependence on fossil fuels. The 
Department is a recognized leader and innovator in the energy industry 
by the Federal Government and private sector as well. Over the past 9 
years, DoN has received 28 percent of all of the Presidential awards 
and 30 percent of all of the Federal energy awards. Additionally, DoN 
has received the Alliance to Save Energy ``Star of Energy Efficiency'' 
Award and two Platts ``Global Energy Awards'' for Leadership and Green 
Initiatives.

Organization and Commitment
    Increased Energy Efficiency is a Department of Defense (DOD) High 
Priority Performance Goal. Moreover, the Secretary of the Navy (SECNAV) 
is whole-heartedly committed to the energy effort and it is one of his 
top three initiatives for the Department. The Secretary established a 
Deputy Assistant Secretary of the Navy for Energy (DASN-Energy) to 
consolidate the Department's operational and installation energy 
missions. The consolidation of both operational and installation energy 
portfolios under one director is unique to the Department of the Navy. 
The DASN-Energy will be a career member of the Senior Executive Service 
who will report directly to the ASN (I&E) and will be able to 
coordinate across the Department to develop overarching policy, provide 
guidance, oversee the continued development of new ideas and align 
existing programs. In turn, each of the Services has established an 
energy management office to implement the Secretary's guidance. Within 
the Chief of Naval Operations (CNO) organization, a Navy Energy 
Coordination Office (NECO) was established to develop and 
institutionalize the Navy's Energy Strategy. Within the Commandant of 
the Marine Corps (CMC) organization, an Expeditionary Energy Office was 
established to drive energy efforts and initiatives within the 
expeditionary forces on the ground in theater.
    From the secretary down to the deck plate sailor and the marine in 
the field, the Department is committed to meeting our aggressive energy 
goals. We all view energy as an invaluable resource that provides us 
with a strategic and operational advantage.

Energy Goals
    The key statutory and regulatory goals relevant to installation 
energy consumption require the following:
  --Reduce energy intensity (BTUs per square foot) by 3 percent per 
        year, or 30 percent overall, by 2015 from the 2003 baseline 
        [Energy Independence and Security of 2007, or EISA] [this 
        includes an 18 percent reduction by the end of fiscal year 2011 
        in accordance with DOD's High Priority Performance Goals in the 
        President's Budget];
  --Increase use of renewable energy to 7.5 percent in 2013 and beyond 
        (Energy Policy Act of 2005, or EPACT); and produce or procure 
        25 percent of all electric energy from renewable sources by the 
        end of 2025 [National Defense Authorization Act of 2007] [this 
        includes the DOD's High Priority Performance Goal of 14.3 
        percent by 2011]; and
  --Reduce consumption of petroleum (gasoline and diesel) by non-
        tactical vehicles by 30 percent by 2020 [Executive Order 13514, 
        October 2009].
    However, in October of 2009, Secretary Mabus established far more 
aggressive goals for the Department. For installations, he directed 
that 50 percent of our shore energy will come from alternative sources 
and that by 2015 the Department will reduce fleet vehicle petroleum 
usage by greater than 50 percent. Based on these ambitious energy 
goals, we are developing our strategic roadmap and a set of energy 
directives that will provide guidance and direction to the Navy and 
Marine Corps. We are also developing baseline metrics, milestones, 
tools and methodologies to measure and evaluate progress towards 
meeting the Secretary's goals. Additionally, we are documenting our 
past and current energy use for tactical platforms and shore 
installations. We are making investments, allocating resources, 
developing possible legislation, institutionalizing policy changes, 
creating public-private partnerships, and pursuing technology 
development required to meet these goals. These investments will 
include $28.23 million in Energy Conservation Investment Program (ECIP) 
projects, which have a savings to investment ratio of 2.94.

                                HOUSING

    The following tenets continue to guide the Department's approach to 
housing for sailors, marines, and their families:
  --All service members, married or single, are entitled to quality 
        housing; and
  --The housing that we provide to our personnel must be fully 
        sustained over its life.
    A detailed discussion of the Department's family and unaccompanied 
housing programs, and identification of those challenges, follows:

                             FAMILY HOUSING

    As in past years, our family housing strategy consists of a 
prioritized triad:
  --Reliance on the Private Sector.--In accordance with longstanding 
        DOD and DoN policy, we rely first on the local community to 
        provide housing for our sailors, marines, and their families. 
        Approximately three out of four Navy and Marine Corps families 
        receive a Basic Allowance for Housing (BAH) and own or rent 
        homes in the community. We determine the ability of the private 
        sector to meet our needs through the conduct of housing market 
        analyses that evaluate supply and demand conditions in the 
        areas surrounding our military installations.
  --Public/Private Ventures (PPVs).--With the strong support from this 
        Committee and others, we have successfully used PPV authorities 
        enacted in 1996 to partner with the private sector to help meet 
        our housing needs through the use of private sector capital. 
        These authorities allow us to leverage our own resources and 
        provide better housing faster to our families. Maintaining the 
        purchasing power of BAH is critical to the success of both 
        privatized and private sector housing.
  --Military Construction.--Military construction (Milcon) will 
        continue to be used where PPV authorities don't apply (such as 
        overseas), or where a business case analysis shows that a PPV 
        project is not feasible.
    Our fiscal year 2011 budget includes $186 million in funding for 
family housing construction, improvements, and planning and design. 
This amount includes $107 million for the Government investment in 
continued family housing privatization at Marine Corps Bases Camp 
Pendleton, California and Camp Lejeune, North Carolina. The request for 
Camp Lejeune includes funding for an addition to a Department of 
Defense school. It also includes $76 million for the replacement or 
revitalization of Navy and Marine Corps housing, primarily in Japan and 
Cuba where the military housing privatization authorities do not apply. 
Finally, the budget request includes $366 million for the operation, 
maintenance, and leasing of remaining Government-owned or controlled 
inventory.
    As of the end of fiscal year 2009, we have awarded 33 privatization 
projects involving over 62,000 homes. These include over 42,000 homes 
that will be constructed or renovated. (The remaining homes were 
privatized in good condition and did not require any work.) Through the 
use of these authorities we have secured approximately $9 billion in 
private sector investment from approximately $900 million of our funds, 
which represents a ratio of over nine private sector dollars for each 
taxpayer dollar.
    While the military housing privatization initiative has been 
overwhelmingly successful, we can continue to work with our partners to 
address challenges associated with current economic conditions. In some 
cases, projects may need to be restructured to better match supply with 
demand and to ensure that the housing will continue to be sustained and 
recapitalized over the long term.
    Perhaps the most important measure of success of our privatization 
program has been the level of satisfaction on the part of the housing 
residents. To gauge their satisfaction, we used customer survey tools 
that are well established in the marketplace. As shown in the following 
chart, the customer surveys indicate a steady improvement in member 
satisfaction after housing is privatized. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Unaccompanied Housing
    Our budget request includes over $700 million in funding for the 
construction of unaccompanied housing to support single sailors and 
marines. This includes over $600 million of funding to support 
requirements associated with the Marine Corps ``Grow the Force'' 
initiative and to continue implementation of the Commandant of the 
Marine Corps program to construct sufficient housing so that no more 
than two single marines are required to share a sleeping room. The 
budget request also includes $75 million to support the Chief of Naval 
Operations commitment to achieve the Navy's ``Homeport Ashore'' 
objective by 2016.
    The following are areas of emphasis within the Department regarding 
housing for single sailors and marines:
  --Provide Homes Ashore for Our Shipboard Sailors.--The Homeport 
        Ashore initiative seeks to provide a barracks room ashore 
        whenever a single sea duty sailor is in his or her homeport, so 
        they need not live on the ship. The Navy has made considerable 
        progress towards achieving this goal through military 
        construction, privatization, and intensified use of existing 
        barracks capacity. The Chief of Naval Operations is committed 
        to providing housing ashore for all junior sea duty sailors by 
        2016 at the Interim Assignment Policy standard (55 square feet 
        of space per person). The Navy's long term goal is to achieve 
        the OSD private sleeping room standard (90 square feet per 
        person).
  --Commandant's BEQ Initiative.--It is the Commandant of the Marine 
        Corps' priority to ensure single marines are adequately housed. 
        Thanks to your previous support of this initiative, the Marine 
        Corps will make significant progress toward fulfilling this 
        priority. Milcon funding since fiscal year 2008 for the Marine 
        Corps barracks initiative will result in the construction of 
        approximately 19,800 new permanent party spaces at multiple 
        Marine Corps installations. Your continued support of this 
        initiative in our fiscal year 2011 proposal will allow us to 
        construct an additional 5,000 new permanent party barracks 
        spaces. With this funding we will stay on track to meet our 
        2014 goal. The fiscal year 2011 request for bachelor housing 
        will provide 13 barracks projects at Camp Lejeune and Cherry 
        Point, North Carolina, Twenty-Nine Palms, and Camp Pendleton, 
        California, Hawaii, and Quantico, Virginia. We are also 
        committed to funding the replacement of barracks' furnishings 
        on a 7-year cycle as well as the repair and maintenance of 
        existing barracks to improve the quality of life of our 
        marines. These barracks will be built to the 2+0 room 
        configuration, as have all Marine Corps barracks since 1998. 
        This is consistent with the core Marine Corps tenets for unit 
        cohesion and teambuilding.

Unaccompanied Housing Privatization
    The Navy has also executed two unaccompanied housing privatization 
projects using the pilot authority contained in section 2881a of title 
10, United States Code. In March we cut the ribbon on the Pacific 
Beacon project in San Diego. Pacific Beacon includes 258 conveyed units 
targeted for unaccompanied E1-E4 sea duty sailors and 941 newly 
constructed dual master suite units targeted for E4-E6 sailors.
    The second unaccompanied housing privatization project is in 
Hampton Roads (executed in December 2007) and included the conveyance 
of 723 units in seven buildings on Naval Station and Naval support 
Activity Norfolk and the construction of 1,190 dual master suite units. 
The last units are scheduled for completion in 2010.
    With these two pilot projects, we have secured approximately $600 
million in private sector investment from approximately $80 million of 
our funds, which represents a ratio of over seven private sector 
dollars for each taxpayer dollar.
    Based on resident surveys, the residents of privatized 
unaccompanied housing at both San Diego and Hampton Roads are very 
satisfied with service received from the privatization partner as well 
as the condition of the units. San Diego won an industry award for 
excellence in providing customer satisfaction.

                     RELOCATING THE MARINES TO GUAM

    The fiscal year 2011 budget request includes $452 million to design 
and construct facilities in support of the relocation. The projects 
funded by this level of investment provide the horizontal 
infrastructure (utilities, site improvements, etc.) necessary to enable 
the vertical construction programmed for fiscal year 2012 and beyond. 
The Government of Japan, in its J-fiscal year 2010 budget (which runs 
April 1, 2010 through March 31, 2011) has requested a comparable amount 
of $498 million and we expect to receive their contribution in June. 
The graph at left identifies the projects each funding stream 
constructs. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Marine Corps relocation, along with other DOD efforts to 
realign forces and capabilities to Guam, represents a unique 
opportunity to strategically realign the U.S. force posture in the 
Pacific for the next 50 years. This is a major effort and one we must 
get right. The Department of Defense recognizes that the condition of 
Guam's existing infrastructure could affect both our ability to execute 
the program schedule and quality of life on the island. If the issues 
surrounding existing infrastructure and other major social issues 
impacting Guam are left unaddressed by the Federal Government in this 
strategic realignment, we risk creating disparity between conditions 
on- and off-base, losing the support of the people of Guam, and 
adversely affecting our ability to achieve our mission. The Department 
of Defense is committed to ensuring this does not happen, and is 
leading the effort to coordinate an interagency ``whole-of-government 
approach'' to solve Guam's many issues. Our strategy is to identify 
options that will support DOD missions, provide the widest possible 
benefit to the people of Guam, be technically and financially 
supportable by utilities providers and rate payers, and be acceptable 
to Government of Guam and regulatory officials. DOD recently held a 
meeting of the Economic Adjustment Committee (EAC) as recommended in a 
recent Government Accountability Office review, to discuss with Federal 
agencies and departments a plan for identifying and addressing Guam's 
priority needs.
    Construction capacity studies, assessments of socioeconomic 
impacts, and the development of the Environmental Impact Statement 
(EIS) have demonstrated that, in particular, Guam's road network, 
commercial port, and utilities systems are in need of upgrades. DOD is 
contributing to funding upgrades to the island's public roadways, 
bridges and intersections through the Defense Access Road (DAR) 
program. Road improvement projects have been certified by 
Transportation Command's Surface Deployment and Distribution Command 
under the DAR program for fiscal year 2011, following up on the 
projects funded in fiscal year 2010. Existing deficiencies in the 
island's road system and long-term traffic impacts due to the projected 
population increase are being considered in partnership between Guam 
Department of Public Works and the U.S. Federal Highway Administration. 
These efforts are occurring in parallel in order to ensure 
compatibility and mutual benefit to DOD and the Guam community.
    The commercial port, which is vital to this isolated island 
community, has not undergone any major improvements since it began 
operations 40 years ago. The port requires near and long-term 
improvements to support the military buildup and future community 
growth. The Port Authority of Guam (PAG) and the U.S. Maritime 
Administration (MARAD) signed a memorandum of understanding to improve 
the port by developing an adequate master plan and implementation of a 
Capital Improvement Plan. These plans will develop the port into a 
regional shipping hub that will serve both military and civilian needs 
in the region in the long term. With recommended upgrades and 
improvements to materials-handling processes, the Port of Guam should 
be able to accommodate throughput to sustain the expected $1.5-2.0 
billion per year in construction volume. DOD, MARAD, PAG, the 
Government of Guam, and Federal agencies are currently working to 
identify a funding source which could support the near-term 
improvements required at the port.
    Of the total $6.09 billion Japanese commitment included in the 
Realignment Roadmap, $740 million is for developing electric, potable 
water, sewer, and solid waste infrastructure in support of the 
relocating Marine Corps forces. Analysis of utilities options indicates 
that developing new, stand-alone systems will not be cost-effective. 
DOD is collaborating with Guam's utilities providers to understand 
their needs and to determine the feasibility of water, wastewater, 
solid waste and power solutions that are mutually beneficial and 
acceptable to DOD, the civilian community and the regulatory agencies. 
We are actively working with Guam's Consolidated Commission on 
Utilities and utilities providers (Guam Power Authority, Guam Water 
Authority), Guam EPA, and U.S. EPA to develop the best technical 
solutions for utilities systems and facilities. Specific to wastewater, 
Guam's current system requires upgrades to both increase its capacity 
and to meet standards for primary and secondary treatment. These 
upgrades are critical enablers to the construction program and we are 
anticipating funding from Japan to meet these requirements. We are also 
working with the Department of Interior, U.S. EPA, and the Department 
of Agriculture on potential funding opportunities using a whole-of-
government approach to addressing island-wide utilities solutions.
    DOD's Office of Economic Adjustment (OEA) has provided the 
Government of Guam with grants totaling more than $10 million to 
support environmental, financial and planning studies; staffing; and 
community outreach programs.
    We will seek to maximize opportunities for U.S. workers, including 
the existing workforce on Guam. Nonetheless, we recognize the potential 
for significant socioeconomic effects on Guam with the introduction of 
off-island workers who will support the construction program. In order 
to minimize negative effects, we worked closely with the Government of 
Guam, Federal agencies, and other stakeholders to develop requirements 
which would mitigate environmental and social impacts associated with 
the anticipated influx of off-island construction workers. Our 
acquisition strategy includes contract provisions requiring contractors 
to provide concrete, feasible plans and resources to mitigate potential 
socioeconomic impacts. In awarding construction contracts a workforce 
management plan, is one of three major technical factors in the source 
selection criteria.
    Among the areas we are evaluating in the workforce management 
source selection criteria are management of medical, housing, dining, 
transportation, and security for workers, taking into account potential 
long-term positive side benefits that different solutions may have for 
the Guam community.

Environmental Impact Statement
    As it is designed to do, the National Environmental Policy Act 
(NEPA) process and associated studies are helping us identify and 
address environmental issues and constraints and develop effective 
mitigation strategies. A key milestone to executing the realignment 
within the targeted timeframe is achieving a Record of Decision on a 
schedule that allows for construction to begin in fiscal year 2010. The 
target for a Record of Decision is August 2010. On November 20, 2009, 
we released the Draft EIS for public review with a 90-day comment 
period. This comment period, which was twice the amount of time 
required under NEPA, was used because we were committed to ensuring 
that all interested parties have full opportunity to review and provide 
comment on the DEIS. We realize there are significant and complicated 
issues that need to be studied in preparing the Final EIS and reaching 
a Record of Decision (ROD) on the realignment effort. We also recognize 
the interests of the public need to be protected. However, we remain on 
an aggressive schedule to finish the Final EIS by the summer of 2010, 
with ROD following. Other agencies have identified significant issues, 
including the potential long-term impacts to environmental resources, 
that we are analyzing along with all other comments received. To that 
end, we are currently analyzing all public comments including those 
received from other resource agencies and developing strategies for 
addressing concerns raised in the Final EIS. We are committed to 
developing effective and appropriate mitigation. Additionally, we will 
continue to meet with resource agencies as we have done throughout the 
development of the EIS to elevate and resolve several technical and 
policy issues. We will share with the Congress significant issues that 
emerge during the process of developing the final EIS.

                PRIOR BRAC CLEANUP AND PROPERTY DISPOSAL

    The BRAC rounds of 1988, 1991, 1993, and 1995 were a major tool in 
reducing our domestic installation footprint and generating savings. 
All that remains is to complete the environmental cleanup and property 
disposal on portions of 16 of the original 91 bases and to complete 
environmental cleanup, including long term monitoring at 22 
installations that have been disposed.

Property Disposal
    We disposed of 154 acres of real property in fiscal year 2009, for 
a total of 93 percent of real property disposed in the first four 
rounds of BRAC. We continue to use the variety of the conveyance 
mechanisms available for Federal Property disposal, including the 
Economic Development Conveyance (EDC) that was created for BRAC 
properties. Of the real property the Department has disposed, 91 
percent of this property was conveyed at no cost. From the remaining 9 
percent of conveyed property, the Department has received over $1.1 
billion in land sale revenues. We have used these funds to accelerate 
environmental cleanup and were able to finance the entire DON Prior 
BRAC effort, from fiscal year 2005 through fiscal year 2008.
    Future opportunities for land sale revenues, however, are very 
limited, and we continue our request for appropriated funds in fiscal 
year 2011. Our budget request of $162 million will enable us to 
continue disposal actions and meet the minimum legal requirements for 
environmental clean up. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prior BRAC Environmental Cleanup
    The Department has now spent about $4.3 billion on environmental 
cleanup, environmental compliance, and program management costs at 
prior BRAC locations through fiscal year 2009. Our remaining 
environmental cost to complete for fiscal year 2010 and beyond is 
approximately $1.4 billion. This includes $160 million cost growth 
which is due in part to additional munitions cleanup at Naval Air 
Facility Adak, AK and Naval Shipyard Mare Island, CA, clean up at Naval 
Station Roosevelt Roads, Puerto Rico, and additional long term 
monitoring program-wide. The increase is also associated with 
additional radiological contamination at Naval Station Treasure Island, 
CA, Naval Air Station Alameda, CA, and Naval Shipyard Mare Island, CA.

Naval Station Treasure Island, CA
    We would like to highlight a breakthrough on negotiations for the 
EDC of Naval Station Treasure Island. Negotiations had been ongoing 
with the city since 2007. Due to the disparity of the DON and City 
valuations, many compensation options were reviewed to convey the 
property while still obtaining Fair Market Value (FMV). The Navy had 
previously offered deferred compensation and percentages of gross 
revenue. The city had offered profit participation subordinate to a 
guaranteed return to developers. With adoption of language in the 
fiscal year 2010 National Defense Authorization Act, Congress enacted 
new EDC language that allows flexibility in transfer terms for EDCs 
including accepting profit participation structures.
    Utilizing this authority, we were able to announce in December that 
an agreement in principle was reached with the City of San Francisco to 
convey 996 acres of the former Naval Station Treasure Island. The 
agreement guarantees $55 million to the Navy paid over 10 years with 
interest and an additional $50 million paid once the project meets a 
return of 18 percent. Then after an additional 4.5 percent return to 
investors (22.5 percent total), the Navy would receive 35 percent of 
all proceeds. This deal represents a unique opportunity to spur 
development, while still providing a guaranteed payment to the Navy as 
well as a share in the benefit of what both the City and the Navy 
expect to be a successful redevelopment and job generating project.
    The environmental cleanup of Treasure Island is nearing completion. 
Once the City finalizes California Environmental Quality Act 
documentation and approvals with the Board of Supervisors in late 2010 
or early 2011, we will be in position for the clean transfer of more 
than 75 percent of the base. The remaining cleanup includes the 
continued treatment of two small groundwater plumes and removal of low 
level radioactive contamination. These projects and the remaining 
transfer are expected to be complete well before the land is needed for 
subsequent phases of the redevelopment project.

                        BRAC 2005 IMPLEMENTATION

    The Department has made significant progress during the past year, 
and to date has completed 253 of 488 realignment and closure actions as 
specified in our established business plans. A number of construction 
projects have already been completed or are well on their way. The PB 
2011 budget request of $342 million will enable us to continue 
outfitting buildings, realigning functions, and closing bases in 
accordance with our business plans. Although all 59 of Department of 
the Navy-led business plans have already been approved, four additional 
plans with Navy equity led by other services have been approved. Thus, 
the Department's BRAC 2005 Program is on track for full compliance with 
statutory requirements by the September 15, 2011 deadline.

Accomplishments
    In total, the Department has awarded 105 of 117 BRAC construction 
projects with a combined value of $1.8 billion. The final 12 projects 
worth approximately $303 million are on schedule for award this year. 
Some noteworthy achievements include:
  --Seven BRAC construction projects, programmed at $211 million, have 
        been awarded and are under construction at Joint Base McGuire-
        Dix-Lakehurst, NJ. This work supports the relocation of units, 
        aircraft, and equipment from the closure of Naval Air Station 
        Joint Reserve Base Willow Grove, PA. The Navy supported the 
        full operational capability of Joint Base McGuire-Dix-Lakehurst 
        and successfully transferred all Navy real property in 
        September 2009.
  --Construction projects valued at over $100 million have been awarded 
        to support the Consolidation of Correctional Facilities into 
        Joint Regional Correctional Facilities. New level II (Medium 
        Security) correctional facilities are being constructed at 
        Miramar, CA and Chesapeake, VA and an addition to the Navy's 
        Brig in Charleston, SC is underway.

Land Conveyances and Lease Terminations
    By the end of fiscal year 2009, the Department disposed of 42 
percent \1\ of the property that was slated for closure in BRAC 2005. 
These disposal actions were completed via a combination of lease 
terminations, reversions, public benefit conveyances, and Federal and 
DOD agency transfers. Of interest for fiscal year 2009 is the complete 
disposal of Naval Air Station Atlanta. Thirty seven acres were returned 
to the Air Force and 107 acres were transferred to the Army for use by 
the Georgia National Guard. Last year we also disposed of the Navy 
Reserve Center in Orange, TX for use by the community as a port 
facility.
---------------------------------------------------------------------------
    \1\ The percent disposed is lower than stated last year as we added 
over 300 acres to the amount to be disposed due to property becoming 
available at NS Newport and completion of legal surveys over the past 
year.
---------------------------------------------------------------------------
    The most significant action we have planned for 2010 is the 
reversion of the main base at Naval Station Ingleside, TX. We have been 
working closely with the Port of Corpus Christi to complete this action 
by the end of April, when the base will operationally close, 5 months 
earlier than planned. The 2010 Plan also includes transfer of real 
property at Naval Air Station Brunswick, the Navy Marine Corps Reserve 
Center Tacoma, WA, the Inspector Instructor Facility Rome, GA, and the 
last parcel at Navy Reserve Center Duluth, MN. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Naval Support Activity New Orleans, LA
    Construction for the new building that will house Headquarters, 
Marine Forces Reserve and Marine Corps Mobilization Command is well 
underway in the future Federal City. To support the closure of Naval 
Support Activity New Orleans and the relocation of base operating 
support and tenant activities to Naval Air Station Joint Reserve Base 
New Orleans, nine construction projects have been completed and another 
five are on-going.

Naval Air Station Brunswick, ME
    The Department's largest BRAC 2005 operational action will close 
Naval Air Station Brunswick, ME, and consolidate the East Coast 
maritime patrol operations in Jacksonville, FL. The newly constructed 
hangar in Jacksonville, FL, completed in May 2009, is now home to all 
five relocated P-3 squadrons. It will also support the future 
transition to the P-8 Poseidon aircraft. Runway operations in Brunswick 
ceased in February 2010.

Naval Air Station Joint Reserve Base Willow Grove, PA
    In 2007, legislation was enacted directing the Department to 
transfer Naval Air Station Joint Reserve Base Willow Grove, PA to the 
Air Force, who would then convey property to the Commonwealth of 
Pennsylvania for the operation of a Joint Interagency Installation. 
Since that time the Department and the Air Force have worked with the 
Commonwealth on the actions required to implement the transfer of real 
property.
    In November 2009, Governor Rendell of the Commonwealth of 
Pennsylvania informed the Secretary of Defense that the Commonwealth 
would no longer pursue the Joint Interagency Installation because of 
fiscal constraints. Based on that decision, the closure of Naval Air 
Station Joint Reserve Base Willow Grove will follow the established 
reuse planning process. To that end, the Department has initiated 
Federal Screening with other DOD and Federal agencies and is working 
with the LRA, Horsham Township, on its reuse planning efforts.

Joint Basing
    All four Joint Base Memorandums of Agreement (MOAs) where the 
Department is the lead component have now been approved. The MOA for 
each joint base defines the relationships between the components, and 
commits the lead component to deliver installation support functions at 
approved common standards. Resources including funding, personnel, and 
real property transfer to the lead component. The MOAs are reviewed 
annually for mission, manpower, and financial impacts and any needed 
resource adjustments. Joint Basing has two implementation phases. Phase 
I installations--Little Creek-Fort Story and Joint Region Marianas--
reached full operational capability in October 2009, and Phase II 
installations--Anacostia-Bolling and Pearl Harbor-Hickam--are planned 
for October 2010.

Environmental Cost To Complete and Financial Execution
    The Department's remaining environmental liabilities for BRAC 2005 
are substantially less than in previous rounds of BRAC given the 
relatively few number of closures, the absence of major industrial 
facilities, and the extensive site characterization, analysis, and 
cleanup that has occurred over the last several decades. Over the last 
year, we spent $8 million in cleanup at BRAC 2005 locations. The 
majority of this funded environmental activities at Naval Air Station 
Brunswick, ME and Naval Weapons Station Seal Beach Detachment Concord, 
CA. Our remaining environmental cost to complete for fiscal year 2010 
and beyond is $103 million.
    The Department is achieving an execution rate of our fiscal year 
2006-2009 funds of nearly 90 percent. We have realized bid savings on 
some construction projects and have primarily used these savings to 
offset other construction project increases.

Challenges
    We are scheduled to meet the September 15, 2011 deadline and will 
continue to manage ongoing construction, outfitting and relocation 
efforts closely. Many of our construction projects require either 
special certifications or accreditations before occupancy to include 
DOD Explosive Safety Board approvals, accreditation of correctional 
facilities or certification of Sensitive Compartmented Information 
Facilities within constructed facilities.
    We plan to continue to work closely with the other military 
services and defense agencies on complex relocation actions that 
require close coordination. While they remain on track for timely 
completion, we must maintain effective and continuous coordination to 
succeed.

              MEETING THE CONSTRUCTION EXECUTION CHALLENGE

    While our investment in infrastructure continues at a record 
breaking level, the Naval Facilities Engineering Command (NAVFAC) has 
demonstrated its ability to accomplish the program, and more. The 
Command's execution rate for fiscal year 2009 was nothing short of 
phenomenal; particularly considering it awarded the majority of the 
additional $1.8 billion American Recovery and Reinvestment Act program 
by the end of the calendar year while maintaining an execution rate of 
90 percent for the regular program. Only 10 ARRA projects remain to be 
awarded, including the new Naval Hospital at Camp Pendleton, CA.
    NAVFAC has a comprehensive acquisition strategy for executing the 
Guam realignment program, with plans to award three separate small 
business Multiple Award Construction Contracts (MACCs) and two MACCs 
for unrestricted competition. A Small Business MACC will be awarded 
this Spring, a Small Business 8(A) MACC will be solicited in March, and 
a HUBZONE MACC has been awarded. Additionally, there will be an 
unrestricted competitively bid MACC for U.S. funded projects, with 
another MACC planned for Japanese funded construction. Using smart 
acquisition strategies and leveraging resources across the enterprise, 
NAVFAC is fully capable of meeting the demand for its services.

                               CONCLUSION

    Our Nation's Sea Services continue to operate in an increasingly 
dispersed environment to support the Maritime Strategy and ensure the 
freedom of the seas. We must continue to transform and recapitalize our 
shore infrastructure to provide a strong foundation from which to re-
supply, re-equip, train, and shelter our forces. With your support of 
the Department's fiscal year 2011 budget request, we will be able to 
build and maintain facilities that enable our Navy and Marine Corps to 
meet the diverse challenges of tomorrow.
    Thank you for the opportunity to testify before you today. I look 
forward to working with you to sustain the war fighting readiness and 
quality of life for the most formidable expeditionary fighting force in 
the world.

    Senator Hutchison. General Payne.
    General Payne. Senator, in that you have our written 
statement, I just want to thank you for your steadfast support 
and the opportunity to be here today. And I look forward to 
your questions.
    Senator Hutchison. Thank you.
    General Payne. Yes, ma'am.
    Senator Hutchison. Admiral Mossey.
    Admiral Mossey. Senator, I would echo what General Payne 
said. Thank you for the subcommittee's support and I am ready 
to answer any questions you may have.

                                  GUAM

    Senator Hutchison. Okay. I think I am going to focus on 
Guam because that is clearly, I think, the most current issue 
that we have.
    Mr. Natsuhara, last year Congress provided $300 million for 
the Guam relocation project, and this year's request is $452 
million. Are the fiscal year 2010 projects currently on hold?
    Mr. Natsuhara. We are currently waiting until the EIS is 
completed. We are not able to move forward until the record of 
decision is signed and that is scheduled for the end of this 
fiscal year, and then we plan on executing our fiscal year--the 
previous money, the fiscal year 2010 money.
    Senator Hutchison. Okay. Let me talk to you, General Payne, 
about the status of the site for the preferred training range 
and what is the status of that. And just in general--I think it 
is clear from the earlier panel as well--is there any kind of 
alternative being looked at by the marines, either the full 
8,000 movement of marines, or is there anything that is being 
looked at in any kind of a lesser footprint in Guam?
    And if you do not get the preferred training range, would 
that also require you to look at other alternatives? And what 
are your plans or contingency plans, I guess I should say?
    General Payne. Yes, ma'am. As Mr. Mitchell said, a lot of 
alternatives were looked at before. But we are where we are 
now. I think your question is very pertinent in that based on 
what we know now, what are we doing, if I interpret your 
question correctly.
    Over the last year, we did take a very hard look at Korea 
and the viability of positioning marine forces there, and we 
looked at putting a small marine air/ground task force [MAGTF] 
there and the pros and cons of that. And we came away with the 
conclusion that Guam is far and away our preferred alternative.
    That said, should for some reason we run into 
insurmountable issues on Guam, we must then reexamine the size 
of the marine force. We have begun discussing it, but quite 
frankly, we are not very far along in that analysis because we, 
at this juncture, are still confident that we can work through 
some of these issues on Guam and get to the preferred lay-down, 
which would be a little over 8,000 marines and a robust MAGTF 
capability.
    Senator Hutchison. Could you give me a couple of the major 
points that you determined Korea would not be as helpful to the 
marines or as desirable as that full footprint on Guam?
    General Payne. I can give you what from my position it 
appeared to be the case. However, I must qualify it to the 
extent that I was not heavily involved in that analysis because 
my main emphasis is the installation side and the environmental 
side as opposed to the operational. And there were concerns 
with both.
    The cost of the lay-down of marine forces was certainly 
substantial on Korea, as it will certainly be anywhere in the 
Pacific. So there was not a----
    Senator Hutchison. More so than Guam where we already are 
going to have the investment in the forward basing in the south 
of Korea?
    General Payne. We would not have as extensive, certainly, 
infrastructure issues on Korea as we are dealing with with 
Guam, and that is absolutely true. The actual bases themselves 
and the ranges would be pretty comparable. However, we felt 
that from just a pure strategic, forward positioning 
standpoint, Guam was certainly preferable. It provided more 
flexibility in a better location. There was some concern with 
Korea as to training availability in competition with the Army. 
There was some concern with how flexible it would be to move 
forces off of Korea for other exercises and support and 
contingency in the Pacific.
    But the Marine Corps does need to continue to explore other 
alternatives, just in case our preferred alternative, which is 
Guam, runs into problems.
    I think your second question was with respect to training 
ranges. On Guam, our plan is to have small-unit and individual 
skills training, essentially pistol, rifle, machine gun type 
training. The crew served weapons training and indirect fire 
ranges at this point we hope to position on Tinian and possibly 
Pagan Islands in the Northern Marianas. We have not had an 
opportunity to do the extensive environmental study of Tinian, 
both with respect to the ranges and the air space availability, 
but that would be the next step.
    Should we run into obstacles with respect to training, that 
too would be just a gigantic constraint relative to positioning 
marines on Guam or in the Northern Marianas. Absolutely.
    Senator Hutchison. Okay. Those were the major questions 
that I had. I really thank all of you for coming. Is there 
anything that you would wish to add?

                     ADDITIONAL COMMITTEE QUESTIONS

    If not, the questions that I asked for the record of the 
previous panel would be due March 30 to the subcommittee 
chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted to Roger M. Natsuhara
               Questions Submitted by Senator Tim Johnson

                                 ENERGY

    Question. As you noted in your written testimony, Secretary Mabus 
has set a goal of having 50 percent of the Navy's shore-based energy 
come from renewables by 2020.
    What percentage of shore-based energy currently comes from 
renewables?
    Answer. Under the 2010 National Defense Authorization Act 
definition, renewable energy as a percentage of total energy, the Navy 
renewable energy source contributions totaled to 11 percent of our 
total reportable shore energy consumption.
    Question. Do you have a plan in place and an investment strategy in 
the FYDP to achieve the 50 percent goal by 2020?
    Answer. The Navy submitted the President's fiscal year 2011 budget 
(PB11) to the Office of the Secretary of Defense prior to the Secretary 
of the Navy (SECNAV) announcement of his Energy Goals for 2020 in 
October 2009; as such, the SECNAV Energy Goals were not considered in 
the PB11 program.
    Question. A disruption of the commercial power grid poses a serious 
threat to critical military base operations. What is the Navy doing in 
terms of infrastructure to address this security threat?
    Answer. The threat of commercial power supply disruption is 
considered within Secretary Mabus' 2020 energy goals. The Navy has a 
three-tiered approach to Energy Security for the future:
  --Improve energy grid resiliency and ability to control demand-side 
        load control inside our fence lines.
  --Improve the backup and redundant energy systems to ensure reliable 
        energy to our critical infrastructure even in the event of an 
        extended grid failure.
  --Work with utility providers to ensure the Navy is in the best 
        possible position for reliable energy in the near-term, and 
        positioned to integrate fully with a National ``Smart Grid'' in 
        the long-term.

                                  GUAM

    Question. Last year Congress provided $300 million for the Guam 
relocation project, and the request this year is for $452 million.
    Are the fiscal year 2010 projects currently on hold?
    Answer. No, the fiscal year 2010 projects are not on hold. Designs 
are progressing or complete, with the construction acquisition phase 
scheduled to start over the next 3 months. These projects will be 
awarded after the Record of Decision (ROD) on the proposed action is 
signed.
    Question. What is the earliest that the fiscal year 2010 funds 
could be obligated?
    Answer. Construction awards are currently projected for the post-
ROD timeframe (September 2010), the earliest that fiscal year 2010 
funds could be obligated.
    Question. If the projects can go forward then, could the Navy 
execute them by the end of the fiscal year?
    Answer. Our acquisition plan has us awarding all fiscal year 2010 
projects within fiscal year 2010 contingent upon the signing of the ROD 
as stated above.
    Question. On that schedule, could the Navy execute the full $752 
million by the end of fiscal year 2011?
    Answer. Three of the fiscal year 2011 projects are the second 
increment of fiscal year 2010 projects and the funds will be obligated 
soon after receipt. The remainder is proceeding in the design phase 
with awards scheduled for no later than third quarter fiscal year 2011.
    Question. Commercial port improvements are crucial to the Navy's 
construction program on Guam, but an anticipated DOT stimulus grant to 
do the work recently fell through. How does the Navy plan to address 
this problem?
    Answer. The Administration has requested Congress to grant the 
Department of Defense authority to transfer up to $50,000,000 of 
expiring fiscal year 2010 funds to the Department of Transportation's 
Port of Guam Improvement Enterprise Fund, established in the fiscal 
year 2009 National Defense Authorization Act (Public Law 110-417, 
section 3512). This funding, in conjunction with a matching loan from 
USDA, would enable the Maritime Administration (MARAD) to make 
improvements to the port.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

    Question. Rhode Island faces the Nation's third highest 
unemployment rate at 12.7 percent and a recession that hit earlier than 
any other State. Indeed, many highly skilled workers in the 
construction industry cannot find work.
    I continue to support efforts to revitalize Navy infrastructure, 
including projects at Naval Station Newport. Rhode Island contractors 
have expressed frustrations in terms of their ability to effectively 
compete for this work. Information provided at my request by the Navy 
has demonstrated that a large number of Navy construction projects in 
Rhode Island are going to out-of-State firms.
    To your knowledge, are other States experiencing this situation?
    Answer. We have had, and answered, concerns from Connecticut, 
Illinois and Arizona.
    Question. What steps are you taking to ensure that there is ample 
competition for these projects that includes in-State firms?
    Answer. To ensure ample competition for projects, the Naval 
Facilities Engineering Command (NAVFAC) publicizes contract 
solicitations in accordance with Federal Acquisition Regulations (FAR). 
We also set aside as much work as possible for small business, based on 
the acquisition strategy prepared in accordance with the Competition in 
Contracting Act of 1984 and the Federal Acquisition Regulations. While 
these small business set-asides lend themselves to attracting local 
firms, law and regulations do not allow the Navy to restrict 
competition by State residency of firms.
    Question. How do you ensure that there is sufficient notification 
of open solicitations?
    Answer. We ensure sufficient notification by following FAR Part 5--
Publicizing Contract Actions, which requires the Contracting Officer to 
publicize proposed contract actions expected to exceed $25,000 at a 
Government-wide point of entry (GPE). The notices are published at 
least 15 days before issuance of a solicitation. The GPE utilized by 
the Navy includes Navy Electronic Commerce Online (NECO) which has a 
direct link to Federal Business Opportunities (FEDBIZOPPS). Information 
for additional opportunities can also be found on the NAVFAC Small 
Business Web site, https://smallbusiness.navfac.navy.mil.
    Question. What initiatives are available to help in-State firms 
learn about and better compete for contracts? What support or technical 
assistance can you offer to firms in my State?
    Answer. NAVFAC holds various conferences throughout the United 
States which provide assistance and information to all types of firms 
about contracting opportunities and the necessary resources to compete 
for NAVFAC contracts. Many of these conferences are targeted to small 
business firms and NAVFAC will initiate a similar type of conference 
for the Rhode Island area.
    Question. President Obama issued Executive Order 13502 encouraging 
executive agencies to consider the use of Project Labor Agreements 
(PLAs) in connection with large-scale construction projects.
    I support this effort because it promotes the efficient 
administration and completion of Federal construction projects. It 
would also make sure workers are being treated fairly in terms of wages 
and benefits during these difficult economic times.
    What efforts have you taken to implement this Executive Order?
    Answer. Naval Facilities Engineering Command (NAVFAC) is prepared 
to implement the Executive Order as appropriate, pending the regulatory 
publication of Department of Defense or Department of Navy supplemental 
guidance now that Federal Acquisition Regulation (FAR) implementing 
rules were published on April 13, 2010.
    At the request of the Office of the Secretary of Defense and Deputy 
Assistant Secretary of the Navy (Acquisition & Logistics Management), 
NAVFAC provided panel members for the Office of Management and Budget 
(OMB) PLA Steering Committee, which has been working to assist in the 
FAR process. These subject matter experts identified challenges and 
suggested solutions for inclusion in the FAR rule that now provides 
guidance mechanisms for implementing project labor agreements in the 
Federal sector.
    Additionally, the NAVFAC Labor Advisor has initiated meetings with 
the AFL-CIO, Building and Construction Trades Department, to discuss 
possible mechanisms for establishing PLA requirements as a part of the 
acquisition process and to explore the feasibility of a PLA on specific 
projects.
    Question. Secretary Mabus has set important goals for the Navy to 
improve energy efficiency and to increase the use of renewable energy 
sources.
    You are, I think, promoting the use of renewable energy resources 
largely to help the Navy to control its own energy supply and operate 
independently and securely. Still, there is the potential to share 
surplus resources with the civilian grid.
    How are you managing the interconnection between Navy installations 
and the civilian grid generally? Are you looking at how surplus 
``green'' power can be shared, even sold, on the civilian side?
    How are you coordinating with the States and other Federal agencies 
(including the President's Ocean Policy Task Force, NOAA, the Minerals 
Management Service, and others) to appropriately site offshore 
renewable energy projects?
    Answer. When the Navy develops large renewable projects we 
typically require the contractor to own and operate the project. In 
those cases where the size of the project exceeds the requirements of 
the installation, we authorize the contractor to sell power to the 
grid. The contractor is responsible for interaction with the utility 
companies and compliance with all transmission access requirements.
    Navy has not entered into any offshore projects to date. We are 
actively participating in a number of interagency forums with the 
Department of Energy, the National Oceanic and Atmospheric 
Administration, the Federal Energy Regulatory Commission, and the U.S. 
Coast Guard, particularly with respect permitting and site issues.
                                 ______
                                 
          Questions Submitted to Major General Eugene G. Payne
               Questions Submitted by Senator Tim Johnson

    Question. What is the status of acquiring the site for the 
preferred training range on Guam?
  --Do you believe that Tinian would be a suitable alternative?
  --How would it impact training if the Marines cannot use the proposed 
        range on Guam?
  --Are there any alternative training ranges on Guam?
  --If the Marine Corps cannot obtain the preferred training site on 
        Guam, is the Guam relocation still a viable option for the 
        Marines?
    Answer. No Department of Defense decision has been made regarding 
the alternatives presented in the Draft Environmental Impact Statement 
(EIS). It is important that the EIS process be allowed to continue 
without any pre-determination on any particular alternative. It is 
important to note that the realignment of U.S. forces to Guam is 
intended to provide a long term posture that benefits both U.S. 
security interests as well as the people of Guam. Our land acquisition 
will use the minimum amount of land needed to support readiness and 
quality of life, ensure that we are good neighbors, minimize the need 
for marines and dependents to drive on roads and impact the local 
communities, and ensure good stewardship of any cultural or historical 
sites. Without the acquisition of additional land, the challenges with 
future growth and encroachment will become more difficult to fix over 
time and would have a greater impact to the local communities.
  --Tinian is currently planned to support larger-force training events 
        involving up to 400 marines. The training planned for Guam is 
        the type of training that marines will conduct on a daily/near-
        continuous basis. The types of ranges being planned for on Guam 
        support basic, individual skills--those essential warfighting 
        skills that make us marines--that all marines are required to 
        use on an annual basis, at a minimum, for readiness 
        sustainment. Based on the frequency of range use, the number of 
        marines relying on these ranges for annual qualifications and 
        the enduring presence the Marine Corps intends to have on Guam, 
        we have determined that it is more cost effective to build 
        certain ranges at the location where marines live and work. 
        These ranges would be used on a near continuous basis, and the 
        115-mile transit to Tinian would be beyond the Marine Corps 
        local tactical lift capability. Additionally, the ranges 
        currently planned on Tinian (under the current draft EIS) do 
        not support medium or heavy caliber rounds as required for the 
        multi-purpose machine gun range nor does it provide for the 
        required special use airspace. Finally, building the required 
        ranges on Tinian would require significant construction, 
        infrastructure, and permanent basing of support personnel.
  --The Marine Corps is interested in the Route 15 lands to best 
        maximize training efficiencies, limit the amount of road travel 
        by military vehicles, and provide sufficient range design 
        flexibility while ensuring long-term utilization of the land. 
        Numerous directives dictate USMC range design and construction 
        (size, distance, orientation, safety buffers). Further, 
        training and readiness requirements stipulate which training 
        must be conducted prior to conducting subsequent training. To 
        comply with the requirements it is prudent to travel to a 
        consolidated area which allows centralized movement from one 
        range to another thereby reducing the need to travel large 
        distances over the roads. As a result, marines are able to 
        train more efficiently which results in less needed range time 
        and therefore less of an impact on the communities surrounding 
        the ranges. A solution other than a consolidated training area 
        would be counter to these efforts.
  --The Draft EIS considered multiple alternative training ranges; 
        however, they were dismissed for various reasons. The Marine 
        Corps requires greater training capabilities than are currently 
        available on Guam, particularly in terms of live-fire ranges. 
        As studied in the Draft Environmental Impact Statement, the 
        needs for different types of live-fire ranges are best 
        configured in a consolidated range complex.
    --Finegayan was dismissed by the Government of Guam as a potential 
            live-fire training location because the Surface Danger 
            Zones would extend into the western coastal waters, making 
            them unusable to water traffic and impacting tourism near 
            Tumon.
    --Tarague beach was dismissed as a potential live-fire training 
            location because the lack of available acreage to fully 
            accommodate the required Surface Danger Zones.
    --Ritidian was dismissed as a potential live-fire training location 
            because there is simply not enough acreage at Ritidian to 
            safely build the types of firing ranges required for Marine 
            Corps training. Furthermore, the Fish and Wildlife Service 
            Property at Ritidian is part of a larger environmental 
            preserve that extends south to NCTS Finegayan.
    --We cannot construct live-fire ranges in the Naval Munitions Area 
            for three reasons. First, the rolling terrain is too severe 
            to grade for a live fire range. Second, the explosive 
            safety arcs are active daily due to ammunition operations 
            and the arcs overlap almost the entire munitions area. 
            Third, round impacts could create lead and phosphorous 
            contamination of the Fena Reservoir due to rain run-offs 
            and potentially harm the reservoir which supplies fresh 
            water to the lower half of Guam.
  --A Marine Corps title 10 requirement is to ensure that its marines 
        are properly trained. The land use for live-fire training 
        identified in the Draft Environmental Impact Statement was the 
        best solution to meet Marine Corps training requirements and 
        throughput needs. Several land use options were identified but 
        quickly dismissed because of safety, noise, or environmental 
        concerns. Live-fire training ranges on Guam are required to 
        sustain individual skills readiness for marines stationed 
        there. The best long-term land use for live-fire training 
        ranges involves the acquisition of public lands along Route 15 
        to ensure safety and minimal impact to the local community and 
        environment. Given the rationale for dismissing the alternative 
        training areas, without the acquisition of public lands along 
        Route 15, the Marine Corps would not have the ability to 
        maintain readiness of those forces on Guam and create risk in 
        meeting Combatant Commander requirements with forward postured 
        forces.
    Question. It appears that several different sites are now being 
considered for the Futenma relocation on Okinawa. Has the Marine Corps 
considered other sites on Okinawa, and do you believe there are viable 
alternatives to the current plan?
    Answer. The current Futenma Replacement Facility (FRF) plan is a 
result of several years of bilateral planning culminating in what was 
agreed to be the best answer for both parties. The GoJ has not made any 
formal proposals for alternate options, nor have they formally 
identified what is wrong with the current Agreed Implementation Plan 
(AIP). We continue to honor the AIPs and will respect the GoJ's 
processes of policy review. However, it is the USMC position that any 
FRF option the GoJ may present must provide the same or better 
capability of the current FRF plan.
    Question. Is the Marine move to Guam contingent on the Futenma 
relocation?
    Answer. As negotiated in the 2006 AIPs and reiterated in the 
February 2009 International Agreement, the relocation of marines from 
Okinawa to Guam is dependent on ``tangible progress'' toward completion 
of the FRF. The Marine Corps and Department of Defense position is that 
any Marine realignment must retain an aviation capability on Okinawa to 
support III MEF. That is why there is specific language to ensure a 
suitable replacement for Marine Corps Air Station Futenma, which will 
enable the relocation to Guam, and ultimately enable the return of 
bases back to the Government of Japan.
                                 ______
                                 
        Question Submitted to Rear Admiral Christopher J. Mossey
               Question Submitted by Senator Tim Johnson

    Question. The fiscal year 2011 budget request includes three major 
Milcon energy projects for the Marine Corps.
    Outside of ECIP, are there additional major Milcon energy projects 
programmed for the Navy and Marine Corps in the FYDP? If so, please 
identify those projects and the years in which they are programmed.
    Answer. The PB11 Milcon program contains the following Energy 
Security and Energy Efficiency improvement Milcon projects:
  --P-603, Shore Power to Ammo Pier, NAVMAG Indian Island, WA (fiscal 
        year 2015);
  --P-400, Replace North LP Electrical Distribution System, 
        PACMISRANFAC Hawaiian Area (fiscal year 2015);
  --P-393, Replace Wastewater Treatment Plant, NAS Fallon, NV (fiscal 
        year 2015); and
  --P-844, Upgrade Shore power for CAX Pier, CAD-A, NAVWEPSTA Yorktown, 
        VA (fiscal year 2015).

                          SUBCOMMITTEE RECESS

    Senator Hutchison. So with that, we are recessed and I 
thank you very much.
    [Whereupon, at 11:19 a.m., Tuesday, March 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:04 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Murray, Nelson, Pryor, 
Hutchison, Brownback, Collins, and Murkowski.

                     DEPARTMENT OF VETERANS AFFAIRS

STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY
ACCOMPANIED BY:
        HON. ROBERT A. PETZEL, M.D., UNDER SECRETARY FOR HEALTH, 
            VETERANS HEALTH ADMINISTRATION
        MICHAEL WALCOFF, ACTING UNDER SECRETARY FOR BENEFITS, VETERANS 
            BENEFITS ADMINISTRATION
        STEVE L. MURO, ACTING UNDER SECRETARY FOR MEMORIAL AFFAIRS, 
            NATIONAL CEMETERY ADMINISTRATION
        W. TODD GRAMS, ACTING ASSISTANT SECRETARY FOR MANAGEMENT AND 
            CHIEF FINANCIAL OFFICER
        HON. ROGER W. BAKER, ASSISTANT SECRETARY FOR INFORMATION AND 
            TECHNOLOGY, OFFICE OF INFORMATION AND TECHNOLOGY

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. This hearing will come to order.
    We meet today to review the fiscal year 2011 budget request 
and the fiscal year 2012 advance appropriations request for the 
Department of Veterans Affairs.
    Secretary Shinseki, I welcome you and your colleagues and I 
thank you for appearing before our subcommittee.
    I will remind my colleagues that in order to reserve time 
for questions, our procedure is to have opening statements by 
the chairman and ranking member, followed by an opening 
statement from the Secretary. We will limit the first round of 
questions to 6 minutes per member, but we can have additional 
rounds should we need them.
    The fiscal year 2011 discretionary budget request for the 
VA totals $56.9 billion, an increase of 7.4 percent over the 
fiscal year 2010 enacted level. Additionally, the request 
includes $50.6 billion in fiscal year 2012 advance 
appropriations for medical care.
    The budget submission also includes a separate supplemental 
request of $13.4 billion to expand Agent Orange benefits.
    I am especially pleased to see that the request includes an 
increase of $460 million over fiscal year 2010 for the Veterans 
Benefits Administration (VBA) to hire additional claims 
processors. Delays in claims processing are probably the most 
common complaint I hear from South Dakota vets.
    Mr. Secretary, I have read your testimony and I am happy to 
see that reducing the current claims backlog is your highest 
priority. It is my highest priority as well, and I will 
continue to work to provide the sufficient resources to the 
Department to increase the number of claims processors and to 
streamline and expedite the process.
    Before I turn to my ranking member, I want to commend you, 
Mr. Secretary, for your passion and commitment to ending 
homelessness among the vets population.
    I am also pleased to see a continued commitment in the 
budget to improve mental healthcare among vets and to 
strengthen and expand rural healthcare.
    Mr. Secretary, I look forward to hearing your opening 
statement, but before you begin, Senator Hutchison, would you 
care to make an opening statement?

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman. I will be 
brief. Let me just make a couple of points. I think the 
chairman has stated the facts.
    I want to say that I commend the Department for the 
decision on the Agent Orange diseases, and I think that is the 
right thing to do. I also commend you for putting into the 
rulemaking process gulf war syndrome and the diseases that have 
come from that that have heretofore not been acknowledged, and 
I think that is a step in the right direction.
    However, I will say that I also agree with the chairman 
that it means that you are going to have more claims and claims 
processing has been an issue, and I know you know that. But 
certainly the Agent Orange ones will come first and 150,000 are 
expected. That is information that I know you have and I know 
that you will make that a high priority. But it is the right 
decision for our veterans, and I commend you for it.
    The only other thing that I will mention in the big 
picture--and I will have a question or two--is also the 
emphasis on mental health services. As we have all discussed, 
post traumatic stress disorder, substance abuse problems, 
suicides, and illnesses that have increased in our active duty 
population, which also moves into our veterans population and 
retirees--I think that the increase in the budget proposed, 
$5.2 billion for mental health treatment, is an increase from 
last year that is very warranted. I think that we have begun in 
the last few years to acknowledge more the mental health issues 
and I think the treatment that is to follow coming from that is 
the right thing.
    With that, Mr. Chairman, I will submit the rest of my 
statement for the record and look forward to asking a few 
questions.
    [The statement follows:]

           Prepared Statement of Senator Kay Bailey Hutchison

    Thank you, Mr. Chairman. I am pleased to welcome Secretary Shinseki 
and our other witnesses and guests to discuss the President's 2011 
budget request.
    Mr. Chairman, the Department of Veterans Affairs has one of the 
most important missions in our government, and this subcommittee has 
always worked hard to provide the Department with the resources it 
needs to give our veterans the very best care this Nation can provide. 
In my home State of Texas, I am proud to say the VA operates 11 major 
medical centers, more than 40 outpatient clinics, 14 vet centers, and 6 
national cemeteries to care for our State's 1.7 million veterans.
    Today we will examine the budget request that provides for our 
veterans nationwide, including their benefits and healthcare. The VA's 
2011 budget request proposes an $11.4 billion increase above last 
year's level--a robust 10 percent increase for our veterans. In 
addition to the $121 billion requested in 2011, the Department has 
recommended $13.4 billion in the 2010 supplemental appropriations bill 
for new Agent Orange-related presumptions, and $50.6 billion in advance 
appropriations to fund veterans' healthcare in 2012. That is a total of 
$185 billion in VA spending before us today--a tremendous amount of 
funds--and I want us all to work together to ensure this money is spent 
is the most fiscally efficient way possible.
    In addition to its 2011 request, the Department is requesting $13.4 
billion in the 2010 supplemental appropriations bill to fund the VA's 
recent decision to add ischemic heart disease, Parkinson's disease, and 
B cell leukemia to its list of automatic service-connected disabilities 
for Vietnam veterans exposed to Agent Orange. This presents a 
considerable challenge to the VA's claims processing system, which 
already has an unacceptably large disability claims backlog. The 
Department anticipates the total number of disability claims it 
receives to increase by 30 percent in 2010, with approximately 150,000 
of these claims Agent Orange-related. I am pleased to see that this 
budget adds another 2,100 claims processors to the VA's current staff 
level, because I am concerned that our veterans already wait too long 
for their disability claims to be processed. Mr. Secretary, you have a 
significant challenge in front of you on how to handle a 30 percent 
increase in your claims workload, in addition to such a large influx 
into your workforce that will require specialized training, without 
causing a major disruption to other veterans' disability claims. I look 
forward to your comments on how we can assist you in this matter.
    Mr. Secretary, the Army and the VA currently share a joint facility 
in El Paso, Texas. The Army has requested a significant amount of money 
in its 2011 budget request to begin design of a new facility in June of 
this year. As I understand it, the VA will need to commit funds towards 
a joint design by June, or the Army will award a contract based only on 
its own requirements. I look forward to discussing your plans on how to 
match the Army's accelerated timetable for this facility during the 
question and answer portion of our hearing today.
    In its 2011 budget request, the VA recommends $1.15 billion for 
major construction projects, slightly below last year's level of $1.2 
billion. A significant portion of this funding shows an effort to 
accelerate the schedules for two of the VA's longest-running projects--
hospitals in New Orleans and Denver that have been partially funded for 
several years.
    However, I am concerned that we are not obligating construction 
funds as quickly and efficiently as we could, and that the VA does not 
have a prioritized long-range capital plan to present to Congress. As 
you know, Mr. Secretary, for military construction projects we 
appropriate funds that have to be spent within 5 years to ensure 
efficient planning and execution. And, we also receive a Future-Year 
Defense Program (FYDP) from each service to understand and budget for 
long-range capital needs. As a former Army Chief of Staff, I am 
interested to hear your thoughts on whether you think having the VA 
construction program abide by some of these parameters, such as 5-year 
funding and a prioritized Five-Year Capital Plan, would be beneficial 
to the process.
    Mr. Secretary, nearly all the efforts to modernize the VA hinge 
upon the Department's ability to leverage information technology to 
improve services to our veterans. Some of the projects we've funded in 
past budgets include a paperless solution to the disability claims 
backlog, a new electronic medical record, and a lifetime service record 
to follow service members through the Departments of Defense and 
Veterans Affairs. However, government agencies have a poor track record 
developing and implementing costly IT programs, and an internal audit 
by the VA last year resulted in 45 of the Department's 282 ongoing 
projects being halted because they were either significantly behind 
schedule or over budget. I want to be sure we are spending our taxpayer 
dollars efficiently, and I look forward to hearing your thoughts on 
what steps we can take to ensure more efficiency and transparency for 
these projects.
    I am pleased to see the emphasis that the Medical Services request 
places on mental health and rehabilitation, especially for our soldiers 
returning with delayed Post-Traumatic Stress Disorder and substance 
abuse problems. The VA's budget proposes $5.2 billion for mental health 
treatment, a $410 million increase above last year. The VA now has PTSD 
specialists or treatment teams in all of its medical centers.
    As our men and women return from war, we want to be certain they 
receive the very best medical care our Nation can provide. Your budget 
request keeps us on that track. I know it is difficult to anticipate 
every need, but this subcommittee will certainly make every effort to 
provide you the resources you need.
    Mr. Secretary, I am extremely pleased with the VA's decision to 
build its fifth polytrauma center in San Antonio. I can't wait to see 
this project complete and operational, and I'm thrilled that contracts 
have been awarded and construction has begun. This new center will care 
for our most severely injured veterans and will be a great complement 
to the other medical facilities in the San Antonio area, where cutting-
edge technology will be shared between the VA and the military 
services.
    The VA manages the only nationwide network to care for polytrauma 
patients and has become the world's leader in traumatic brain injury 
rehabilitation. As more of our soldiers return home with multiple 
traumatic injuries, I am confident we can leverage the VA's experiences 
at the other four Level 1 polytrauma centers to make this new facility 
the VA's flagship for our Nation's most seriously wounded veterans.
    Mr. Secretary, this subcommittee has always put our Nation's 
veterans first, and I can say with great assurance that we will do 
whatever it takes, in a bipartisan manner, to work with you to make 
sure the VA has all of the necessary resources to take care of our 
Nation's veterans. At the same time, it is our joint responsibility to 
ensure these funds are spent in the most fiscally responsible and 
efficient manner possible. I look forward to working with you on these 
and other issues in the coming months.
    Thank you, Mr. Chairman.

    Senator Johnson. Thank you, Senator Hutchison.
    Mr. Secretary, again I welcome you to the subcommittee. I 
understand that yours will be the only opening statement. Your 
full statement will be included in the record. So please feel 
free to summarize your remarks. Mr. Secretary.
    Secretary Shinseki. Thank you very much, Chairman Johnson. 
To you and Ranking Member Hutchison, other distinguished 
members of this subcommittee, thanks. I always say that 
sincerely. Thank you for this opportunity to present the 
President's 2011 budget and the 2012 advance appropriations 
request for VA.
    I am able to report a good start in 2009, and I would just 
take a moment to remind that the 2009 budget was a 
congressionally enhanced budget. So there was a great 
foundation for this Secretary upon arrival to put in place a 
good foundation for the year that we are now having with the 
2010 budget. VA had a good start in 2009 with a tremendous 
opportunity this year in 2010. We are happy to talk about what 
we are doing, and the President's continued strong support for 
veterans and veterans needs into the 2011 budget request, which 
is before Congress, with the 2012 advance appropriations.
    I appreciate the generosity of time shared by members of 
this subcommittee with me as I made my rounds. I regret that I 
was not able to call on everyone, but I thank the members that 
I was able to meet. Those opportunities are always invaluable 
to me in getting insights.
    I would like to acknowledge in our audience today 
representatives from some of our veterans service 
organizations. Their insights have been helpful to me in 
understanding our obligation and how to frame our actions to 
better meet the needs of veterans.
    By way of introduction, Mr. Chairman, let me introduce the 
members of my team from my left here. Mike Walcoff is the 
Acting Under Secretary for Benefits. Todd Grams is our new 
Principal Deputy and Acting Assistant Secretary for Management. 
Dr. Randy Petzel to my right, recently confirmed Under 
Secretary for Health. Steve Muro, Acting Under Secretary for 
Memorial Affairs. And on my extreme right, Roger Baker, our 
Assistant Secretary for Information and Technology, who also 
serves as our Chief Information Officer.
    This subcommittee's longstanding commitment to our Nation's 
veterans has always been unequivocal and unwavering, and such 
commitment and the President's own steadfast support of 
veterans resulted in a 2010 budget that provides this 
Department the resources to begin renewing itself in 
fundamental and comprehensive ways, not in spots but as an 
entire organization, fundamental and comprehensive ways.
    We are well launched on that effort and determined to 
continue that transformation into 2011 with this budget and 
2012.
    For over a year now, we have promoted a new strategic 
framework organized around three governing principles, and I 
have mentioned them before in prior testimonies, and I will 
just repeat them again. It is about transforming VA into being 
more people-centric, results-oriented or results-driven, and 
forward-looking. And in our effort, our strategic goals are 
several: improve the quality of, and increase access to, care 
and benefits while optimizing value; heighten readiness to 
protect our people, clients as well as our workforce, and our 
resources each day, as well in times of crisis; enhance veteran 
satisfaction with our health, education, training, counseling, 
financial, and burial benefits and services; and finally, 
invest in our human capital both in their well-being, our 
workforce, and in their development as leaders so that over 
time we have this irreversible drive toward excellence in 
everything we do, from management, to IT systems, to support 
services.
    This last goal is vital to mission performance if we are to 
attain being a model of governance in the next 4 years, which 
is our goal. These goals will guide our people daily and focus 
them on producing the outcomes veterans expect and have earned 
through their service to the Nation. We will advocate for 
veterans we serve.
    To support our pursuit of these goals, the President's 
budget provides $125 billion in 2011, $60.3 billion in 
discretionary resources and $64.7 billion in mandatory funding. 
Our discretionary budget request represents an increase of $4.2 
billion over the President's 2010 enacted budget.
    VA's 2011 budget focuses primarily on three critical 
concerns that are of significant importance to veterans, and I 
get this in feedback as I travel and I am sure members of the 
subcommittee do as well. First, increase access to benefits and 
services now. Eliminate the disability claims backlog by 2015. 
And finally, end veteran homelessness in the next 5 years. The 
three goals we have set for ourselves.
    Access. This budget provides the resources required to 
increase access to our healthcare system and our national 
cemeteries. We will expand access to healthcare by activating 
new and improved facilities, by honoring the President's 
commitment to veterans who were exposed to Agent Orange 40 
years ago, by delivering on President Obama's promise to 
provide healthcare eligibility to more priority group 8 
veterans, by making greater investments in telehealth and 
extending our delivery of care into the most remote rural 
communities and, where warranted, even into veterans' homes. 
And finally, we will increase access to our national shrines by 
establishing five new national cemeteries.
    The backlog. We are requesting an unprecedented 27 percent 
increase in funding for our Veterans Benefits Administration, 
primarily for staffing to address the growing increase in 
disability claims receipts, even as we continue to reengineer 
our processes and develop a paperless system integrated with 
VLER, the Virtual Lifetime Electronic Record. That is the joint 
project between DOD and VA.
    Our goal in processing: no claim that is longer than 125 
days. So it is not an average. No claim longer than 125 days, 
and a processing accuracy of 98 percent. Today we are at the 84 
percent mark. So this is a stretch goal.
    Ending homelessness. We are requesting substantial 
investment in our homelessness program as part of our plan to 
eliminate homelessness in 5 years. Ending the downward spiral 
that often enough leads to veterans' homelessness mandates that 
we aggressively and simultaneously address housing, education, 
jobs, and healthcare.
    In this effort, we partner with other Departments. The 
Department of Housing and Urban Development is probably our 
closest collaborator, but we collaborate as well with Labor, 
Education, Health and Human Services, Small Business 
Administration, among others.
    Now, taken together, these initiatives are intended to meet 
veterans' expectations in each of these three mission-focused 
areas. I mentioned them earlier. Increasing their access, 
eliminating the backlog, ending homelessness. We will achieve 
these objectives by developing innovative business processes, 
some of them already underway, and delivery systems that not 
only better serve veterans and families' needs for many years 
to come, but which also dramatically improve our efficiency and 
control our costs.
    While our budget and advance appropriations request provide 
the resources to continue our pursuit of the President's two 
overarching goals for this Department--transform this 
Department and ensure veteran access--we still have much work 
to accomplish.
    We appreciate the chairman's and ranking member's 
leadership and the support of all the members of the 
subcommittee especially in some of the areas that we have given 
attention to, areas like rural health and healthcare for women 
veterans. We are determined to build on the progress you have 
enabled, especially with the provision of a significant first-
year funding for rural initiatives. So our efforts are well 
begun, but there is more work to be done in meeting our 
obligations here.

                           PREPARED STATEMENT

    Again, Mr. Chairman, members of the subcommittee, thanks 
for this opportunity to appear here today. I look forward to 
your questions.
    [The statement follows:]

              Prepared Statement of Hon. Eric K. Shinseki

    Chairman Johnson, Ranking Member Hutchison, Distinguished Members 
of the Senate Appropriations Committee, Subcommittee on Military 
Construction, Veterans Affairs, and Related Agencies:
    Thank you for this opportunity to present the President's Fiscal 
Year 2011 Budget and Fiscal Year 2012 Advance Appropriations request 
for the Department of Veterans Affairs (VA). Our budget provides the 
resources necessary to continue our aggressive pursuit of the 
President's two overarching goals for the Department--to transform VA 
into a 21st century organization and to ensure that we provide timely 
access to benefits and high quality care to our Veterans over their 
lifetimes, from the day they first take their oaths of allegiance until 
the day they are laid to rest.
    We recently completed development of a new strategic framework that 
is people-centric, results-driven, and forward-looking. The path we 
will follow to achieve the President's vision for VA will be presented 
in our new strategic plan, which is currently in the final stages of 
review. The strategic goals we have established in our plan are 
designed to produce better outcomes for all generations of Veterans:
  --Improve the quality and accessibility of healthcare, benefits, and 
        memorial services while optimizing value;
  --Increase Veteran client satisfaction with health, education, 
        training, counseling, financial, and burial benefits and 
        services;
  --Protect people and assets continuously and in time of crisis; and,
  --Improve internal customer satisfaction with management systems and 
        support services to achieve mission performance and make VA an 
        employer of choice by investing in human capital.
    The strategies in our plan will guide our workforce to ensure we 
remain focused on producing the outcomes Veterans expect and have 
earned through their service to our country.
    To support VA's efforts, the President's budget provides $125 
billion in 2011--almost $60.3 billion in discretionary resources and 
nearly $64.7 billion in mandatory funding. Our discretionary budget 
request represents an increase of $4.3 billion, or 7.6 percent, over 
the 2010 enacted level.
    VA's 2011 budget also focuses on three concerns that are of 
critical importance to our Veterans--easier access to benefits and 
services; reducing the disability claims backlog and the time Veterans 
wait before receiving earned benefits; and ending the downward spiral 
that results in Veterans' homelessness.
    This budget provides the resources required to enhance access in 
our healthcare system and our national cemeteries. We will expand 
access to healthcare through the activations of new or improved 
facilities, by expanding healthcare eligibility to more Veterans, and 
by making greater investments in telehealth. Access to our national 
cemeteries will be increased through the implementation of new policy 
for the establishment of additional facilities.
    We are requesting an unprecedented increase for staffing in the 
Veterans Benefits Administration (VBA) to address the dramatic increase 
in disability claim receipts while continuing our process-reengineering 
efforts, our development of a paperless claims processing system, and 
the creation of a Virtual Lifetime Electronic Record.
    We are also requesting a substantial investment for our 
homelessness programs as part of our plan to ultimately eliminate 
Veterans' homelessness through an aggressive approach that includes 
housing, education, jobs, and healthcare.
    VA will be successful in resolving these three concerns by 
maintaining a clear focus on developing innovative business processes 
and delivery systems that will not only serve Veterans and their 
families for many years to come, but will also dramatically improve the 
efficiency of our operations by better controlling long-term costs. By 
making appropriate investments today, we can ensure higher value and 
better outcomes for our Veterans. The 2011 budget also supports many 
key investments in VA's six high priority performance goals (HPPGs).

                  HPPG I: REDUCING THE CLAIMS BACKLOG

    The volume of compensation and pension rating-related claims has 
been steadily increasing. In 2009, for the first time, we received over 
1 million claims during the course of a single year. The volume of 
claims received has increased from 578,773 in 2000 to 1,013,712 in 2009 
(a 75 percent increase). Original disability compensation claims with 
eight or more claimed issues have increased from 22,776 in 2001 to 
67,175 in 2009 (nearly a 200 percent increase). Not only is VA 
receiving substantially more claims, but the claims have also increased 
in complexity. We expect this level of growth in the number of claims 
received to continue in 2010 and 2011 (increases of 13 percent and 11 
percent were projected respectively even without claims expected under 
new presumptions related to Agent Orange exposure), which is driven by 
improved access to benefits through initiatives such as the Benefits 
Delivery at Discharge Program, increased demand as a result of nearly 
10 years of war, and the impact of a difficult economy prompting 
America's Veterans to pursue access to the benefits they earned during 
their military service.
    While the volume and complexity of claims has increased, so too has 
the productivity of our claims processing workforce. In 2009, the 
number of claims processed was 977,219, an increase of 8.6 percent over 
the 2008 level of 899,863. The average time to process a rating-related 
claim fell from 179 to 161 days in 2009, an improvement of 11 percent.
    The progress made in 2009 is a step in the right direction, but it 
is not nearly enough. My goal is to process claims so no Veteran has to 
wait more than 125 days. Reaching this goal will become even more 
challenging because of additional claims we expect to receive related 
to Veterans' exposure to Agent Orange. Adding Parkinson's disease, 
ischemic heart disease, and B-cell leukemias to the list of presumptive 
disabilities is projected to significantly increase claims inventories 
in the near term, even while we make fundamental improvements to the 
way we process disability compensation claims.
    We expect the number of compensation and pension claims received to 
increase from 1,013,712 in 2009 to 1,318,753 in 2011 (a 30 percent 
increase). Without the significant investment requested for staffing in 
this budget, the inventory of claims pending would grow from 416,335 to 
1,018,343 and the average time to process a claim would increase from 
161 to 250 days. If Congress provides the funding requested in our 
budget, these increases are projected to be 804,460 claims pending with 
an average processing time of 190 days. Through 2011, we expect over 
228,000 claims related to the new presumptions and are dedicated to 
processing this near-term surge in claims as efficiently as possible.
    This budget is based on our plan to improve claims processing by 
using a three-pronged approach involving improved business processes, 
expanded technology, and hiring staff to bridge the gap until we fully 
implement our long-range plan. We will explore process and policy 
simplification and contracted service support in addition to the 
traditional approach of hiring new employees to address this spike in 
demand. We expect these transformational approaches to begin yielding 
significant performance improvements in fiscal year 2012 and beyond; 
however, it is important to mitigate the impact of the increased 
workload until that time.
    The largest increase in our 2011 budget request, in percentage 
terms, is directed to the Veterans Benefits Administration as part of 
our mitigation of the increased workload. The President's 2011 budget 
request for VBA is $2.149 billion, an increase of $460 million, or 27 
percent, over the 2010 enacted level of $1.689 billion. The 2011 budget 
supports an increase of 4,048 FTEs, including maintaining temporary FTE 
funded through ARRA. In addition, the budget also includes $145.3 
million in information technology (IT) funds in 2011 to support the 
ongoing development of a paperless claims processing system.

               HPPG II: ELIMINATING VETERAN HOMELESSNESS

    Our Nation's Veterans experience higher than average rates of 
homelessness, depression, substance abuse, and suicides; many also 
suffer from joblessness. On any given night, there are about 107,000 
Veterans who live on the streets, representing every war and 
generation, including those who served in Iraq and Afghanistan. VA's 
major homeless-specific programs constitute the largest integrated 
network of homeless treatment and assistance services in the country. 
These programs provide a continuum of care for homeless Veterans, 
providing treatment, rehabilitation, and supportive services that 
assist homeless Veterans in addressing health, mental health and 
psychosocial issues. VA also offers a full range of support necessary 
to end the cycle of homelessness by providing education, jobs, and 
healthcare, in addition to safe housing. We will increase the number 
and variety of housing options available to homeless Veterans and those 
at risk of homelessness with permanent, transitional, contracted, 
community-operated, HUD-VASH provided, and VA-operated housing.
    Homelessness is primarily a healthcare issue, heavily burdened with 
depression and substance abuse. VA's budget includes $4.2 billion in 
2011 to prevent and reduce homelessness among Veterans--over $3.4 
billion for core medical services and $799 million for specific 
homeless programs and expanded medical programs. Our budget includes an 
additional investment of $294 million in programs and new initiatives 
to reduce the cycle of homelessness, which is almost 55 percent higher 
than the resources provided for homelessness programs in 2010.
    VA's healthcare costs for homeless Veterans can drop in the future 
as the Department emphasizes education, jobs, and prevention and 
treatment programs that can result in greater residential stability, 
gainful employment, and improved health status.

            HPPG III: AUTOMATING THE GI BILL BENEFITS SYSTEM

    The Post 9/11 GI Bill creates a robust enhancement of VA's 
education benefits, evoking the World War II Era GI Bill. Because of 
the significant opportunities the Act provides to Veterans in 
recognition of their service, and the value of the program in the 
current economic environment, we must deliver the benefits in this Act 
effectively and efficiently, and with a client-centered approach. In 
August 2009, the new Post-9/11 GI Bill program was launched. We 
received more than 496,000 original applications, 578,000 enrollment 
certifications, and 237,000 changes to enrollment certifications since 
the inception of this program.
    The 2011 budget provides $44.1 million to complete the automated 
solution for processing Post-9/11 GI Bill claims and to begin the 
development and implementation of electronic systems to process claims 
associated with other education programs. The automated solution for 
the Post 9/11 GI Bill education program will be implemented by December 
2010.
    In 2011, we expect the total number of all types of education 
claims to grow by 32.3 percent over 2009, from 1.70 million to 2.25 
million. To meet this increasing workload and complete education claims 
in a timely manner, VA has established a comprehensive strategy to 
develop an end-to-end solution that utilizes rules-based, industry-
standard technologies to modernize the delivery of education benefits.

       HPPG IV: ESTABLISHING A VIRTUAL LIFETIME ELECTRONIC RECORD

    Each year, more than 150,000 active and reserve component service 
members leave the military. Currently, this transition is heavily 
reliant on the transfer of paper-based administrative and medical 
records from the Department of Defense (DOD) to the Veteran, the VA or 
other non-VA healthcare providers. A paper-based transfer carries risks 
of errors or oversights and delays the claim process.
    In April 2009, the President charged me and Defense Secretary Gates 
with building a fully interoperable electronic records system that will 
provide each member of our armed forces a Virtual Lifetime Electronic 
Record (VLER). This virtual record will enhance the timely delivery of 
high-quality benefits and services by capturing key information from 
the day they put on the uniform, through their time as Veterans, until 
the day they are laid to rest. The VLER is the centerpiece of our 
strategy to better coordinate the user-friendly transition of service 
members from their service component into VA, and to produce better, 
more timely outcomes for Veterans in providing their benefits and 
services.
    In December 2009, VA successfully exchanged electronic health 
record (EHR) information in a pilot program between the VA Medical 
Center in San Diego and a local Kaiser Permanente hospital. We 
exchanged EHR information using the Nationwide Health Information 
Network (NHIN) created by the Department of Health and Human Services. 
Interoperability is key to sharing critical health information. 
Utilizing the NHIN standards allows VA to partner with private sector 
healthcare providers and other Federal agencies to promote better, 
faster, and safer care for Veterans. During the second quarter of 2010, 
the DOD will join this pilot and we will announce additional VLER 
health community sites.
    VA has $52 million in IT funds in 2011 to continue the development 
and implementation of this Presidential priority.

                  HPPG V: IMPROVING MENTAL HEALTH CARE

    The 2011 budget continues the Department's keen focus on improving 
the quality, access, and value of mental healthcare provided to 
Veterans. VA's budget provides over $5.2 billion for mental health, an 
increase of $410 million, or 8.5 percent, over the 2010 enacted level. 
We will expand inpatient, residential, and outpatient mental health 
programs with an emphasis on integrating mental health services with 
primary and specialty care.
    Post-Traumatic Stress Disorder (PTSD) is the mental health 
condition most commonly associated with combat, and treating Veterans 
who suffer from this debilitating disorder is central to VA's mission. 
Screening for PTSD is the first and most essential step. It is crucial 
that VA be proactive in identifying PTSD and intervening early in order 
to prevent chronic problems that could lead to more complex disorders 
and functional problems.
    VA will also expand its screening program for other mental health 
conditions, most notably traumatic brain injury (TBI), depression, and 
substance use disorders. We will enhance our suicide prevention 
advertising campaign to raise awareness among Veterans and their 
families of the services available to them.
    More than one-fifth of the Veterans seen last year had a mental 
health diagnosis. In order to address this challenge, VA has 
significantly invested in our mental health workforce, hiring more than 
6,000 new workers since 2005.
    In October 2009, VA and DOD held a mental health summit with mental 
health experts from both departments, and representatives from Congress 
and more than 57 non-government organizations. We convened the summit 
to discuss an innovative, wide-ranging public health model for 
enhancing mental health for returning service members, Veterans, and 
their families. VA will use the results to devise new innovative 
strategies for improving the health and quality of life for Veterans 
suffering from mental health problems.

      HPPG VI: DEPLOYING A VETERANS RELATIONSHIP MANAGEMENT SYSTEM

    A key component of VA's transformation is to employ technology to 
dramatically improve service and outreach to Veterans by adopting a 
comprehensive Veterans' Relationship Management System to serve as the 
primary interface between Veterans and the Department. This system will 
include a framework that provides Veterans with the ability to:
  --Access VA through multiple methods;
  --Uniformly find information about VA's benefits and services;
  --Complete multiple business processes within VA without having to 
        re-enter identifying information; and
  --Seamlessly access VA across multiple lines of business.
    This system will allow Veterans to access comprehensive online 
information anytime and anywhere via a single consistent entry point. 
Our goal is to deploy the Veterans Relationship Management System in 
2011. Our budget provides $51.6 million for this project.
    In addition to resources supporting these high-priority performance 
goals, the President's budget enhances and improves services across the 
full spectrum of the Department. The following highlights funding 
requirements for selected programs along with the outcomes we will 
achieve for Veterans and their families.

                  DELIVERING WORLD-CLASS MEDICAL CARE

    The Budget provides $51.5 billion for medical care in 2011, an 
increase of $4 billion, or 8.5 percent, over the 2010 level. This level 
will allow us to continue providing timely, high-quality care to all 
enrolled veterans. Our total medical care level is comprised of funding 
for medical services ($37.1 billion), medical support and compliance 
($5.3 billion), medical facilities ($5.7 billion), and resources from 
medical care collections ($3.4 billion). In addition to reducing the 
number of homeless Veterans and expanding access to mental healthcare, 
our 2011 budget will also achieve numerous other outcomes that improve 
Veterans' quality of life, including:
  --Providing extended care and rural health services in clinically 
        appropriate settings;
  --Expanding the use of home telehealth;
  --Enhancing access to healthcare services by offering enrollment to 
        more Priority Group 8 Veterans and activating new facilities; 
        and
  --Meeting the medical needs of women Veterans.
    During 2011, we expect to treat nearly 6.1 million unique patients, 
a 2.9 percent increase over 2010. Among this total are over 439,000 
Veterans who served in Operation Enduring Freedom and Operation Iraqi 
Freedom, an increase of almost 57,000 (or 14.8 percent) above the 
number of Veterans from these two campaigns that we anticipate will 
come to VA for healthcare in 2010.
    In 2011, the budget provides $2.6 billion to meet the healthcare 
needs of Veterans who served in Iraq and Afghanistan. This is an 
increase of $597 million (or 30.2 percent) over our medical resource 
requirements to care for these Veterans in 2010. This increase also 
reflects the impact of the recent decision to increase troop size in 
Afghanistan. The treatment of this newest generation of Veterans has 
allowed us to focus on, and improve treatment for, PTSD as well as TBI, 
including new programs to reach Veterans at the earliest stages of 
these conditions.
    The fiscal year 2011 Budget also includes funding for new patients 
resulting from the recent decision to add Parkinson's disease, ischemic 
heart disease, and B-cell leukemias to the list of presumptive 
conditions for Veterans with service in Vietnam.

Extended Care and Rural Health
    VA's budget for 2011 contains $6.8 billion for long-term care, an 
increase of 858.8 million (or 14.4 percent) over the 2010 level. In 
addition, $1.5 billion is included for non-institutional long-term 
care, an increase of $276 million (or 22.9 percent) over 2010. By 
enhancing Veterans' access to non-institutional long-term care, VA can 
provide extended care services to Veterans in a more clinically 
appropriate setting, closer to where they live, and in the comfort and 
familiar settings of their homes.
    VA's 2011 budget also includes $250 million to continue 
strengthening access to healthcare for 3.2 million enrolled Veterans 
living in rural and highly rural areas through a variety of avenues. 
These include new rural health outreach and delivery initiatives and 
expanded use of home-based primary care, mental health, and telehealth 
services. VA intends to expand use of cutting edge telehealth 
technology to broaden access to care while at the same time improve the 
quality of our healthcare services.

Home Telehealth
    Our increasing reliance on non-institutional long-term care 
includes an investment in 2011 of $163 million in home telehealth. 
Taking greater advantage of the latest technological advancements in 
healthcare delivery will allow us to more closely monitor the health 
status of Veterans and will greatly improve access to care for Veterans 
in rural and highly rural areas. Telehealth will place specialized 
healthcare professionals in direct contact with patients using modern 
IT tools. VA's home telehealth program cares for 35,000 patients and is 
the largest of its kind in the world. A recent study found patients 
enrolled in home telehealth programs experienced a 25 percent reduction 
in the average number of days hospitalized and a 19 percent reduction 
in hospitalizations. Telehealth and telemedicine improve healthcare by 
increasing access, eliminating travel, reducing costs, and producing 
better patient outcomes.

Expanding Access to Health Care
    In 2009 VA opened enrollment to Priority 8 Veterans whose incomes 
exceed last year's geographic and VA means-test thresholds by no more 
than 10 percent. Our most recent estimate is that 193,000 more Veterans 
will enroll for care by the end of 2010 due to this policy change.
    In 2011 VA will further expand healthcare eligibility for Priority 
8 Veterans to those whose incomes exceed the geographic and VA means-
test thresholds by no more than 15 percent compared to the levels in 
effect prior to expanding enrollment in 2009. This additional expansion 
of eligibility for care will result in an estimated 99,000 more 
enrollees in 2011 alone, bringing the total number of new enrollees 
from 2009 to the end of 2011 to 292,000.

Meeting the Medical Needs of Women Veterans
    The 2011 budget provides $217.6 million to meet the gender-specific 
healthcare needs of women Veterans, an increase of $18.6 million (or 
9.4 percent) over the 2010 level. The delivery of enhanced primary care 
for women Veterans remains one of the Department's top priorities. The 
number of women Veterans is growing rapidly and women are increasingly 
reliant upon VA for their healthcare.
    Our investment in healthcare for women Veterans will lead to higher 
quality of care, increased coordination of care, enhanced privacy and 
dignity, and a greater sense of security among our women patients. We 
will accomplish this through expanding healthcare services provided in 
our Vet Centers, increasing training for our healthcare providers to 
advance their knowledge and understanding of women's health issues, and 
implementing a peer call center and social networking site for women 
combat Veterans. This call center will be open 24 hours a day, 7 days a 
week.

            ADVANCE APPROPRIATIONS FOR MEDICAL CARE IN 2012

    VA is requesting advance appropriations in 2012 of $50.6 billion 
for the three medical care appropriations to support the healthcare 
needs of 6.2 million patients. The total is comprised of $39.6 billion 
for Medical Services, $5.5 billion for Medical Support and Compliance, 
and $5.4 billion for Medical Facilities. In addition, $3.7 billion is 
estimated in medical care collections, resulting in a total resource 
level of $54.3 billion. It does not include additional resources for 
any new initiatives that would begin in 2012.
    Our 2012 advance appropriations request is based largely on our 
actuarial model using 2008 data as the base year. The request continues 
funding for programs that we will continue in 2012 but which are not 
accounted for in the actuarial model. These initiatives address 
homelessness and expanded access to non-institutional long-term care 
and rural healthcare services through telehealth. In addition, the 2012 
advance appropriations request includes resources for several programs 
not captured by the actuarial model, including long-term care, the 
Civilian Health and Medical Program of the Department of Veterans 
Affairs, Vet Centers, and the state home per diem program. Overall, the 
2012 requested level, based on the information available at this point 
in time, is sufficient to enable us to provide timely and high-quality 
care for the estimated patient population. We will continue to monitor 
cost and workload data throughout the year and, if needed, we will 
revise our request during the normal 2012 budget cycle.
    After a cumulative increase of 26.4 percent in the medical care 
budget since 2009, we will be working to reduce the rate of increase in 
the cost of the provision of healthcare by focusing on areas such as 
better leveraging acquisitions and contracting, enhancing use of 
referral agreements, strengthening DOD/VA joint ventures, and expanding 
applications of medical technology (e.g. telehome health).

                    INVESTMENTS IN MEDICAL RESEARCH

    VA's budget request for 2011 includes $590 million for medical and 
prosthetic research, an increase of $9 million over the 2010 level. 
These research funds will help VA sustain its long track record of 
success in conducting research projects that lead to clinically useful 
interventions that improve the health and quality of life for Veterans 
as well as the general population.
    This budget contains funds to continue our aggressive research 
program aimed at improving the lives of Veterans returning from service 
in Iraq and Afghanistan. This focuses on prevention, treatment, and 
rehabilitation research, including TBI and polytrauma, burn injury 
research, pain research, and post-deployment mental health research.

          SUSTAINING HIGH QUALITY BURIAL AND MEMORIAL PROGRAMS

    VA remains steadfastly committed to providing access to a dignified 
and respectful burial for Veterans choosing to be buried in a VA 
national cemetery. This promise to Veterans and their families also 
requires that we maintain national cemeteries as shrines dedicated to 
the memory of those who honorably served this Nation in uniform. This 
budget implements new policy to expand access by lowering the Veteran 
population threshold for establishing new national cemeteries and 
developing additional columbaria to better serve large urban areas.
    VA expects to perform 114,300 interments in 2011 or 3.8 percent 
more than in 2010. The number of developed acres (8,441) that must be 
maintained in 2011 is 4.6 percent greater than the 2010 estimate, while 
the number of gravesites (3,147,000) that will be maintained is 2.6 
percent higher. VA will also process more than 617,000 Presidential 
Memorial Certificates in recognition of Veterans' honorable military 
service.
    Our 2011 budget request includes $251 million in operations and 
maintenance funding for the National Cemetery Administration. The 2011 
budget request provides $36.9 million for national shrine projects to 
raise, realign, and clean an estimated 668,000 headstones and markers, 
and repair 100,000 sunken graves. This is critical to maintaining our 
extremely high client satisfaction scores that set the national 
standard of excellence in government and private sector services as 
measured by the American Customer Satisfaction Index. The share of our 
clients who rate the quality of the memorial services we provide as 
excellent will rise to 98 percent in 2011. The proportion of clients 
who rate the appearance of our national cemeteries as excellent will 
grow to 99 percent. And we will mark 95 percent of graves within 60 
days of interment.
    The 2011 budget includes $3 million for solar and wind power 
projects at three cemeteries to make greater use of renewable energy 
and to improve the efficiency of our program operations. It also 
provides $1.25 million to conduct independent Facility Condition 
Assessments at national cemeteries and $2 million for projects to 
correct safety and other deficiencies identified in those assessments.

                   LEVERAGING INFORMATION TECHNOLOGY

    We cannot achieve the transformation of VA into a 21st century 
organization capable of meeting Veterans' needs today and in the years 
to come without leveraging the power of IT. The Department's IT program 
is absolutely integral to everything we do, and it is vital we continue 
the development of IT systems that will meet new service delivery 
demands and modernize or replace increasingly fragile systems that are 
no longer adequate in today's healthcare and benefits delivery 
environment. Simply put, IT is indispensable to achieving VA's mission.
    The Department's IT operations and maintenance program supports 
334,000 users, including VA employees, contractors, volunteers, and 
researchers situated in 1,400 healthcare facilities, 57 regional 
offices, and 158 national cemeteries around the country. Our IT program 
protects and maintains 8.5 million vital health and benefits records 
for Veterans with the level of privacy and security mandated by both 
statutes and directives.
    VA's 2011 budget provides $3.3 billion for IT, the same level of 
funding provided in 2010. We have prioritized potential IT projects to 
ensure that the most mission-critical projects for improving service to 
Veterans are funded. For example, the resources we are requesting will 
fund the development and implementation of an automated solution for 
processing education claims ($44.1 million), the Financial and 
Logistics Integrated Technology Enterprise project to replace our 
outdated, non-compliant core accounting system ($120.2 million), 
development and deployment of the paperless claims processing system 
($145.3 million), and continued development of HealtheVet, VA's 
electronic health record system ($346.2 million). In addition, the 2011 
budget request includes $52 million for the advancement of the Virtual 
Lifetime Electronic Record, a Presidential priority that involves our 
close collaboration with DOD.

                ENHANCING OUR MANAGEMENT INFRASTRUCTURE

    A critical component of our transformation is to create a reliable 
management infrastructure that expands or enhances corporate 
transparency at VA, centralizes leadership and decentralizes execution, 
and invests in leadership training. This includes increasing investment 
in training and career development for our career civil service and 
employing a suitable financial management system to track expenditures. 
The Department's 2011 budget provides $463 million in General 
Administration to support these vital corporate management activities. 
This includes $23.6 million in support of the President's initiative to 
strengthen the acquisition workforce.
    We will place particular emphasis on increasing our investment in 
training and career development--helping to ensure that VA's workforce 
remain leaders and standard-setters in their fields, skilled, 
motivated, and client-oriented. Training and development (including a 
leadership development program), communications and team building, and 
continuous learning will all be components of reaching this objective.

                         CAPITAL INFRASTRUCTURE

    VA must provide timely, high-quality healthcare in medical 
infrastructure which is, on average, over 60 years old. In the 2011 
budget, we are requesting $1.6 billion to invest in our major and minor 
construction programs to accomplish projects that are crucial to right 
sizing and modernizing VA's healthcare infrastructure, providing 
greater access to benefits and services for more Veterans, closer to 
where they live, and adequately addressing patient safety and other 
critical facility deficiencies.

Major Construction
    The 2011 budget request for VA major construction is $1.151 
billion. This includes funding for five medical facility projects in 
New Orleans, Louisiana; Denver, Colorado; Palo Alto and Alameda, 
California; and Omaha, Nebraska.
    This request provides $106.9 million to support the Department's 
burial program, including gravesite expansion and cemetery improvement 
projects at three national cemeteries--Indiantown Gap, Pennsylvania; 
Los Angeles, California; and Tahoma, Washington.
    Our major construction request includes $51.4 million to begin 
implementation of a new policy to expand and improve access to burial 
in a national cemetery. Most significantly, this new policy lowers the 
Veteran population threshold to build a new national cemetery from 
170,000 to 80,000 Veterans living within 75 miles of a cemetery. This 
will provide access to about 500,000 additional Veterans. Moreover, it 
will increase our strategic target for the percent of Veterans served 
by a burial option in a national or state Veterans cemetery within 75 
miles of their residence from 90 percent to 94 percent.
    VA's major construction request also includes $24 million for 
resident engineers that support medical facility and national cemetery 
projects. This represents a new source of funding for the resident 
engineer program, which was previously funded under General Operating 
Expenses.

Minor Construction
    The $467.7 million request for 2011 for minor construction is an 
integral component of our overall capital program. In support of the 
medical care and medical research programs, minor construction funds 
permit VA to realign critical services; make seismic corrections; 
improve patient safety; enhance access to healthcare; increase capacity 
for dental care; enhance patient privacy; improve treatment of special 
emphasis programs; and expand our research capability. Minor 
construction funds are also used to improve the appearance of our 
national cemeteries. Further, minor construction resources will be used 
to comply with energy efficiency and sustainability design 
requirements.

                                SUMMARY

    Our job at the VA is to serve Veterans by increasing their access 
to VA benefits and services, to provide them the highest quality of 
healthcare available, and to control costs to the best of our ability. 
Doing so will make VA a model of good governance. The resources 
provided in the 2011 President's budget will permit us to fulfill our 
obligation to those who have bravely served our country.
    The 298,000 employees of the VA are committed to providing the 
quality of service needed to serve our Veterans and their families. 
They are our most valuable resource. I am especially proud of several 
VA employees that have been singled out for special recognition this 
year.
    First, let me recognize Dr. Janet Kemp, who received the ``2009 
Federal Employee of the Year'' award from the Partnership for Public 
Service. Under Dr. Kemp's leadership, VA created the Veterans National 
Suicide Prevention Hotline to help Veterans in crisis. To date, the 
Hotline has received almost 256,000 calls and rescued about 8,100 
people judged to be at imminent risk of suicide since its inception.
    Second, we are also very proud of Nancy Fichtner, an employee at 
the Grand Junction Colorado Medical Center, for being the winner of the 
President's first-ever SAVE (Securing Americans Value and Efficiency) 
award. Ms. Fichtner's winning idea is for Veterans leaving VA hospitals 
to be able to take medication they have been using home with them 
instead of it being discarded upon discharge.
    And third, we are proud of the VA employees at our Albuquerque, New 
Mexico Clinical Research Pharmacy Coordinating Center, including the 
Center Director, Mike R. Sather, for excellence in supporting clinical 
trials targeting current Veteran health issues. Their exceptional and 
important work garnered the center's recognition as the 2009 Malcolm 
Baldrige National Quality Award Recipient in the nonprofit category.
    The VA is fortunate to have public servants that are not only 
creative thinkers, but also able to put good ideas into practice. With 
such a workforce, and the continuing support of Congress, I am 
confident we can achieve our shared goal of accessible, high-quality 
and timely care and benefits for Veterans.

                             CLAIMS BACKLOG

    Senator Johnson. Thank you, Secretary Shinseki.
    In the 4 years that I have chaired this subcommittee, we 
have provided a total of $427 million above what the VA 
requested to hire additional claims processors to reduce the 
claims backlog. I am pleased to see that this year's budget 
request reflects a significant increase over last year to hire 
claims processors. However, the average claims time still 
hovers around 161 days and is expected to increase, given the 
new decision regarding Agent Orange.
    I know that the task of transforming the VA is daunting, 
but the level of frustration that vets expressed to me is 
growing.
    When can we expect to see some tangible results from the 
investments that we are making into the VBA claims process?
    Secretary Shinseki. Mr. Chairman, if there is frustration 
to go around, I share a good bit of it.
    I wanted to put a little more of my attention into the 
claims backlog last year. I got diverted a little bit. I spent 
some time making sure that the 9/11 G.I. bill was up and 
running properly, and now that it is, this year for me and for 
VA is about breaking the back in the backlog, getting to the 
root causes of what creates this as a never-ending challenge. 
Last year, we produced 977,000 decisions on claims, and then we 
got a million new claims in return. So this is a big numbers 
issue.
    Today we have probably 11,400 claims adjudicators, and this 
number of workforce, good people who come to work every day, 
takes a while to get them trained up. They provide us the 
ability to take that average processing time from, at one 
point, 190 days, and we have worked our way down to about 160 
days now, headed toward that 125 goal as an average.
    With this budget for 2011, we have increased VBA's budget 
by 27 percent. A good portion of that resources initiatives 
underway, but also adds 4,000 people to the workforce. And 
right now, if we want to go faster, the solution is to hire 
more people because we lack the automation tools that should 
have helped us break the code some time ago. We are working on 
developing those tools, and I will turn to Secretary Baker in a 
second to give you an assessment of where we are.
    I will also tell you that we created four pilots to take 
this process apart and look at those pieces individually and we 
intend to put them back together in a way that makes greater 
sense, simpler, less complex, and then try to get momentum here 
at the same time we are developing these tools.
    This year, 2010, I am happy to report that we have the 
resources in the right place, and we have the leadership 
focused on how to do this correctly.
    So let me turn to Secretary Baker and then I will turn to 
Mike Walcoff here for any other comments he might like to 
provide.
    Mr. Baker. Thank you, Mr. Secretary. Just quickly recapping 
where we are on the paperless system, the Veterans Benefits 
Management System. There are a number of pilots in place right 
now looking at different processes and different technologies 
to move VBA forward, one in Baltimore that we are particularly 
proud of, the Virtual Regional Office, that ties together 
process changes with technology to demonstrate what can be done 
inside of VBA. We will be letting contracts in the spring and 
the summer to get that fully implemented into pilots during 
2011 at VBA regional offices and then full rollout starting in 
late 2011 and 2012 of the paperless system across the entire 
VBA enterprise.
    Now, the paperless system does two things for us. One 
clearly is moving the system away from being paper-bound and 
into electronic. But the second is making it much more flexible 
for the VBA to look at their processes and make changes in 
their processes that will speed the way the work is done on top 
of the electronic system. So we are making good progress in 
that area at this point, primarily driven by our Chief 
Technology Officer, Peter Levin, and I think we have 
substantial progress to this point and you will see substantial 
progress through the rest of 2010 and 2011.
    Mr. Walcoff. Thank you, Mr. Secretary.
    Just a couple of things that I want to add. The Secretary 
mentioned that we are going to be hiring more people. Secretary 
Baker talked about the technology. And we also mentioned the 
pilots that we are doing that are looking at the business 
process itself to determine what can we do to improve the 
process so that when we have the new tools, it will not be just 
adding the tools to the old process.
    In addition to that, we recently brought all of our 
leadership together about a month ago and laid out for them 
what the challenge was. The Secretary has set some very, very 
ambitious goals for us. We always used to talk about time 
limits in terms of average. So when we said our goal was 125 
days, it was that the average case would take 125 days. This 
goal is a lot more ambitious where he is saying that he is 
eliminating any cases over 125 days and, at the same time, 
doing it with a 98 percent accuracy rate. That is really 
putting the challenge to us and saying we have to change the 
basic way we do business in order to accomplish that.
    We talked with our directors. We got a lot of really good 
ideas. We have some things that we are going to implement 
immediately. Just to give you an example, we are looking at 
doing what we call interim ratings where, for instance, on 
Agent Orange, if a veteran applies, is able to establish 
Vietnam service, has a diagnosis of, say, ischemic heart 
disease, but we do not have an exam to determine how disabling 
is the condition, we would pay him immediately at a minimum 
rate so he at least starts getting benefits and starts getting 
entitlement to things like voc rehab and treatment at VA 
hospitals while we go and do the exam to determine what his 
permanent rating would be. Those are the kinds of things that 
we believe we need to do to improve the service that we are 
providing to veterans.
    Senator Johnson. My time has expired.
    Senator Hutchison.

                          PRESUMPTIVE DISEASES

    Senator Hutchison. Thank you very much, Mr. Chairman.
    On the gulf war illness issue, your task force recommended 
nine new conditions to be automatic presumptions, and I am very 
pleased because these young men and women have been really in 
never-never land for a long time. I think that hitting it now 
rather than waiting so long, as was done in Agent Orange, it is 
still late, but I am glad we are doing it.
    This is my question. What is the timetable that you have 
after you have your rulemaking and you go through all of the 
required processes, that you think you will make the final 
determination on the gulf war syndrome presumptions? And then 
after learning the timetable, then I am wondering on the budget 
what you will expect, if it is going to be able to be covered 
this year, or will you have to accommodate that next year.
    Secretary Shinseki. I am going to turn to Dr. Petzel on 
this.
    Dr. Petzel. Thank you, Mr. Secretary.
    The process by which presumption is established is that 
there is a gulf war task force that will look at information 
such as the IOM report that recently came out regarding the 
gulf war. They will then make a recommendation to the Secretary 
as to illnesses that ought to be considered presumptive. The 
decision then is his as to what illnesses will be presumptive 
and what illnesses will not. And then there is a rulemaking 
process that occurs after the Secretary's decision has been 
made. As an example, I believe that the decision and the rules 
regarding Agent Orange, where the decision was made this early 
spring/late winter, will be finished, Michael, sometime----
    Mr. Walcoff. Early July.
    Dr. Petzel. In the late summer.
    Mr. Walcoff. Correct.
    Dr. Petzel. So, Senator, that would be the process by which 
we establish presumption.
    Senator Hutchison. So give me a guesstimate then. Is it 9 
months you are talking about after you get the recommendation 
and then there is the rulemaking and then the publication? I am 
just getting just a general idea. I am not asking for some 
blood oath, but just a general idea of what are we looking at 
in a timetable?
    Secretary Shinseki. I believe we will begin and will have 
the rulemaking done this summer, and then we will begin 
processing claims. It will be late summer timeframe.

                      FORT BLISS JOINT FACILITIES

    Senator Hutchison. Okay. That is what I needed. Thank you.
    So we will probably need--I know it is not in this year's 
budget. So we will probably need to address that at some point 
in the future.
    The other question that I have--General, you and I have 
talked about this, but the VA and the Army currently share 
joint facilities at Fort Bliss, and as we all know, Fort Bliss 
is in the process of being plused-up by about 30,000 troops. 
And that is going to affect the retiree population as well. 
Once the Army leaves the facility, the VA is going to be in a 
problem situation if the VA does not move with the Army.
    This is my question. The funding for the new hospital that 
is, at this stage, planned to be a joint facility, Army and VA, 
is in the Army's 2011 budget request and in the 2009 stimulus 
and then the 2009 war supplemental. The Army is ready to move 
and it is not in your budget this year because you were 
planning for all of this to be 1 year out.
    My question is, what are your plans? A, are you committed 
to the joint facility with the Army at Fort Bliss? And B, what 
are you thinking in updating your timetable to go along with 
the Army?
    Secretary Shinseki. Senator, we are committed to an 
integrated effort with the Army. We are a bit mid-stride right 
now because we planned on and were programmed for a 2012 start. 
So this acceleration to 2011 leaves us in a position where we 
do not have the resources to do that. We are looking at what 
options might be available to us. It also requires about a $20 
million design investment this year, 2010. So we are looking at 
that as well.
    And while we may be successful in being able to find those 
dollars, 2011 still remains an issue. I do not have the 
resources for it right now. It is not in my budget, and there 
are a number of longstanding projects that are on execution for 
us, and I would prefer to keep that priority because there have 
been veterans waiting for those assets to be provided. But we 
are interested in staying abreast of the Army's move here. We 
think it is important for it to be an integrated facility, and 
so we are looking at this hard.
    Senator Hutchison. You believe that you can have the $20 
million that would work with the Army to start the planning 
process in June. Is that correct?
    Secretary Shinseki. We are locating those dollars. I think 
there is a good chance we will do that, but I am hesitant to 
put $20 million up without understanding how we take care of 
2011, and right now I do not have resources.
    Senator Hutchison. Well, I will look forward to having you 
come to us with your suggestions, and then we certainly will be 
helpful because it would not make sense not to be joint and it 
would leave a big void if the Army moved and you did not. And 
it also would not be a wise use of taxpayer dollars when a 
joint effort would be so much more efficient. So I will look 
forward to hearing from you and helping as well. Thank you.
    Secretary Shinseki. Thank you.
    Senator Johnson. Senator Nelson.

                               OMAHA VAMC

    Senator Nelson. Thank you, Mr. Chairman.
    Thank you, Secretary Shinseki for testifying today. I am 
particularly pleased with your budget this year. I know the 
increases are there and there will be those who ask questions 
about why during these difficult times are we having increases. 
But the various causes that you are addressing in your budget 
are the kinds of things that I think, in spite of difficult 
times, we still have to identify and help.
    And I was especially pleased to see in your fiscal year 
2011 budget request that it addresses the needs of the Omaha VA 
Hospital. As we have discussed, this institution provides very 
good care for veterans, and I know Dr. Petzel knows that. But 
the physical facility is stuck back in the 20th century. Built 
back in the 1950s, upgrades to the facility and its equipment 
have served well, but now it is in need of a major overhaul. 
And working with your predecessor, Secretary Peake, and you, we 
have pushed to see that the hospital shortcomings are being 
addressed. You personally are well aware of these shortcomings, 
but for the record, I think they bear noting.
    A study by the VA, released last summer, found a number of 
critical functional deficiencies. I will not name all of them, 
but I will address a few. Significant space deficiencies. 
Forty-two out of 52 departments will need additional space. 
Surgical capacity is based on 1948 design. Present space does 
not meet room size, privacy requirements. A deteriorating 
building envelope, including problems with windows, walls, and 
the roof. Air handling and HVAC system beyond useful life, and 
overall refrigeration systems rated an F.
    In addition, the hospital has a unitary heating and cooling 
system and health officials have shared serious concerns about 
a virus such as the recent H1N1 virus being spread by this HVAC 
throughout the entire hospital, providing less than adequate 
health safety for the patients.
    So for these reasons, I am very pleased to see that your 
2011 budget calls for $56 million for planning and design 
toward substantial modernization of this hospital. It is a 
necessary first step toward what we expect will be a 21st 
century healthcare facility. And, Secretary Shinseki, this 
commitment is extremely good news for the thousands of veterans 
both in Nebraska and western Iowa.
    I have often said that I hope we some day become--and I 
think you are in the process of doing that--as good at taking 
care of our veterans as we are creating them. And your 
commitment to improving the Omaha VA Hospital is just one more 
example that caring for American veterans remains one of the 
Nation's highest priorities and clearly is one of yours.
    So, Mr. Secretary, from your perspective, perhaps you could 
give us your idea why this is a high priority for the Veterans 
Administration to see an improved facility in Nebraska.
    Secretary Shinseki. There is a great tradition in the VA, 
Senator. When we have problems, we do not blame our 
predecessors. When something comes out right, we give credit to 
them as well. Jim Peake is an old friend. He and I soldiered 
together for many years. In fact, I selected him to be the 
Surgeon General when I was on my last service in uniform. He 
was my predecessor in 2008, I think. Because he was apprised of 
some shortfalls in the service, primarily the safety aspects of 
the hospital in Omaha, he initiated an independent study, not a 
VA study, but an independent study, to go in and make their own 
assessment to provide him some idea of what the conditions 
were. As things turned out, I inherited that study which came 
in the spring of last year, as I recall. We put it into our 
annual scoring process. I think the Omaha hospital at one point 
was 15 or 16 on a priority list. Seven of the projects in that 
list were funded in the previous year's budget. So it moved up, 
and so all of the projects moved up, at least moved up 
accordingly. One project was removed from the list, as I 
recall, for some reason, but then with this new independent 
study, the rescoring just put Omaha within the range to get the 
ranking it did.
    I think it came out well. It came out right. It was the 
right thing to do for veterans in that part of the country. But 
understand, Omaha is just the location of the hospital. It 
serves Iowa. It serves lots of adjacent States. So veterans in 
many locations are serviced by this hospital. Location is only 
one issue.
    So that is my take on it, Senator.

                           VETERANS CEMETERY

    Senator Nelson. Well, I appreciate that.
    I also want to commend you for the VA budget having design 
funds for a new national veterans cemetery in Sarpy County, 
Nebraska, also eastern Nebraska adjacent to the Omaha area, 
which will serve a number of veterans from a region. The 
location of that cemetery, as the location of the hospital, 
will catch not only some South Dakota residents, veterans, but 
Iowa and northern Missouri, as well as perhaps some of Kansas' 
as well. So we appreciate your focus on it. You are doing an 
outstanding job, and we appreciate the opportunity to work with 
you.
    And we want to compliment former Secretary Peake for his 
wisdom in stepping in and seeing that we get an independent 
study so that it is some outside thoughts, as well as our 
inside thoughts.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Murkowski.

                              RURAL ACCESS

    Senator Murkowski. Mr. Chairman, thank you.
    Secretary Shinseki, good to see you. Thank you for our 
conversation earlier in the week. Not only did we have a chance 
earlier this week to discuss the issue of access to care to so 
many of our veterans who live in very rural parts of the 
country, we talked about it last year and the challenges that 
particularly our Alaska Native veterans face in accessing their 
earned healthcare benefits when they come back to their 
villages and they are hundreds of miles from the nearest VA 
facility, the challenges that they face. And we have talked a 
little bit about the effort that has gone into the rural Alaska 
pilot project and the need to make sure that we make that pilot 
function a little more efficiently.
    I understand--and I thank you for your offer to visit with 
the folks over at Indian Health Service (IHS) to see how we 
cannot iron out some of those issues, but again, find an easier 
path for those veterans who are in some of our most rural 
communities and have access to an IHS facility, that we might 
be able to partner with some of that care. But we know that 
that is just one part of the problem in Alaska.
    The other dimension of access to our veterans in my State 
is we have got concerns that those that actually have access to 
the VA facilities there cannot access the facilities with their 
particular healthcare conditions. Sometimes demand exceeds the 
capacity. Sometimes our veterans are told that they have to 
travel to Seattle because the procedures are not available in 
Alaska, just not available within the facilities that we have. 
It is our understanding that these veterans are told, well, the 
regulations require us to send you outside to Seattle rather 
than purchase care within the community. I had asked whether or 
not you felt that the VA was being a little overly rigid in 
interpreting these regulations.
    But essentially what I am looking for and what I am hoping 
that we can work with you on is how we ensure that the 
commitment made to these Alaskans is kept without having to 
send them outside to care, a 2,000-mile trip, for some even 
more than 2,000 miles, to access care when it could be made 
available through purchased care within the State.
    Secretary Shinseki. Well, Senator, I appreciate those 
insights. I am reminded that in our geographical descriptions 
of our system, we have urban, rural, highly rural. So two-
thirds of our definitions have the word ``rural'' in it, and 
then I am told that even highly rural may not describe some 
parts of the country and Alaska is one of them.
    We are going to look at very closely why we would send a 
veteran on a 2,000-mile journey if there is competent, safe 
healthcare available close by. We will take a look at that.
    This also behooves us to have a better working 
relationship, although we have already started this with the 
Indian Health Service, but a better relationship of sharing 
assets and capabilities so that we reach out into these areas. 
Even as hard as we are working at it, it is not still good 
enough. Telehealth is another capability we have invested in 
heavily. If there is any place we ought to be demonstrating the 
power of a microprocessor it would be in places like remote 
tribal lands in Alaska.
    Let me just turn to our senior medical officer, Dr. Petzel, 
and ask him for his insights here.
    Dr. Petzel. Thank you, Mr. Secretary.
    Senator Murkowski, I share your concern about the distance 
that some of these people have had to travel. We looked back 
and 685 veterans were asked to travel from Alaska down to a 
medical center in the Lower 48, usually Seattle, but it may 
have been other places. The question that I have when I heard 
that is what sorts of things are they being referred for. It is 
one thing to come down for open heart surgery, which may be a 
super-special kind of thing to do. But, on the other hand, 
routine surgery that we could be performing in Anchorage on a 
contract or on a fee basis probably ought to be looked at. So 
it is my intention to look at why those cases were sent, what 
kinds of cases were sent, and see if we can find out some sort 
of an arrangement that provides better, more community-level 
access for those veterans.
    Senator Murkowski. Well, Dr. Petzel, I appreciate that. In 
speaking with constituents that are expressing their concerns 
and their frustrations, what we are hearing is that a 6-week 
chemotherapy treatment--an individual lives in Fairbanks, our 
second-largest community, fine medical facilities, and yet they 
are being sent outside down to Seattle for treatment. I would 
like to think that that is one of those that should absolutely 
not be necessary for something as routine as chemotherapy 
treatment. So we would like to work with you on that. I would 
certainly like a better understanding myself. So much of what 
we know is anecdotal, but when we hear these anecdotes, this is 
something that for these families that have to make these 
transitions and spend 6 weeks down in a hotel in Seattle with 
no family members, the expense that is involved, but also the 
separation is something that is not the kind of care that I 
think our veterans certainly deserve and that we owe to them. 
So we want to work with you on this.
    Dr. Petzel. We would share your concern, Senator.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Johnson. Senator Murray.

                          VETERANS EMPLOYMENT

    Senator Murray. Thank you very much, Mr. Chairman. And I 
would tell my colleague from Alaska that we would happily take 
care of your veterans in Seattle. But I think most people do 
not realize it is a 3\1/2\ hour flight from Alaska to Seattle. 
It is a long way for those people to go. So I appreciate your 
concern.
    Mr. Secretary, thank you for you and your team being here 
today.
    I wanted to talk with you about an issue that is really 
weighing heavily on our veterans today and that is that they 
are coming home from serving us so honorably overseas and 
cannot find a job. The unemployment rate for our young veterans 
returning from Iraq and Afghanistan is now over 21 percent.
    When I was out in my State for the last 2 weeks, I sat down 
with a number of young veterans to talk to them about what was 
keeping them from finding work when they came home. And 
frankly, it was really shocking what a lot of them said to me. 
Some of them told me that they actually leave off the fact on 
their resume, when they are giving it to an employer, that they 
are a veteran. And I asked them why and they said it was 
because it went to the bottom of the stack. They did not know 
if it was because of the stigma of the invisible wounds of war, 
but they were finding that from many employers.
    Many of them told me that the Pentagon and VA transition 
programs do not work for the jobs and types of opportunities 
that could be available today.
    Many of them told me that they completely struggle to get 
civilian employers to understand what their experience was in 
the military that translates to what a civilian employer might 
need.
    They basically told me that their peer group either chose 
to get a job and had good experience or went to college or some 
kind of apprenticeship school and had that experience. They 
chose to go to the military and their experience does not count 
when they come home to get a job.
    I just find that completely unacceptable. I found that it 
often triggers a lot of mental and emotional issues that we are 
seeing among our veterans today as well. These people serve our 
country honorably. They are great workers. They are skilled. 
They come to work on time. They should not be facing these kind 
of barriers when they come home.
    So I wanted to ask you today, while you are here, if you 
are hearing the same kinds of concerns from our returning 
veterans and if there is anything the VA is doing today to try 
and make the transition work better.
    Secretary Shinseki. Thank you, Senator.
    I hear some of the same things, perhaps not the same 
anecdotes, but it feeds a couple of images I carry around and I 
tend to refer to them in speeches. This will take a few 
minutes, so I hope I do not take up too much time here.
    The first image is the one we are most familiar with. Every 
year about 60 percent of high school graduates go on to 
universities or some higher institution of learning. The 
remaining 40 percent go to vocational training or right into 
the workforce, and as you indicate, a very small percentage 
join the less than 1 percent of Americans serving in uniform 
doing the Nation's bidding. Good folks. They go through the 
train of experience, prepare for life with discipline and 
accountability. When they arrive in their first unit, good 
leadership puts them on missions that are complex, dangerous, 
sometimes near impossible. And yet, they outperform all our 
expectations. Great youngsters.
    The second image is a smaller population, but it says 
veterans are a disproportionate share of the Nation's homeless, 
jobless, mental health, depressed patients, substance abusers, 
and suicides.
    So the issue is what happened here. They are the same kids 
in both images. Something happened, and that is what we are 
about, is to try to figure this out, how to keep the kids in 
image one going on to do great things and then reach into image 
two and get those youngsters the help they need. That is what 
we are about.
    Senator, I would tell you that in all of our Departments of 
the Federal Government we have a goal of hiring veterans as 
part of the workforce. Right now, VA is at about 30 percent. It 
may be a point or two less. We intend to raise that. I am happy 
to serve as the Vice Chair to Secretary Solis who chairs the 
interagency task force on hiring veterans in the Federal 
Government. All of us are working toward this to try to 
increase the opportunities for them.
    At the VA, we have a Veterans First project which is better 
known. Small businesses are given the opportunity to compete 
for our contracts, and if competent, we level the playing field 
and they have a good shot at that.
    An example of this is last year in the stimulus funding, we 
were given $1 billion, lots of money for VA, and we competed 98 
percent of those dollars. As a result, our contracts came in 
lower than usual, and so we were able to have 20 percent more 
buying power.
    So just by the way we run these things, we feel good about 
the processes we have in place. In that process, 82 percent of 
our contracts went to veteran-owned small businesses, important 
for us because veterans hire other veterans. So that creates 
the churn of jobs, and we are looking for any opportunity we 
might have to repeat that.
    But I do share your concern. The G.I. bill is important 
because it gives some opportunity for youngsters to have 
constructive work for the next 4 years, but 4 years from now, 
they will be looking for jobs, and we need to have in place----
    Senator Murray. Well, I very much appreciate that response. 
I think there are a number of things we need to do. The TAPS 
program, National Guard, their skills and the way we treat them 
today cannot be the way we treated them 20 years ago.
    I am going to be introducing actually legislation next week 
on a veterans' employment legislation. I would love to have 
anybody join me on that that is interested. But looking at how 
we can help them transition their skills better so that 
civilian employees actually hear the skills that they have, 
opening up opportunities for apprenticeship programs that they 
currently do not have under the G.I. bill in an online school 
which often works for them, and helping them actually establish 
small businesses, not just have veterans on preference, but 
actually helping them do that. I think there are a number of 
things we have really got to aggressively work on so that as we 
are recruiting today and telling young people to come into the 
military, it is great experience, it is actually an experience 
that will help them get a job some day and they do not feel 
left behind.
    So, Mr. Chairman, I thank you for the extra time here.
    Mr. Secretary, I hope I get your help and support on my 
legislation as well. Thank you.
    Senator Johnson. Senator Collins.

                            VETERAN SUICIDES

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I was pleased to have an 
opportunity to talk with you recently in my office and to thank 
you for coming to the great State of Maine to tour our veterans 
hospital, which I would inform my colleagues is the oldest in 
the Nation, the very first veterans hospital.
    A recent article in Time magazine noted that between 2001 
and the summer of 2009, our military lost 761 soldiers in 
combat in Afghanistan. During that exact same period, the 
military lost more soldiers to suicide, 817 of our men and 
women in uniform. Last year, 160 active duty soldiers took 
their lives, and just this week the Army announced that in the 
first 3 months of this year, 71 more soldiers took their own 
lives.
    I know that this news is heartbreaking to you personally, 
as it is to all of the members of this subcommittee. I have 
talked with the active duty leaders in our military about what 
the Pentagon is doing to address the mental health needs of the 
active duty force, but I would like to know from you whether 
you feel the VA's budget is adequate to address the same kind 
of needs for mental health services and counseling that face so 
many of our returning veterans.
    Secretary Shinseki. Well, Senator, thank you very much for 
that question.
    We have resourced this properly, but there is so much more 
to be done in this area. First of all, none of us are experts 
in how to deal with the phenomena that results in great young 
people who do such wonderful things for us ending up feeling 
that there is no other choice but to have to take this step and 
hurt themselves.
    We have, in the last 4 years, hired probably an additional 
5,000 to 6,000 mental health staff to bolster our capabilities 
here in dealing with this issue. We probably number 20,000 or 
19,000 mental health staff today. We have made mental health 
part of our primary care facilities so that having someone 
think about having to go to the mental health clinic and the 
stigma associated with that is eliminated, especially amongst 
20-year-olds. We are trying to help them not have to deal with 
that. So we provide mental healthcare inside the primary care 
facility.
    We have created a suicide hotline that is well recognized 
nationally out of Canandaigua, New York. They handle probably 
10,000 calls each month and each day something on the order of 
10 rescues online of individuals who are under such great 
duress that they are thinking about hurting themselves. Over 
the several years since we have started this, we have had 
probably 3,000 intercessions that stop the act of self-
destruction in progress while the phone call is being made. 
When the phone is picked up, it is a mental health professional 
on the line. It is not just an operator. There are two of them. 
They work in a pair, one of them speaking to the individual and 
getting as much information and the other is helping to try to 
locate the individual so we can get help there. So these are 
actual online rescues that are occurring.
    We advertise this hotline in most of the major cities in 
the country so that people have some understanding of this, at 
bus stops, on buses, on the metro.
    More work needs to be done in terms of research, and so we 
are putting some energy there as well.
    Let me turn to the Chief Medical Officer here, Dr. Petzel, 
and see if he has got anything to add to this.
    Dr. Petzel. Thank you, Mr. Secretary. That was really quite 
thorough. Just a couple of things, Senator, that I would add.
    One is that we have a suicide prevention team at every one 
of our facilities. These teams include experts in PTSD, 
substance abuse, and those other mental illnesses that are 
often associated with suicide.
    In addition to that, all of the veterans returning from 
combat who seek care with us are screened for traumatic brain 
injury, substance abuse, PTSD, and depression: again, those 
things which we often have associated with suicide. Any suicide 
death is a tragedy. Any suicide death is a tragedy.
    I think that we have the resources, as the Secretary 
pointed out, and the programs to have an impact on veterans' 
suicide. I would not want to say we can eliminate this, but I 
think we will be able to see the fact that we are having an 
impact.
    The Secretary mentioned at the end of his remarks, 
research. One of the things that we need, that the Nation needs 
to do is a better job of, is being able to identify those 
people who are really at risk. I mean, there is a suicide 
assessment that could be done, but it does not really hone in 
on those people who are very seriously at risk and I think we 
need to be at the forefront of doing that kind of research.
    Secretary Shinseki. May I just provide just some data here 
to answer your question, Senator? The 2011 budget request 
includes an 8.5 percent increase, or $400 million, over the 
2010 budget for mental healthcare, and then in terms of mental 
health research, the 2011 budget request is a 15 percent 
increase above the 2009. Eighty-three million dollars is the 
research number.

                               G.I. BILL

    Senator Collins. Thank you. That is very encouraging.
    Mr. Chairman, I have another question that I would like to 
just submit for the record. It has to do--and the Secretary was 
the one who brought this to my attention, the fact that when we 
updated the G.I. bill to help provide more educational 
assistance, we narrowed the kind of training program that is 
available, and we left out a lot of vocational, community 
college kinds of programs. And that is something I think we 
need to take a second look at. So I have a couple of questions 
on that that, with your consent, I would like to submit for the 
record. Thank you, Mr. Chairman.
    Senator Johnson. It will be received.
    Senator Pryor.

                              RURAL ACCESS

    Senator Pryor. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here.
    I do want to echo Senator Collins' concerns about the 
suicide rates. I agree with what you have said, that any 
suicide is a tragedy. I know you are working on it. You are 
very attentive to it, and I would just encourage you to 
continue on that track and even put more resources there if 
that is what you need to do. But it is very important.
    Let me ask a question. I do not want this to sound like a 
parochial question because I am going to talk about Arkansas 
here for just a minute. I am sure every other State in the 
Union has these same type of concerns because even the most 
urban States have some type of rural area in them.
    But in our rural areas of my State, I hear from a lot of 
our veterans about the difficulties they have in accessing 
medical care that meets their needs. The VA outreach 
initiatives have been good in a lot of ways and there have been 
good attempts and steps in the right direction. I know you have 
the community-based outpatient clinic program. But have you 
done any sort of top-down review of the community-based 
outpatient programs and looking for ways that they can provide 
greater oversight and guidance so that the best possible care 
and access is available to these veterans who live in these 
rural areas? I know you mentioned some of the most rural areas 
in the country, Alaska, but our State has a lot of hard-to-
access areas with not much healthcare in there.
    Secretary Shinseki. I am going to turn to Dr. Petzel in a 
second.
    Again, Senator, this is a great reminder. Several years 
ago, very bright people, well before my time, decided that 
having 153 premier flagship medical centers was not good 
enough, that there is so much expanse to our country that we 
had to find a different solution in delivering healthcare, not 
just welcoming people to come get it but delivering healthcare. 
So we created a community-based outpatient clinic system, which 
you have asked me whether or not we are taking a look at. 
Outreach clinics in places that do not have a veteran 
population to support a full-time clinic will go lease a piece 
of real estate, stand a clinic up for 3 days, shut it down, and 
move it, mobile, on wheels, and do the same thing.
    Telehealth, telemedicine. Right now, we have 40,000 
veterans who are receiving telehealth monitoring because they 
are chronically ill in their own homes. They do not have to go 
anywhere. The technology is there. So this is part of the 
structure.
    Yes, we are looking down to make sure that we have the 
right capabilities, the right services to meet the needs out 
there, and that is a constant look. There are looks underway 
right now. In fact, I would just offer to everyone that this is 
a look and we are trying to ensure that we have a good 
understanding where the needs are.
    With that, let me turn to Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary.
    Senator Pryor, I heard two questions or two concerns. Let 
me just add a little bit to the first one to what the Secretary 
had to say.
    Each year we assess the needs for community-based 
outpatient clinics. It starts at the medical center level, 
moves up through the network, and eventually we come to a 
national understanding of what the needs are for additional 
community-based outpatient clinics. We will be opening a number 
of new ones during 2010. We hope to have about 862 clinics 
opened with the completion of fiscal year 2010.
    But as the Secretary mentioned, there are much more mobile, 
if you will, modalities that we can use. Home-based primary 
care where we send visitors into the home. Telehome health 
where we actually have tools for monitoring in the home. A case 
manager, from the veterans' perspective, is probably the most 
desirable way to provide care in the rural community. They do 
not have to travel very frequently to a clinic or to a medical 
center. And then we have telemedicine where we can provide in 
the community telemedicine access to specialists at various 
places.
    I think we are going to be doing a better job in these next 
2 years of reaching rural America. I think the Secretary 
mentioned there are 40,000 patients on telehome health. I think 
that the number who need that modality is probably hundreds of 
thousands, and we are moving aggressively to increase the 
number using telehome health.
    The second question, though, that I thought I heard in what 
you said was, what about the quality of the care that we 
receive in our community-based outpatient clinics. And we do 
hold them to the same standards and do assess them in the same 
ways for the quality of care that they are receiving, and that 
is whether it is a clinic that we staff ourselves or whether it 
is a clinic where we contract for care.

                        ELECTRONIC HEALTH RECORD

    Senator Pryor. Great. I appreciate that and I appreciate 
your attention to that. It is important to pretty much every 
Senator in the Senate because we all have some rural areas and 
some challenges out in those rural areas.
    Mr. Secretary, I would like to ask you about the joint 
lifetime electronic record. I know that this is something that 
the DOD and the VA have been working on together. I think it is 
very important that we do it and do it right. Could you give us 
a very brief status report on that?
    Secretary Shinseki. Let me turn to the expert, Senator. Let 
me turn to Roger Baker here who handles that for us.
    Mr. Baker. Thank you, Mr. Secretary. I will give you a 
quick update. We have a lot of detail on this one.
    As you know, we have probably the best interoperability 
right now with the Department of Defense, exchanging 
information between our electronic health records. As we moved 
to expand that, we have moved to a national standard for 
information exchange so that we can bring the private sector 
into that electronic health record. Roughly 50 percent of the 
care provided to veterans is done by the private sector, and in 
the past we have not shared those health records. So we are 
moving that forward.
    We have had a pilot live in San Diego with Kaiser 
Permanente on that project for several months. We have 
announced that we will be doing another pilot in the Hampton 
Roads area and moving forward with pilots there toward a 2012 
general availability of that for private sector folks to hook 
in with.
    On the benefits side, we have also made substantial 
progress in achieving what the Secretary terms the ``seamless 
transition'' and doing things along the lines of putting all of 
our benefits information and the DOD's benefit information on a 
common Web site so that a service member goes to the e-benefits 
portal while they are in the service and sees what their 
benefits are. They have the same log-in, exactly the same Web 
site, when they move to VA so all the information is the same 
there.
    We really have moved a long ways forward in a global 
approach to sharing that information. It is a long process. 
There are a lot of systems involved and a lot of information 
involved, but we feel very good about the progress.
    Senator Pryor. Good.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Brownback.

                             JOINT VENTURES

    Senator Brownback. Thank you, Mr. Chairman.
    Mr. Secretary, welcome, and gentlemen, good to have you 
here.
    I want to raise two quick issues with you. One is the joint 
VA/DOD ventures that you have around the country, Mr. 
Secretary. I understand you have eight joint ventures between 
DOD and the Veterans Administration as far as healthcare 
facilities that serve both active duty members and veterans.
    I just want to put out for you that at Leavenworth one of 
the things that I have been talking about with the local base 
and the Veterans Administration in Leavenworth is that as they 
look to move forward, I think there are some real synergies and 
possibilities of a joint facility in Leavenworth. You have a 
small VA hospital that is there. You have got a major Army 
base. We have the disciplinary barracks from the DOD also 
there. And then the Bureau of Prisons (BOP) has a major 
facility. And yet, no hospital healthcare facility for the 
entire complex.
    It is expensive care that is taking place now. The Bureau 
of Prisons is building a kidney care center for dialysis just 
for older people that are in prison. To get dialysis, they are 
going to move all their prisoners from around the country to 
Leavenworth to get dialysis care. Probably a good idea, but I 
am looking at this and thinking you have a VA, a major military 
base, disciplinary barracks, and BOP, and it is all the same 
Government and we are short of taxpayer money.
    I think this is a prime place to look at something of that 
nature, and I would just urge your folks to take a look at 
that. I know the base commander at Leavenworth would be 
interested in doing this because he does not have a healthcare 
facility at all, and it is a substantial base. I think it is 
the largest base in the country without a healthcare facility, 
and it would be nice to do this in the most economical way we 
could.
    A second issue I just want to raise with you--and Senator 
Collins raised it. It was on Senator Pryor's mind as well--is 
on the suicide, PTSD, traumatic brain injury issue. I think we 
are doing a lot better job this time around on this than after 
the Vietnam era. When I first came into Congress, I would see a 
number of Vietnam veterans come into our office that just had 
not--there was not any recognition that there was a PTSD 
syndrome at the time, and then they did not get any care and it 
just got worse for neglect. I think you are doing a better job 
this time around.
    One issue I would offer to you on that and I hope you do is 
to engage more of the private sector community on it, 
particularly the not-for-profit, faith-based community that 
would really like to engage because in my experience, these 
guys have difficulties that in many cases they are not willing 
to express or talk about or it is not tough if I do, and yet 
the longer it goes on, the worse it is going to dig in. And 
they need to really just build relationships. They need 
somebody that just sits there and says I care about you. Look, 
we have a problem and let us go get it taken care of.
    And I have seen some interesting models around the country 
of where the private sector is stepping in. There is a group 
that just came into my office--I think they are from Kentucky--
that is working doing this--and this seemed to me to be really 
classically built for a private, faith-based community 
engagement because really what you need is somebody to build a 
relationship that can see the signs coming on this. And many of 
these guys either do not have that level of relationship or 
have already blown through their relationships, their close 
ones, because of PTSD or traumatic brain injury and then the 
steps on down the road are drugs or alcohol or suicide at the 
worst case. This one seemed to me to be really made for that 
sort of issue because you are going to need a lot of hands on 
deck to pick these sort of problems up as they come along.
    I would urge you to look at that and I would hope you could 
look at this possible joint facility at Leavenworth.
    Secretary Shinseki. Senator, I am going to turn to the 
Chief Medical Officer here for his insights.
    But I would tell you we look for any opportunity to 
partner, especially with DOD. Very little of what we do in VA 
originates here. We are joined by the one key link between us 
and that is the individual who wears a uniform one day and 
takes the uniform off the next. And the VA then has 
responsibility to care for them for a long period of time.
    You may be interested to know that today we still have two 
children of Civil War veterans on our rolls as beneficiaries.
    Senator Brownback. Is that right?
    Secretary Shinseki. One hundred and fifty-one Spanish-
American War beneficiaries. So our responsibilities go on for a 
long time, and this effort to partner with DOD makes good 
sense, makes good business sense, and it takes great care of 
these youngsters.
    Let me just turn to Dr. Petzel here for a few seconds.
    Dr. Petzel. Just to elaborate a bit on the Secretary's 
comment--thank you, Mr. Secretary. In Kansas, we are actually 
engaged already with Leavenworth. The VHA leadership has been 
in discussions with the Leavenworth military community about 
how we can cooperate.
    Senator Brownback. Good.
    Dr. Petzel. I think that is an excellent suggestion, 
Senator.
    Senator Brownback. I have been pushing them to do this. It 
really makes a lot of sense to do it.
    Dr. Petzel. We are actually also looking at another place 
in Kansas, in Wichita at McConnell Air Force Base. We have 
engaged McConnell in discussions about how we can share 
jointly. We are one Federal Government and there ought to be 
ways that we can share our expenses.
    Senator Brownback. This would be unusual, but if you could 
even think about involving the disciplinary barracks which is 
part of the military that is in Leavenworth and the BOP. I know 
that is really outside of the box, and we may be pushing it to 
get two stovepipes together, and three or four may be just a 
bridge too far. But they are all within 3 miles of each other--
4. And you would impress a lot of people if you are able to get 
that many stovepipes in the same chimney.
    Dr. Petzel. We will certainly look into that.
    Senator Brownback. Thank you.
    Secretary Shinseki. Senator, I will just add to this. Forty 
thousand veterans come out of prisons every year, and so out of 
our medical care system--out of VA for both benefits and 
healthcare, we have already been in touch with prisons. I think 
there are something on the order of 1,300 Federal prisons. We 
have visited maybe 800 of them and made contact with about 
15,000 prisoners in the effort to prepare them so they leave to 
be on track with a good phase in the next phase of their lives. 
Much of that has to do with treatment to begin with and then 
stability in jobs and other things. But already there is this 
requirement to work together with the Bureau of Prisons.
    Senator Brownback. Good.
    Thank you, Chairman.
    Senator Johnson. Thank you, Senator Brownback.
    I would like to thank the Secretary and those accompanying 
him for appearing before this subcommittee. I look forward to 
working with you this year.

                     ADDITIONAL COMMITTEE QUESTIONS

    For the information of members, questions for the record 
should be submitted to the subcommittee staff by close of 
business on April 21.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Tim Johnson

    Question. Mr. Secretary, on March 18, the VA published a Proposed 
Rule in the Federal Register that would establish a presumption of 
service connection for nine diseases for veterans who served in the 
Persian Gulf and Afghanistan. I am pleased that the VA is taking steps 
to recognize diseases that afflict vets that served in the Gulf. As the 
VA moves to implement this proposed rule, have you developed any budget 
estimates, both for compensation payments and healthcare costs, for the 
cost of implementing this new policy?
    Answer. The compensation benefit costs associated with this 
proposed rule are estimated to be $1.5 million during the first year, 
$11.5 million for 5 years, and $36.4 million over 10 years. This 
proposal would amend section 3.317 of title 38 C.F.R. to establish a 
presumption of service connection for the nine diseases (brucellosis 
infection, campylobacter jejuni infection, coxiella burnetti infection, 
malaria infection, mycobacterium tuberculosis infection, nontyphoid 
salmonella infection, shigella infection, viseceral leishmaniasis and 
west nile virus infection). However, the costs associated with this 
regulation are based only on compensation for tuberculosis due to 
insufficient data available on the other rare diseases. Because of the 
small number of veterans and survivors affected by this rule annually, 
the additional caseload and cost of implementing this new rule will be 
absorbed in existing resources.
    Question. Collaboration between the VA and the Indian Health 
Service needs to improve. Many Native Americans who are veterans often 
get conflicting information regarding benefits that they are entitled 
to. What plans does the VA have to improve the coordination of benefits 
between the two Departments?
    Answer. VA has a robust program with the Indian Health Service 
(IHS) as is reflected in Attachment A, which provides details regarding 
specific Native American/Alaska Native veteran outreach and healthcare 
activities.
    In addition, on May 24, 2010, VA Secretary Shinseki met with Dr. 
Yvette Roubideaux, Director of Indian Health Service. During this 
meeting, it was agreed the Memorandum of Understanding between VA/IHS 
would be updated by September 30, 2010, to reflect the expansion of 
collaborative activities, as well as the enhancement of communications. 
Both organizations agreed that working together in partnership will 
enhance the delivery of benefits to our Native American and Alaska 
Native veterans.
    Question. Mr. Secretary, the budget includes a supplemental request 
to implement the Agent Orange decision. The entire request is for VBA 
disability claims. However, this decision is likely to have an 
important impact on demand for VHA medical care as well. Has VHA 
projected the likely effects on its medical expenditures?
    Answer. VHA projects Agent Orange expenditures of $165 million and 
$171 million in fiscal year 2011 and 2012, respectively. These costs 
are included in the budget request.
    Question. The denial of On-the-Job Training (OJT) benefits under 
the GI Bill for the State workers who work in State Veterans Affairs' 
State Approving Agencies (SAA) is inconsistent with the policy 
regarding Federal VA workers and OJT. There have been several incidents 
where the VA has denied OJT programs with the South Dakota SAA. The VA 
has deemed employees to be ``fully qualified'' due to the fact that 
they were hired to their positions, but being fully qualified is not 
the same as being fully trained. VA employees, such as a VA Veterans 
Claims Representative, or an Education Liaison Representative can use 
their GI Bill benefits for an OJT program with the VA, but those in 
State Approving Agencies are denied approval to use their GI Bill 
benefits for OJT Programs. The VA's argument for denying the claims of 
SAA employees is that they don't need training because they are already 
qualified, and yet, the VA employees who are in positions of authority 
over the SAA employees are generally approved to use OJT benefits.
    Why does the VA deny the use of the GI Bill for OJT programs for 
SAA employees while approving them for the education liaison 
representatives (and others) who would generally be considered more 
qualified, trained, and knowledgeable?
    Answer. SAAs are charged with approving education courses in 
accordance with the provisions of chapters 33, 34, 35 and 36 of title 
38 U.S.C. Under contracts with VA, SAAs ensure that education and 
training programs meet Federal VA standards through a variety of 
approval activities, such as evaluating course quality, assessing 
school financial stability, and monitoring student progress. SAAs also 
promote the development of apprenticeship and on-the-job training 
programs and approve tests used for licensing and certification. The 
Federal Acquisition Regulations (FAR) require SAAs to be qualified to 
perform the required duties before they can be awarded a contract. 
Therefore, VA has denied the requests of current SAA employees for on-
the-job training programs.
    VA's General Counsel is currently reviewing the law and regulation 
as it applies to this matter and will issue a formal opinion by mid-
July 2010.
    The Veterans Benefits Administration does hire employees in entry-
level trainee positions. Work completed by trainees is reviewed and 
approved by experienced supervisors. These supervisors are required to 
have the necessary knowledge and skills to perform the duties of the 
job prior to being selected for the position, much like the 
requirements for SAAs. Therefore, they would not be approved for an on-
the-job training program.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

    Question. Mr. Secretary, it is my understanding that the Department 
of Veterans Affairs has done an extremely good job when it comes to 
both hiring veterans, and utilizing service-disabled veterans small 
businesses to execute contracts. Would you please elaborate on some of 
the goals that VA would like to meet with regard to both hiring and 
small businesses in fiscal year 2011?
    Answer. The average employment of veterans across the Federal 
workforce is 25.8 percent according to OPM, as of September 30, 2009. 
Today, approximately 30 percent of the Department of Veterans Affairs 
workforce (over 90,000 of 300,000 employees) is comprised of veterans. 
We've set a strategic target of 35 percent veteran employment. Our 
target for fiscal year 2011 is to obtain 31 percent veteran employment.
    VA is proud to lead the Federal Government in small business 
contracts to service-disabled and other veteran-owned small businesses. 
Preliminary VA data for fiscal year 2009 indicate that service-disabled 
and other veteran-owned small business interests respectively received 
16.3 percent and 19.3 percent of VA's total procurement dollars. We are 
on a similar performance track to exceed our goals in fiscal year 2010. 
Our employees worked especially hard to exceed these ambitious goals 
for implementing ARRA funds. Of the over $1 billion in ARRA funding for 
VA approximately 80 percent have so far been awarded to Veteran Owned 
Small Businesses (VOSB). Our goal for fiscal year 2011 for service-
disabled VSOB is 10 percent, and for VSOB is 12 percent.
    Question. Mr. Secretary, there are many pressing issues that face 
our veterans, and the fiscal year 2011 VA budget was crafted to seek 
the greatest degree of balance. The VA is the agency charged with 
caring for the needs of our veterans for the long-term. As you looking 
forward and anticipate the greater demands that will fall upon VA, in 
terms of healthcare and benefits, what actions are you taking to 
prepare the Department for the expected influx? Given the constraints 
we are all facing during these economically difficult times, how do you 
see the Department meeting the requirements this preparation requires?
    Answer. We recently completed development of a new strategic 
framework that is people-centric, results-driven, and forward-looking. 
The path we will follow to achieve the President's vision for VA will 
be presented in our new strategic plan, which is currently in the final 
stages of review. The strategic goals we have established in our plan 
are designed to produce better outcomes for all generations of 
veterans:
  --Improve the quality and accessibility of healthcare, benefits, and 
        memorial services while optimizing value;
  --Increase veteran client satisfaction with health, education, 
        training, counseling, financial, and burial benefits and 
        services;
  --Protect people and assets continuously and in time of crisis; and
  --Improve internal customer satisfaction with management systems and 
        support services to achieve mission performance and make VA an 
        employer of choice by investing in human capital.
    VA's 2011 budget focuses on three concerns that are of critical 
importance to our veterans--easier access to benefits and services; 
reducing the disability claims backlog and the time veterans wait 
before receiving earned benefits; and ending the downward spiral that 
results in veterans' homelessness.
    This budget provides the resources required to enhance access in 
our healthcare system and our national cemeteries. We will expand 
access to healthcare through the activations of new or improved 
facilities, by expanding healthcare eligibility to more veterans, and 
by making greater investments in telehealth. Access to our national 
cemeteries will be increased through new burial policies that lower the 
veteran population threshold required to build a national cemetery from 
170,000 to 80,000 within a 75-mile radius and that allow for the 
establishment of urban satellite cemeteries.
    We are also requesting a substantial investment for our 
homelessness programs as part of our plan to ultimately eliminate 
veterans' homelessness through an aggressive approach that includes 
housing, education, jobs, and healthcare.
    The Veterans Benefits Administration now employs more than 11,600 
full-time claims processors and plans to add 3,000 additional 
decisionmakers in fiscal year 2011. However, continuing to increase the 
size of our workforce is neither a long-term nor scalable solution; we 
need to do a much better job of leveraging network automation and 
software productivity tools to more effectively manage our workload and 
serve our clients. Bold and comprehensive changes are needed to 
transform VA into a high-performing 21st century organization that 
provides high quality services to our Nation's veterans and their 
families.
    VA's transformation strategy leverages the power of 21st century 
technologies applied to redesigned business processes. Pilot programs 
are underway at four of our regional offices to support our business 
transformation plan to reduce the claims backlog, improve service 
delivery, and increase efficiencies. Each pilot functions as a building 
block to the development of an efficient and flexible paperless claims 
process. The results of all four pilots will be incorporated into the 
nationwide deployment of the Veterans Benefits Management System (VBMS) 
in 2012. VBMS will be built upon a service-oriented architecture, 
enabling electronic claims processing by providing a shared set of 
service components derived from business functions. Initially, VBMS 
will focus on scanned documents to facilitate the transition to a 
paperless process. Ultimately, it will provide end-to-end electronic 
claims workflow and data storage.
    VA is also seeking contractor support to develop a system to 
support evidentiary assembly and case development of the new Agent 
Orange presumptive claims. The system will enable veterans to 
proactively assist in the development of their claims through a series 
of guided questions and will automate many development functions such 
as Veterans Claims Assistance Act notification and follow up.
    In addition to an electronic claims processing system, VA is 
committed to improving the speed, accuracy, and efficiency with which 
information is exchanged between veterans and VA, regardless of the 
communications method. The Veterans Relationship Management Program 
(VRM) will provide the capabilities to achieve on-demand access to 
comprehensive VA services and benefits in a consistent, user-centric 
manner to enhance veterans', their families' and their agents' self-
service experience.
    In summary, VA will be successful in resolving these three concerns 
by maintaining a clear focus on developing innovative business 
processes and delivery systems that will not only serve veterans and 
their families for many years to come, but will also dramatically 
improve the efficiency of our operations by better controlling long-
term costs. By making appropriate investments today, we can ensure 
higher value and better outcomes for our veterans.
    Question. Mr. Secretary, would you please discuss some of VA's 
long-term plans to meet the healthcare needs of our veterans that live 
in remote areas? For example, the State of Hawaii is home to many brave 
men and women that have served this country in uniform. Remote and 
rural areas in the State as well as the territories in the Pacific 
create unique demands on the VA's system. There has been discussion of 
allowing existing Federal healthcare providers in the area to provide 
care for veterans. Could you please elaborate on the plans to address 
these unique needs through partnerships, telehealth, or other 
initiatives, and how these goals may be met through the VA's budget?
    Answer. It is VA's intention to continue aggressively pursuing a 
strategy designed to reach veterans in remote areas, no matter where 
they live. Veterans Integrated Service Network (VISN) and local 
facility leadership are also exploring opportunities to extend the 
reach of VA's benefits into more remote areas. As a result, a 
comprehensive strategy for addressing the needs of rural and highly 
rural veterans, including those in the Hawaiian and other Pacific 
Islands, is based on the establishment of community-based outpatient 
clinics, rural health outreach clinics, telehealth and telemental 
health initiatives, as well as partnering with other Federal, State and 
local healthcare providers.
    In Hawaii, VA closely partners with the Department of Defense and 
is exploring opportunities to partner with Papa Ola Lokahi, a non-
profit organization which addresses native Hawaiian healthcare needs, 
and other healthcare systems and practitioners located in the Islands. 
This partnership is seeking to improve the availability of and access 
to VA enrollment materials for Native Hawaiian veterans, and is 
considering the potential use of Native Hawaiian Clinics where veterans 
can access traditional and complementary medical care, where feasible.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. General Shinseki, as you are aware, VA is in the process 
of improving its human capital capabilities through the Human Capital 
Investment Plan and Human Resources Lines of Business initiative. These 
are important efforts and I applaud VA's efforts to both improve its 
efficiency and look after its people. With respect to the HR Line of 
Business initiative, there are a number of Federal shared service 
centers capable of providing these services, one of which is located in 
East New Orleans at USDA's National Finance Center. In February, I 
wrote you asking that you consider the merits of utilizing NFC for your 
department's line-of-business needs. Utilizing a Federal agency like 
the National Finance Center would allow VA to avoid a lengthy and 
costly procurement process--and there are certainly other benefits.
    I would be interested to know where VA is in the process of 
selecting a line-of-business provider, and whether your staff has met 
with NFC personnel to discuss this matter.
    Answer. VA has been working with the Office of Personnel Management 
and other Executive Branch Departments and agencies on the overall 
Human Resources Line of Business Initiative. Using our current 
selection process guidelines, VA will consider NFC as our human 
resources services provider along with all interested and approved 
providers.
    NFC will be afforded the full opportunity to demonstrate to key 
members of my staff the full range of products and services they desire 
to provide VA in this regard, and we will look forward to that process.
    Question. I would also like to ask about an issue that I am sure is 
very much on your mind--the implementation of the Post 9/11 GI Bill. 
There has been a great deal of effort to make sure this goes as 
smoothly as possible--a difficult task under the best of circumstances, 
but made all the more difficult given the complexity of the law and the 
short amount of time to get the system up and running. And indeed, 
there have been delays and backlogs that have frustrated veterans, but 
I know the VA is moving aggressively to address these issues.
    A significant amount of the work to develop the long term solution 
for the Post 9/11 GI Bill is being done by SPAWAR in New Orleans. It 
seems to me that given the concentration of subject matter expertise in 
both the implementation of the law and development of the supporting IT 
system, VA would be wise to examine an ongoing relationship between VA 
and SPAWAR with respect to GI Bill benefits.
    Once the planned releases of the Long Term Solution (LTS) system 
are complete, what are VA's plans with respect to the LTS system?
    Answer. As of today, VA intends to continue to house the Long Term 
Solution at the Terremark Data Center in Culpepper, Virginia. No 
decision has been made to date on whether or when to transition LTS 
back into a VA data center.
    Question. It is my understanding correct that the system will be 
housed at a VA data center and that claims will be processed in 
regional centers? Given the complexity of this undertaking, would it 
not be wise to examine a centralized processing center to handle claims 
and eliminate any existing backlog?
    Answer. All VA education benefit claims are currently processed at 
one of four Regional Processing Offices (RPOs) nationwide using systems 
housed in various locations throughout the country. VA has substantial 
experience in processing claims through off-site systems and is 
prepared to continue this procedure for the Long Term Solution (LTS). 
The creation of a centralized processing center would add complexity to 
the process by requiring that VA build out a centralized location, 
transition all relevant IT systems to this center, and relocate the 
trained claims processing staff currently spread throughout the four 
RPOs. VA has developed staffing and IT strategies to address any 
backlog of education claims that may occur and is confident that these 
strategies will be sufficient to achieve timely processing and payment 
of claims.
    Lastly, the LTS will both reduce the number of people needed to 
process claims and allow VA to move work electronically to available 
resources. Therefore, once VA gains experience with the new claims 
processing system, a review of the best model for claims processing 
locations will routinely occur as we maintain the best efficiency in 
our system while accounting for workload and available resources.
    Question. Will VA consider a Project Labor Agreement for the 
construction of the New Orleans VA Hospital?
    Answer. The Executive Order which relates to Project Labor 
Agreements encourages Federal agencies to consider the use of a PLA on 
construction projects valued at greater than $25 million. The final 
change to the Federal Acquisition Regulation was recently issued. The 
Department is finalizing an acquisition instruction letter that will 
establish policy on evaluating the use of PLAs for projects over $25 
million, including New Orleans. This will include evaluating factors 
such as the positive or negative impacts of a PLA on project cost, 
schedule, labor availability, competition, and labor unrest. The 
developed business cases and final decisions will become part of the 
contract file.
    Question. Where is VA in its decision for VA/DOD centers of 
excellence for blind veterans?
    Answer. VA is assisting the Department of Defense (DOD) in 
establishing the Vision Center of Excellence (VCE). VA is responsible 
for providing staff support for the VCE based on a Joint DOD/VA 
Memorandum of Understanding signed on October 16, 2009. VA has 
successfully recruited a Deputy Director, Chief of Staff, and Vision 
Rehabilitation Specialist. A Research Optometrist and Administrative 
Assistant are in the selection process and the Biostatistician position 
will be released for recruitment before the end of the 3rd Quarter of 
fiscal year 2010. VA personnel are currently occupying DOD space in 
Falls Church, VA.
    DOD has the lead on developing the Joint Defense and Veterans Eye 
Injury and Vision Registry (DVEIVR) to provide capability for analyzing 
longitudinal outcomes, assessing intervention strategies, enhancing 
performance improvement, and developing a common user/provider 
interface across DOD and VA. VA provided $1.7 million for use in 
developing a data store to capture information to populate the DVEIVR. 
Initial testing for VA's data store was completed in March 2010. VA 
estimates that by the end of the first quarter of fiscal year 2011, it 
will begin data abstraction efforts for the VA functional data store. 
Data abstractors will take clinical information from medical records 
and enter it into a computable database for analysis to improve medical 
care and conduct research. Development of the DVEIVR is projected to 
begin in the first quarter of fiscal year 2011.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

    Question. Secretary Shinseki, Congress has continued to fund 
Department of Defense and the Department of Veterans Affairs' efforts 
to integrate record keeping for over two and a half decades. As a 
result of departmental failures in both agencies, wounded soldiers 
often languish between the systems and receive inadequate care. Last 
April, President Obama joined you and Secretary Gates in announcing a 
combined DOD-VA electronic health record system development effort. 
Since that announcement over a year ago, what concrete progress has 
been made towards making the system a reality? What role have you 
played in accomplishing this goal? What are the milestones and 
timelines for completion of this effort? What will the system look like 
when completed? Will it be one seamless system, an integrated system, 
or an interoperable system?
    Answer. The Department is fully committed to meeting the needs of 
our service members and veterans, especially those who have given so 
much for their country. The Virtual Lifetime Electronic Record (VLER) 
is one of VA's highest priorities. VA's dedicated VLER team quickly 
explored new opportunities for exchanges of health information between 
not only VA and the Department of Defense (DOD), but also with private 
healthcare providers who also care for our veterans. The information 
obtained from this group is critical to the Department's efforts to 
ensure a complete treatment record is available. VA and DOD capitalized 
on the work being done by the Department of Health and Human Services 
to create the Nationwide Health Information Network (NHIN). VA 
conducted a proof of concept in September 2009 by exchanging very 
limited information over the NHIN on two patients who consented to be a 
part of this exchange. The test was conducted in San Diego, California, 
with two veterans who were seen by both the VA Medical Center and by 
Kaiser Permanente (KP). After the test, VA completed more work to be 
able to begin exchanging a limited set of health data for approximately 
400 veterans who have consented to be part of a production pilot in San 
Diego between the VA and KP. That effort commenced mid-December 2009 
and continues today. VA plans a second pilot in the Virginia Tidewater 
area that is expected to go into production during the summer of this 
year. Following the guidelines of the Chief Information Officer's 
Program Manager Accountability System (PMAS), development and 
deployment of additional health data elements and additional 
functionalities will occur in 6-month phases.
    However, as VLER builds upon this health data exchange, the VA's 
Enterprise Program Management Office (EPMO), which was established to 
oversee the efforts of both the health and benefits lines of business 
teams and coordinate those requirements with the information technology 
development teams, will begin exploring additional means of creating 
the framework for information interoperability necessary for all of 
VA's service providers to seamlessly have secure access to the 
information needed. This data liquidity will significantly reduce the 
burden on service members and veterans to repeatedly provide 
information that should and will be made available to our service 
providers.
    The next step in this approach will be to engage in discussions 
throughout VA and with the Social Security Administration (SSA) to 
identify those health data elements required for a disability claim 
that can be exchanged via the NHIN, and to determine the remaining data 
elements and design the framework for those exchanges. This approach 
will build on the lessons learned from the NHIN work and rely on HHS 
standards and protocols where applicable for health data exchanges.
    The approach VA is taking leverages the work being done by HHS and 
allows exchange of health data information over the NHIN. Utilizing the 
NHIN by creating an adapter from each Electronic Health Record (EHR) to 
the NHIN gateway allows each Department to modernize on their own 
schedule and meet their individual needs but still share health 
information.
    The VA's approach to VLER will accomplish the following:
  --Create the data liquidity required for service providers to access 
        and use the information needed;
  --Reduce the burden on the service member and veteran of repeatedly 
        providing information;
  --Deliver new functionalities and capabilities every 6 months, to the 
        NIHN adapter for information interoperability; and
  --Position the Department to have laid the framework for the lifetime 
        electronic record by 2012.
    Question. Secretary Shinseki, many wounded, disabled, and homeless 
veterans live in rural areas. Conversely, Department of Veterans' 
Affairs facilities tend to be aggregated in more densely populated 
areas to achieve maximum efficiencies. Southern West Virginia disabled 
veterans often have to travel to facilities as far away as Richmond, 
Virginia, to receive certain types of medical care. For some services, 
these veterans may have to travel 6-8 hours each way in order to 
receive care. For homeless veterans living in these areas, services are 
often completely unavailable. Last year, I asked what could be done to 
accommodate some of these services closer to home. What new initiatives 
have been undertaken since then, in West Virginia and nationwide, to 
accommodate some of these services closer to rural veterans?
    Answer. A significant number of initiatives have been developed and 
are providing services to veterans in remote areas, including West 
Virginia. Partnering with local community providers, community and 
outreach clinics, and telehealth initiatives are all methods VA is 
utilizing to provide care closer to the veterans' home. Attachment B 
provides details on a variety of programs that benefit all veterans who 
reside in the Appalachian region.
    Question. Secretary Shinseki, many VA community-based treatment 
centers are being collocated with large VA hospitals. These hospitals, 
in turn, are near large community or general hospitals. In part, this 
is because collocation affords cost-savings and staff-sharing 
relationships. Unfortunately, community-based centers are most needed 
in underserved areas where VA hospitals are far away. What are some of 
your thoughts on how we can best serve veterans living in these rural 
areas and what have you done to accomplish this in the last year?
    Answer. VA has long recognized that veterans who reside in more 
remote communities or geographic areas require the same level of 
services and healthcare as those living in more accessible areas. 
Providing care away from a VA medical center is a concept that VA began 
using in the early 1990s. Initially, community-based outpatient clinics 
(CBOCs) were located in areas with large concentrations of veterans and 
were reasonably accessible to a VA medical center or community 
hospital. As the number of CBOCs has increased and technology has 
improved, VA has recognized that veterans who reside in more remote 
communities or geographic areas require the same level of services and 
healthcare as those living in more accessible areas. As a result, in 
fiscal year 2008, the Office of Rural Health (ORH) funded the 
establishment of 10 part-time outreach clinics and 4 rural mobile 
healthcare clinics to target areas where there is not sufficient demand 
(or it is not feasible) to establish a full-time CBOC. These clinics 
extend access to primary care, case management and mental health 
services to rural veterans.
    Building upon these initiatives, an additional 30 rural outreach 
clinics and 51 CBOCs were approved in fiscal year 2009 and fiscal year 
2010, respectively. The primary requirement in determining the location 
of the outreach clinics was based on drive time and percentage of rural 
and highly rural veterans who receive care.
    In addition to the establishment of CBOCs and outreach clinics, a 
number of telehealth and Home-Based Primary Care (HBPC) teams have been 
activated.
    In fiscal year 2009, VA allocated $80 million for telehealth, 
augmented by an additional $67 million in fiscal year 2010 for a total 
of $147 million. Telehealth care is now provided from 144 VA medical 
centers to 500 other sites of care and supports care to more than 
260,000 veterans.
    The outcomes of this funding through the end of September 2009, 
when compared to the September 2008 baseline, has shown an 18 percent 
growth in the average daily census of rural and highly rural veteran 
patients receiving care in their homes via care coordination home 
telehealth (CCHT); a 41 percent growth in the number of clinical video 
telehealth (CTV) visits provided to rural and highly rural veteran 
patients; and a 77 percent increase in the number of care coordination 
store-and-forward telehealth (CCSF) visits provided to rural and highly 
rural veteran patients.
    The fiscal year 2010 initiatives are also showing positive growth 
over the prior year achievements by increasing access to care for 
veterans who reside in rural/highly rural area and who use telehealth 
care.
    Question. Secretary Shinseki, with an aging Vietnam veteran 
population, my office is receiving an increasing number of complaints 
about the lack of adequate VA nursing home and extended care facilities 
for veterans in West Virginia. Many facilities scheduled for 
construction years ago have experienced repeated delays. Last year, I 
asked you to look into this and get back to me on what we can do to 
accelerate and increase the construction of these facilities. Has 
anything been done to accelerate the construction of nursing home 
facilities during the last year and when can we expect to see 
additional Administration efforts in this area?
    Answer. The Beckley VA medical center submitted a 90-bed Community 
Living Center (CLC) Major Construction project application that ranked 
50 out of 61 in the fiscal year 2011 budget consideration. Projects 
ranking higher in priority focused on several sub-criteria, such as 
special emphasis, safety or seismic deficiencies. However, this project 
only supported the access sub-criteria; therefore, it ranked in the 
lower echelon.
    VA CLCs offer modern nursing home care units focusing on a home-
like environment to foster healing. These are primarily constructed in 
pods of 10-12 home-like units. Due to this new concept, the current CLC 
design offers a unique opportunity to construct pods within the Minor 
Construction threshold. In the fiscal year 2010 Minor Construction 
program, for example, VA started approximately $261.3 million worth of 
design or construction projects across the country. VA will analyze the 
opportunities for Beckley's CLC to use an approach that considers Minor 
Construction while continuing to evaluate the project under Major 
Construction.
    Question. The Conference Report associated with the fiscal year 
2010 Military Construction, VA and Related Agencies Appropriations Act 
encouraged the VA to expand its partnership with accredited nonprofit 
service dog organizations where veterans with PTSD help to train 
service dogs. What is the current status of this effort, and to what 
degree has the Department of Veterans Affairs expanded its partnership 
with accredited nonprofit service dog organizations where veterans with 
PTSD help to train service dogs?
    Answer. VA has developed an excellent working relationship with 
nationally recognized organizations in the service dog community. VA 
has provided information to these organizations to assist with veteran 
education about the benefits of service dogs, and the veterans they 
interact with are provided an invitation to contact VA with questions. 
VA is partnering with the certification agency, Assistance Dogs 
International, Inc., for assistance with the development of educational 
materials for our veterans and clinicians, including a brochure and a 
video.
    VA Rehabilitation Service has a pilot program at the Palo Alto 
Veterans Healthcare System (Menlo Park Division) called the ``Paws for 
Purple Hearts Service Dog Training Program,'' which began in July 2008. 
VA has found that patients with PTSD assigned to the Men and Women's 
Trauma Recovery Program have benefited from this program. These 
patients are training dogs to become service dogs for persons with 
mobility impairments. Under this program, the service dogs are the 
property of the Assistance Dog Institute, with the Bergin University of 
Canine Studies, and return there for placement after the dogs are 
trained. The program has made the following clinical observations, 
finding that participants who train service dogs for mobility 
impairment have, on average:
  --Increased patience, impulse control, and emotional regulation;
  --Improved ability to display affection with less emotional numbness;
  --Increased positive social interactions and reduced isolation;
  --Improved sleep patterns and decreased use of pain medication;
  --Decreased number of startled responses and lowered stress levels; 
        and
  --Improved parenting skills and family dynamics.
    The pilot program is ongoing. Its outcomes and the demand for its 
services will continue to be assessed to determine if expansion of the 
program to other VA medical centers is warranted.
    Question. Secretary Shinseki, the Department of Veterans Affairs 
receives funding for research. Historically, this funding has been 
restricted by the Department to research performed by, or in 
conjunction with, VA researchers. This practice has sometimes resulted 
in policy-based rather than science-based research. The VA's own Gulf 
War Veterans Illness Research Advisory Committee has been forced to 
approach Congress directly, year after year, to get funding for 
independent peer-reviewed scientific research. Last year, we had some 
indications that the Administration would request this independent 
research funding in the fiscal year 2011 budget request; however, it 
did not. This research has been funded through the Department of 
Defense, and again in fiscal year 2011, Congress will have to directly 
provide these funds. Some of this research has been groundbreaking and 
very productive. Last year, I asked you what could be done to bring 
this type of research back into the VA budget process. What has been 
done in this regard since our last meeting, and when will the VA's own 
Gulf War Research Advisory Committee be able to say that they no longer 
need Congressional assistance to fund the best and brightest proposals 
and scientists to conduct research into the causes and treatments for 
gulf war related illnesses?
    Answer. VA's plans for its gulf war research portfolio include a 
multi-pronged approach that balances the urgency of understanding and 
finding new diagnostic tests and treatments for ill veterans of the 
1990-1991 gulf war (short-term) with the need to do new studies on a 
national group of gulf war veterans (long-term). VA's goal is to 
maintain funding levels for gulf war research as close as possible to 
$15 million per year.
    VA's Office of Research and Development (ORD) issued three new 
requests for applications (RFA) specific to gulf war veterans research 
on November 10, 2009. RFA CX-09-013 is specifically aimed at 
identifying potential new treatments (clinical trials, including 
complementary medicine approaches) for ill gulf war veterans. RFA CX-
09-014 and BX-09-014 are aimed at increasing our understanding of gulf 
war veterans' illnesses and identifying new diagnostic markers of 
disease and potential therapeutic targets to develop new therapies. The 
lists of topics of interest in CX-09-014 and BX-09-014 incorporate over 
80 percent of the research recommendations contained in the 2008 report 
from the VA Research Advisory Committee on Gulf War Veterans' Illnesses 
(RAC) and direct RAC input to ORD. The three RFAs described above will 
be re-issued twice a year to regularly request submission of new 
proposals and revisions of previously reviewed, but unfunded, 
applications.
    ORD's long-term plans include the design and implementation of a 
new study of a national group of gulf war veterans under the auspices 
of the VA Cooperative Studies Program, which has extensive experience 
in developing multi-site VA clinical trials and clinical studies. The 
design of this new study will include a Genome Wide Association Study 
(GWAS) and other elements, based on evaluating the existing body of 
scientific and clinical knowledge about the illnesses affecting gulf 
war veterans and recommendations received from the RAC. VA has targeted 
September 2010 for completion of the study design and implementation. 
This study was discussed with the RAC at their November 2-3, 2009, 
meeting to gather input on what additional elements could be included 
in the study. A planning committee has been established to define the 
elements to be included in the final study.
    The expiring authority found at 38 U.S.C.  1117(c)(2) will not 
result in the loss of compensation benefits or medical care for gulf 
war veterans currently receiving benefits for disabilities that are 
categorized as ``undiagnosed illnesses'' and for which service 
connection has been properly decided. Those veterans will continue to 
receive benefits after the date of the expiring authority on September 
30, 2011.
    Question. Secretary Shinseki, the Persian Gulf War Veterans Act of 
1998, passed as part of the fiscal year 1999 Omnibus Appropriations Act 
(Public Law 105-277), is scheduled to expire this year, 10 years after 
the last day of the fiscal year in which the National Academy of 
Sciences submitted its first report. Will any veterans lose priority 
care or benefits as a result of the expiration of the law, such as 
those who remain classified as having an ``undiagnosed illness,'' and 
will Congress have to pass additional legislation to ensure that these 
veterans will continue to receive priority healthcare, disability 
payments and other benefits? If so, what efforts are you aware of 
within your department or the Congress to draft this legislation?
    Answer. No veterans will lose priority care or benefits as a result 
of expiration of Public Law 105-277. Section 513 of the recently 
enacted Public Law 111-163, the ``Caregivers and Veterans Omnibus 
Health Services Act of 2010,'' gives both certain Vietnam-era veterans 
exposed to herbicides, as well as veterans of the gulf war, special 
priority care for treatment.
    Benefit determinations and payments initiated under Public Law 105-
277 will continue to be made. For future reference, 2 of the 3 expiring 
sections of Public Law 105-277, including the one affecting benefit 
decisions, actually expired on the first day of fiscal year 2010 per 
Public Law 105-277, 122 STAT 2681-744 and 745.
    Question. Secretary Shinseki, given the importance of the care we 
give to veterans, and knowing that not all needs can be adequately 
reflected in a budget document, what do you feel are critical or 
important needs at the Department of Veterans Affairs that are not well 
reflected in the fiscal year 2011 budget request?
    Answer. The 2011 VA budget continues the strong commitment of the 
President with an increase in discretionary funding of almost 20 
percent since 2009. The budget reflects a balanced and prioritized 
program that addresses the most critical and important needs of the 
Department. It allows VA to improve services for veterans and continue 
transformation of the VA. VA's 2011 budget focuses on three concerns 
that are of critical importance to our veterans--easier access to 
benefits and services; reducing the disability claims backlog and the 
time veterans wait before receiving earned benefits; and ending the 
downward spiral that results in veterans' homelessness. The budget 
includes $799 million in specific programs to eliminate homelessness 
and $250 million for Rural Health Initiatives. It also provides a $42 
million increase in telehealth funding in VHA and an unprecedented 
increase of 27 percent in funding for VBA to address the disability 
claims backlog. Funding is also provided to continue improving the 
condition of VA's capital infrastructure.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Secretary Shinseki, I was deeply disturbed by the news 
reports in January stating the VA's preliminary data show a dramatic 
increase in veterans suicide between 2005 and 2007. The fact that our 
veterans have sacrificed for our Nation only to spiral into depression 
and suicide is appalling. The preliminary data did suggest that access 
to VA services makes a difference in suicide prevention. The VA needs a 
more comprehensive effort and these numbers show that the duty of 
providing mental health services and outreach to our returning veterans 
is still a challenge.
    Answer. VA shares your concern regarding veteran suicide. Each is a 
tragedy for the veteran, his family, the community and the Nation. The 
rates of suicide among veterans in the 16 States monitored by the 
Center for Disease Control and Prevention's (CDC) National Violent 
Death Reporting System increased from 2005 to 2007. The increases were 
greatest among those veterans aged 18-29, with only a slight increase 
among those aged 30-64, and a slight decrease among those 65 and older. 
However, among those aged 18-29, suicide rates decreased significantly 
in those veterans who came to VA for services. VA interprets these 
findings as an early indication that VA's mental health enhancements 
and its suicide prevention programs are working for those who come to 
us for care. As a result of these statistics, as well as other factors, 
VA is transforming its mental health system to follow a public health 
model, providing more programs and resources to veterans in the 
community and the Nation as a whole, as well as to those seen in our 
medical centers, clinics, and Vet Centers. These efforts will focus on 
outreach and education to returning service members and veterans, and 
to veterans of all eras in their communities. The goal is to encourage 
as many eligible veterans as possible to seek care within VA, and to 
support help-seeking for all veterans when they need it. Specific plans 
are being developed as components of VA's Operating Plan for Mental 
Health for 2011-2013, and the Department of Defense (DOD)-VA Integrated 
Strategy for Mental Health.
    Additionally, VA created the Veterans National Suicide Prevention 
Hotline in June 2007 to help veterans in crisis. To date, the hotline 
has received almost 256,000 calls and rescued about 8,100 people judged 
to be at imminent risk of suicide since its inception. The center's 
newest feature is a chat line for those who prefer computer-oriented 
communication, especially young veterans. Both the hotline and chat 
line are available 24 hours a day, 7 days a week.
    Question. It has been 9 years since our service members have been 
going to war, often for multiple deployments. What have we done to 
improve the mental health efforts of those returning veterans?
    Answer. VA has made enormous efforts to expand access to care, 
continuity of care, and quality of care regarding mental health 
concerns of returning veterans. Those efforts particularly began in 
2005, with the implementation of the VA Comprehensive Mental Health 
Strategic Plan. In each fiscal year from 2005 through 2008, VA funded 
elements of the Strategic Plan for implementation, with broad national 
development of innovative programs and overall enhanced staffing of 
mental health services. In fiscal year 2008, the results of 
implementation helped VA organize a national model of what mental 
health services must be made available to all eligible, enrolled 
veterans seeking VA healthcare. The resulting document, VHA Handbook 
1160.01, ``Uniform Mental Health Services in VA Medical Centers and 
Clinics,'' became VA policy at the start of fiscal year 2009 and is 
being fully implemented throughout the system nationally, with regular 
monitoring of implementation showing excellent progress. As of the end 
of December 2009, VA medical centers and community-based outpatient 
clinics (CBOC) reported an implementation rate of 98 percent for the 
more than 200 requirements in the Uniform Mental Health Services 
Handbook.
    We have reported previously on VA mental health efforts--some of 
the successes include (but are not limited to) the following: 
increasing mental health staff by over one-third, from 14,000 to over 
20,000 nationally and decreasing time to a first appointment for new 
mental health referrals with a standard of evaluation within 24 hours. 
This is then followed by urgent care, if needed, or development and 
implementation of a treatment plan within the next 14 days (with 96 
percent success in meeting this standard). VA has also developed the 
Suicide Prevention Hotline and teams of Suicide Preventions 
Coordinators at every VA facility. VA integrated mental health into 
primary care clinics and mandated screening for mental health problems 
to include: PTSD, depression, problem drinking, military sexual trauma, 
and suicide risk assessment if PTSD or depression screens are positive. 
Finally, VA expanded substance use disorder treatment and treatment of 
co-occurring substance use and PTSD problems.
    All of these efforts improved the full system of care for all 
veterans, but there also have been elements specifically designed to 
serve returning Operation Enduring Freedom and Operation Iraqi Freedom 
(OEF/OIF) veterans. These include:
  --Development of special mental health staff specifically reaching 
        out to returning veterans, in the system, to ensure mental 
        health issues are fully addressed.
  --Integration of these staff into the Post-Deployment OEF/OIF special 
        primary care clinics.
  --Collaboration with the case management system for OEF/OIF veterans 
        to ensure mental health needs are always considered.
  --Placement of mental health staff in specialty polytrauma care 
        settings for severely wounded returning veterans.
  --Training of over 3,000 VA mental health staff in evidence-based 
        psychotherapies for PTSD, depression, family distress, and 
        other mental health disorders that have been shown in research 
        and clinical practice to have the greatest likelihood of 
        resulting in significant improvement in these mental health 
        conditions. Training has been provided with guidance to ensure 
        that initial implementation of these therapies should target 
        OEF/OIF veterans, to provide early intervention as much as 
        possible.
  --Expansion of mental health services for women veterans. Female OEF/
        OIF veterans are more likely to seek VA care than male OEF/OIF 
        veterans, and their increasing numbers require VA to expand 
        services. Specific requirements for serving female veterans are 
        included in the VA Uniform Mental Health Services Handbook 
        mentioned above.
  --Collaboration with the Defense Centers of Excellence (DCOE) for 
        Psychological Health and Traumatic Brain Injury, to coordinate 
        efforts.
  --Implementation and planning of a joint VA/DOD Mental Health Summit 
        with DCOE and other health components of DOD. This has led to 
        development of an integrated Mental Health Strategic Plan to 
        increase coordination and continuity of care as service members 
        obtain care in DOD, then separate and come to VA for care.
    In summary, VA has transformed its overall mental health services 
in the last 5 years, and that transformation has included focused 
efforts to ensure enhanced care for currently returning OEF/OIF 
veterans. These efforts will continue to receive priority.
    Question. Why do we still not have the trained mental health 
professionals in all of our VA facilities?
    Answer. VA does have a greatly increased number of mental health 
staff throughout the system, with mental health professionals in all VA 
medical facilities. Community living centers, residential 
rehabilitation treatment programs and domiciliaries have access to 
mental health resources because they are co-located with other 
facilities (hospitals or outpatient centers) that have mental health 
professionals. All large community-based outpatient clinics (CBOC) and 
all vet centers also have mental health staff who provide outpatient 
mental health services. Smaller CBOCs must provide mental healthcare 
through telemental health connections or by contract or fee basis. In 
addition, all medical facilities have mental health professionals who 
have been trained in providing various evidence-based psychotherapies 
and connections to staff with such training are available via 
telemental health in most CBOCs. VA strongly believes in ensuring that 
VA mental health staff members have appropriate, high quality training 
to promote the delivery of high quality, evidence-based and recovery-
oriented services. VA qualification standards for employment in mental 
health positions require that mental health professionals have 
established levels of education necessary to provide clinical care, 
with specific competencies required for specific clinical activities 
and responsibilities.
    VA develops and provides extensive training to mental health staff 
throughout its healthcare system on a broad array of mental health 
topic areas to ensure that mental health staff can deliver high quality 
care that is consistent with current clinical science. As part of its 
commitment to training and high quality patient care, VA has developed 
national staff training programs in state-of-the-art, evidence-based 
psychotherapies (EBPs), including cognitive processing therapy and 
prolonged exposure therapy for posttraumatic stress disorder (PTSD), 
cognitive behavioral therapy and acceptance and commitment therapy for 
depression, and social skills training and family psychoeducation for 
serious mental illness. Training in these programs consists of two key 
components: (1) participation in an in-person, experientially based 
workshop of 2-4 days in length, followed by (2) active participation in 
weekly consultation with an expert in the specific psychotherapy for 
approximately 6 months. To date, VA has provided training to over 3,000 
mental health staff in evidence-based psychotherapy, including 
providing evidence-based psychotherapy training to staff at all VA 
medical centers.
    In addition, VA annually provides national and regional training to 
mental health staff on a wide variety of mental health topics through 
VA's Employee Education System. These trainings are provided through 
in-person conferences, videoconferences, Web-based trainings, and DVD 
video trainings. In addition to training provided through these 
national mechanisms, local VA facilities provide a wide variety of 
mental health trainings to mental health staff on specific mental 
health topics.
    Question. What can Congress do to assist you? Do you need 
additional hiring authorities or incentives?
    Answer. VA's fiscal year 2011 budget provides for more than $5.2 
billion for mental health, an increase of $410 million, or 8.5 percent, 
over the 2010 enacted level. We will expand inpatient, residential, and 
outpatient mental health programs with an emphasis on integrating 
mental health services with primary and specialty care. Recent VA 
research has demonstrated that the more returning veterans feel 
supported by their communities and by the Nation as a whole, the less 
likely they are to develop PTSD and depression. Congress has helped our 
troops and veterans by continuing to support mental health programs.
    VA has significantly invested in our mental health workforce, 
hiring more than 6,000 new workers since 2005. VA has estimated that 
the current level of staffing is sufficient to meet the needs of 
veterans who use VHA for their mental healthcare. There are still a 
small number of unfilled positions at various VA medical facilities 
that are supported with mental health enhancement funds. Direction has 
been sent to all Veterans Integrated Service Networks (VISNs) to use 
the enhancement funds to fill these positions. In addition, it is 
essential that this level of staffing be sustained, e.g., positions 
that are vacated through retirement or other departures are filled in 
timely fashion.
    VA has not experienced widespread difficulties in hiring and 
retaining mental health professionals. However, it has been VA's 
experience that in certain localities, particularly highly rural 
regions, there may be a limited number of mental health professionals, 
especially psychiatrists. Specific incentives have been developed and 
used in such situations. In addition to opportunities for education 
debt reduction, VHA has established opportunities for facilities to 
engage in local advertising and recruitment activities, and to cover 
interview-related costs, relocation expenses, and provide hiring 
bonuses for certain applicants. Flexibility is provided to hire 
providers of other appropriate disciplines or to utilize fee-basis or 
contract care, when indicated, so that veterans have continuous access 
to the full continuum of mental health services.
    Question. In Washington we are bringing in residents to assist with 
the manning shortfall. Do we need to expand the program?
    Answer. Recognizing the importance of mental health services in the 
overall care of veterans, VA has expanded training positions in the 
core mental health disciplines of Psychology, Psychiatry, and Social 
Work. Within Graduate Medical Education (GME), VA launched the GME 
Enhancement Initiative in 2006 to expand physician residents in areas 
of need to attain greater geographic balance in resident allocations, 
and to foster innovation in the models of training physician residents. 
The GME Enhancement Initiative created an additional 1,221 physician 
residents positions, with 123 in psychiatry, and 169 in all mental 
health related specialties.
    In addition, over the last several years, VA has pursued an 
initiative to increase the number of non-physician mental health 
practitioners, especially psychologists and social workers. These 
efforts have been highly successful. Psychology has expanded its 
national trainee complement by 251 positions, to a total of 683 
nationally. Moreover, social work training positions have increased 
from 588 to 732 for the coming year.
    The impact of these initiatives for the State of Washington is 
shown in the chart below. The overall increase in VA mental health 
training positions (psychiatry, psychology, and social work) from 2005 
to the present is 48 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These data suggest that Washington has benefited greatly from 
recent expansions in trainee positions. In addition, because of the 
rural nature of practice in some parts of Washington, it is anticipated 
that the State will continue to have a high priority for future trainee 
expansions.
    Question. Secretary Shinseki, as you know, women are the fastest 
growing subsection of veterans and increasingly in need of services 
from our VA system. Unfortunately the VA has been slow to modernize to 
meet their unique physical and mental health needs. I recognize the VA 
is trying to make changes at their facilities to make them more female-
friendly, but there appears to lack a coherent, nationwide plan to 
review and assess the capabilities of all facilities and create a 
capital plan to start addressing shortfalls in high demand areas.
    What is the status of a VA-wide capital plan to evaluate each 
facility in the VA system and target those that service greater 
populations of female veterans and veterans with children?
    Answer. VA has undertaken an ongoing assessment and improvement 
process to ensure that VHA facilities meet the healthcare needs of 
women veterans in a friendly and safe environment that respects their 
unique needs, dignity, and privacy.
    Elements relevant to structural, environmental, and psychosocial 
patient safety and privacy issues have been incorporated into VHA's 
monthly environment of care rounds checklist. VA is obtaining monthly 
assessments from each medical center in order to follow actions taken 
to address identified issues in the privacy and security of all 
veterans. Women Veteran Program Managers at each medical center are 
included in the review process.
    In addition, an annual review of structural, environmental, and 
psychosocial patient safety and privacy issues in VHA patient care 
settings will be conducted by the Director, Environmental Program 
Service and incorporated into monthly environment of care rounds.
    The Women Veteran's Health Strategic Health Care Group is in the 
process of performing a comprehensive assessment of facilities' current 
capacity for providing optimal care of women veterans. The assessment 
includes site visits and tours of six medical centers in fiscal year 
2010 with ongoing assessments in fiscal year 2011. During tours, the 
site assessment team will review available space, environmental 
considerations (e.g., signage, privacy), patient and provider flow, and 
availability of equipment and supplies. The assessment team will also 
conduct brief interviews with staff in each of these areas. Results of 
the assessment will be used to address deficiencies and drive future 
budget allocation requests.
    VA's design and construction standards are being enhanced to 
address the physical and mental healthcare needs of women veterans. 
Space planning criteria are being adjusted for specific functions to be 
performed (mammography spaces, outpatient clinics, radiation therapy, 
etc.).
    The national capital plan to address women's healthcare is 
incorporated into the new Strategic Capital Investment Planning (SCIP) 
process. With this process, every medical center will identify how it 
will mitigate service delivery gaps over a 10-year window, including 
women's privacy deficiencies. As part of the SCIP process, we will 
create corporate data to support women's privacy needs to ensure a more 
focused effort is dedicated to mitigating the deficiencies.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. The VA has established a new policy to presume veterans 
with ischemic heart disease, Parkinson's disease, and B cell leukemia 
and who served in Vietnam are entitled to compensation benefits as a 
result of their exposure to Agent Orange. The Department estimates this 
new policy will result in approximately 150,000 new claims generated in 
2010, and for the total number of disability claims to increase from 1 
million in 2009 to 1.3 million in 2010. The claims process already 
takes too long to make decisions on a veteran's disability claim, and I 
am highly concerned that this new policy will further complicate the 
already large claims backlog.
    I understand that there are funds for 1,800 new claims processing 
staff in the 2011 budget (excluding term-hire positions included in 
last year's stimulus bill), and I applaud the effort to handle this 
influx in claims. But since 2007, this subcommittee has appropriated 
funding to add nearly 7,000 new positions to the VA's claims processing 
staff, and there has been no significant decrease in claims processing 
time. This does not seem to be purely a problem of understaffing.
    Does the Department have any estimates on how the 30 percent 
increase in claims receipts will affect the processing time, and what 
can we do to help you tackle this problem?
    Can you tell me whether the Department is looking at new ways to 
change the way in which it handles disability claims and what impact 
the paperless claims IT project will have on both the claims backlog 
and the average claims processing time?
    Answer. Currently, the average time to process a disability 
compensation claim is about 160 days. Based on the continued growth in 
claims receipts and the anticipated influx of claims related to the new 
Agent Orange presumptions VA anticipates our inventory will rise to 
over 700,000 claims in 2011, and the average time to process claims is 
expected to increase as a result.
    The Veterans Benefits Administration now employs more than 11,600 
full-time claims processors and plans to add 3,000 more in fiscal year 
2011. However, continuing to increase the size of our workforce is 
neither a long-term nor scalable solution; we need to do a much better 
job of leveraging network automation and software productivity tools to 
more effectively manage our workload and serve our clients. Bold and 
comprehensive changes are needed to transform VA into a high-performing 
21st century organization that provides high quality services to our 
Nation's veterans and their families.
    VA's transformation strategy leverages the power of 21st century 
technologies applied to redesigned business processes. Pilot programs 
are underway at four of our regional offices to support our business 
transformation plan to reduce the claims backlog, improve service 
delivery, and increase efficiencies. Each pilot functions as a building 
block to the development of an efficient and flexible paperless claims 
process. The results of all four pilots will be incorporated into the 
nationwide deployment of the Veterans Benefits Management System (VBMS) 
in 2012. VBMS will be built upon a service-oriented architecture, 
enabling electronic claims processing by providing a shared set of 
service components derived from business functions. Initially, VBMS 
will focus on scanned documents to facilitate the transition to a 
paperless process. Ultimately, it will provide end-to-end electronic 
claims workflow and data storage.
    VA is also seeking contractor support in development of a system to 
support evidentiary assembly and case development of the new Agent 
Orange presumptive claims. The system will enable veterans to 
proactively assist in the development of their claims through a series 
of guided questions and will automate many development functions such 
as Veterans Claims Assistance Act notification and follow up.
    In addition to an electronic claims processing system, VA is 
committed to improving the speed, accuracy, and efficiency with which 
information is exchanged between veterans and VA, regardless of the 
communications method. The Veterans Relationship Management (VRM) 
transformational initiative will provide the capabilities to achieve 
on-demand access to comprehensive VA services and benefits in a 
consistent, user-centric manner to enhance veterans', their families' 
and their agents' self-service experience.
    Question. It is everyone's goal to leverage information technology 
to improve services to our veterans and to have them seamlessly 
transition from DOD to the VA. A paperless solution to the disability 
claims backlog, a lifetime electronic service record that follows a 
soldier through DOD and VA, a new electronic health record, and a 
financial management system that provides greater accountability of 
government resources all have potential to transform the VA. However, 
the Department has a poor track record in its ability to develop and 
implement these costly programs. An internal audit by the VA last year 
temporarily halted 45 of the VA's 282 ongoing IT projects because they 
were either significantly over budget or behind schedule, and the 
Department's 2011 budget proposes $3.3 billion for IT, which is 
identical to the 2010 appropriation, not including the nearly $700 
million that was unspent from the 2010 appropriation. I am concerned 
that this may not be the most efficient use of taxpayer dollars in 2011 
without proper oversight and transparency. These projects are of great 
importance to our veterans, and I want to be sure they succeed.
    Mr. Secretary, have you found the certification requirements 
included in last year's bill to be helpful in your efforts to improve 
management over IT projects and programs?
    Answer. In 2010, VA has fully implemented its Project Management 
Accountability System (PMAS). This system has put in place the 
necessary program review and rigor to examine an IT project's chances 
for success on an ongoing basis. PMAS has been successful in 
identifying what projects VA should terminate and what projects should 
continue. Now that the PMAS process is in place, all IT projects must 
be certified by the Chief Information Officer in order to receive 
funding and approval to proceed. With PMAS in place, we believe bill 
language requiring certification may no longer be necessary. The 
Department is committed to keeping the Committee informed on the PMAS 
process and the status of IT projects.
    Question. Mr. Secretary, we believe there is the potential for more 
budgetary steps to be taken to improve accountability over IT projects, 
such as separating the 1-year costs of staff salaries and expenses, and 
operations and maintenance costs, from the longer-term costs of 
developing new IT programs. Do you have any thoughts on that idea?
    Answer. The Department appreciates the flexibility Congress has 
provided by making funds appropriated to the Information Technology 
Systems account available for a 2-year period. This flexibility was a 
key factor and management tool in VA's successful consolidation of all 
IT funding into one account over a 3-year period.
    The Department would like to retain this management flexibility for 
administering its IT program. VA continues to refine its accounting for 
IT costs; this includes better defining which projects are purely new 
development projects as opposed to operations and maintenance projects. 
The distinction is not always simple to discern, and there would be 
some risk in segregating the availability of these funds either by time 
period or by establishing separate accounts. In addition, the 
availability of 2-year funding for salaries and administrative costs 
will enable IT managers to effectively plan for the hiring of 
additional staff and to adjust to unanticipated changes impacting the 
workforce.
    Currently, VA identifies development, operations and maintenance, 
and salary/administrative costs separately as part of the annual budget 
submission and the IT project reprogramming baseline. We will continue 
to do so to meet the information needs of the Congress.
    Question. Can you tell us how many of your project managers are 
``Project Management'' certified by an outside organization (such as 
Project Management Institute, etc.)?
    Answer. Trained project management leaders are critical to ensuring 
IT project success. As an important part of workforce management, all 
project managers are involved in ongoing project training, training 
that can be applied towards Project Management certification 
requirements. At present, 70 percent of IT development project and 
program managers maintain credentials in Program Management, either 
through organizations such as the Project Management Institute or VA's 
rigorous Project Management training programs.
    Question. Mr. Secretary, the 2011 budget recommends nearly $2 
billion for the VA construction program, including $864 million in 
site-specific funding for new or replacement hospitals. However, I was 
concerned to see that there was $2.56 billion in unobligated funds from 
2009 into 2010, more than the last 2 years of major construction 
appropriations, for projects that should be obligated within the fiscal 
year. I am concerned that our major construction program is not 
spending its appropriations in a timely and efficient manner, and I 
want to work with you to resolve this challenge. As I'm sure you know, 
this is an issue for military construction projects, and we combat it 
by making projects subject to 5-year funding and by having the services 
publish a Future Years Defense Program (FYDP) that outlines each 
service's expected construction needs in the immediate future. This 
helps us to ensure efficient budgetary planning and that only those 
projects that are shovel-ready receive funding.
    Mr. Secretary, as a former Army Chief of Staff, do you have any 
thoughts on making new VA construction projects subject to some of 
these rules? Would you be willing to submit a prioritized ``FYDP'' for 
VA construction projects in order to ensure they are shovel-ready and 
to help us be more fiscally responsible to our veterans and to the 
taxpayer?
    Answer. VA does not support restricting the availability of major 
construction funding to 5 years. Construction funds should remain as no 
year money. Once funding is received for a major project, it is 
obligated over a period of several years for design, construction, 
contingencies, completion items and contract closeout. VA monitors the 
progress closely to ensure contracts remain on time and within budget. 
There are several reasons that project funding remains unobligated 
including:
  --When VA awards a construction contract, a contingency is set aside, 
        5 percent on new construction and 7.5 percent on renovation. 
        The contingency set-aside is available to address unforeseen 
        conditions. These funds are not obligated until needed and 
        contribute to the unobligated amounts.
  --Some projects are phased. Funds required for future phases cannot 
        be awarded until the preceding phase is completed. There are 10 
        projects with funding of $698.6 million that have future 
        phases. These projects have phases that are currently under 
        construction that must be completed prior to awarding the 
        subsequent phase. Some of these phases will be awarded later 
        this fiscal year. Some of the high visibility projects in this 
        category are polytrauma centers at Palo Alto and Tampa
  --When contract claims have been filed or are anticipated, funding is 
        held after completion in case it is needed when a claim is 
        adjudicated.
    There are 4 projects with funding of $713.3 million that are 
currently in design and VA anticipates a construction award later this 
fiscal year. Some of the high visibility projects in this category are 
new medical facilities at New Orleans and Denver. Projects like these 
would be halted until funding could be obtained if funding is 
restricted. The major challenge for VA has been in the planning phase 
for these projects. The current process selects projects for initial 
budget submission without the benefit of early design. Projects at this 
stage often have significant unknowns such as constructability issues, 
incomplete scope definition and the need to complete environmental, 
historic preservation and often real estate due diligence. The 
resolution of these issues contributes to delay in making significant 
obligations on the projects.
    VA submits a 5-year Capital Plan annually with the President's 
budget submission. The current 5-year plan lists approximately 92 major 
projects. These projects may vary from year to year due to re-
prioritization each year--new projects are added, while others are 
removed as alternative investment strategies (e.g., leases or enhanced-
use leases) are utilized to provide the services. Currently the 
Department is embarking on a Strategic Capital Investment Planning 
(SCIP) process that will provide a 10-year plan for all capital 
investments. This plan will help to address where facilities are needed 
throughout the Department based on demographics, changes in the 
delivery of care, and the type of care to be provided. The SCIP process 
will result in a consolidated prioritized list for all capital 
investments (major/minor construction, non-recurring maintenance, and 
leases) for 2012-2021. This multiyear planning effort will thus 
obligate project funding sooner after an appropriation from Congress is 
received.
    Question. Mr. Secretary, I understand that the VA has conducted a 
comprehensive review of the VA's approach and practices to treat 
veterans of the 1990-1991 gulf war. This Gulf War Illness Task Force 
recently released its report and recommended adding nine new conditions 
as automatic presumptions for service-connected injuries. I applaud 
your efforts to improve the lives of those veterans suffering from 
undiagnosed illnesses during this conflict and hope we remain committed 
to treating those affected and finding a cure. However, as I understand 
it, this new policy was not in effect when the Department's 2011 budget 
was formulated.
    Assuming these new presumptions go into effect, has the Department 
made any cost estimates for adding these nine new presumptive 
conditions for gulf war veterans?
    How does the VA expect to pay for these new presumptions if they 
are not in the Department's 2011 budget request?
    Answer. The compensation benefit costs associated with this 
proposed rule are estimated to be $1.5 million during the first year, 
$11.5 million for 5 years, and $36.4 million over 10 years. VBA will 
provide updated fiscal year 2011 projections in the annual Mid Session 
Review budget submission. This budget submission will include changes 
in economic assumptions, changing trends based on FYTD experience, and 
technical adjustments including estimated effects of proposed rules.
    The decision to create nine new presumptives based on exposure to 
infectious agents in the Gulf resulted from the IOM report on Gulf War 
and Health, Volume 5, Infectious Agents. The Secretary's decision to 
establish these presumptions was made prior to the formation of the 
Gulf War Illness Task Force.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. Telemedicine is a tool that would seem to have potential 
to provide improved access to healthcare services for rural veterans, 
allowing them to get the medical advice they need without undertaking 
the time and expense of driving to a major VA facility. What measures, 
if any, are being taken by the VA to expand the use of this technology 
to help rural veterans?
    Answer. VA's 2011 President's budget includes an investment of $163 
million in home telehealth. Taking greater advantage of the latest 
technological advancements in healthcare delivery will allow us to more 
closely monitor the health status of veterans and will greatly improve 
access to care for veterans in rural and highly rural areas.
    Telehealth is one of the ways in which VA is actively increasing 
access for veteran patients to healthcare services in rural and remote 
locations. In fiscal year 2009, 118,000 veterans received healthcare 
services from VA in rural and remote locations via telehealth. This 
number represented a 20 percent increase over fiscal year 2008 levels 
and included 16,000 veterans receiving care in their own homes via home 
telehealth, 67,000 veterans receiving teleretinal screening and 
teledermatology services via ``store-and-forward'' telehealth 
technologies and 35,000 veterans participating in specialist 
consultations between community-based outpatient clinics and VA medical 
centers, predominantly to meet mental health needs. By the end of 
fiscal year 2010, VA anticipates a further 20 percent increase in 
telehealth-based care to veteran patients in rural/remote locations. 
This will reduce avoidable time and expenses involved in veterans 
travel to a major VA facility. Telehealth, therefore, continues to be 
an important capability that VA is utilizing to meet the healthcare 
needs of veterans we serve in rural and remote locations.
    Question. In 2006, there was an alleged homicide that occurred at 
the Lexington, Kentucky VA Medical Center where the patient died due to 
an overdose of morphine. In 2009, the nurse involved in the case was 
arrested and charged with homicide.
    Consistent with any restrictions governing the release of 
information linked to ongoing criminal investigations, what further 
developments have occurred in this investigation? What actions have 
been taken by the VA to prevent events like these from happening in the 
future?
    Answer. The investigation was turned over to the VA Office of the 
Inspector General (OIG) and Federal investigators. A trial for this 
case is before the U.S. District Court, Eastern District of Kentucky, 
Central Division at Lexington, KY, and it has been re-set for October 
12, 2010. To prevent events like this from happening in the future, VA 
purchased new intravenous (IV) pumps with additional safety features. 
These features help prevent the pumps from being set over the maximum 
dosage or below therapeutic levels. VA used at the time of the event, 
and continues to use today, tubing sets that prevent the free flow of 
medication as another safety precaution. VA continues to review monthly 
dispensing practices to monitor the narcotic administration practices 
of individual staff.
    Question. Of the contract-run Community Based Outpatient Centers in 
Kentucky, what is the level of patient satisfaction with their care?
    Answer. There are two contracted CBOCs in Kentucky. The Bowling 
Green CBOC received an outpatient score of 62.7 which exceeds the VISN 
nine goal and makes it the highest satisfaction score for any Tennessee 
Valley Healthcare System CBOC. The Hopkinsville CBOC does not have a 
sufficiently large response population for a patient satisfaction 
score.
    Question. What is the VA doing to enhance efforts to locate 
homeless veterans and to provide resources and programs to help them?
    Answer. VA is taking decisive action toward its goal of ending 
homelessness among our Nation's veterans in 5 years. VA has continued 
to use and expand its Healthcare for Homeless Veterans (HCHV) efforts, 
which involve staff making direct searches of environments where 
homeless veterans are likely to be found and making every effort to 
gain their trust and bring them in for services. The National Call 
Center for Homeless Veterans (NCCHV) is a recent initiative in VA's 5-
year plan to end homelessness. It can provide homeless veterans with 
timely and coordinated access to VA and community services, and 
disseminate information to concerned family members and non-VA 
providers about all the programs and services available to assist these 
veterans. There have been callers who have not been previously 
identified and can now be connected with VA and other services. Callers 
seeking more details about VA Homeless programs or services can also be 
referred to the VA Homeless Web site and appropriate VA medical center 
points of contact for further intervention, referral, or information. 
As information about the Call Center is more broadly disseminated by 
local VA facilities and the Homeless Coordinators in all VISNs, more 
calls are expected. This new outreach effort already is proving very 
valuable.
    In order to better track veterans located through these and other 
efforts, VA is developing a homeless veterans registry that will track 
and monitor the expansion of homeless and prevention initiatives and 
the treatment outcomes for homeless veterans. The registry will be a 
comprehensive veteran-centric registry (data warehouse) of information 
about homeless veterans who receive services provided by VA 
administered programs, as well as services provided by external Federal 
agencies, and other private and public entities. Additionally, the 
registry will also be used to identify and collect information about 
veterans who are at-risk for homelessness. This system will allow VA to 
analyze mobility among homeless veterans.
    Question. What is the VA doing to enhance the privacy of and to 
increase the resources and programs available for female veterans?
    Answer. Following recommendations by a VA workgroup on Veteran 
Privacy, Security and Dignity, a review of structural, environmental, 
and psychosocial patient safety and privacy issues has been conducted 
in VHA outpatient care settings and incorporated into monthly 
environment of care action plans. The initial review was completed in 
August 2009 and VA has been conducting monthly status updates since 
that time. The Women Veteran Program Manager participates as a member 
of the environment of care team. Each facility must engage in an on-
going, continual process to assess and correct physical deficiencies 
and environmental barriers to care for all veterans, particularly women 
veterans. In addition, Women Veterans Program Managers and Deputy Field 
Directors are conducting on-site visits to monitor compliance with 
correction of privacy deficiencies. Findings are communicated to local 
leadership. Other strategies to ensure compliance include unannounced 
site visits by VISN Environment of Care Teams, random site visits, and 
records reviews by VHA's Office of Environmental Programs Service, as 
well as System-wide Ongoing Assessment and Review Strategy (SOARS) site 
visits. Action plans will be maintained and tracked by the VHA 
Environmental Programs Service to ensure compliance and assist with 
construction planning to renovate facilities.
    Current initiatives to increase resources and programs available to 
women veterans include:
  --Redesigning Primary Care for Women.--Specifically, VHA is 
        redesigning comprehensive women's healthcare delivery within 
        three models of care, which co-locate commonly used services 
        and specialties into one care delivery process, ensuring that 
        women can receive all of their primary healthcare (prevention, 
        medical, and routine gynecologic care) by a single primary care 
        provider. Our goal is to decrease fragmentation of care and 
        improve continuity of care.
  --A Full-Time Women Veteran Program Manager at Each Site.--As of June 
        28, 2010, 132 of the 144 facilities with a Women Veterans 
        Program Manager has a full-time employee in place; seven other 
        facilities have an acting or interim Women Veterans Program 
        Manager, and four of the remaining five will fill the position 
        by August 2010.
  --National Training Programs for Women's Healthcare Providers.--
        Improving primary care clinicians' proficiency, knowledge, and 
        cultural sensitivity in women's health and VA resources 
        available to women veterans through the implementation of mini-
        residency programs.
  --Evaluation of Primary Care for Women.--Assessing VA women's health 
        programs through the creation of an assessment tool to identify 
        highly developed women's health programs, their best practices, 
        and better understand successful pathways to implementing 
        comprehensive women's health.
  --Women Veteran Outreach Campaigns.--Educating women veterans through 
        age and culturally informed communication and outreach 
        initiatives. For example, modifying their cardiovascular risk 
        factors and maintaining their health status in order to delay 
        the onset of complex chronic conditions.
    Question. The percentage of female veterans who do not show up for 
their medical appointments is in many cases greater than the percentage 
of male veterans that do not show up for theirs. What is the VA doing 
to better understand why this occurs, and what is being done to reduce 
this higher percentage?
    Answer. Addressing barriers to access for women veterans is a 
priority. VHA is preparing a report, ``Assessment of the Health Care 
Needs and Barriers to VA Use Experienced by Women Veterans: Findings 
from the National Survey of Women Veterans.'' One of the aims of the 
National Survey of Women Veterans (NSWV) was to determine how 
healthcare needs and barriers to VA healthcare use differ among women 
veterans of different periods of military service and assess women 
veterans' healthcare preferences in order to address VA barriers and 
healthcare needs. The interim report on barriers to care will be 
complete by mid-July 2010 with the final report anticipated to be 
published in 2011.
    In addition, several current initiatives will directly improve 
access to care for women veterans.
  --Redesigning Primary Care for Women.--Our goal is to decrease 
        fragmentation of care and improve continuity of care. By 
        providing all of a woman veteran's care from one provider, no-
        show rates will be improved by decreasing the number of 
        appointments a women veteran will have to keep.
  --Patient Centered Medical Home (PCMH).--VHA recognizes the unique 
        needs of women veterans, specifically the need for after hours 
        care, women's health providers at community based outpatient 
        centers (CBOC) and flexibility in how appointments are 
        scheduled due to demands as the primary caregivers of their 
        families which often include other veterans and inflexible work 
        schedules. The PCMH improves access to care by providing 
        flexibility in when and how women veterans schedule appointment 
        time so complicated schedules can be accommodated. Access to 
        women's health providers in a CBOC means fewer miles traveled 
        to see a provider who can meet women veterans' needs.
    In addition, PCMH improves access through direct contact with case 
managers who will assist veterans with care coordination, facilitates 
veteran participation with their healthcare with the use of self-
management health tools and improves veteran satisfaction by allowing 
for greater communication with a provider and the veteran through 
alternative forms of communications such as the Internet through secure 
messaging.
    Question. Following the Wounded Warrior legislation and the Dole-
Shalala Commission's recommendations, improvements were to be made to 
the coordination mechanisms between DOD and VA facilities to better 
care for our injured troops who are transitioning between the two 
healthcare systems. What steps have already taken place to improve 
coordination between the two Departments? What steps remain? Are these 
provisions sufficient to provide a seamless transition for wounded 
warriors from the DOD to the VA system? Does DOD or the VA need further 
legislative authority to improve matters? If so, what?
    Answer. To ensure a smooth transition from the Department of 
Defense (DOD), VA has stationed 33 healthcare liaisons at 18 military 
treatment facilities to facilitate the transfer of care to VA 
facilities. This program grew during 2009 with six additional liaisons 
at five new sites. Altogether these liaisons have assisted more than 
20,000 service members in transitioning from DOD to VA since 2004. We 
continue to work with DOD to identify additional sites that have 
increasing numbers of wounded warriors who may benefit from these 
services. VA works closely with DOD to support high quality integrated 
care for severely injured service members and veterans. The two 
Departments recently developed revisions to clinical codes to improve 
identification and tracking of traumatic brain injury (TBI). In 2009, a 
5-year pilot project to provide assisted living services for veterans 
with severe TBI was initiated in collaboration with the Defense and 
Veterans Brain Injury Center (DVBIC). We have placed three veterans in 
Virginia, Florida and Wisconsin, and enrollment is pending for two 
veterans in Texas and Kentucky.
    Pursuant to the Dole-Shalala Commission's recommendation, VA and 
DOD collaborated on development of the eBenefits portal to provide a 
single and transparent access point to online benefits for wounded, 
ill, and injured service members, veterans, and their family members 
and care providers. The eBenefits portal has expanded beyond its 
original scope and is now intended to be an interactive Web portal for 
all veterans, service members, and their families. In April 2010, 
eBenefits launched version 2.3 that provides on-line capability to 
check the status of disability claims, review payment histories, obtain 
home loan certificates of eligibility, and obtain military documents.
    In November 2007, DOD launched the Disability Evaluation System 
(DES) Pilot to modernize the process by which potentially unfit 
wounded, ill, and injured service members are evaluated for retirement, 
separation, or placement on the temporary disability retirement list. A 
single medical examination is used by both DOD and VA in determining 
entitlements. The pilot program began in November 2007 in the National 
Capitol Region (Walter Reed Army Medical Center, National Naval Medical 
Center (NNMC) at Bethesda, and Malcolm Grow Air Force Hospital) and has 
since expanded to 24 additional military installations. Of those 
separating with a medical disability, approximately 47 percent 
participate currently in the DES pilot process. VA and DOD are 
developing a plan to deploy and transform the DES pilot into the 
integrated DES process worldwide by the end of fiscal year 2011.
    VA believes current legislative authority is sufficient to ensure a 
smooth transition of our injured troops from DOD. VA will work closely 
with the Committee if further legislative authority is needed in the 
future.
    Question. The Western Kentucky Veterans Center expansion in Hanson, 
Kentucky is listed as priority #47 in the Fiscal Year 2010 Priority 
List of Pending State Home Construction Grant Applications subject to 
38 CFR part 59. (It involves increasing the number of beds by 40). It 
is my understanding that an updated priority list for fiscal year 2011 
will be submitted sometime in the fall. Although Kentucky is classified 
as a ``limited needs'' State by the VA, I want to ensure that expansion 
of the Hanson facility takes place in the near future and is not 
permitted to slide down the list of priorities. How can we ensure that 
even ``limited needs'' States such as Kentucky are properly looked 
after in the State Home Construction Grant Application process?
    Answer. The Department of Veterans Affairs (VA) may have sufficient 
funds to participate in a grant for the construction of a 36-bed 
expansion project at the State Veterans Home in Hanson, Kentucky during 
fiscal year 2010. A letter was sent to the Honorable Ken Lucas, 
Commissioner Kentucky Department of Veterans Affairs on May 18, 2010, 
stating VA participation in the project is contingent upon the State of 
Kentucky's compliance with the remaining Federal requirements listed in 
title 38, Code of Federal Regulations, part 59. All projects on the 
priority list are strictly ranked following the guidelines in the 
regulation which places life safety projects at the top of the list.
                                 ______
                                 
              Question Submitted by Senator Susan Collins

    Question. Many of the employees at VA Togus focus specifically on 
disability claims processing. I was recently was told that the Veterans 
Benefits Administration at Togus is in the process of hiring 40 new 
employees that will process disability claims for 8,000 cases related 
to new Agent Orange and Agent Purple claims. I understand that another 
20 employees may be added at Togus to continue to help reduce the 
disability claims backlogs. Because of the age of some of the buildings 
and recent storms, as well as the increasing number of claims 
processing employees, the facility may require additional space and 
administrative offices. Has the Department reviewed the space 
requirements at the VBA facility at Togus or can you commit to 
performing such a review in the near future?
    Answer. The Togus Regional Office (RO) received authority to hire 
61 additional full-time employees. The RO is actively recruiting, and 
32 employees are already on the rolls. The RO plans to use 40 new 
employees to process Agent Orange claims with the remaining new 
employees focused on processing the regular disability claims workload. 
To fully utilize the space at the RO facility, the majority of the new 
employees will work during a second shift. The RO is on the campus of 
the Togus VA Medical Center. Although an older building, significant 
investments were made over the last 2 years to improve the physical 
space. The improvements include new windows, a new roof, and a new 
heating, ventilation and cooling system.

                          SUBCOMMITTEE RECESS

    Senator Johnson. This hearing is recessed.
    [Whereupon, at 3:17 p.m., Thursday, April 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Pryor, Collins, and Murkowski.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF HON. LOUIS JEROME (JERRY) HANSEN, DEPUTY 
            ASSISTANT SECRETARY OF THE ARMY (STRATEGIC 
            INFRASTRUCTURE) AND SENIOR OFFICIAL 
            PERFORMING DUTIES OF ASSISTANT SECRETARY OF 
            THE ARMY (INSTALLATIONS AND ENVIRONMENT)
ACCOMPANIED BY:
        JOSEPH F. CALCARA, DEPUTY ASSISTANT SECRETARY OF THE ARMY 
            (INSTALLATIONS AND HOUSING)
        BRIGADIER GENERAL JIM BOOZER, DIRECTOR OF OPERATIONS, OFFICE OF 
            THE ASSISTANT CHIEF OF STAFF (INSTALLATION MANAGEMENT)
        MAJOR GENERAL RAY CARPENTER, ACTING DIRECTOR, ARMY NATIONAL 
            GUARD
        JAMES SNYDER, ASSISTANT CHIEF, ARMY RESERVE

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. This hearing will come to order.
    I welcome everyone to today's hearing to discuss the 
President's fiscal year 2011 budget request.
    Today we will hear from two panels of witnesses 
representing the Army and the Air Force and their Reserve 
components.
    The first panel will be the Army. Secretary Hansen, 
Secretary Calcara, General Boozer, General Carpenter, Mr. 
Snyder, thank you for coming today. General Carpenter, I am 
always happy to see a fellow a South Dakotan. We will look 
forward to your testimony.
    Senator Hutchison has asked me to let you know she has a 
conflict this morning and will not be able to attend this 
hearing, but I will submit her statement and questions for the 
record.
    [The statement follows:]

           Prepared Statement of Senator Kay Bailey Hutchison

    Good afternoon, Mr. Chairman. Thank you for holding this hearing 
today as we examine the President's budget request for military 
construction and family housing for the Department of the Army and the 
Department of the Air Force. I would also like to welcome our witnesses 
and guests: Mr. Hansen, Mr. Calcara, Major General Carpenter, General 
Boozer and Mr. Snyder. I look forward to discussing military 
construction and family housing needs with you.
    I am very pleased that we are nearing completion of the Base 
Realignment and Closure program. The Department is entering its final 
year of Milcon before the September 2011 statutory deadline for all 
BRAC projects. For the last several years, I have emphasized the 
importance of fully funding and effectively implementing the BRAC 
program, which has evolved into a $32 billion Milcon program for the 
Department.
    Mr. Hansen and General Boozer, as we begin the budget process for 
fiscal year 2011, the Department of the Army is facing several 
challenges within its military construction budget, such as changes to 
our Global Defense Posture, which we will discuss shortly, and changes 
to the Army's recapitalization strategy. As you have heard me say many 
times, I believe we should all strive to station as many of our troops 
as realistically possible within the United States, and in modern 
facilities we can all be proud of.
    Overall, the Department of the Army budget proposes a 9.7 percent 
increase, and the Department of the Air Force budget proposes a 7.2 
percent decrease. There are big differences in these accounts, and 
considering the big disparities in the Guard and Reserve accounts, I am 
anxious to discuss the rationale for these budget decisions. I want to 
be sure we are providing our soldiers, sailors, airmen, and marines 
with the infrastructure they and their families deserve.

                         GLOBAL DEFENSE POSTURE

    Another issue I hope to discuss today is our Global Defense Posture 
as it relates to our Milcon requirements. First, I hope our witnesses 
will explain the DOD policy of Building Partnership Capacity in Europe. 
I hope by partnership you mean that our allies will share in the 
financial burden as we build military infrastructure in Europe. Our 
specified overseas Milcon request is $2 billion for projects not 
directly related to the war in Afghanistan. When you add in projects 
for Afghanistan, overseas Milcon totals $4 billion. That is huge.
    As I have said many times, I believe we should be restationing our 
troops in the United States, but the proposed 2011 budget contains a 
Milcon request for $513 million for Germany, which includes $186 
million for Wiesbaden Army Base and $75 million for four new barracks 
at Grafenwoehr--a training facility--just as examples. As the services 
consolidate our forces in fewer facilities to save on operational 
costs, I know we have to build some new consolidated facilities, but I 
would like our witnesses today to give us the rationale behind these 
proposals and a sense that there is a strategy driving our Milcon 
requirements and not the other way around.
    In Korea, the Department is looking at ``tour normalization,'' 
which would greatly increase the number of U.S. citizens on the 
peninsula and require expanding our support infrastructure in Korea. I 
understand that you are currently executing phase 1 of a 3-phase 
consolidation operation and that phases 2 and 3 will require more 
substantial U.S. funding. I look forward to your remarks concerning the 
costs of future infrastructure requirements and the Korean Government's 
financial contributions associated with this consolidation effort.

                    QUADRENNIAL DEFENSE REVIEW (QDR)

    The Quadrennial Defense Review recommends retaining four brigade 
combat teams in Europe, rather than the current stationing plan to 
reduce the number to two. I have raised this issue before with the 
Secretary of Defense and the Army Chief of Staff because I am concerned 
that this decision will disrupt our commitment to return our forces to 
the United States, where we can provide better training and a better 
quality of life for them and their families. I am concerned it will 
also disrupt the extensive military construction already in progress at 
Fort Bliss. The sooner we can get our service-men and -women home and 
into new, state-of-the-art facilities, the sooner we will live up to 
our commitment to provide for them in a way that is commensurate with 
their service to our Nation. Our troops can deploy to any region of the 
world from the United States just as easily as they can from Europe, 
and in some cases more so. We need to return our troops to the United 
States, but just as importantly, we need to be fiscally responsible 
when we decide on a strategy to do this.

                  ARMY NATIONAL GUARD AND ARMY RESERVE

    The services have always maintained that the Reserve components 
play a vital role in meeting our defense mission and in enabling us to 
manage the stress on the Active Force. The QDR calls them ``equal 
partners''. The fiscal year 2011 budget request reduces funding for the 
Army Reserve by 26 percent, the Air National Guard by 52 percent, and 
the Air Force Reserve by 93 percent. I do not recall the Air Force 
Reserve only receiving one project in the entire budget request. Every 
year Congress has to add programs to these accounts because the 
Department, in my opinion, does not fund them as robustly as it should. 
This is a challenge. I look forward to the Army's remarks concerning 
the impacts of these budgetary reductions.

                                CLOSING

    The budget before us poses some challenges, but I do commend the 
Department of the Army for making quality of life a top priority. Even 
if we discuss different ways to best support our troops, we all have 
the same goal in mind and that is keeping our soldiers first.
    Thank you again Mr. Chairman for holding this hearing. I look 
forward to discussing these and other issues with our witnesses.

    Senator Johnson. The Army's 2011 budget request for Active 
and Reserve Military Construction and Family Housing, Base 
Realignment and Closing, and Overseas Contingency Operations is 
$7.9 billion. Included in this budget is a historically high 
funding request for the Army Guard, $873.7 million. I commend 
the Army for investing so heavily in the Guard and I hope you 
will bring the same commitment to the Army Reserve in future 
budget requests.
    This is also the final year to execute the 2005 BRAC 
program. I understand that the Army has several projects that 
could be at risk of missing the statutory deadline. I hope we 
will receive an update on the status of these projects.
    Last year, the subcommittee provided additional funding to 
expand the homeowners assistance program which I have a keen 
interest in. I hope that you will be able to update us on the 
progress of the program and let us know how well the funding is 
being executed.
    Secretary Hansen, I look forward to your opening statement, 
but before you begin, Senator Collins, would you care to make 
an opening statement?
    Senator Collins. Thank you, Mr. Chairman. You have 
explained that the ranking member, due to an unscheduled event, 
is unable to join you today. So I am very happy to act in her 
capacity as we review the fiscal year 2011 Milcon request for 
the Army and the Air Force. So I look forward to working with 
you. Thank you.
    Senator Johnson. Thank you, Senator Collins.
    Secretary Hansen, again I welcome you and your colleagues 
to this subcommittee. I understand that yours will be the only 
opening statement. Your prepared statement will be placed in 
the record, so I ask you to summarize your remarks to allow 
adequate time for questions. Secretary Hansen, please proceed.

                 SUMMARY STATEMENT OF HON. JERRY HANSEN

    Mr. Hansen. Thank you, Mr. Chairman. We will be brief.
    Chairman Johnson, Senator Collins, distinguished members of 
the subcommittee, I am Jerry Hansen, the designated senior 
official currently performing the duties of the Assistant 
Secretary of the Army for Installations and Environment. It is 
my pleasure to appear before you today on behalf of the 
Secretary of the Army to discuss the Army's fiscal year 2011 
military construction, base realignment and closure, and family 
housing budget requests.
    I would like to first thank you for your continued 
consistent support to our soldiers, families, and Army 
civilians serving the Nation across the globe. The Army's 
strength lies in the people who serve. We work with your ever-
important support to ensure that we provide a quality of life 
commensurate with the quality of their service.
    I would also like to thank you for the legislative 
expansion of the housing assistance program. As the DOD 
executive agent for the program, I am pleased to report that in 
the first 6 months since the expanded HAP authority was 
implemented, we have paid benefits of over $125 million to more 
than 1,000 military families. The program has and will continue 
to save many families from financial ruin. Currently we believe 
we have enough funding on hand, but we do continue to see 
growth in eligible applicants.
    Our Milcon budget request for fiscal year 2011 represents 
the minimum level of funding required to provide the Army with 
the facilities needed to support the mission accomplishment 
while preserving an All-Volunteer Force. We remain an Army at 
war that continues its largest transformation since World War 
II. As we withdraw forces from Iraq, build up forces in 
Afghanistan, and then begin that drawdown as well, we are 
simultaneously completing transformation to a modular brigade-
centric force, growing the Army and completing both global 
defense posture realignments and Base Realignment and Closure 
2005.
    In addition, we remain committed to our previously stated 
timelines of funding adequate barracks for all permanent party 
soldiers by fiscal year 2013 and trainees by fiscal year 2015 
with occupancy completed 2 years later.
    Our fiscal year 2011 budget request supporting these 
initiatives totals $7.9 billion across all components. This 
reflects an expected decrease in BRAC 2005 appropriation 
requirements of about $3 billion from that of last year, as we 
anticipated that fiscal year 2010 would be the final year of 
BRAC construction. The Army remains fully committed to meeting 
the BRAC timeline, intensely managing those remaining actions 
with tight construction schedules. Funds requested in fiscal 
year 2011 will be used units and personnel and to outfit our 
new facilities as they come on line. With full funding, we 
expect all actions to be completed on time without degradation 
of training or readiness, although we recognize that fourth 
quarter fiscal year 2011 will be extremely busy.
    Last year, you appropriated $30 million in additional 
military construction funding for both the Army Reserve and 
National Guard. We thank you for that initiative. The funds are 
being used to address critical requirements. Included in the 
overall fiscal year 2011 request is $874 million of military 
construction for the Army National Guard and $318 million for 
the Army Reserve. Collectively, this represents 149 percent 
increase from the fiscal year 2010 request for our reserve 
components, a very significant increase for the Guard, but a 
slight decrease, as you indicated, for the Army Reserve. This 
is balanced, however, by an increase in our sustainment, 
restoration, and modernization funding for the Reserves. This 
funding will ensure that the Guard and Reserve are able to 
continue transformation to operationalized forces. I cannot 
overstate how important the readiness and availability of our 
reserve components remains to our national defense.
    Another high priority for fiscal year 2011 is energy 
security and implementing energy efficiencies in facility 
construction. As stewards of a significant portion of our 
national resources, the Army requires that new military 
construction projects attain a minimum of leadership in energy 
and environmental design, Lead Silver standards, that we 
achieve compliance with energy efficiency mandates and we 
incorporate smart building technologies where cost effective.
    In addition, water conservation is being pursued through a 
comprehensive program which includes water management plans, 
adoption of best management practices, establishment of 
waterless urinals as a standard in new Army construction, 
increased metering, and improved asset management of water 
distribution systems. We take energy conservation very 
seriously and continue to look for ways to implement innovative 
energy initiatives.
    Finally, I would like to address the concerns of the 
subcommittee regarding the return of two brigade combat teams 
from Europe to the United States. Currently, the Army cannot 
provide specific plans for the BCTs as we await guidance from 
the Secretary of Defense on the strategic posture in Europe. 
This guidance will allow the Army to review current plans for 
returning these brigades to the United States and make any 
adjustments that might be required. None of these projects in 
our fiscal year 2011 request are planned to support keeping 
brigades in Europe. There will be minimal impact to State-side 
projects should the decision be made to keep one or both 
brigades in Europe. Once the decision is made, our out-year 
military construction programs will be adjusted accordingly.
    I am accompanied today by Mr. Joe Calcara, the Deputy 
Assistant Secretary of the Army for Installations and Housing; 
Brigadier General Jim Boozer, Director of Operations from the 
Office of the Assistant Chief of Staff for Installation 
Management; Major General Ray Carpenter, Acting Director, Army 
National Guard; and Mr. James Snyder, Assistant Chief of the 
Army Reserve.

                           PREPARED STATEMENT

    We thank you again for the opportunity to appear before you 
this morning and for your continued support to the Army, and we 
look forward to your questions.
    [The statement follows:]

  Prepared Statement of Hon. Jerry Hansen; Joseph F. Calcara; General 
    James C. Boozer; General Raymond W. Carpenter; and James Snyder

    Mr. Chairman and members of the subcommittee, on behalf of the more 
than 1 million Active, Guard, and Reserve soldiers, their families, and 
the civilians of the United States Army, I welcome the opportunity to 
discuss the Army's Military Construction, Family Housing, and Base 
Realignment and Closure budget requests for fiscal year 2011.
    The Army's strength is its soldiers--and the families and Army 
civilians who support them. I would like to start by thanking you for 
your support to our soldiers and their families serving our Nation 
around the world. They are and will continue to be the centerpiece of 
our Army, and their ability to perform their missions successfully 
depends upon the staunch support of the Congress.
    Our Nation has been at war for nearly 9 years. The Army continues 
to lead the war efforts in Afghanistan and Iraq, as well as in defense 
of the homeland and in support of civil authorities in responding to 
domestic emergencies. Over time, these operations have expanded in 
scope and duration, stressing our All-Volunteer Force and straining our 
ability to maintain strategic depth. During this period, the Congress 
has responded to the Army's requests for resources, and that commitment 
to our soldiers, their families, and civilians is deeply appreciated. 
Continued timely and predictable funding is critical as the Army 
continues to fight two wars, meet other operational demands, sustain an 
All-Volunteer Force, and prepare to protect against future threats to 
the Nation.

                                OVERVIEW
                      FACILITIES STRATEGIC CONTEXT

    The Army continues its largest organizational change since World 
War II, as it transforms to a Brigade centric modular force and grows 
the force to achieve an Active component end strength of 547,400, a 
National Guard end strength of 358,200, and an Army Reserve end 
strength of 206,000 soldiers. At the same time, we are restationing 
about one-third of the force through a combination of Base Closure and 
Realignment (BRAC) and Global Defense Posture Realignment (GDPR) 
actions.
    The Army is executing a tightly woven, operationally synchronized 
plan integrating BRAC, GDPR, and Grow the Army (GTA); facilitated by 
Military Construction. The strategy includes aligning facilities to 
support a CONUS based Army Modular Force (AMF) structured expeditionary 
Army; completing facilities to implement and comply with BRAG 2005 law 
by 2011; completing GDPR by 2013; completing GTA by 2013; and 
completing AMF new unit facilities builds. Facilities modernization for 
AMF units converted from the legacy force structure extends beyond 
2015.

               ARMY IMPERATIVES AND FACILITY INITIATIVES

    The fiscal year 2011 Milcon request is crucial to the success of 
the Army's strategic imperatives to sustain, prepare, and transform the 
force. The Army has developed military construction facility 
initiatives that support the Army imperatives.
Sustain
    To sustain the force, the following initiatives provide for the 
recruitment and retraining of soldiers; care of soldiers, families, and 
civilians; care of wounded warriors; and the support of families of 
fallen comrades:
    Family Housing.--Provides housing services, preserves the balance 
of military owned housing and the distinction of privatized on-post 
housing commensurate with U.S. civilian community standards.
    Barracks.--Provide quality barracks for Army soldiers including: 
permanent party, training, and warriors transition complexes. We owe 
single soldiers the same quality of housing that we provide married 
soldiers. Modern barracks are shown to significantly increase morale, 
which positively impacts readiness and quality of life across all 
components. The Army intends to buyout the original inadequate 
permanent party barracks by 2013 with full occupancy by 2015, and will 
continue to budget to maintain all permanent party barracks as 
adequate.
    Army Medical Action Plan.--Provide command and control, primary 
care and case management for Warriors in Transition (WT) to establish a 
healing environment that promotes the timely return to the force or 
transition to civilian life.
    Soldier Family Action Plan.--Provides soldiers and families a 
quality of life commensurate with their service; provides families a 
strong, supportive environment where they can thrive; and provide 
quality, standardized facilities.
Prepare
    To Prepare our Army to meet the challenges of the current 
operations and the full spectrum of combat operations, the Army has 
funded projects in the Grow the Army, Mission and Training, and Trainee 
Barracks initiatives.
    Grow the Army.--Provide facilities to support the increase of the 
Army end strength to 1,111.6K (74.2K increase) across all components to 
fill key force capability shortfalls and increase Active component 
dwell time. GTA facilities include operations, maintenance, and 
training facilities; barracks, and facilities to improve the quality of 
life for soldiers, families, and civilians in the Active Army, Army 
Reserve and Army National Guard. The Army's strategy is to complete all 
facilities requirement to support this initiative by fiscal year 2013.
    Mission and Training.--Provides facilities to support unit 
operations, maintenance, and training. Ranges and training land to 
support individual, and unit collective training in support of the Army 
Force Generation (ARFORGEN) training cycle are included in Mission and 
Training facilities.
    Training Barracks.--Provides initial entry and advance individual 
training quality barracks and eliminates all inadequate trainee 
barracks spaces. The goal is to fund all trainee barracks requirements 
by fiscal year 2015 and full occupancy of the barracks in fiscal year 
2017.
    Operational Readiness Training Complex.--Fiscal year 2011 is the 
start of the Army's investment in unit facilities in support of the 
ARFORGEN training cycles of the Active and Reserve components. ORTCs 
are complexes with operations, maintenance and storage facilities, 
barracks, dining facility, and equipment parking.
Transform
    To meet the demands of the 21st century, the Army is transforming 
via the AMF, GDPR, and BRAC initiatives. Collectively, these 
initiatives allow the Army to shape and station forces to provide 
maximum flexibility.
    Army Modular Force.--The Army continues to reorganize the Active 
and Reserve components into standardized modular organizations, 
increasing the number of Brigade Combat Teams (BCTs) and support 
Brigades to meet operational requirements and create a more deployable, 
versatile and tailorable force.
    Global Defense Posture Realignment.--The GDPR initiative ensures 
Army Forces are properly positioned worldwide to support our National 
Military Strategy and to support the mission in Afghanistan. GDPR will 
relocate over 48,000 soldiers and their families from Europe and Korea 
to the United States by 2013. As part of the fiscal year 2011 program, 
the Army is requesting $188.7 million to construct facilities in 
Bagram, Afghanistan, and Forts Benning, Bliss, and Riley.
    Base Realignment and Closure.--BRAC 2005 enables the Army to 
reshape the infrastructure supporting the operating force, the 
generating force, the Reserve component and enhance the repositioning 
of those forces making them more relevant and combat ready for the 
Combatant Commander.

                    FISCAL YEAR 2011 MILCON OVERVIEW

    The Army's fiscal year 2011 Military Construction and Overseas 
Contingency Operations budget requests include $7.9 billion for 
Military Construction, Army Family Housing, and BRAC appropriations and 
associated new authorizations.
    The details of the Army's fiscal year 2011 request follow:

----------------------------------------------------------------------------------------------------------------
                                                                           Authorization of
         Military construction authorization             Authorization      appropriations       Appropriation
                                                            request             request             request
----------------------------------------------------------------------------------------------------------------
Military Construction Army (MCA)....................      $3,665,662,000      $4,078,798,000      $4,078,798,000
Military Construction Army National Guard (MCNG)....         836,601,000         873,664,000         873,664,000
Military Construction Army Reserve (MCAR)...........         289,275,000         318,175,000         318,175,000
Army Family Housing Construction (AFHC).............          55,329,000          92,369,000          92,369,000
Army Family Housing Operations (AFHO)...............  ..................         518,140,000         518,140,000
BRAC 95 (BCA).......................................          73,600,000          73,600,000          73,600,000
BRAC 2005 (BCA).....................................       1,012,420,000       1,012,420,000       1,012,420,000
Overseas Contingency Operations (OCO)...............         761,950,000         929,996,000         929,996,000
Homeowners Assistance Program (HAP).................          16,515,000          16,515,000          16,515,000
                                                     -----------------------------------------------------------
      TOTAL.........................................       6,711,352,000       7,913,677,000       7,913,677,000
----------------------------------------------------------------------------------------------------------------

                    FISCAL YEAR 2011 BUDGET REQUEST
                      MILITARY CONSTRUCTION, ARMY

    The Active Army fiscal year 2011 Military Construction request for 
$4,078,798,000 (for appropriation and authorization of appropriations) 
supports the Army Imperatives of Sustain, Prepare and Transform.
    Mission and Training ($866 million).--Operations, maintenance, and 
training facilities and ranges are the cornerstones to ``Prepare'' the 
Army for current operations. The fiscal year 2011 request includes $269 
million for operations facilities, $65 million for maintenance 
facilities, $212 million for ranges and $213 million for training 
facilities. Utilities and other support facilities complete the mission 
and training request at $107 million.
    Army Modular Force (1,268 million).--The fiscal year 2011 request 
of $1.584 billion will provide permanent operations and maintenance 
facilities and barracks to support the conversion of existing forces 
into new modular force units in the Active Army (1.268 billion) and 
Army National Guard (0.316 billion). The Army strategy is to use 
existing facility assets where feasible and program new construction 
projects when existing facilities are inadequate.
    Grow the Army ($698 million).--The Grow the Army request in fiscal 
year 2011 is for 34 projects. The total includes $148.7 million for 
maintenance facilities, $215.4 million for operations facilities, $259 
million for Barracks, and $74.6 million for training ranges and 
training support facilities. The Army's gap analysis for Grow the Army, 
following the fiscal year 2009 Secretary of Defense decision on the 
number of Brigades, confirmed that these facilities were essential to 
support growth in the Army's combat support and combat service support 
force structure and establish the appropriate training support 
infrastructure.
    Barracks Modernization ($891 million).--The Army is in the 18th 
year of modernizing permanent party barracks to provide about 148,000 
single enlisted soldiers with quality living environments. Because of 
increased authorized strength, the requirements for barracks 
modernization have increased in several locations. The fiscal year 2011 
request will provide for 5,115 new permanent party barracks spaces that 
will meet DOD's ``1+1'' or equivalent standard and eliminate common 
area latrines. These units provide two-soldier suites, increased 
personal privacy, larger rooms with walk-in closets, new furnishings, 
adequate parking, landscaping, and unit administrative offices 
separated from the barracks. The $891 million in barracks projects 
includes projects requested in the GTA, GDPR, and AMF initiatives. We 
are on track to fully fund this program by fiscal year 2013. The last 
inadequate permanent party spaces will be removed after the new 
barracks are fully occupied in fiscal year 2015.
    Trainee Barracks Modernization ($191 million).--The $350 million 
provided by the Congress in the 2010 appropriations for trainee 
barracks is greatly appreciated. The additional funding will accelerate 
the Army's ability to provide necessary quality barracks. The request 
in fiscal year 2011 will provide 1980 new training barracks spaces for 
our soldiers. Six trainee barracks are going to be constructed at four 
installations (Forts Benning, Bragg, Jackson, and Leonard Wood).
    Warrior in Transition ($18 million).--The WT complex at Fort Eustis 
completes the Army's plan for WT complexes in the United States.
    Overseas Construction.--Included in this budget request are high-
priority overseas projects at enduring locations. In Germany, we are 
requesting funds for barracks at Grafenwoehr and Rhine Ordnance, a 
vehicle maintenance shop and a physical fitness center in Ansbach, an 
information processing center, sensitive compartmented information 
facility, command and battle center and an access control point in 
Wiesbaden. In Korea, we are requesting funds to further our relocation 
of forces on the peninsula. This action is consistent with the Land 
Partnership Plan agreements entered into by the United States and 
Republic of Korea Ministry of Defense. Our request for funds in Italy 
continues construction for a BCT.
    Other Support Programs ($273 million).--The fiscal year 2011 budget 
includes $222 million for planning and design. As executive agent, the 
Army also provides oversight of design and construction for projects 
funded by host nations. The fiscal year 2011 budget requests $28 
million for oversight of host nation funded construction for all 
Services in Japan, Korea, and Europe. The budget request also contains 
$23 million for unspecified minor construction to address unforeseen 
critical needs or emergent mission requirements that cannot wait for 
the normal programming cycle.
    Incremental Funding ($140 million).--We are requesting the second 
increment of funding, $59.5 million, for the Command and Battle Center 
at Wiesbaden, Germany. In addition, we are requesting the first phase, 
and second increment of funding, $30 million, for the Aviation Task 
Force Complex at Fort Wainwright, Alaska. The budget also includes $25 
million for a Brigade Complex-Operations support facility and $26 
million for a Brigade Complex-Barracks/Community, both projects at 
Vicenza, Italy.

                 MILITARY CONSTRUCTION, NATIONAL GUARD

    The fiscal year 2011 request for $873,664,000 (for appropriation 
and authorization of appropriations) is focused on Army Modular Force, 
Mission and Training, Grow the Army, planning and design and 
unspecified minor military construction represents the largest Milcon 
budget ever requested by the Army National Guard.
    Mission and Training.--In fiscal year 2011, the Army National Guard 
is requesting $440.5 million for 24 projects which will support the 
preparation of our forces. These funds will provide the facilities our 
soldiers require as they train, mobilize, and deploy. Included are four 
Training/Barracks Facilities, nine Range projects, four Maintenance 
Facilities, one United States Property and Fiscal Facility, and six 
Readiness/Armed Forces Reserve Centers.
    Army Modular Force.--Our budget request also includes $316.5 
million for 16 projects in support of our modern missions. There are 
five Readiness Centers, one Armed Forces Reserve Center, five 
Maintenance Facilities, four Unmanned Aircraft System Facilities and 
one Aircraft Parking project to provide for modernized facilities.
    Grow the Army.--To support the Army National Guard end strength 
increase, $79.6 million is requested to construct eight Readiness 
Centers. The new Readiness Centers will house newly activating units to 
address the continued high levels of force deployment.
    Other Support Programs.--The fiscal year 2011 Army National Guard 
budget also contains $25.6 million for planning and design of future 
projects and $11.4 million for unspecified minor military construction 
to address unforeseen critical needs or emergent mission requirements 
that cannot wait for the normal programming cycle.

                  MILITARY CONSTRUCTION, ARMY RESERVE

    The Army Reserve fiscal year 2011 Military Construction request for 
$318,175,000 (for appropriation and authorization of appropriations) is 
for Preparation, Transformation, other support, and unspecified 
programs.
    Mission and Training Projects.--In fiscal year 2011, the Army 
Reserve will invest $76.5 million to prepare our soldiers for success 
in current operations. Included in the mission and training projects 
are, four ranges, a tactical vehicle wash rack, a maintenance and 
equipment storage facility and an Annual Training/Mobilization Barracks 
Grow The Army. The Army Reserve transformation from a strategic reserve 
to an operational force includes converting 16,000 authorizations from 
generating force structure to operational force structure from fiscal 
years 2009 through 2013. In fiscal year 2011, the Army Reserve will 
construct 17 Reserve operations complexes in 11 States, with an 
investment of $212.8 million to support the transformation. These 
projects will provide operations, maintenance, and storage facilities 
for over 3,300 soldiers in 66 newly activating combat support and 
combat service support units and detachments.
    Other Unspecified Programs.--The fiscal year 2011 Army Reserve 
budget request includes $25.9 million for planning and design for 
future year projects and $3.0 million for unspecified minor military 
construction to address unforeseen critical needs or emergent mission 
requirements that cannot wait for the normal programming cycle.

                    ARMY FAMILY HOUSING CONSTRUCTION

    The Army's fiscal year 2011 family housing construction request is 
$92.4 million for authorization of appropriation, and appropriation. 
This year's budget continues our significant investment in our soldiers 
and their families by supporting our goal to continue funding to 
sustain military-owned housing and eliminate remaining inadequate 
military-owned at enduring overseas installations.
    The fiscal year 2011 new construction program uses traditional 
military construction to provide 64 new homes for families with a $34.3 
million replacement project at Baumholder, Germany. The Army also 
requests $21 million for the completion of the supporting 
infrastructure for two projects authorized and appropriated in fiscal 
year 2004 at Fort Wainwright, Alaska.
    The fiscal year 2011 construction program also provides $35 million 
to make adjustments to two existing Residential Communities Initiative 
(RCI) family housing privatization projects at Fort Eustis, Virginia 
and Carlisle Barracks, Pennsylvania.
    In fiscal year 2011, we are also requesting $2.0 million for final 
design of fiscal year 2011 family housing projects and to initiate 
design of 2012 family housing construction projects, as well as for 
housing studies and updating standards and criteria.
    Privatization.--The Residential Communities Initiative (RCI), the 
Army's housing privatization program, continues to provide quality 
housing which soldiers and their families can proudly call home. The 
Army is leveraging appropriated funds and existing housing by engaging 
in 50-year partnerships with nationally recognized private real estate 
development, property management, and home builder firms to construct, 
renovate, repair, maintain, and operate housing communities.
    The RCI program will include 44 locations, with a projected end 
state of over 85,000 homes--98 percent of the on-post family housing 
inventory in the United States. At the end of fiscal year 2010, the 
Army will have privatized all 44 locations. Initial construction and 
renovation at these 44 installations is estimated at $12.6 billion over 
a 3- to 14-year initial development period, of which the Army will 
contribute close to $2.0 billion. Although most projects are in their 
initial development periods, since 1999 through November 2009, our 
partners have constructed over 21,000 new homes, and renovated another 
16,000 homes.

                     ARMY FAMILY HOUSING OPERATIONS

    The Army's fiscal year 2011 Family Housing Operations request is 
$518,140,000 (for appropriation and authorization of appropriations). 
This account provides for annual operations, municipal-type services, 
furnishings, maintenance and repair, utilities, leased Family housing, 
demolition of surplus or uneconomical housing, and funds supporting 
management of the Military Housing Privatization Initiative. This 
request will support almost 17,000 Army-owned homes, at home and in 
foreign countries areas, as well as leasing more than 9,000 residences 
and providing government oversight of more than 80,000 privatized 
homes.
    Operations ($97.3 million).--The operations account includes four 
sub-accounts: management, services, furnishings, and a small 
miscellaneous account. All operations sub-accounts are considered 
``must pay accounts'' based on actual bills that must be paid to manage 
and operate Lily housing.
    Utilities ($69.6 million).--The utilities account includes the 
costs of delivering heat, air conditioning, electricity, water, and 
wastewater support for family housing units. The overall size of the 
utilities account is decreasing with the reduction in supported 
inventory.
    Maintenance and Repair ($120.9 million).--The maintenance and 
repair account supports annual recurring projects to maintain and 
revitalize family housing real property assets. Since most family 
housing operational expenses are fixed, maintenance and repair is the 
account most affected by budget changes. Funding reductions result in 
slippage of maintenance projects that adversely impact soldier and 
family quality of life.
    Leasing ($203.2 million).--The leasing program provides another way 
of adequately housing our military Families. The fiscal year 2011 
budget includes funding for 9,036 housing units, including project 
requirements for 1,080 existing section 2835 (``build-tolease''--
formerly known as 801 leases), 1,828 temporary domestic leases in the 
United States, and 6,128 leased family housing units in foreign areas.
    Privatization ($27.1 million).--The privatization account provides 
operating funds for management and oversight of privatized military 
family housing in the RCI program. RCI costs include civilian pay, 
travel, and contracts for environmental and real estate functions, 
training, real estate and financial consultant services and oversight 
to monitor compliance and performance of the overall privatized housing 
portfolio and individual projects.

                                BRAC 95

    Since Congress established the first Defense Base Closure and 
Realignment Commission in 1988 and then authorized the subsequent 
rounds in 1990, DOD has successfully executed four rounds of base 
closures to reduce and align the military's infrastructure to the 
current security environment and force structure. As a result, the Army 
estimates approximately $13.5 billion in savings through 2009--and 
nearly $1 billion in recurring, annual savings from prior BRAG rounds.
    The Army is requesting $73.6 million in fiscal year 2011 for prior 
BRAG rounds ($5.2 million to fund caretaking operations and program 
management of remaining properties and $68.4 million for environmental 
restoration) to address environmental restoration efforts at 147 sites 
at 14 prior BRAG installations. To date, the Army has spent $3.1 
billion on the BRAC environmental program for installations impacted by 
the previous four BRAC rounds. The Army has disposed of 183,637 acres 
(88 percent of the total acreage disposal requirement of 209,292 
acres), with 25,654 acres remaining.

                               BRAC 2005

    Under BRAG 2005, the Army will close 12 Active component 
installations, one Army Reserve installation, 387 National Guard 
Readiness and Army Reserve Centers, and eight leased facilities. BRAG 
2005 establishes Training Centers of Excellence, joint bases, a Human 
Resources Center of Excellence, and joint technical and research 
facilities. To accommodate the units relocating from the closing 
National Guard Readiness and Army Reserve Centers, BRAG 2005 creates 
125 multi-component Armed Forces Reserve Centers and realigns U.S. Army 
Reserve Command and control structure.
    With over 1,100 discrete actions required for the Army to 
successfully implement BRAC 2005, they must be carefully integrated 
with the Defense and Army programs of Grow the Army, GDPR, and Army 
Modular Force. Collectively, these initiatives allow the Army to focus 
its resources on installations that provide the best military value, 
supporting improved responsiveness and readiness of units. The 
elimination of cold war-era infrastructure and the implementation of 
modern technology to consolidate activities allow the Army to better 
focus on its core warfighting mission. These initiatives are a massive 
undertaking, requiring the synchronization of base closures, 
realignments, military construction and renovation, unit activations 
and deactivations, and the flow of forces to and from current global 
commitments. Results will yield substantial savings over time, while 
positioning forces, logistics activities, and power projection 
platforms to respond efficiently and effectively to the needs of the 
Nation.
    The Army fiscal year 2011 budget request for BRAC 2005 is $1,012.4 
million. The Army remains committed to achieving BRAG 2005 Law and is 
on track to do so. Our request is critical to the success of the Army's 
BRAC 2005 initiative and does not contain funding for new construction 
projects. The funding request includes $887.2 million in Operations and 
Maintenance (O&M) to support Civilian Permanent Change of Station 
(PCS), furnishings and equipment for completed BRAC projects, as well 
as support for facility caretaker requirements. An additional $51.7 
million is requested for information technology and capital equipment 
procurement to comply with the BRAG 2005 requirements.
    In fiscal year 2011, the Army will continue environmental closure 
and cleanup actions at BRAG properties. These activities will continue 
efforts previously ongoing under the Army Installation Restoration 
Program and will ultimately support future property transfer actions. 
The budget request for environmental programs is $73.5 million, which 
includes munitions and explosives of concern and hazardous and toxic 
waste restoration activities.

                    OVERSEAS CONTINGENCY OPERATIONS

    The fiscal year 2011 request includes $930 million to support 
Overseas Contingency Operations (OCO). The request funds non enduring 
mission projects critical to the support of deployed war fighters for 
example: troop housing, dining facilities, rotary wing airfield 
facilities, logistical and environmental facilities, command and 
control facilities, and force protection to ensure safe and efficient 
military operations in Afghanistan. A total of 48 projects fulfill the 
Department's immediate mission needs and urgent infrastructure 
requirements in theater for a total of $762 million. The OCO request 
provides $78.3 million for unspecified minor construction and $89.7 
million for planning and design.

                     HOMEOWNERS ASSISTANCE PROGRAM

    The Army is the DOD Executive Agent for the Homeowners Assistance 
Program (HAP); that is, the Army requests in its budget the funds 
needed by the DOD-wide program supporting all of the services. In 
normal times, this program assists eligible military and civilian 
employee homeowners by providing some financial relief when they are 
not able to sell their homes under reasonable terms and conditions 
because of DOD announced closures, realignments, or reduction in 
operations when this action adversely affects the real estate market.
    The fiscal year 2011 budget requests authorization of 
appropriations in the amount of $16.5 million. Total program estimate 
for fiscal year 2011 is $49.9 million and will be funded with requested 
budget authority, revenue from sales of acquired properties, and prior 
year unobligated balances.

                                SUMMARY

    Mr. Chairman, the fiscal year 2011 Military Construction and BRAC 
budget requests are balanced programs that support our soldiers and 
their families, overseas contingency operations, Army transformation, 
readiness, and DOD installation strategy goals. We are proud to present 
this budget for your consideration because of what this budget will 
provide for the Army.
Military Construction:
  --$7.9 billion invested in soldier/family readiness;
  --$930 million to support projects for overseas contingency 
        operations;
  --$4,079 million to Active Army;
  --$318 million to Army Reserve;
  --$874 million to Army National Guard;
  --$610 million to family housing;
  --39 new training ranges/facilities;
  --37 new Reserve and National Guard operations and readiness centers;
  --245 families get new or improved housing;
  --8,857 soldiers get new barracks.
Base Realignment and Closure:
  --$1,012 million to support BRAC 2005;
  --Statutory compliance by 2011 for BRAC 2005;
  --Continued environmental restoration and disposal of excess acres.
    Our long-term strategies for installations will be accomplished 
through sustained and balanced funding, and with your support, we will 
continue to improve soldier and family quality of life, while remaining 
focused on Army and Defense transformation goals.
    In closing, we would like to thank you again for the opportunity to 
appear before you today and for your continued support for America's 
Army.

                  HOMEOWNERS ASSISTANCE PROGRAM (HAP)

    Senator Johnson. Mr. Calcara, I will start with you. 
Department of Transportation has proposed legislative changes 
to the HAP language. Can you explain the reasons for the 
change?
    Mr. Calcara. Sir, are you referring to the start date for 
the program of July 2006? Is that the legislative change you 
are referring to? I am not aware of the exact DOT request.
    Senator Johnson. That is DOT and its short sales.
    Mr. Calcara. Short sales. Sir, I am unaware of the request. 
Could you provide me some clarity on the request, and I could 
perhaps----
    Senator Johnson. Yes, I can.
    Has the Secretary made a decision to terminate the 
temporary expansion of HAP on September 30, 2010, and if so, 
why?
    Mr. Calcara. Oh, okay. Yes. Sir, as you know, when we 
started the program, we had a specific amount of resources that 
we were given to work across three elements of the program, one 
being BRAC, one being Wounded Warriors, one being permanent 
change of station (PCS). Initially, to ensure that we had 
enough resources available for the BRAC migration which would 
occur down the line, we set aside some funding for that. The 
remaining dollars allowed us to implement the program for the 
PCS, for the permanent change of station, portion on a 1-year 
basis.
    As we have now got into the program and we are looking at 
affordability, it does appear that we will be able to extend 
it. So currently we have extended it through the calendar year, 
and depending on how much funding is available after we pay 
through those quarters, we would again continue it another 
year. That would be our approach.
    So I do not know as we would need legislation to do that. 
We have the flexibility in the program to do it without the 
legislation. We certainly would support it. It has always been 
our intent to cover as many PCS applications as we can. It is 
just we are trying to make sure we have enough money left for 
the BRAC portion which is coming down the line in the next 18 
months.

                            ENERGY SECURITY

    Senator Johnson. Secretary Hansen, energy security on bases 
is a major. What is the Army doing to protect critical mission 
assets from the threat of extended disruptions to the 
commercial power grid?
    Mr. Hansen. Thank you, Mr. Chairman. The Army has $98.7 
million programmed in fiscal year 2011 for installation, 
facility, energy security initiatives, for example, utilities 
modernization, advanced metering, renewable energy project 
development, comprehensive energy and water management, and 
energy security planning. That planning includes working very 
closely with the critical infrastructure protection people to 
ensure that we are putting a high priority on securing those 
facilities and those portions of the facilities.
    In the Milcon area for new construction, approximately 2 
percent of the cost is devoted to energy efficiency additions 
which address EPAct 2005 goals, plus the standard to design the 
Lead Silver. With restoration and modernization funding, we are 
incorporating metering for large projects and attempt, where 
impossible, to include other energy security initiatives, 
features such as motion sensor lights, solar street lights, LED 
lighting, and additional insulation. With future years defense 
program (FYDP) 2012 to 2017, this will be the first POM cycle 
in which we have been able to address comprehensively energy 
security initiatives identified in our newly approved Army 
energy security implementation strategies. We will have much 
more to come with fiscal year 2012, sir.
    Senator Johnson. Secretary Hansen, could you provide the 
subcommittee with a list of potential unfunded Energy 
Conservation Investment Program (ECIP) projects that could be 
executed in fiscal year 2011?
    Mr. Hansen. Yes, sir, we will.
    [The information follows:]

    The following is a list of unfunded ECIP project that could be 
executed in fiscal year 2011:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                  Region                                 Installation                 DD 1391                     Title                       Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
NERO.....................................  Letterkenny AD.........................        75934  Solar Walls............................      $1,100,000
PARO.....................................  Ft Wainwright..........................        76006  Improve Motors.........................       3,200,000
SERO.....................................  Ft Bragg...............................        78034  Retrocommissioning Barracks, HQs,             7,200,000
                                                                                                  others.
SERO.....................................  Redstone Arsenal.......................        76139  Solar Walls............................       1,582,000
ARNG.....................................  Sea Girt, NJ...........................        77795  PV Solar System........................       5,600,000
SERO.....................................  Ft Knox................................        67393  Photovoltaic, Phase 1..................       6,100,000
NERO.....................................  Ft Drum................................        75514  Retrocommissioning 27 buildings........       3,650,000
WEST.....................................  Ft Bliss...............................        77029  Install Microgrid......................       5,600,000
WEST.....................................  Ft Bliss...............................        76085  Solar Daylighting......................       2,250,000
WEST.....................................  Ft Bliss...............................        76083  Solar Power Facility...................       4,750,000
WEST.....................................  Ft Bliss...............................        76082  Solar Power Facility...................       2,450,000
WEST.....................................  Ft Bliss...............................        76048  Solar Facility.........................       1,200,000
WEST.....................................  Ft Bliss...............................        76034  Power Facility.........................       2,400,000
WEST.....................................  Ft Bliss...............................        76031  Solar Power Facility...................       4,050,000
                                                                                                                                         ---------------
      TOTAL..............................  .......................................  ...........  .......................................      51,132,000
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Johnson. Secretary Hansen, the Army like all of the 
services, has experienced large bid savings over the past 2 
years due to a competitive bid climate. What is the average 
percent of bid savings on the fiscal year 2010 projects that 
have been awarded to date, and what has been the projected 
level of bid savings for the fiscal year 2011 program if the 
bidding climate continues to be favorable?
    Mr. Hansen. I know we have had significant savings in some 
areas, but it has been somewhat erratic, sir. If I may defer to 
Mr. Calcara, I believe he has more detailed information on 
that.
    Mr. Calcara. Sir, we have currently executed about 40 
percent of the program and we are averaging anywhere between 10 
and 25 percent depending on the location. Savings, of course, 
are very centric to the market and the type of construction and 
where we are doing the work.
    I would tell you this that I think if the current bid 
climate holds the way it has through the first 6 months of the 
year--we have two taxes that we are paying. One is a tax that 
came out of the fiscal year 2010 appropriation. It is about 
$230 million, I believe, for the Army that we have to source 
out of that savings. The other one was dollars that were 
assessed to us from a GAAP analysis process that was done from 
the fiscal year 2009 program. We owe about $160 million on 
that.
    So what we are trying to do is harvest the savings we have 
against the dollars we have captured so far to pay those two 
taxes, and then there would be some dollars left over. I know 
you are looking for a number from me. I think there will be 
some savings, but it will not be 10 or 15 percent of the total 
program amount because of those taxes.
    Senator Johnson. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                        BRAC PROPERTY CONVEYANCE

    Secretary Hansen, last year I was among those members who 
worked very hard to put new authority in the defense 
authorization bill for the military to look at no or low-cost 
conveyances for economic development purposes of BRAC-related 
property. Has the Army used that new authority yet?
    Mr. Hansen. Yes, ma'am. We began reviewing all of our 
conveyances immediately upon receipt of that new authority. I 
am happy to say that it has given us a lot of flexibility to 
move more quickly and to create more win-win situations. A case 
in point is the Kansas Army ammunition plant that we are trying 
to finalize this year, and we are doing a revenue sharing plan 
with them for fiscal years 2006 through 2010 with the potential 
of $3.5 million coming back to the Army if they are successful 
and achieve their desired outcomes. Everyone is very enthused 
about this additional flexibility now, and I think it will 
allows us to dispose of properties more quickly with much more 
favorable results.
    Thank you, ma'am.
    Senator Collins. Thank you. I am delighted to hear that.
    General Carpenter, let me start by thanking you for coming 
to Maine last week. I have heard from the employees at the 
Maine Military Authority, as well as the Maine troop greeters, 
how pleased they were that you came firsthand to thank the 
troop greeters who have welcomed back or sent off more than a 
million members of our Armed Forces over the past few years.
    Also, I was delighted that you came to see the capabilities 
of the Maine Military Authority in Limestone in northern Maine.
    Could you share with the subcommittee your professional 
opinion of the capabilities of the Maine Military Authority?
    General Carpenter. First of all, Senator, let me tell you 
what an honor and a privilege it was to accompany you up to 
Maine the other day. The pride that you have in the State of 
Maine and specifically the Maine Military Authority and the 
troop greeters for what they do up there was very obvious, and 
I appreciate your support for the National Guard across the 
board. So thank you very much, Senator.
    Senator Collins. Thank you.
    General Carpenter. We are looking at our visit the other 
day, and it was a great opportunity for me to see what the 
Maine Military Authority is all about because I had not visited 
that particular facility before. As they very eloquently 
outlined, they have more capability than what is being used up 
there, and we are really taking a long look at how we parcel 
out work to that particular effort up there, and I think there 
are some opportunities to expand what is going on up there in 
the Maine Military Authority.
    As I mentioned when I was up there, our effort here is to 
be a good steward of the taxpayers' dollar, and what we get 
from the Maine Military Authority is absolutely a top product 
for a very good price. So it only makes sense for us, to the 
extent that we can, to utilize that particular effort up there 
and to maximize the capacity.
    I would also like to say it was a very humbling experience 
to get a chance to see the troop greeters the other day. There 
were almost 75 people there and they ranged in age from high 
school kids to World War II veterans. It was very impressive. 
They have met every airplane since Desert Storm that has come 
back from theater, and you can also see how proud they are of 
that.
    So, again, I think we have got some opportunities in the 
Maine Military Authority, and again, it was a great privilege 
to accompany you the other day.
    Senator Collins. Thank you, General. We were very honored 
to have you in our State.
    General Boozer, I understand that you are also taking a 
look at the Maine Military Authority. Are you working to 
identify possible opportunities where the Maine Military 
Authority might be able to assist the Army in its needs?
    General Boozer. Yes, Senator Collins, thanks for the 
question.
    Based on some of the feedback that I have received, I think 
I need to make a trip up there to take a look at that facility 
that General Carpenter just described.
    Senator Collins. We would welcome you anytime.
    General Boozer. I believe you know that Army Materiel 
Command CCOM already has a recapitalization program for some of 
our HMMWV's, our shelter-carrying HMMWV's, and that is about a 
$7 million a year program. But Army Materiel Command is also in 
discussions with MMA about a potential for them to compete in 
their expanding wheel assembly program. So that has got great 
promise, and I know AMC has asked MMA for their capabilities 
and capacities in that regard, and those discussions are 
ongoing.
    There were some folks there too, Senator, from the 
installation management team, and it looks like there may be a 
possibility of funneling some of our nontactical fleet to the 
MMA, specifically our fire fighting equipment that is in dire 
need of refurbishment that we supply to our installations. So 
all of that is ongoing.
    Senator Collins. Great.
    Thank you, Mr. Chairman. And I thank the witnesses.

                           PINE BLUFF ARSENAL

    Senator Johnson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Thank you all for being here today. I would like to ask, if 
I can, maybe General Boozer and also Mr. Hansen a little bit 
about the Pine Bluff arsenal, which is a facility in my State 
that has a huge chemical stockpile that has been destroyed on 
schedule and I think even under budget or at least on schedule 
and ahead of budget. As that thing closes down and that goes 
away and we lose all of that, it is going to have about a $100 
million impact to the community annually.
    The Workforce Transition Office, I think, was established 
in 2009 between the Army and the Southeast Arkansas Economic 
Development Authority to address things like retirement 
counseling, outplacement assistance, training assistance, et 
cetera. And I will be meeting with them soon. I think it is 
next week or the week after. I am not sure.
    I guess the first question is for both of you all. Are you 
aware of the circumstances surrounding the Pine Bluff arsenal 
and the Pine Bluff community? Are you all aware of that?
    General Boozer. Senator Pryor, I am not simply aware of 
that issue.
    I know kind of where we are with the Pine Bluff disposal 
facility. They have started that campaign that started in about 
December of 2008, and they are doing great work out there 
destroying just tons of mustard gas and mustard stuff.
    We had not even as an Army begun the closure process 
because I think we have to go through and figure out what there 
really needs to be decontaminated and/or demolished and then 
what are some potential uses as well. So the closure process, 
at least to my knowledge, has not even begun at Pine Bluff.
    Mr. Hansen. I am somewhat familiar, although you have 
alluded to some things that I probably need to find out some 
more about. As you are aware, the chem demil program, 
established by Public Law 99-145, called for eliminating all 
chemical warfare-related materials, and a key feature of that 
program is the requirement for those chem demil facilities 
themselves to be destroyed upon completion of the mission. At 
that time, we are looking at each of the buildings and 
structures there right now to determine which ones might be 
retained and which ones would be contaminated and have to be 
destroyed or decontaminated.
    We do not know an exact closure date. We have not finished 
that process at this time, but we do expect to work very 
closely with your authority to make sure that people are taken 
care of to the extent possible.
    Senator Pryor. Great. I do not know if you all have plans 
for all the equipment and weapons that will be coming back from 
Afghanistan and Iraq in terms of reset and all that, but I 
would suggest the Pine Bluff arsenal may be a good place that a 
lot of that could be done. If you are familiar with the 
facility, you will know why I say that because they just have a 
great workforce, a lot of infrastructure there, and a lot of 
resources there that I think could really be helpful on that.
    Let me also ask about the Army National Guard itself. I 
know that if you look at the Army National Guard installations, 
I think the average age is maybe 41 years old. I think 24 
percent are over 70 years old, and I think we have 37 
facilities that are over 100 years old. I know that last year 
when we did the stimulus and the Recovery Act, we discussed the 
needs for the Guard Bureau to be able to have resources to 
upgrade or improve their situation. I think that they gave us a 
list of over 100 priorities that were shovel-ready projects. I 
think they totaled about $1.2 billion, if my memory is correct.
    But anyway, unfortunately I think that most of this--not 
all of it, but most of it--was just ignored by the Army. So I 
guess my first question is do we know why a lot of these 
shovel-ready projects were not funded. Let me just start with 
that question. Do we know why they were not funded, why the 
shovel-ready projects were not funded?

                          ARMY NATIONAL GUARD

    General Carpenter. Senator, as we worked through the 
process when the stimulus package was being formulated, a call 
went out to all components of the Army to provide potential 
projects that would be shovel-ready, and from the Army Guard's 
perspective, we had a number of those. You have identified the 
list that we submitted, sir. And we forwarded them to the Army 
for competition.
    Senator Pryor. Did they lose out on that competition, or 
are they still being considered?
    General Carpenter. Sir, we ended up having, I believe, $50 
million worth of projects funded through the construction piece 
of the stimulus package, and that amounted to, I believe, about 
8 or 10 projects. I would have to provide that information to 
you for the record.
    [The information follows:]

    Fiscal year 2009 MCNG Economic Stimulus Package Program (ARRA)--Six 
projects funded:
  --CA, Mather AFB, Airfield Resurface
  --NE, Camp Ashland, Dining Facility Add/Alt
  --NY, Fort Hamilton, Ready Building
  --NC, Raleigh, Armed Forces Reserve Center
  --OR, Camp Withycombe, Readiness Center
  --WV, Gassaway, Readiness Center
    Note: Due to bid savings in the fiscal year 2009 ARRA program, the 
ARNG is planning to fund four more projects:
  --CA, Camp Roberts, Dining Facility
  --GA, Marietta Dinning Facility Add/Alt
  --OR, Camp Rilea, Sanitary Sewer Rehab
  --RI, Camp Fogarty, Rigger Facility

    Senator Pryor. So are you saying the Guard Bureau got $50 
million out of that?
    General Carpenter. I believe that is the correct number.
    Senator Pryor. And do you remember what the total was that 
the military got for the shovel-ready projects?
    General Carpenter. Mr. Senator, I believe total Milcon from 
the stimulus bill was $230 million, of which $50 million went 
to the National Guard.
    Senator Pryor. I do not know about that ratio. That sounds 
like that may be close to 20 percent, if I am doing that math 
right, and that may be about the right ratio, but at the same 
time, the Guard and the reserve component is really the key to 
our readiness today. I mean, we are asking them to do more and 
more. A lot of them--not all, but a lot of them--are working in 
antiquated buildings and outdated infrastructure. So I guess I 
would encourage you all just to continue to try to find ways to 
get the Guard the resources they need so that you can fund some 
of these projects. Like I said, it sounds like you maybe funded 
8 and you have 100 on the list. Maybe you got eight done.
    Mr. Snyder. I would like to add also, Senator, that the 
Army Reserve received $98 million that funded 22 projects in 
the ARRA.
    Senator Pryor. The Reserve did.
    Mr. Snyder. Yes, sir.
    Mr. Calcara. Sir, if I could, it is important to note that 
the ARRA program was a DOD-wide look in how the projects 
competed. Other than a worst first or a fair share type look, 
there were other aspects that were brought to that: geographic 
balance, job creation. There were other aspects in the funding 
of ARRA that are not present in our normal discourse when we 
decide how to make investments. So I think we did fairly well. 
If you look across the Army as a portfolio, we got the lion's 
share of the funding in DOD. So there is some goodness in what 
happened there, albeit we could always use more.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Johnson. Senator Murkowski.

                             ALASKA MILCON

    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, good morning. Mr. Hansen, I will start with you. 
I think we recognize well the opportunities that Alaska 
presents with its joint training ranges. Some have described 
them as superlative, and if I could think of a better word, I 
would go higher than that. But I think we recognize that the 
opportunity for the Air Force, the Army, now the Navy to 
conduct synchronized training free from encroachments is a real 
asset.
    Can you comment on the Army's future plans for continued 
infrastructure development on these training grounds, and how 
do you plan to maximize utilization of this national asset?
    Mr. Hansen. We had a discussion on that just before the 
hearing this morning, ma'am. If it is okay with you, I would 
like to defer to Mr. Calcara on that. I think he has more 
detailed information.
    Mr. Calcara. I did not have the discussion this morning, 
Jerry.
    Senator Murkowski. They discussed that you were going to 
speak to it.
    Mr. Calcara. I am going to defer to General Boozer.
    Senator Murkowski. All right. Pass it on down.
    General Boozer. That is what I get, Senator, for sitting at 
the end of the table.
    Ma'am, I know in the 2011 request there is some substantial 
Milcon in Alaska which I think goes to show that we believe 
that when you just stated is that there are great training 
opportunities up there in Alaska. A little over $300 million in 
the 2011 request. A lot of that goes toward some multiple 
purpose machine gun range, a simulation center which gets right 
at the heart of training, and I think an urban assault course 
as well. And I believe the Army will continue to invest in both 
Forts Greeley and Wainwright or Fort Richardson as well in 
Alaska for a long time to come.
    Senator Murkowski. Well, we continue at the State level to 
try to do what we can to further open up training ranges. Our 
legislature just met and are working to provide for some 
transportation corridors that I think will be helpful to you.
    Let me ask a question, and again, I do not know whether 
this is to you, Mr. Hansen, or to others, but this is regarding 
improper classification of construction workers. The Department 
of Labor has initiated a pretty major effort to ensure that 
businesses do not improperly classify construction workers as 
independent contractors rather than employees. I was just 
visited yesterday in my office by some in the Alaska 
construction trades that are concerned that some of the 
contractors that utilize construction workers on Alaska Army 
bases may be engaging in this process of misclassification.
    Does the Army have a process for investigating these 
complaints and enforcing compliance with wage and hour laws, 
and if they do not, should they?
    Mr. Calcara. I guess I will take that one, ma'am. It is 
hard to make a general statement whether we are talking about 
military construction projects or repair projects done through 
an RCI. But the Department of Labor does routinely conduct wage 
rate interviews, and that is the process. Essentially when DOL 
comes in and does a wage rate labor classification interview 
and they have a finding, then the Army would address it. So I 
believe there is a process in place. I have not heard about the 
issue you just mentioned, but I will certainly take it back and 
follow up with your staff and see what I can do about it.
    Senator Murkowski. Well, I would appreciate that, and if we 
can give you more specifics to which to respond, we will do so.
    Mr. Calcara, we will just keep going with you here. You are 
certainly aware of the concerns that have been expressed 
previously by many in the Fairbanks community about the use of 
out-of-State contractors and construction workers by the Actus 
Lend Lease there at Wainwright. I had a chance to discuss this 
issue with Dorothy Rabin a few weeks ago and she suggested at 
that time that the issues that I raised were concerns that were 
uncommon in privatized housing projects, and she basically 
suggested that I ask the various services.
    I know that you do have small business utilization goals, 
but that does not necessarily ensure that the local workers get 
the construction jobs. So the question is, do you think it is 
good policy to encourage housing privatization partners to use 
the local contractors and local construction workers for the 
privatization work, or is the Department indifferent on this as 
an issue?
    Mr. Calcara. We absolutely think it is good policy. Just to 
follow up, as you know, I have been personally engaged in this.
    Senator Murkowski. Which we appreciate.
    Mr. Calcara. And I have done a deep dive on the metrics 
across the programs. So I want to throw a couple numbers out 
there for the record. Of the $5.7 billion in the portfolio in 
construction through December 31st of last year, $3.6 billion, 
or over 60 percent of it, has gone to small and local 
businesses. In Alaska, we are beating that by about 15 percent. 
We are in the 75 to 80 percent range.
    So where is the issue? Because you are obviously getting 
feedback. My understanding is that while we have State-licensed 
contractors, they may, in fact, have corporate headquarters in 
other parts of the country. They may, in fact, be augmenting 
staff with folks that are coming in from other areas of the 
country.
    I am not sure there is much that we could do through policy 
or incentivization to that. The developers and the service 
providers are incented to hit small business and local goals. 
They are also incented to be efficient and effective in the 
pricing and the delivery of the construction. And to the extent 
that someone who is locally licensed wants to hire someone from 
Washington State to work in Alaska on a project, there is 
really not much we can do about that. So that is kind of how I 
look at it, ma'am.

                     MILITARY HOUSING PRIVATIZATION

    Senator Murkowski. So you do not think it is necessary or 
perhaps appropriate to change the laws governing the military 
privatization to require that some level of local contracting 
be utilized.
    Mr. Calcara. Well, I guess if you define local as people 
who are born or living, I would say no. If you define local as 
someone who has a State license there, again, we are hitting 
two-thirds of the portfolio, three-quarters in Alaska local and 
small business. So it is how you define ``local'' I guess.
    Senator Murkowski. Well, as you know--and again, I 
appreciate your engagement in this--it has been an issue that 
has generated some controversy and a great deal of discussion. 
At least there has been more full-on debate and discussion 
about it of late, and I think that we are making some gains and 
that is good.
    Another issue that is in the same category--and Mr. 
Chairman, if I just can have another 30 seconds to finish up 
here, I will conclude with my questions.
    But I had a chance to bring this up again a couple weeks 
ago as it related to those who are not lawfully eligible to 
work here in the United States. We had a situation last year 
where on one of our Alaska bases there was an investigation of 
some of the individuals that were working on construction of 
building hangars, and it was determined that 4 out of the 30 
individuals were not lawfully eligible to work in the United 
States. One was determined to have a criminal history in the 
State of California, and of course, the big brouhaha was this 
is on a military base. It is supposed to have secure areas, and 
we had a situation, an example, where not only were the people 
not eligible to work here in the United States getting through 
the gate, but with criminal backgrounds.
    So the question that I had asked and I will ask of you is, 
is the Army doing anything to ensure that those working in its 
facilities are lawfully here working in the United States and 
whether or not, for security reasons, we need to be doing more 
to ensure a level of compliance?
    Mr. Calcara. Well, as you know, ma'am, all our bases are 
generally in controlled access areas. So all contractors have 
to have badges and, at some point, have to provide a copy of a 
contract that they have with the Federal Government, as well as 
the necessary identification to get a badge issued.
    Are there anecdotal instances where folks get through that 
net? It does not surprise me that you have uncovered some. I 
guess from here on out, we will reissue policy to ensure that 
we are diligent in checking those credentials. Obviously, 
contractors have to have an active contract to get on a post. 
Ultimately, that is the compliance measure that we use. We just 
have to get a little tighter, I guess, and catch those 4 out of 
30 that appeared to get through the net.
    Senator Murkowski. And I think part of this issue was, 
again, it was a contractor who brought up folks from outside. 
It goes back to the local hire issue, and that is why they come 
to my attention.
    Mr. Calcara. Yes, ma'am.
    Senator Murkowski. And I in turn bring them to yours. So I 
look forward to working with you on some of these details.
    With that, Mr. Chairman, I thank you for the time.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Johnson. To this panel, thanks for your service to 
our Nation. You may be excused.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted to Hon. Jerry Hansen
               Questions Submitted by Senator Tim Johnson

                     ENERGY EFFICIENCY IMPROVEMENT

    Question. What is the Army doing to improve energy efficiency on 
its bases and increase the use of green building practices, in 
particular green or cool roof projects?
    Answer. In order to provide energy efficient and sustainable new 
facilities, the Army continues to require all military construction 
(Milcon) achieve the SILVER criteria of the U.S. Green Building 
Council's Leadership in Energy and Environmental Design (LEED) rating 
tool. Projects are evaluated in 6 LEED major credit areas: Sustainable 
Sites, Water Efficiency, Energy & Atmosphere, Material & Resources, 
Indoor Environmental Quality, and Innovation & Design Process. Army 
also requires new facilities to be 30 percent more energy efficient 
than the industry standard defined by the American Society of Heating, 
Refrigerating and Air-Conditioning Engineers (ASHRAE) 90.1-2004. As 
such, new buildings will incorporate appropriate engineering solutions 
(insulation and windows), design features (cool roofs and daylighting), 
technologies (LED lights and ground source heat pumps), and energy 
efficient mechanical systems (Energy Star  rated motors) where life-
cycle cost effective.
    All Sustainment, Restoration and Modernization (SRM) funded 
projects for repair, maintenance, and new work are also required to 
comply with and, where applicable, contribute toward the goals 
specified in the Energy Policy Act of 2005 and incorporate sustainable 
design features where life-cycle cost effective. For instance, all new 
roofing or planned re-roofing SRM projects in climate zones 1 to 5 are 
required to install reflective ``cool'' roofs over air conditioned 
spaces in buildings.

                            ENERGY SECURITY

    Question. Energy security on bases is a major concern. What is the 
Army doing to protect critical mission assets from the threat of 
extended disruptions to the commercial power grid?
    Answer. The Army Energy Security Implementation Strategy 
communicates the Army's energy security vision, mission, goals, and 
sets forth the framework to address the five key components of 
security--surety, survivability, supply, sufficiency, and 
sustainability. The Army is developing a template to ensure 
installation energy security plans have a standard to identify critical 
loads, methods and plans to supply backup utilities in the event of an 
emergency, and identify actions needed to harden utility systems to 
improve their energy security posture. Using American Recovery and 
Reinvestment Act (ARRA) funding, the Army is developing an Energy 
Security Audit Model which will provide a consistent methodology to 
identify potential energy security vulnerabilities and prioritize 
energy security risks and mitigation projects. The Army is also 
expanding the use of renewable energy through the Energy Conservation 
and Investment Program and alternative financing programs to reduce our 
reliance on the grid. Alternative financing programs for partnering 
with the private sector include Enhanced Use Leases, Power Purchasing 
Agreements, Energy Savings Performance Contracts and Utility Energy 
Services Contracts.

                 ENERGY CONSERVATION INVESTMENT PROGRAM

    Question. The Army's share of the fiscal year 2011 Energy 
Conservation Investment Program (ECIP) is $43.4 million. Could you 
execute additional funding?
    Answer. Yes, the Army could execute as much as an additional 
$51,132,000 if received early in the fiscal year.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                         BARRACKS PRIVATIZATION

    Question. Will the current Army Milcon and SRM investment funding 
plans provide single enlisted soldiers the same quality of housing we 
provide married soldiers by a date certain?
    Answer. Yes, we are providing safe, convenient, high-quality 
housing for our single soldiers just as we are with the married 
soldiers. The Army is currently in year 17 of its 20-year Permanent 
Party Barracks Modernization Program. By fiscal year 2013, all funding 
will be in place for this barracks program with occupancy estimated for 
fiscal year 2015, every single soldier will be provided with a quality 
living space. The Permanent Party Barracks Modernization Program is the 
foundation for providing our warriors with the best facilities 
possible. Following the completion of the modernization program, the 
Army will program the replacement of older legacy facilities to ensure 
all soldiers remain adequately housed.
    Question. Does budgeting to attempt to maintain permanent party 
barracks as ``adequate'' under current Army standards meet the 
obligation to provide single soldiers the same quality of housing as 
their married counterparts?
    Answer. Yes, we are budgeting to maintain safe, convenient, high-
quality housing for our single soldiers just as we are with the married 
soldiers. The sustainment requirements for Permanent Party barracks are 
generated through the Department of Defense Facilities Sustainment 
Model (FSM). The FSM calculates the funding requirement in order to 
sustain facilities at an adequate level or condition. The Office of 
Secretary Defense mandates that all facilities are funded to at least 
90 percent of the Army requirement generated by the FSM. The buyout of 
inadequate barracks remains the top priority among facility programs in 
the Army.
                                 ______
                                 
                Questions Submitted to Joseph F. Calcara
               Questions Submitted by Senator Tim Johnson

                     HOMEOWNERS ASSISTANCE PROGRAM

    Question. This subcommittee has provided a total of $855 million in 
funding to expand the Homeowner's Assistance Program, or HAP, to help 
military families who face massive losses on the sale of their homes 
when they are required to relocate during the current mortgage crisis.
    Could you outline the status of the expanded HAP program and the 
expenditures to date?
    Answer. The U.S. Army Corps of Engineers began receiving 
applications in February 2009. Payments to beneficiaries began in 
October 2009. Eligible applications submitted to date total 5,918. 
Benefits totaling $183.2 million have been paid to 1,445 eligible 
applicants.
    Question. DOD has proposed legislative changes to the HAP language. 
Can you explain the reasons for these changes?
    Answer. Presently, the law requires the Government to purchase an 
applicant's home when the applicant's home value is less than their 
mortgage payoff. This proposal would allow the Government to pay only 
the difference between the price for which an applicant sells his/her 
home and the mortgage payoffs rather than purchasing the home and then 
immediately selling the home to the applicant's buyer. This legislation 
will simplify and speed claim payment and improve HAP fund management.
    Question. DOD claims this proposal will have no budgetary impact. 
Would you please provide the subcommittee the detailed budgetary 
analysis on which that conclusion is based?
    Answer. The proposal will substantially reduce claim processing 
time, slightly reduce transaction costs, and improve funds management 
by eliminating the current requirement for the Government to acquire 
the applicant's home and immediately re-sell the home to the 
applicant's buyer. Under the current law, this dual, sequential 
transaction forces the Government to fully fund the acquisition of the 
home and deposit the full Government ``re-sale'' proceeds in the HAP 
account, where they must be re-apportioned by OMB before they can be 
used by the program. That process of deposit and re-apportionment takes 
approximately 90 days and reduces available funds accordingly. The 
proposed legislation will have little budgetary impact, but will 
greatly simplify and improve the transaction by allowing the Government 
to merely pay the claim payment at the applicant's closing.
    Question. The expanded HAP authority gives the Secretary the 
discretion to compensate homeowners through September 30, 2012, with 
the discretion to terminate the program earlier. However, the HAP Web 
site has been updated to say that the permanent reassignment orders 
must be received by September 30, 2010, to be eligible for 
compensation.
    Given the continuing turmoil in the real estate market--especially 
in States like Florida, Arizona and Nevada which host large military 
installations--it seems very possible that military families will be 
struggling to sell their homes for some time to come.
    Has the Secretary made a decision to terminate the temporary 
expansion of HAP on September 30, 2010, and if so, why?
    Answer. DOD is currently assessing the availability of HAP funds to 
pay benefits for claims from members who move under Permanent Change of 
Station (PCS) orders. HAP claim payments for PCS applicants are 
averaging $126,000, which is 60 percent greater than $77,000 per claim 
cost originally forecast. However, DOD will assess what date PCS 
applications should be terminated after evaluating the number and rate 
of claim growth through the summer fiscal year 2010 PCS move cycle. 
Additionally, there is flexibility in the HAP budget plan that would 
allow payment of more PCS claims from HAP funds currently targeted for 
BRAC 2005 claim payments, if those BRAC claims lag forecasted volume.
    Question. Do you foresee a requirement for any additional funding 
to compensate military families under this program if the expanded 
benefits extend beyond 2010?
    Answer. The mortgage crisis has been extensive and costly. However, 
it is too early to accurately forecast whether current funding will be 
sufficient to fund the program as originally envisioned. While, claims 
are more expensive than forecast, it's not clear yet whether the volume 
of forecasted claims will vary substantially. DOD hopes to have a 
better analysis of the available funding at the conclusion of the 
fiscal year 2010 summer PCS cycle.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                         BARRACKS PRIVATIZATION

    Question. Will the current Army Milcon and SRM investment funding 
plans provide single enlisted soldiers the same quality of housing we 
provide married soldiers by a date certain?
    Answer. Yes, we are providing safe, convenient, high-quality 
housing for our single soldiers just as we are with the married 
soldiers. The Army is currently in year 17 of its 20-year Permanent 
Party Barracks Modernization Program. By fiscal year 2013, all funding 
will be in place for this barracks program with occupancy estimated for 
fiscal year 2015, every single soldier will be provided with a quality 
living space. The Permanent Party Barracks Modernization Program is the 
foundation for providing our warriors with the best facilities 
possible. Following the completion of the modernization program, the 
Army will program the replacement of older legacy facilities to ensure 
all soldiers remain adequately housed.
    Question. Does budgeting to attempt to maintain permanent party 
barracks as ``adequate'' under current Army standards meet the 
obligation to provide single soldiers the same quality of housing as 
their married counterparts?
    Answer. Yes, we are budgeting to maintain safe, convenient, high-
quality housing for our single soldiers just as we are with the married 
soldiers. The sustainment requirements for Permanent Party barracks are 
generated through the Department of Defense Facilities Sustainment 
Model (FSM). The FSM calculates the funding requirement in order to 
sustain facilities at an adequate level or condition. The Office of 
Secretary Defense mandates that all facilities are funded to at least 
90 percent of the Army requirement generated by the FSM. The buyout of 
inadequate barracks remains the top priority among facility programs in 
the Army.
    Question. What is the Army plan to move forward with pilot junior 
barracks privatization projects to resolve these remaining questions 
once and for all?
    Answer. The Army will continue to survey mission commanders and 
sergeants major regarding unit integrity and warrior ethos in an effort 
to identify locations where barracks privatization might be a viable 
option in the future.
                                 ______
                                 
               Questions Submitted to General Jim Boozer
            Questions Submitted by Senator Mary L. Landrieu

                         BARRACKS PRIVATIZATION

    Question. Will the current Army Milcon and SRM investment funding 
plans provide single enlisted soldiers the same quality of housing we 
provide married soldiers by a date certain?
    Answer. Yes, we are providing safe, convenient, high-quality 
housing for our single soldiers just as we are with the married 
soldiers. The Army is currently in year 17 of its 20-year Permanent 
Party Barracks Modernization Program. By fiscal year 2013, all funding 
will be in place for this barracks program with occupancy estimated for 
fiscal year 2015, every single soldier will be provided with a quality 
living space. The Permanent Party Barracks Modernization Program is the 
foundation for providing our warriors with the best facilities 
possible. Following the completion of the modernization program, the 
Army will program the replacement of older legacy facilities to ensure 
all soldiers remain adequately housed.
    Question. Does budgeting to attempt to maintain permanent party 
barracks as ``adequate'' under current Army standards meet the 
obligation to provide single soldiers the same quality of housing as 
their married counterparts?
    Answer. Yes, we are budgeting to maintain safe, convenient, high-
quality housing for our single soldiers just as we are with the married 
soldiers. The sustainment requirements for Permanent Party barracks are 
generated through the Department of Defense Facilities Sustainment 
Model (FSM). The FSM calculates the funding requirement in order to 
sustain facilities at an adequate level or condition. The Office of 
Secretary Defense mandates that all facilities are funded to at least 
90 percent of the Army requirement generated by the FSM. The buyout of 
inadequate barracks remains the top priority among facility programs in 
the Army.
    Question. What is the Army's plan to move forward with pilot junior 
barracks privatization projects to resolve these remaining questions 
once and for all?
    Answer. The Army continues to look at all of its options to 
supplement our barracks modernization program throughout the United 
States to fix and sustain quality housing for single soldiers over the 
long term. The Army's Unaccompanied Personnel Housing Privatization 
Study did show that barracks privatization projects can be financially 
feasible. But, the Army has concerns that discontinuing Army culture 
and practices due to introduction of a privatized barracks project 
would adversely affect soldier training and discipline that currently 
occurs in this living space. Additionally, there is a challenge of how 
to fund the Basic Allowance for Housing bill that will be generated by 
privatization over the next 50 years.
    Question. Assuming OMB full upfront scoring is avoided, is the cost 
of the three pilots in the study of $22 million in the first year that 
significant for the Army given the ability to sustain the housing for 
the long term?
    Answer. No. The first year cost of barracks privatization for the 
three pilots is not significant. However, the 50-year cost of barracks 
privatization for the three pilots (i.e., the difference between the 
Basic Allowance for Housing (BAH) and traditional funds available for 
barracks construction, renovation, sustainment, operations and 
management) is significant. In the study, we estimated the differential 
to be a total close to $1.7 billion more than traditional funds 
available for the three projects over 50 years.
    Question. Are there not additional offsets to those costs, such as 
the current BAH costs from issuances of certificates of non-
availability that are not reflected in the financial analysis in the 
Army study?
    Answer. Yes. There may be some additional, minor costs on ``both 
sides of the equation'' that were not considered in the study. However, 
we believe we have captured all of the major costs, and we are 
confident that the estimates in the study are reflective of the cost of 
barracks privatization.

                      Department of the Air Force

STATEMENT OF HON. TERRY A. YONKERS, ASSISTANT SECRETARY 
            OF THE AIR FORCE (INSTALLATIONS, 
            ENVIRONMENT AND LOGISTICS)
ACCOMPANIED BY:
        KATHLEEN I. FERGUSON, DEPUTY ASSISTANT SECRETARY OF THE AIR 
            FORCE (INSTALLATIONS)
        MAJOR GENERAL PATRICK J. MOISIO, DEPUTY DIRECTOR, AIR NATIONAL 
            GUARD
        MAJOR GENERAL DAVID L. COMMONS, MOBILIZATION ASSISTANT TO THE 
            CHIEF, AIR FORCE RESERVE

    Senator Johnson. I am pleased now to welcome our second 
panel of witnesses: the Hon. Terry A. Yonkers, Assistant 
Secretary of the Air Force for Installations, Environment and 
Logistics; Ms. Kathleen I. Ferguson, Deputy Assistant Secretary 
of the Air Force for Installations; Major General Patrick J. 
Moisio, Deputy Director, Air National Guard; and Major General 
David L. Commons, Mobilization Assistant to the Chief of the 
Air Force Reserve. Thank you all for coming. We look forward to 
your testimony, and again, your full statements will be entered 
into the record.
    Secretary Yonkers, please proceed.
    Mr. Yonkers. Good morning, Chairman Johnson and 
distinguished members of the subcommittee. And thank you for 
inviting me here today to address the Air Force's military 
construction, family housing, and BRAC implementation programs.
    I would like to begin by thanking the subcommittee for its 
continued support of the Air Force and the thousands of 
dedicated and brave airmen, their families serving this great 
Nation.
    Today is the 40th anniversary of Earth Day, and throughout 
our Nation, businesses, schools, and our military services are 
working to protect our planet; preserve our air, water, and 
land; and develop clean alternative sources of energy. And the 
Air Force is doing its part to realize a more secure and 
sustainable future.
    A clean and safe environment and secure sources of energy 
are essential for meeting our mission requirements and 
improving the quality of life for our airmen. The Air Force is 
proud to be a member of America's ongoing quest to restore and 
preserve our natural resources and use our energy more 
efficiently and effectively.
    I will now briefly talk a little bit about the Air Force's 
military construction, family housing, and base realignment and 
closure programs which form the foundation of our installation 
structure and provide the direct support responsible for 
meeting the needs of our airmen and their families.
    Our fiscal year 2011 President's budget request contains 
$5.5 billion for facility maintenance, military construction, 
military family housing, and base realignment and closure, 
which is a 3.8 percent increase above our fiscal year 2010 
request. Our facility sustainment and recapitalization programs 
represent the largest portion of that request with $3.1 billion 
to maintain and modernize our Air Force installations. The $1.5 
billion military construction request prioritizes our 
requirements and ensures new construction is aligned with 
weapon system deliveries and strategic basing initiatives, 
while we continue to accept some risk in our aging 
infrastructure recapitalization.
    Additionally, we continue our efforts to provide quality 
housing for airmen and their families by dedicating $600 
million to sustain and modernize overseas housing and support 
housing privatization in the continental United States.
    We also request a total of $252 million to continue 
completing our BRAC 2005 program requirements, as well as our 
legacy BRAC programs and especially environmental cleanup.
    In regards to our total force military construction 
program, I do want to mention the difficult decisions we made 
last year or made this year with regard to the funding of the 
component and major command priorities. Each component and each 
Active Duty major command received their top priority project. 
The apparent disparity among the Active Duty, the Guard, and 
the Reserve military construction reflects funding in the 
component's number one project and not the dollar value of 
these projects.
    This year the Active Duty, which is about 87 percent of 
plant replacement value, received 80 percent of the investment 
stream. The Air National Guard is about 9 percent of plant-to-
replacement value and received 17 percent of the investment 
stream. The Air Force Reserve is about 4 percent of plant 
replacement value. This year the Air Force Reserve received 
their top priority project, a maintenance facility at Patrick 
Air Force Base, but that only equated to about 2 percent of 
plant replacement value.
    The funding to components and the major commands shifts 
from year to year and it is important that we take care of the 
entire total Air Force. We greatly appreciate Congress' 
continued support of all the Air Force components, particularly 
in fiscal year 2010 in which the Congress provided a 
substantial amount of additional funding for the Air Force 
Reserve.
    I would like to close by briefly mentioning the Air Force's 
efforts in executing the base realignment and closure 
recommendations. To implement assigned recommendations, the Air 
Force's plan calls for the execution of nearly 400 separate 
actions, utilizing a budget that has been and remains fully 
funded at $3.8 billion. Two-thirds of this budget is military 
construction. Our BRAC military construction program will make 
its last contract award before the close of this fiscal year. 
In total, we will execute 231 BRAC military construction 
projects at 56 installations in 36 States. I am confident in 
telling you that the Air Force will complete that 
implementation of BRAC 2005 on time and within the budget.
    Today I am really pleased to have accompanying me Deputy 
Assistant Secretary for Installations, Ms. Kathleen Ferguson; 
Major General Commons, who is the Mobilization Assistant to the 
Chief of the Air Force Reserve; and also Major General Moisio, 
who is the Deputy Director of the Air National Guard.

                           PREPARED STATEMENT

    Sir, that concludes my remarks. I thank the subcommittee 
again for all that you have done for us and your continued 
support of our airmen and their families, and I look forward to 
any questions that you may have.
    [The statement follows:]

              Prepared Statement of Hon. Terry A. Yonkers

                              INTRODUCTION

    The ability of our Airmen to perform their missions world-wide is 
directly affected by the quality of resources, access to facilities, a 
robust logistics infrastructure for sustainment, and a confidence that 
while they are deployed their families are well taken care of and their 
needs are being met.
    Air Force Military Construction (Milcon), Military Family Housing 
(MFH), and Base Realignment and Closure (BRAC) programs form the 
foundation of our installation structure and provide the direct support 
responsible for meeting the needs of our Airmen and their families.
    We recognize we cannot lose focus on critical Air Force 
infrastructure programs, and we are working hard to ensure we have the 
proper infrastructure to enable our Airmen to perform their duties 
while ensuring responsible stewardship of fiscal resources.
    Our efforts are in direct support of the Air Forces' five 
priorities, which serve as a framework for this statement: (1) continue 
to strengthen the nuclear enterprise; (2) partner with the Joint and 
Coalition team to win today's fight; (3) develop and care for our 
Airmen and their families; (4) modernize our air and space inventories, 
organizations, and training; and (5) recapture acquisition excellence.

                                OVERVIEW

    Our fiscal year 2011 President's Budget Request contains $5.5 
billion for facility maintenance, military construction, military 
family housing, and Base Realignment and Closure, which is a 3.8 
percent increase above our fiscal year 2010 request. Our facility 
maintenance and repair account represents the largest portion of the 
request, with $3.1 billion to maintain Air Force installations. The 
$1.5 billion military construction request prioritizes our requirements 
and ensures new construction is aligned with weapon system deliveries 
and strategic basing initiatives, while we continue to accept some risk 
in aging infrastructure recapitalization. Approximately one-third of 
the military construction request is dedicated to new mission 
requirements, and in this year's budget all new mission projects are 
programmed in the Air National Guard and Active Duty components. 
Additionally, we continue our efforts to provide quality housing for 
Airmen and their families by dedicating nearly $600 million to 
sustaining and modernizing overseas housing, and supporting housing 
privatization in the Continental United States. We also request a total 
of $252 million to continue completing our BRAC 2005 program 
requirements as well as our legacy BRAC programs and environmental 
clean-up.
    In the course of building the fiscal year 2011 budget request, we 
made a number of difficult choices among competing priorities. One of 
these was a necessary but difficult decision to continue taking risk in 
our military construction as well as our restoration and modernization 
accounts. We continue to mitigate risk by funding facility sustainment 
to the 90 percent level in order to ensure that we keep our good 
facilities good.
    We also made difficult decisions regarding the funding of component 
and major command priorities. Each component and major command received 
their top priority project. The apparent disparity among the Active 
Duty and Guard and Reserve MILCON reflects funding of the component's 
No. 1 project and not the dollar value of those projects. This year, 
the Active Duty, which is about 87 percent of Plant Replacement Value 
(PRV), received 80 percent of the investment stream. The Air National 
Guard is about 9 percent of PRV and received 17 percent of the 
investment stream. The Air Force Reserve is about 4 percent of PRV. 
This year the Air Force Reserve received their top priority project, a 
maintenance facility at Patrick Air Force Base, but that only equated 
to about 2 percent of PRV. The funding to components and MAJCOMs shifts 
from year to year and it is important that we take care of the entire 
Air Force family. We greatly appreciate Congress' continued strong 
support of all of the Air Force components, particularly in fiscal year 
2010, in which the Congress provided a substantial amount of additional 
funding for the Air Force Reserve.
    The Air Force is also very appreciative of the support provided 
through the American Recovery and Reinvestment Act of 2009. The 
Recovery Act contributed significantly to our infrastructure. From this 
legislation, we received a total of $1.7 billion to support Air Force 
projects, including $1.3 billion for operations and maintenance for 
facilities sustainment, restoration, and modernization (FSRM); $327 
million in military construction and military family housing for 
dormitories and child development centers; and $75 million in research, 
development, testing and evaluation for projects to improve energy 
efficiency. In accordance with Congressional intent to allocate the 
funds quickly, we moved expeditiously to award contracts. By the end of 
calendar year 2009, we awarded nearly 90 percent of the funding 
allocated for our FSRM and military construction projects. 
Additionally, with the funding we saved from competitively bid 
projects, we funded two additional military construction requirements--
a dormitory and a child development center collectively valued at $33.2 
million.

             CONTINUE TO STRENGTHEN THE NUCLEAR ENTERPRISE

    Since its inception, the Air Force has served as a proud and 
disciplined steward of a large portion of the Nation's nuclear arsenal. 
We steadfastly operate, maintain, and secure nuclear weapons to deter 
potential adversaries, and to assure our partners we are a reliable 
force providing global stability. The first Air Force priority during 
the last 2 years has been to reinvigorate the stewardship, 
accountability, compliance, and precision within the nuclear 
enterprise. We have made progress in this area and will continue our 
pursuit of the highest standards of performance.
    In addition to ensuring our organizations and human resource plans 
support this mission, we are also concentrating on the infrastructure 
and facilities crucial to our success. To support this work, during the 
past 18 months, Air Force civil engineers have conducted enterprise-
wide facility assessments to refine our investment plans, and we are 
now beginning to execute our long-term investment strategy. Our fiscal 
year 2011 budget request includes $22.8 million in military 
construction for the nuclear enterprise, including a weapons load crew 
training facility at Barksdale Air Force Base (AFB), Louisiana, and a 
nuclear security tactics training center at Camp Guernsey, Wyoming. 
These and similar projects in the years to come will further our goal 
of a self-sustaining culture of critical self-assessment, continuous 
improvement, and unwavering excellence.

     PARTNER WITH THE JOINT AND COALITION TEAM TO WIN TODAY'S FIGHT

    Our Air Force continues to bring air, space, and cyber power to 
great effect in our conflicts in Afghanistan and Iraq, and our men and 
women make incredible contributions daily. We currently have almost 
40,000 Airmen deployed, including nearly 3,500 Air Force civil 
engineers. Approximately 20 percent of these Air Force civil engineers 
are filling Joint Expeditionary Taskings, serving shoulder-to-shoulder 
with our Joint teammates. Due to their wide array of skills, our Air 
Force Rapid Engineer Deployable Heavy Operational and Repair Squadron 
Engineers (RED HORSE) and our Prime Base Engineer Emergency Force 
(Prime BEEF) personnel are in high demand in several theaters of 
operation. Additionally, we have more than 150 civil engineers who are 
supporting relief and recovery operations in Haiti.
    In addition to our Airmen's contributions, our fiscal year 2011 
budget request invests $449 million in 40 projects that directly 
contribute to today's fight. Examples include the following:
  --Projects supporting our combatant commanders, particularly in the 
        U.S. Central Command area of operations, that will greatly 
        enhance ongoing operations. These include a medical evacuation 
        ramp expansion, fire station, fighter hangar, and consolidated 
        rigging facility in support of enduring airdrop operations at 
        Bagram Air Base (AB), Afghanistan; and an apron expansion, 
        providing vital Afghan theater of operations with refueling 
        capability out of Isa AB, Bahrain. The Air Force goes through a 
        structured process to ensure that funds are not expended on 
        enduring construction when expeditionary or temporary 
        construction will suffice.
  --New operations, maintenance, and training facilities for our Air 
        Support Operations squadrons. Airmen from these units, 
        including Joint Terminal Attack Control specialists, partner 
        with ground forces to integrate airpower in Iraq and 
        Afghanistan. These Active and Air National Guard facilities, 
        located in close proximity to the Army units that they support 
        in both Continental United States and overseas, will further 
        increase our capacity to operate and integrate closely with our 
        Joint partners.
  --Improvements at Andersen AFB, Guam. Five projects continue to build 
        our Pacific Air Force Regional Training Center and support the 
        Air Force's ``Guam Strike'' initiative, consolidating 
        operational capability for fighter and bomber operations at the 
        base.
  --Remotely piloted aircraft beddown, operations, and maintenance 
        support infrastructure. Nine projects at various Active Duty 
        and Air National Guard locations that support this rapidly 
        growing field include an operations facility at Cannon AFB, New 
        Mexico; a fire/crash/rescue squadron at Creech AFB, Nevada; a 
        new launch and recovery element facility at Fort Huachuca, 
        Arizona; and MQ-9 infrastructure support at Fort Drum, New 
        York; and others.
  --Facility recapitalization efforts. These--our component and major 
        command commanders' ``current mission'' priorities--will, among 
        other things, provide a modern operations facility for the 
        National Capital Region's Joint Air Defense mission; give our 
        special operations Airmen at Hurlburt Field, Florida, a new 
        logistics facility and school; and provide Kunsan AB, Korea, 
        with a facility to house their new F-16 simulator, due to 
        arrive in 2012.

             DEVELOP AND CARE FOR AIRMEN AND THEIR FAMILIES

    The All-Volunteer Force provides the required foundation for our 
flexible and agile force. Our fiscal year 2011 budget request reflects 
a commitment to preserving and enhancing our force through education 
and training, while also improving the overall quality of life of 
Airmen and their families where they work, live, and play.
Developing our Airmen
    Our Airmen are the best in the world, and as such they deserve 
first-class facilities in which they can train and advance their 
personal and professional development. Our fiscal year 2011 budget 
request contains five projects totaling $163 million for this effort. 
These projects include a flagship Center for Character and Leadership 
Development at the Air Force Academy, which will provide our future 
officers with a facility invested with the stature that our Service 
Core Values demand. Also, renovation and expansion of Air University's 
Fairchild Research Information Center--the largest military library in 
the world--will preserve the historical perspective and current 
research that form the basis for future airpower and Air Force theory, 
doctrine, and strategy. Additionally, we are continuing to improve 
facilities that support our newest Airmen at Lackland AFB, Texas, by 
building a new recruit dormitory, classroom, and in-processing center. 
These projects continue to improve our Air Force basic military 
training and provide incoming Airmen with facilities that are 
commensurate with the commitment that they make to our Nation.
Caring for Our Airmen and Their Families
    Because our families are crucial to the success of our Air Force, 
the Secretary of the Air Force designated July 2009-July 2010 as the 
``Year of the Air Force Family,'' to focus on the contributions of the 
entire Air Force family--military, civilian, spouses, children, 
extended family, and retirees--and investigate ways to make their lives 
better. A large part of this is ensuring that our military have first-
class homes and dormitories. We also must make certain our base and 
community environments are safe and secure, and they foster a sense of 
community. Simply put, our goal is to provide an even safer and more 
supportive environment for our men and women and their families, 
especially during deployments and other extended absences.

            Billeting
    This project, totaling $62 million, will provide billeting for 
Airmen in our fiscal year 2011 military construction program. Of 
particular note is a third phase of billeting construction at Al Udeid 
AB, Qatar, which will continue our effort to provide Airmen supporting 
operations in the U.S. Central Command theater with a quality place to 
live while deployed far from their families. This project will build 
two billeting facilities.

            Dormitories
    We remain committed to providing excellent housing for our 
unaccompanied Airmen, and we continue to reference our 2008 Dormitory 
Master Plan to make this vision a reality. Our fiscal year 2011 budget 
request includes four dormitory projects totaling $71 million. These 
include dorms at Cannon AFB, New Mexico; Joint Base McGuire-Dix-
Lakehurst, New Jersey; Kapaun Annex, Germany; and Aviano AB, Italy. At 
Aviano, this single new dormitory will not only provide improved 
quality of life for Airmen, but also enable the Air Force to close an 
entire community support annex, which will yield savings in facility 
maintenance, energy, services, and security costs. Our 2010 Dormitory 
Master Plan, to be released later this year, will also address 
dormitories that we gain from Joint Basing.

            Military Family Housing
    Our fiscal year 2011 budget for military family housing is nearly 
$600 million. The Air Force request for housing construction investment 
is $78 million to ensure the continuous improvement of over 400 of our 
more than 16,100 overseas homes. Our request also includes an 
additional $514 million to fund operations, maintenance, utilities, and 
leases, and to manage privatized units for the family housing program.
    Housing privatization is central to the success of our stateside--
including Alaska and Hawaii--military family housing initiatives. At 
the start of fiscal year 2011, we will have 38,800 privatized units, to 
be increased to 52,900 by the end of fiscal year 2011. As of the end of 
fiscal year 2009, privatization has leveraged a $423 million investment 
to $6.54 billion in development. We plan to privatize 100 percent of 
our family housing, in the Continental United States, by fiscal year 
2011.

            Child Development Centers
    Due to the elevated operations tempo in the past 8 years of 
conflict, child care for our families that remain stateside has become 
an increasingly significant focus area. As part of the American 
Recovery and Restoration Act, we have been able to allocate $80 million 
for eight new child development centers, to help ensure that our force 
has adequate child care capacity. We have aggressively pursued 
solutions to eliminate an earlier capacity issue, and we are on course 
to reduce our child care deficit to zero by 2012.
  modernize our air and space inventories, organizations, and training
    Modernizing our force to prepare for a wide range of future 
contingencies requires a significant investment. For fiscal year 2011, 
we are requesting $460 million for a variety of military construction 
projects, including:
  --Eight projects to prepare to beddown our newest fighter, the F-35. 
        This includes four projects at Nellis AFB, Nevada, where we 
        will accomplish a large part of the operational test and 
        evaluation for this aircraft. As we continue to assess F-35 
        program restructuring, we are closely analyzing the impacts 
        that any delivery delays will have on associated military 
        construction requirements.
  --Seven projects supporting our H/MC-130 fleet. These projects will 
        emphasize the newer ``J'' models.
  --Six projects supporting F-22 operations. This effort will continue 
        to modernize our air superiority fleet, including three 
        projects at Hickam AFB, Hawaii, for the beddown of the Air 
        National Guard squadron there.
  --Other projects. These will support diverse mission areas, including 
        space control, C-5/C-17 maintenance, and base and airfield 
        operations.

                         OTHER PROGRAMS OF NOTE

Overseas Contingency Operations
    Our fiscal year 2011 Overseas Contingency Operations (OCO) request 
for military construction supports $280 million in projects for 
Afghanistan. This complements our fiscal year 2010 OCO request of $474 
million and our fiscal year 2010 OCO supplemental request of $279 
million to support the recently announced troop strength increase. The 
fiscal year 2011 OCO projects build upon and expand the operational 
capacity that was initially provided by the fiscal years 2009/2010 
requests. These first military construction requirements provided 
access to operational areas in the rugged, undeveloped regions of 
Afghanistan. Our subsequent requests will expand that initial 
capability by providing primary theater hubs in Afghanistan. As such, 
they will reduce safety risks, increase throughput capacity of cargo 
and personnel, and increase the effectiveness and efficiency of air 
operations. In addition to supporting current operations, logistical 
facilities are required to sustain operations through the transition to 
Afghan control and will facilitate the eventual redeployment of our 
forces. Each project will be of great value to the Joint team, and we 
are committed to executing them as effectively and efficiently as 
possible.

BRAC 2005 Implementation
    The Office of the Secretary of Defense codified BRAC 2005 
implementation requirements and responsibilities through the use of 
business plans, a process that allows synchronization across the entire 
Department of Defense. The Air Force leads 64 business plans and is an 
equity partner in an additional 16.
    To implement the assigned recommendations, the Air Force's plan 
calls for the execution of nearly 400 separate actions utilizing a 
total budget that has been, and remains, fully funded at approximately 
$3.8 billion; two-thirds of this budget is military construction. Our 
BRAC military construction program will make its last contract award 
before the close of this fiscal year. In total, we will execute 231 
BRAC military construction (BRAC MILCON) projects, on 54 installations, 
in 36 States. The remaining segment of the BRAC budget funds 
environmental efforts, military personnel costs, training, and 
operations and maintenance-funded elements.
BRAC 2005: The Air National Guard and Air Force Reserve
    Seventy-eight percent of BRAC 2005 implementation actions affect 
the Air Reserve components. This stands in contrast to BRAC 1995 where 
just eighteen percent of actions affected either the Air National Guard 
(ANG) or Air Force Reserve (AFR). Many of the BRAC 2005 actions 
realigned similar missions or aircraft models to increase the efficient 
use of manpower, resources, and maintenance budgets. Single mission 
tasks were combined into Centralized Intermediate Repair Facilities 
where ANG, AFR, and Active Duty personnel work side-by-side. The Air 
Force Reserve has effectively managed manpower resources and minimized 
adverse impacts on personnel at locations such as General Mitchell Air 
Reserve Station, Wisconsin. The relocated reserve unit from General 
Mitchell is now fully operational at Pope AFB, North Carolina. The Air 
National Guard has better positioned units to accept future missions in 
such vital tasks as Homeland Defense, is more effectively integrated 
with the Active Force in current front-line fighters, and will share 
opportunities to accept new weapons platforms.

BRAC 2005: Execution Report Card
    BRAC 2005 impacts more than 120 Air Force installations. Whether 
establishing the F-35 Joint Strike Fighter Initial Training Site at 
Eglin AFB, Florida, closing Kulis Air Guard Station in Alaska, or 
transferring Pope AFB, North Carolina, to the Army, the Air Force 
community as a whole--Active, Guard, and Reserve--benefits from changes 
BRAC achieves. Among the seven closure installations, two are already 
considered closed while the others are proceeding according to plan. 
The Air Force is fully engaged in executing our requirements, nearly a 
third of assigned business plans are now considered complete and the 
rest are on schedule to complete by September 2011, completing 
implementation of BRAC 2005 on time and within budget.

Legacy BRAC: Real Property Transformation
    The Air Force remains a Federal leader in the implementation of the 
management principles outlined in Presidential Executive Order 13327, 
Federal Real Property Asset Management. We continue to aggressively 
manage our real property assets to deliver maximum value for the 
taxpayer, improve the quality of life for our Airmen and their 
families, and ensure the protection and sustainment of the environment 
to provide the highest level of support to Air Force missions. The Air 
Force is achieving these goals through an enterprise-wide Asset 
Management transformation that seeks to optimize asset value and to 
balance performance, risk, and cost over the full asset life cycle. Our 
approach is fundamentally about enhancing our built and natural asset 
inventories and linking these inventories to our decision-making 
processes and the appropriate property acquisition, management and 
disposal tools.
    Even though the BRAC 2005 round did not substantially reduce the 
Air Force's real property footprint, our current transformation efforts 
seek to ``shrink from within'' and to leverage the value of real 
property assets in order to meet our ``20/20 by 2020'' goal of 
offsetting a 20 percent reduction in funds available for installation 
support activities by achieving efficiencies and reducing by 20 percent 
the Air Force physical plant that requires funds by the year 2020.

Base Realignment and Closure Property Management
    To date, the Air Force has successfully conveyed by deed nearly 90 
percent of the 87,000 acres of Air Force land directed by BRAC 88, 91, 
93, and 95 with the remainder under lease for redevelopment and reuse. 
With the successful redevelopment of Air Force BRAC property, local 
communities have been able to increase the number of area jobs by over 
31,000.
    To complete the clean up and transfer by deed of remaining 
property, the Air Force is partnering with industry leaders on 
innovative business practices for its ``way ahead'' strategy. Of the 32 
legacy BRAC bases slated for closure, the Air Force completed 20 whole-
base transfers. Eight of the remaining 12 bases are targeted for 
transfer by the end of fiscal year 2010, while the last 4 (Chanute, 
George, McClellan, Griffiss) will transfer no later than the end of 
fiscal year 2013.
    As the Air Force transfers BRAC property for civic and private 
reuse, it is paramount we ensure any past environmental contamination 
on the property does not endanger public health or the environment. The 
Air Force will continue to fulfill this most solemn responsibility, as 
reflected in our fiscal year 2010 request of $116 million for Legacy 
BRAC cleanup activities, and another $13 million for BRAC 2005 cleanup 
activities.

Joint Basing
    The Air Force remains committed to joint basing initiatives to 
maximize installation efficiency, warfighting capability, and 
jointness, all the while saving taxpayer resources. Of the 12 joint 
bases mandated by BRAC 2005, 10 have Air Force equity, and we are the 
lead Service on six. All told, our current efforts with joint basing 
are proceeding smoothly, with no major issues. Three of the phase I 
joint bases with Air Force equity have already reached full operating 
capability status, and seven more phase II bases with Air Force equity 
have reached initial operating capability status, with full operating 
capability expected by October 1, 2010.

Energy
    The Air Force understands the criticality of furthering energy 
security for the Nation, and we remain committed to realizing our 
energy goals of reducing demand, increasing supply, and changing our 
culture to make energy a consideration in everything we do. Energy 
conservation investment is a significant component of our newly 
released 2010 Air Force Infrastructure Energy Plan. In fiscal year 
2011, we will continue our energy conservation efforts, which have 
already reduced facility energy use 14.6 percent from our 2003 
baseline. The Defense military construction budget request of $120 
million contains $35 million for our Energy Conservation Investment 
Program, which will save--$124 million. In fiscal year 2009, we 
exceeded our goals and produced or procured 5.4 percent of our total 
facility energy through renewable sources, and we have led the Federal 
Government as the number one purchaser of renewable energy for the 
fifth year in a row. The 19 projects in the fiscal year 2011 Defense-
wide military construction budget, including six solar projects, will 
continue this trend.

                               CONCLUSION

    The Air Force is committed to the infrastructure projects that 
support our missions; we are also committed to ensuring we continue to 
care for our Airmen and their families, to include first-class 
dormitories and housing, and Airman and family support.
    We also remain committed to optimizing the utility of our resources 
through effective joint basing, completing BRAC actions, and continuing 
energy conservation efforts.
    Finally, the Air Force is committed to being good stewards of 
funding intended to ensure Air Force mission success.

    Senator Johnson. Thank you.
    Ms. Ferguson, what is the status of the Northern Group 
Housing Privatization Project especially with reference to 
Ellsworth Air Force Base?

                         NORTHERN GROUP HOUSING

    Ms. Ferguson. Senator Johnson, we are very close to being 
able to begin the process to put this on the street. We have 
one more meeting that has to occur. Once that occurs, our 
intent is to issue the required notice of intent for 
solicitation to the Hill. That needs to be over here for 30 
days, and then after that, we would anticipate issuing the 
request for qualifications. We are hopeful that we clear this 
last hurdle and be able to begin that within the next few 
weeks, and that will allow us to select an offeror as early as 
September, with a closure in June of next year.
    Senator Johnson. What are the options and what is the 
timeline if the Northern Group Privatization Project does not 
go forward?
    Ms. Ferguson. Sir, we would have to step back and look to 
see what other options were available. We have worked with your 
staff. We have six bases linked in the Northern Group, and what 
we have done is we have blended a mixture of healthy bases that 
have a significant investment in military construction, as well 
as other bases that still require investment. Overall, the Air 
Force invested about $600 million in those bases so far, but 
there is another $400 million that needs to be invested and we 
are hoping to leverage the private sector to do that. With an 
additional $5 million of investment from the Department of the 
Air Force, we are able to leverage $400 million from the 
private sector to get that work done. So we are very hopeful we 
will be able to move this project forward soon.

                        AIR FORCE RESERVE MILCON

    Senator Johnson. To Secretary Yonkers and General Commons: 
This year's budget request includes only one military 
construction project for the Air Force Reserve and the future 
years defense program does not look much better. This should be 
an embarrassment to the Air Force. While I acknowledge that 
there continue to be many demands and tight budgets, it would 
seem to me that this does not support the Air Force's 
commitment to the total Force.
    Secretary Yonkers, are you comfortable that this level of 
funding, $3.8 million for one project, is adequate for the Air 
Force Reserve?
    Mr. Yonkers. Thanks for your comments, Senator.
    I think the short answer is we are not comfortable, but we 
had to make some really difficult decisions in fiscal year 2011 
to try to balance amongst all the competing interests and 
programs in the Air Force.
    As I mentioned in my opening remarks, each one of the major 
commands, the Air Guard and the Air Force Reserve, got their 
number one priority project this year. Had we looked back and 
circled back in the deliberations this last year, we would have 
found, I think, a more equitable distribution of our military 
construction dollars to particularly the Air Force Reserve. We 
will look at that much more closely in this upcoming budget 
review to make sure that occurs and they get a more equitable 
distribution of those dollars.
    I would also say that even though the military construction 
program is small and it is not as robust as we would like to 
see it, we are augmenting it through the facilities sustainment 
modernization program. Those dollars are fairly hefty, and so 
our idea here as we go forward is to utilize those dollars to 
sustain those particularly aging infrastructure until such time 
as we can get robust in our military construction program.
    Senator Johnson. General Commons, would you like to comment 
on the Air Force Reserve request?
    General Commons. Thank you, Mr. Chairman.
    In the budget formulation for fiscal year 2011, as 
Secretary Yonkers mentioned, the Air Force decided to take 
increased risk in current mission, and as a result of that, 
they made a determination that every major command would be 
awarded their top priority in current mission, which for the 
Air Force Reserve was the Patrick Air Force Base project.
    Also, we had no new mission requirements, which was funded. 
They did not take as much risk in new mission. I think that led 
to some of the disparity, but funding just one of our projects 
per year will not address the $1.2 billion backlog we now have 
in the Air Force Reserve on current mission requirements, which 
directly impacts our readiness and our quality of life in the 
Reserve Command.
    I would also like to add, though, and thank this 
subcommittee from last year for the plus-up in the $120 million 
that was given to the Air Force Reserve in military 
construction which made fiscal year 2010 one of our most 
successful years in military construction. And I would like to 
thank the subcommittee for that.

                  ENERGY EFFICIENCIES WITHIN AIR FORCE

    Senator Johnson. Secretary Yonkers, I understand that the 
Air Force has a net zero energy effort underway at the Air 
Force Academy. Could you explain that effort and whether the 
Air Force has any plans to employ that model at other bases?
    Mr. Yonkers. I will try to answer that question, sir. I was 
not really prepared to.
    Across the Air Force, Net Zero is one of the objectives 
that we have with regard to achieving these kinds of energy-
related, as well as greenhouse gas-related, potential impacts, 
depending upon what energy source you use. So the Air Force 
Academy is out in front with regard to that effort, and 
certainly those lessons learned will be applied to other air 
bases in the future. My intent is to meet exactly what the 
President has asked us to meet, both President Bush, during his 
administration, and President Obama during this administration, 
with regard to hitting those kinds of carbon sequestration and 
carbon balance topics or objectives, while at the same time, 
aggressively pursue renewable energy at our installations.
    Senator Johnson. I will ask you the same question I asked 
the Army. Could you provide the subcommittee with a list of 
potential ECIP projects that could be executed in fiscal year 
2011?
    Mr. Yonkers. Yes, sir, we would be happy to do that.
    [The information follows:]

    The following are the potential unfunded ECIP projects for the Air 
Force:

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                      Installation/                                                 Programmed
              MAJCOM                     activity              State         Project description      amount
----------------------------------------------------------------------------------------------------------------
USAFE............................  Ramstein...........  GE.................  Install                        $765
                                                                              Photovoltaic
                                                                              System.
USAFE............................  Ramstein...........  GE.................  Install                         719
                                                                              Photovoltaic
                                                                              System.
USAFE............................  Ramstein...........  GE.................  Install                         520
                                                                              Photovoltaic
                                                                              System.
USAFE............................  Ramstein...........  GE.................  Install                         494
                                                                              Photovoltaic
                                                                              System.
ANG..............................  Atlantic City......  NJ.................  Photovoltaic                  3,700
                                                                              Generation System.
AMC..............................  McGuire............  NJ.................  (MEBI) Install                1,519
                                                                              Solar Panels at
                                                                              Fitness Center.
USAFE............................  Lajes Field........  PO.................  Replace & Upgrade             1,110
                                                                              Water SCADA & EMCS.
USAFE............................  Lajes Field........  PO.................  Repair Water                    600
                                                                              Service Lines,
                                                                              Multi.
USAFE............................  Moron..............  SP.................  Install Non Potable           1,200
                                                                              Water System.
ACC..............................  Eglin..............  FL.................  Leak Detection &                750
                                                                              Repair.
AETC.............................  Tyndall............  FL.................  Reclaimed Water               3,255
                                                                              Irrigation.
AFSC.............................  Thule..............  GR.................  EMCS...............           4,500
PACAF............................  Elmendorf..........  AK.................  HVAC Retro                    2,830
                                                                              commission Ph-1.
ACC..............................  Eglin..............  FL.................  DDC Energy Mgnt               6,724
                                                                              System Upgrade.
AFMC.............................  Hanscom............  MA.................  Repair Chiller                1,950
                                                                              Controls B1201.
ACC..............................  Grand Forks........  ND.................  Replace Interior              1,316
                                                                              Lighting.
AETC.............................  Randolph...........  TX.................  Cns Chiller/TES               1,200
                                                                              Plant.
AFMC.............................  Arnold.............  TN.................  Test Area Energy                821
                                                                              Improvements.
ACC..............................  Mountain Home......  ID.................  Repair Infrared               1,180
                                                                              Heaters, Multi
                                                                              facilities.
AETC.............................  Randolph...........  TX.................  B395 Thermal Energy           1,527
                                                                              Storage (TES).
AETC.............................  Lackland...........  TX.................  Construct a Chiller/          2,800
                                                                              TES Plant.
AETC.............................  Lackland...........  TX.................  Install Thermal               1,110
                                                                              Storage Energy
                                                                              Tank B7429.
AFMC.............................  Kirtland...........  NM.................  ECIP Solar-LED                1,850
                                                                              Retrofits for
                                                                              Street, Parking &
                                                                              Runway Lights.
AMC..............................  McGuire............  NJ.................  (MEBI) Install                1,519
                                                                              Solar Panels @
                                                                              Fitness Center.
AMC..............................  McGuire............  NJ.................  Install Solar Wall            1,150
                                                                              Bldgs 3210/3211/
                                                                              3101.
AFSPC............................  Los Angeles........  CA.................  ECIP--Photo Voltaic           1,082
                                                                              System, B/286,
                                                                              Fitness Center
                                                                              Roof.
AFSPC............................  Los Angeles........  CA.................  Solar Roof System,            1,050
                                                                              B/271, LAAFB.
AFSPC............................  Los Angeles........  CA.................  Solar Roof System,            1,050
                                                                              B/270, LAAFB.
AFSPC............................  Los Angeles........  CA.................  Solar Roof System,            1,442
                                                                              B/272, LAAFB.
AFSPC............................  Los Angeles........  CA.................  ECIP--Photo Voltaic           1,347
                                                                              Parking Canopy,
                                                                              South, LAAFB.
AFSPC............................  Los Angeles........  CA.................  ECIP--Photo Voltaic           2,191
                                                                              Parking Canopy,
                                                                              West, LAAFB.
AFSPC............................  F.E. Warren........  WY.................  Decentralize Base            14,008
                                                                              Central Heat Plant.
AFMC.............................  Hill Air Force       UT.................  ECIP--Conv & RPR              2,365
                                    Base.                                     1700 Area Bldgs &
                                                                              Dist Sys To
                                                                              Natural Gas.
AFSPC............................  Cape Cod Air Force   MA.................  Install Two Wind             13,000
                                    Station.                                  Turbines/Support
                                                                              System.
----------------------------------------------------------------------------------------------------------------

    Senator Johnson. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                              MAINE MILCON

    General Moisio, as I was preparing for this hearing, I 
noted that the fiscal year 2011 budget proposal contains 
requests from the Air National Guard for funding for two 
military construction projects that include two new SCIFs, the 
secure facilities, at a cost of $9.6 million to the taxpayers.
    Ms. Ferguson, I also noted that the Air Force has proposed 
spending more than $221 million on six military construction 
projects that include six new SCIFs.
    At the Air National Guard base in Bangor, Maine, there is a 
28,000 square foot facility that meets all the requirements to 
be a SCIF, but the Air Force will not certify the facility as a 
SCIF until a mission is identified for that building.
    My question, however, is did the Air National Guard review 
current assets, including this facility in Maine, before 
proposing the funding to build brand new additional secure 
facilities?
    General Moisio. Thank you, Senator Collins.
    Yes. We, of course, keep track of all of our $14 billion 
worth of plant value across the Nation and consider it all in 
new mission lay-down. The important thing to understand about 
the new mission lay-down that we are in right now--much of it 
is a result of BRAC. Much of it as a result of other changing 
missions, drawdown in Force structure, and so on, which has not 
affected the 101st, as you know, up in Bangor. They have a 
good, stable tanker mission and will continue to have that 
mission for a long time.
    As time goes on, ma'am, when we continue to have to lay 
down across the Air Force missions that require classified 
facilities--also communication infrastructure is becoming a 
very important aspect--we do consider the existing facilities 
and the existing communication infrastructure when we go 
through our basing actions, as Ms. Ferguson, who runs that 
program, can attest. So it is a factor, ma'am.
    Senator Collins. Secretary Ferguson, was that facility 
considered as the Air Force was putting together its request 
for six additional secure areas?
    Ms. Ferguson. I will have to go back and look at those 
particular six projects, but as General Moisio points out, 
under the new Air Force strategic basing process, that is one 
of the things we consider as we beddown new missions across the 
Air Force.
    Senator Collins. I would encourage both of you to take a 
look at that facility because if it does meet your needs, we 
should use current assets and save some money in this very 
tight budget environment. And I know that you share that 
concern as well.
    [The information follows:]

    After significant reductions in requirements due to the end of the 
cold war, the Air National Guard has reused the majority of the SCIF 
facility. Of the 34,000 square feet, only 6,100 square feet remain 
vacant. Each of the military construction projects with SCIF 
requirements is associated with an existing mission and are already 
established at their current installations. For these current mission 
military construction projects, the benefit of reutilizing an existing 
SCIF at Bangor, Maine is out-weighed by the high cost associated with 
moving the missions to another installation. However, as we previously 
discussed, under the new Air Force strategic basing process, Bangor, 
Maine will be considered as we beddown new missions across the Air 
Force in the future.

    Senator Collins. General, it sounds like you are very aware 
of the role that the air refueling wing of the Air National 
Guard in Maine has been playing in maintaining our air bridge 
to support our warfighters in Iraq and Afghanistan. The last 
time I visited the base, I was told that they actually offload 
more fuel than any other unit on the entire east coast, 
including Active Duty units with the exception of MacDill Air 
Force Base in Florida. So they are playing an absolutely 
essential role. Indeed, if you look just at Guard units, they 
offload more fuel to military aircraft than any other Guard 
unit in the country.
    As you begin the process of deciding where to place the KC-
X aircraft, the tanker that we desperately need to proceed 
with, will one of the primary considerations for basing include 
which aircraft in the inventory are most frequently relied upon 
to support wartime efforts? General?
    General Moisio. Senator Collins, your support of the 101st 
is admirable, as is the case across the Nation with our Guard 
units. It is one thing that makes the job that I have so great, 
is to hear the pride of Senators and Congressmen regarding 
their Guard units.
    It is a true statement that the 101st is tops on the east 
coast in offload. It makes sense, closest to the air bridge 
across the Atlantic. So a very, very strategic point for us to 
have a tanker unit in the Air National Guard, and there is, I 
would hope, little doubt in my mind that that would continue 
for a long, long time.
    In terms of competing for KC-X, I believe that the 
Northeast Tanker Task Force will undoubtedly be involved in 
some way in the initial beddown of KC-X. We will go through the 
normal basing process, and in my mind, the most important 
attribute of the 101st that will show up in the basing process 
is its location and the fact of the Northeast Tanker Task 
Force. So the competition will be fair. It will be transparent, 
and I know that the 101st in Bangor will compete.
    Senator Collins. Thank you. Thank you, Mr. Chairman. Thank 
you all.
    Senator Johnson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

               ENERGY EFFICIENCY AT ALASKA INSTALLATIONS

    Secretary Yonkers, I understand that you are in the process 
now of preparing a paper for me at my request on the future of 
the Polar Star Housing. This is the privatized housing in 
Eielson. I will look forward to receiving that paper and the 
opportunity for future dialogue on that. We would like to see, 
of course, positive resolution of this, but I understand that 
that is something that you are working to produce for me. So I 
will look forward to that. And I do not know. It looks like 
you, Secretary Ferguson, will be the one that will be working 
on it.
    Mr. Yonkers. Actually she is the one that works these types 
of military family housing privatization issues, and I would be 
completely lost without her, as you probably know.
    I mean, there is much more to come, and we will be more 
than happy to not only provide the paper but respond to any 
questions, concerns, Madam, that you have.
    Senator Murkowski. I appreciate that.
    Let me ask you. You have mentioned the impact of energy 
usage and what we do to deal with our high energy costs. 
Congress had appropriated some substantial funding for the Air 
Force to consider locating a coal-to-liquids plant on or near 
Eielson to take advantage of the coal reserves that we have in 
interior Alaska and offer the Air Force an alternative source 
of jet fuel.
    We have, of course, heard that the concept of coal-to-
liquids, which was really quite popular in the last 
administration, has now kind of gone out of vogue within this 
administration, even if we can address the carbon capture 
issues.
    The question to you this morning is whether the Air Force 
intends to pursue a coal-to-liquids plant at Eielson and what 
is the timeline then for any decision-making in this order.
    Mr. Yonkers. Ma'am, thank you for your question, and I know 
you are personally very interested in this and your 
observations are right on target with regard to coal-to-liquid.
    You know very well, I am sure, that the earmarks that we 
received are being utilized for the purposes under which they 
were intended to look at the feasibility and financial 
viability of a coal-to-liquids facility at or near Eielson. We 
are already in the process, as you probably know as well, of 
looking at the business case analysis particularly to see if an 
enhanced use lease would be appropriate for such activities and 
be financially viable for such activities.
    In conjunction with that, the civil engineering squadron 
there is looking at the mission impacts and the environmental 
impact analysis to pull that information together.
    And then the Air Force research labs down at Wright 
Patterson are considering things such as carbon sequestration 
and how that will play amongst the energy alternatives as we 
look at the broad scope of whether or not coal-to-liquid is 
really a viable option there at Eielson.
    Once we get the information from those reports back and we 
can massage that a bit, and if we do, in fact, find that it is 
a viable alternative, our intent is to get with the Department 
of Defense, along with, we hope, prospective developers, 
companies that would be interested in implementing this, and 
see where we go from there.
    Senator Murkowski. Well, we would like to work with you on 
this. Obviously, the cost of energy is a key issue up there, 
but even more so, the opportunity to provide the Air Force with 
a fuel source that could be ready and affordable is something 
that we all want to focus on.
    Mr. Yonkers. Yes, ma'am.

                         NEW TANKERS IN ALASKA

    Senator Murkowski. General, let me ask you. You spoke about 
the possibility of the KC-X for the 101st there in Maine. Does 
the same possibly apply to the 168th Wing at Eielson which has 
the significant responsibility for fueling in the Pacific?
    General Moisio. Absolutely, ma'am. I really should let Ms. 
Ferguson address the overall process, but hopefully you all are 
aware of the process that the Air Force has adopted over the 
last year to base new systems. But the process is open, 
transparent, repeatable, and when we are bedding down a system 
such as F-35s, such as KC-X soon, we look enterprise-wide at 
Air Force bases and grade them on a set of criteria that are 
developed by the gaining major command. And I am convinced that 
it is a very fair process.
    Senator Murkowski. One final question, and this is your 
soft ball for the morning and gives you a chance to do a little 
bit of bragging. In just a few weeks here, the Elmendorf Air 
Force Base is slated to receive the Commander-in-Chief Award 
from the Secretary of Defense. This is a pretty big deal. We 
certainly feel so. As one who represented Elmendorf in our 
State legislature, it is even more a particular point of pride. 
But it really means that Elmendorf is truly the best of the 
best in the Air Force.
    So the question to you this morning, Secretary, is what did 
Elmendorf do to achieve this distinction, and how will the Air 
Force celebrate Elmendorf's accomplishments?
    Mr. Yonkers. Well, you know, I will go back to some of the 
previous conversations with the pride and enthusiasm that you 
all bring to the table with regard to those air bases that are 
in your State. It is really gratifying to me as sort of a 
retread coming back into the Air Force just recently to see 
this. I mean, this was one of the things that I really missed 
when I left 8 years ago.
    It is a big deal. It is truly a big deal for Elmendorf to 
be able to go through a rigorous competition amongst every air 
base that we have in the 50 States and all those major 
commands. There are 166 air bases that Elmendorf was in the mix 
with. And as you say, Senator, Elmendorf came out on top.
    There is going to be at least one, if not several award 
assemblies that are going to recognize that accomplishment. 
When those folks from Elmendorf stand up in front of the 
Secretary and the Chief and receive that award, I think it is 
going to be a great day and there is going to be just a lot of 
fun and enthusiasm and pride from the people down at the 
installation level that made that happen.
    Senator Murkowski. We look forward to recognizing their 
accomplishments because they are significant. They are 
receiving the Commander in Chief Award, but this has been a 
pretty good year for them. They have received a whole handful 
of national recognitions, and we are really quite proud, as we 
are of all our men and women in uniform, but there are 
significant accomplishments that we want to celebrate. So thank 
you.
    Thank you, Mr. Chairman.
    Mr. Yonkers. Thank you, ma'am.
    Senator Johnson. Thank you.
    I would like to thank all of our witnesses for appearing 
before the subcommittee today. We look forward to working with 
you this year.
    For the information of members, questions for the record 
should be submitted by the close of business on April 29.

                         CONCLUSION OF HEARINGS

    Senator Johnson. This hearing is recessed.
    [Whereupon, at 11:06 a.m., Thursday, April 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Baker, Roger W., Assistant Secretary for Information and 
  Technology, Department of Veterans Affairs.....................    59
Boozer, Brigadier General James C., Sr., Director of Operations, 
  Office of the Assistant Chief of Staff (Installation 
  Management), Department of the Army, Department of Defense.....   109
    Prepared Statement of........................................   113
    Questions Submitted to.......................................   132
Byrd, Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by.........................................    92

Calcara, Joseph F., Deputy Assistant, Secretary of the Army 
  (Installations and Housing), Department of the Army, Department 
  of Defense.....................................................   109
    Prepared Statement of........................................   113
    Questions Submitted to.......................................   130
Carpenter, Major General Raymond W., Acting Director, Army 
  National Guard, Department of the Army, Department of Defense..   109
    Prepared Statement of........................................   113
Collins, Senator Susan, U.S. Senator From Maine, Questions 
  Submitted by..................................................32, 107
Commons, Major General David L., Mobilization Assistant to the 
  Chief, Air Force Reserve, Department of the Air Force, 
  Department of Defense..........................................   135

Ferguson, Kathleen I., Deputy Assistant Secretary 
  (Installations), Department of the Air Force, Department of 
  Defense........................................................   135

Grams, W. Todd, Acting Assistant Secretary for Management and 
  Chief Financial Officer, Department of Veterans Affairs........    59

Hale, Hon. Robert F., Under Secretary of Defense (Comptroller), 
  Department of Defense..........................................     1
    Prepared Statement of........................................     5
    Questions Submitted to.......................................    30
    Summary Statement of.........................................     4
Hansen, Louis Jerome, Deputy Assistant Secretary of the Army 
  (Strategic Infrastructure) and Senior Official Performing 
  Duties of Assistant Secretary of the Army (Installations and 
  Environment), Department of the Army, Department of Defense....   109
    Prepared Statement of........................................   113
    Questions Submitted to.......................................   129
    Summary Statement of.........................................   111
Hutchison, Senator Kay Bailey, U.S. Senator From Texas:
    Prepared Statements of......................................61, 110
    Questions Submitted by..................................30, 34, 100
    Statements of................................................ 2, 60

Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................    89

Johnson, Senator Tim, U.S. Senator From South Dakota:
    Opening Statements of....................................1, 59, 109
    Questions Submitted by.....................52, 55, 56, 88, 129, 130

Landrieu, Senator Mary L., U.S. Senator From Louisiana, Questions 
  Submitted by........................................91, 130, 131, 132

McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by..................................................33, 103
Mitchell, Derek, Principal Deputy Assistant Secretary for Asian 
  and Pacific Security Affairs, Office of the Secretary, 
  Department of Defense..........................................     1
    Questions Submitted by.......................................    34
Moisio, Major General Patrick J., Deputy Director, Air National 
  Guard, Department of the Air Force, Department of Defense......   135
Mossey, Rear Admiral Christopher J., Director of Shore Readiness, 
  Department of the Navy, Department of Defense..................    35
    Prepared Statement of........................................    36
    Question Submitted to........................................    56
Muro, Steve L., Acting Under Secretary for Memorial Affairs, 
  National Cemetery Administration, Department of Veterans 
  Affairs........................................................    59
Murray, Senator Patty, U.S. Senator From Washington, Questions 
  Submitted by...................................................    96

Natsuhara, Hon. Roger M., Acting Assistant Secretary 
  (Installations and Environment), Department of the Navy, 
  Department of Defense..........................................    35
    Prepared Statement of........................................    36
    Questions Submitted to.......................................    52
    Summary Statement............................................    35

Payne, Major General Eugene G., Jr., Assistant Deputy Commandant 
  (Installations and Logistics), Department of the Navy, 
  Department of Defense..........................................    35
    Prepared Statement of........................................    36
    Questions Submitted to.......................................    55
Petzel, Hon. Robert A., M.D., Under Secretary for Health, 
  Veterans Health Administration, Department of Veterans Affairs.    59

Reed, Senator Jack, U.S. Senator From Rhode Island, Questions 
  Submitted by...................................................    53
Robyn, Dorothy, Deputy Under Secretary of Defense (Installations 
  and Environment), Office of the Secretary, Department of 
  Defense........................................................     1
    Prepared Statement of........................................     8
    Questions Submitted to.......................................    33
    Summary Statement of.........................................     7

Shinseki, Hon. Eric K., Secretary, Department of Veterans Affairs    59
    Prepared Statement of........................................    65
Snyder, James, Assistant Chief, Army Reserve, Department of the 
  Army, Department of Defense....................................   109
    Prepared Statement of........................................   113

Walcoff, Michael, Acting Under Secretary for Benefits, Veterans 
  Benefits Administration, Department of Veterans Affairs........    59

Yonkers, Hon. Terry A., Assistant Secretary (Installations, 
  Environment and Logistics), Department of the Air Force, 
  Department of Defense..........................................   135
    Prepared Statement of........................................   137


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                                                                   Page

Air Force Reserve Milcon.........................................   143
Continue to Strengthen the Nuclear Enterprise....................   138
Develop and Care for Airmen and Their Families...................   139
Energy Efficiencies Within Air Force.............................   144
Energy Efficiency at Alaska Installations........................   147
Maine Milcon.....................................................   145
Modernize Our Air and Space Inventories, Organizations, and 
  Training.......................................................   140
New Tankers in Alaska............................................   148
Northern Group Housing...........................................   142
Other Programs of Note...........................................   140
Partner With the Joint and Coalition Team to Win Today's Fight...   138

                         Department of the Army

Additional Committee Questions...................................   129
Alaska Milcon....................................................   126
Army:
    Family Housing:
        Construction.............................................   117
        Operations...............................................   118
    Imperatives and Facility Initiatives.........................   114
    National Guard...............................................   125
        And Army Reserve.........................................   111
Barracks Privatization....................................130, 131, 132
Budget Realignment and Closure (BRAC):
    Property Conveyance..........................................   122
    95...........................................................   118
    2005.........................................................   118
Energy:
    Conservation Investment Program..............................   130
    Efficiency Improvement.......................................   129
    Security...................................................120, 129
Facilities Strategic Context.....................................   114
Fiscal Year 2011:
    Budget Request...............................................   115
    Milcon Overview..............................................   115
Global Defense Posture...........................................   110
Homeowners Assistance Program (HAP).......................119, 120, 130
Military:
    Construction (Milcon):
        Army.....................................................   115
            Reserve..............................................   117
        National Guard...........................................   116
    Housing Privatization........................................   128
Overseas Contingency Operations..................................   119
Pine Bluff Arsenal...............................................   124
Quadrennial Defense Review (QDR).................................   110

                         Department of the Navy

Additional Committee Questions...................................    52
Base Realignment and Closure (BRAC)..............................    36
    2005 Implementation..........................................    48
Energy...........................................................36, 52
    Reform.......................................................    41
Facilities Management............................................    40
Family Housing...................................................36, 42
Fully Funded and Incrementally Funded Milcon Projects............    39
Guam.........................................................35, 51, 53
Housing..........................................................    42
Installations....................................................    35
Meeting the Construction Execution Challenge.....................    50
Military Construction............................................    38
Prior BRAC Cleanup and Property Disposal.........................    46
Relocating the Marines to Guam...................................    44
The Navy's Investment in Facilities..............................    36

                   Office of the Secretary of Defense

Additional Committee Questions...................................    29
American Recovery and Reinvestment Act...........................     7
Base:
    Budget.......................................................     5
    Realignment and Closure (BRAC)...............................    11
Closure of NAS Brunswick.........................................    18
Economic Development Conveyance..................................    18
Facilities Sustainment and Recapitalization......................    14
Family Housing and Barracks......................................    12
Guam.............................................................26, 28
Homeowners Assistance Program....................................    13
Housing at Fort Wainwright.......................................    21
Improvements to Guam Port........................................    23
International Basing.............................................    10
Little Rock Air Force Base.......................................    21
Managing Our Energy Use..........................................    15
Military Construction............................................     9
    And Family Housing...........................................     6
    BRAC and Family Housing......................................     9
Moving:
    Marines to Guam..............................................    28
    Prisoners From Guantanamo Bay................................    29
Office of Economic Adjustment....................................    19
Overseas:
    Basing Commission............................................    23
    Contingency Operations....................................... 6, 10
Undocumented Workers at Elmendorf Air Force Base.................    22

                     DEPARTMENT OF VETERANS AFFAIRS

Additional Committee Questions...................................    88
Advance Appropriations for Medical Care in 2012..................    69
Capital Infrastructure...........................................    71
Claims Backlog...................................................    72
Delivering World-Class Medical Care..............................    68
Electronic Health Record.........................................    85
Enhancing Our Management Infrastructure..........................    71
Fort Bliss Joint Facilities......................................    75
G.I. Bill........................................................    83
High Priority Performance Goals (HPPG):
    I: Reducing the Claims Backlog...............................    65
    II: Eliminating Veteran Homelessness.........................    66
    III: Automating the GI Bill Benefits System..................    67
    IV: Establishing a Virtual Lifetime Electronic Record........    67
    V: Improving Mental Health Care..............................    67
    VI: Deploying a Veterans Relationship Management System......    68
Investments in Medical Research..................................    70
Joint Ventures...................................................    86
Leveraging Information Technology................................    70
Omaha VAMC.......................................................    76
Presumptive Diseases.............................................    74
Rural Access.....................................................77, 83
Sustaining High Quality Burial and Memorial Programs.............    70
Veteran Suicides.................................................    81
Veterans:
    Cemetery.....................................................    77
    Veterans Employment..........................................    79

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
